<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2009 
_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________

    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES

                ALAN B. MOLLOHAN, West Virginia, Chairman

 PATRICK J. KENNEDY, Rhode Island       RODNEY P. FRELINGHUYSEN, New Jersey
 CHAKA FATTAH, Pennsylvania             JOHN ABNEY CULBERSON, Texas
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland HAROLD ROGERS, Kentucky
 ADAM SCHIFF, California                TOM LATHAM, Iowa
 MICHAEL HONDA, California              ROBERT B. ADERHOLT, Alabama
 ROSA L. DeLAURO, Connecticut
 DAVID E. PRICE, North Carolina     
                                    
                                    
 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
             John Blazey, Marjorie Duske, Adrienne Simonson,
                   Tracey LaTurner, and Diana Simpson
                           Subcommittee Staff
                                ________
                                
                                 PART 7
                                                                   Page
 National Aeronautics and Space Administration....................1, 43
 Office of Science and Technology Policy..........................  311
 National Science Board / National Science Foundation.............  455
 Equal Employment Opportunity Commission..........................  635
 Legal Services Corporation.......................................  727
 International Trade Commission...................................  781
 Office of United States Trade Representative.....................  829

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                ________
                                
         Printed for the use of the Committee on Appropriations
                               ________
                                
                     U.S. GOVERNMENT PRINTING OFFICE
 42-708                     WASHINGTON : 2008                    
















































                   COMMITTEE ON APPROPRIATIONS                    

                     DAVID R. OBEY, Wisconsin, Chairman      

JOHN P. MURTHA, Pennsylvania           JERRY LEWIS, California
NORMAN D. DICKS, Washington            C. W. BILL YOUNG, Florida
ALAN B. MOLLOHAN, West Virginia        RALPH REGULA, Ohio
MARCY KAPTUR, Ohio                     HAROLD ROGERS, Kentucky
PETER J. VISCLOSKY, Indiana            FRANK R. WOLF, Virginia   
NITA M. LOWEY, New York                JAMES T. WALSH, New York     
JOSE E. SERRANO, New York              DAVID L. HOBSON, Ohio 
ROSA L. DeLAURO, Connecticut           JOE KNOLLENBERG, Michigan    
JAMES P. MORAN, Virginia               JACK KINGSTON, Georgia 
JOHN W. OLVER, Massachusetts           RODNEY P. FRELINGHUYSEN, New Jersey        
ED PASTOR, Arizona                     TODD TIAHRT, Kansas   
DAVID E. PRICE, North Carolina         ZACH WAMP, Tennessee            
CHET EDWARDS, Texas                    TOM LATHAM, Iowa
ROBERT E. ``BUD'' CRAMER, Jr., Alabama ROBERT B. ADERHOLT, Alabama        
PATRICK J. KENNEDY, Rhode Island       JO ANN EMERSON, Missouri       
MAURICE D. HINCHEY, New York           KAY GRANGER, Texas      
LUCILLE ROYBAL-ALLARD, California      JOHN E. PETERSON, Pennsylvania           
SAM FARR, California                   VIRGIL H. GOODE, Jr., Virginia             
JESSE L. JACKSON, Jr., Illinois        RAY LaHOOD, Illinois                   
CAROLYN C. KILPATRICK, Michigan        DAVE WELDON, Florida      
ALLEN BOYD, Florida                    MICHAEL K. SIMPSON, Idaho
CHAKA FATTAH, Pennsylvania             JOHN ABNEY CULBERSON, Texas        
STEVEN R. ROTHMAN, New Jersey          MARK STEVEN KIRK, Illinois       
SANFORD D. BISHOP, Jr., Georgia        ANDER CRENSHAW, Florida            
MARION BERRY, Arkansas                 DENNIS R. REHBERG, Montana 
BARBARA LEE, California                JOHN R. CARTER, Texas       
TOM UDALL, New Mexico                  RODNEY ALEXANDER, Louisiana        
ADAM SCHIFF, California                KEN CALVERT, California    
MICHAEL HONDA, California              JO BONNER, Alabama       
BETTY McCOLLUM, Minnesota
STEVE ISRAEL, New York
TIM RYAN, Ohio
C.A. ``DUTCH'' RUPPERSBERGER, Maryland
BEN CHANDLER, Kentucky
DEBBIE WASSERMAN SCHULTZ, Florida
CIRO RODRIGUEZ, Texas              
                                     
                      Rob Nabors, Clerk and Staff Director  
                 
                                    (ii)             
 

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2009

                              ----------                              

                                          Wednesday, March 5, 2008.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                                WITNESS

MICHAEL D. GRIFFIN, NASA ADMINISTRATOR

                       Chairman's Opening Remarks

    Mr. Mollohan. Good afternoon, Dr. Griffin, and welcome 
before the Commerce, Justice, Science and Related Agencies 
Appropriations Subcommittee this afternoon to discuss the 
budget request for the National Aeronautics and Space 
Administration for fiscal year 2009.
    As you know, there is a great deal of congressional 
interest in the portfolio of programs and activities that you 
oversee. So while I welcome you here this afternoon, the 
Committee looks forward to having you back again for a full day 
tomorrow.
    In less than a year, this nation will have a new President 
and whether he or she is Republican or Democrat, that new 
President and we, the Congress, must develop a consensus on 
what NASA should be doing and identify the level of resources 
that we are prepared to commit to NASA.
    Regrettably, since the enactment of the NASA Authorization 
Act of 2005, which established such a consensus and identified 
that resources need to meet that vision, funding recommended by 
this Administration has been too lean to meet that vision.
    When coupled with other costs that NASA has had to absorb 
since 2005, such as the space shuttle's return to flight and 
the Hubble servicing mission, today's mismatch between NASA's 
tasks and responsibilities and its resources continue to grow.
    The budget and its five-year rollout contain annual 
increases, barely, if at all, that keep pace with inflation. 
And even the budget from which these inflationary increases are 
calculated is thin in many areas.
    For example, the budget contains no money for shuttle 
retirement and transition costs past 2010 despite assurances 
that these costs would be included in each of the last two 
budgets, leading one to conclude that other NASA programs will 
have to continue to absorb these costs.
    The budget contains no funding for replacing the aging deep 
space network for which development costs are in excess of $8 
billion over the next 20 years and is vital to support the very 
space missions that we fund today and will be in orbit just 
over the budgetary horizon.
    The budget recognizes the gap in U.S. human access to space 
once the shuttle is retired in 2010, but does little to address 
it. The budget continues the perennial dance with Congress by 
cutting aeronautics research and development again this year by 
25 percent.
    While the budget initiates new Earth science missions 
consistent with direction by this Committee and recommended by 
the National Academies in their recent survey, it fails to 
provide new resources for them. It simply shifts money within 
the overall science program. Science eats its own.
    The budget shorts the international Space Station's 
utilization and operations needs and erodes the very research 
used to justify the Space Station itself.
    The budget reduces funds for education programs by over 20 
percent, undermining the National Academies report that 
proposed broad recommendations to enhance K through 12 science 
and mathematics education and investment in STEM activities.
    While these shortfalls are not insignificant, and I am 
particularly concerned that the funds necessary to address the 
budget's inadequacies may not materialize in this continuing 
protracted budget stalemate with this President, I am concerned 
that it is becoming nearly impossible to maintain an overall 
balanced portfolio in NASA in this budgetary climate. And I 
know that perhaps you agree with me in this regard.
    And though your budget request for this year is $17.6 
billion, which is a lot of money in any earthly world, you are 
cash strapped. The budget has been characterized as staying the 
course. It does not seem adequate anymore.
    I know, too, that we do not have to convince you that 
investments in NASA's programs are critical to our nation's 
competitiveness, efficiency, and safety of our transportation 
system, our nation's preeminence in the aviation industry, and 
ultimately affect the quality of our life and of our planet. 
The stakes are high as is the challenge.
    Welcome again, Mr. Administrator, and all those who you 
have with you.
    And at this time, I would like to recognize the Ranking 
Member of the Subcommittee, Mr. Frelinghuysen.

                    Ranking Member's Opening Remarks

    Mr. Frelinghuysen. I thank the Chairman, and I join the 
Chairman in welcoming you today before the Subcommittee to 
discuss your 2009 budget request.
    As the Chairman stated, you are requesting 17.6 billion in 
new budget authority which represents an increase of 1.8 
percent above the fiscal year 2008 level.
    The requested increase is modest and you are attempting to 
balance a number of important missions. It is a significant 
challenge to maintain healthy funding for science and 
aeronautics while trying to adhere to the schedules that have 
been established with the retirement of the shuttle, the 
completion of the international Space Station, and the 
development of the Orion and Ares capabilities.
    The budget for space and Earth science is flat. But within 
that level, you have prioritized funding for the top-ranked 
missions of the recent Earth science decadal survey.
    The aeronautics research budget is again a significant 
reduction. The Committee heard testimony last week from GAO, 
extensive testimony on NASA's role in the next agenda 
initiative to modernize the nation's air traffic system. And I 
will have some questions about that NASA contribution to that 
effort in my time.
    In exploration, you face perhaps your greatest management 
challenge in developing the new Orion, Ares vehicles on 
schedule and on budget. We hope you can bring us up to date 
with the status of these important efforts.
    Last but not least, you have an enormous challenge in 
carrying out the remaining flight manifest for the shuttle 
through 2010 and to complete the assembly of the international 
Space Station.
    We appreciate your dedication and the dedication of your 
team supporting you here today, both the public team and the 
private sector, in carrying out these important NASA missions.
    I also appreciate the attention, and I am sure the Chairman 
does, to your dedicating so much time to the management of NASA 
and to fiscal accountability.
    And I look forward to hearing your testimony today.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Dr. Griffin, we invite you to share your 
opening comments with us. Your written statement will be made a 
part of the record.
    Before you begin with your comments, would you please 
either introduce or have those who are sitting at the table 
introduce themselves. And then when they speak, if they would 
identify themselves for the record.

                Administrator Griffin's Opening Remarks

    Dr. Griffin. Yes, sir. Thank you for inviting us today. To 
my far left is Dr. Jaiwon Shin who runs Aeronautics Research 
Mission Directorate for NASA. Jai is formerly of the Glenn 
Research Center, but we have now captured him here at 
headquarters. To my immediate left is Mr. Bill Gerstenmaier who 
runs the Space Operations Mission Directorate. Broadly 
speaking, that includes the Space Shuttle, the International 
Space Station, and our Expendable Launch Vehicle fleet. 
Immediately to my right is Dr. Alan Stern who runs our Science 
Mission Directorate. Alan is a very well-known and very well-
established principal investigator in the field of space and 
planetary science. We were fortunate to attract him to NASA. 
And to my far right is Doug Cooke, Deputy Associate 
Administrator for Exploration Systems Mission Directorate at 
NASA. The Associate Administrator, Rick Gilbrech, could not be 
here. He is ill. Doug, however, has been with NASA since the 
early Shuttle years, has worked Shuttle, Station and then 
beyond Earth orbit exploration programs since we have had them.
    So I think you have the best that I can provide here at 
NASA today.
    Mr. Mollohan. Thank you, Dr. Griffin, and welcome everyone 
at the table. And if you would proceed.
    Dr. Griffin. Yes, sir. Thank you.
    Mr. Chairman Mollohan, Ranking Member Frelinghuysen, thank 
you for having me here today to talk about the NASA program and 
to grant me the privilege of bringing my team. It is a good 
team.
    You mentioned, sir, that we are coming up on a Presidential 
transition and we are. Of course, every two years, we have a 
Congressional transition. So transition is nothing new to NASA, 
but this one will be particularly significant. I would like to 
spend a few moments and review the bidding on why.
    Give or take a few weeks and what I am about to say, five 
years ago, those who were sitting here and others of us who 
were asked to testify as private citizens to various hearings 
in Congress were reeling in the aftermath of the loss of Space 
Shuttle Columbia, trying to find out what went wrong, how it 
could have gone wrong, and what we would have to do to fix it.
    Four years ago this spring, we were dealing with the 
output, the outcome of that accident and the output of the 
Columbia Accident Investigation Board led by Admiral Gehman 
which resulted in sweeping changes to how the Shuttle program 
is managed and what we do with the Shuttle.
    It also resulted in the development of a new civil space 
policy by this President and this Administration which was put 
before this Congress four years ago.
    Three years ago, I had been nominated as Administrator to 
come back to the Agency and head up this new effort and to 
continue our existing efforts. Two years ago, this Congress had 
just approved by a very strong bipartisan vote the new civil 
space policy that the President put forth. The basic terms of 
that policy were that we would finish the construction of the 
International Space Station, keeping our commitments to our 
partners. We would use the Space Shuttle to do so, after which 
we would retire the Shuttle in 2010, recognizing the words of 
the Columbia Accident Investigation Board that space flight is 
difficult, dangerous, expensive, but for the United States, it 
is strategic and it should be continued. But if it were to be 
continued, it needed to have goals worthy of the costs and the 
risks and the difficulty. So we set about with that new space 
policy a plan to return to the Moon and eventually go on to 
Mars and other destinations.
    A year ago, barely a year into that new program as 
authorized by the Congress, we were dealing with the effects of 
a year-long Continuing Resolution to our program which 
immediately caused us to stretch out dates that we had prior 
commitments to.
    Today, I come to you in a year in which we have a 
Presidential transition, the first one now in eight years, and 
the need that we have at NASA, the greatest need that we have 
at NASA is for stability.
    We do not change space policy very often. Prior to the loss 
of Shuttle Columbia and the resultant changes proposed by the 
President, the United States had not changed the basic 
direction of the civil space program for 35 years. Following 
Apollo, the direction of the civil space program had been to 
build the Shuttle, fly the Shuttle, and develop, deploy and 
utilize the Space Station. We had nothing beyond that for 35 
years.
    Now we have a plan that takes us out again beyond low Earth 
orbit for human exploration and robotic exploration. That is 
the best plan that has been provided to NASA by a United States 
Congress in over 40 years. What we need now in the wake of the 
very wrenching transitions we have had over the past several 
years and in view of the transition yet to come, what we need 
is stability and a sense of purpose.
    The Columbia Accident Investigation Board (CAIB) commented 
that the United States space program had moved forward for more 
than 30 years without a guiding vision. Now we have it and it 
is the right vision.
    The Columbia Accident Investigation Board commented that if 
we were to replace the aging Shuttle, and they recommended that 
we do, that the approach could only be successful if our 
purpose was sustained and the funds were committed throughout 
the lifetime of the program. That, too, is covered in our 
budget and I ask you for that stability.
    So I will close by commenting that in my opinion what we at 
NASA need and what the nation needs from NASA now and from our 
Oversight Committees and Appropriations Committees who support 
us, what we need is the constancy of purpose recommended by the 
Columbia Accident Investigation Board. That will be a legacy 
that the crew of Shuttle Columbia could honor.
    Thank you.
    [Written statement of Michael D. Griffin, Administrator, 
National Aeronautics and Space Administration follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

              U.S. LEADERSHIP IN CIVIL SPACE EXPLORATION

    Mr. Mollohan. Thank you, Dr. Griffin.
    Speaking in the broadest terms, how does the vision and its 
funding address the competition we are now experiencing from 
other countries that are getting into and becoming increasingly 
sophisticated in civil space?
    Dr. Griffin. It provides us an opportunity to partner with 
our peers and I think it provides a threat to our leadership. 
The United States for decades has been the leader in all 
aspects of civil space exploration. It is a position that in 
part for the generations alive today defines what it is to be 
an American. It has gone without question that the United 
States reached the Moon and other nations had not, that the 
United States leads the coalition to build the Internatonal 
Space Station, others cannot, that the United States built the 
Hubble Space Telescope, others did not, and so on for many 
other missions.
    Today we are in a position where we must retire the Space 
Shuttle and because there will be a gap in human space flight 
capability between the retirement of the Shuttle and the 
deployment of Ares and Orion, its successors, we will face a 
four-and-a-half year gap at this point where in order to access 
the Space Station that we have built, we must depend upon 
Russian transportation systems for crew resupply and we must 
depend upon European and Japanese cargo transport, which is 
part of our existing barter agreements with them, so that is 
not a new relationship, and we must depend upon commercial 
resupply capability which has not yet been developed.
    Now, I am among the most forward leaning that you will talk 
to in my optimism that such commercial transport will develop, 
but it is still a bet. It is not a position that I would 
willingly see the United States occupy vis-a-vis our strategic 
competitors in the world and, yet, it is a position in which we 
find ourselves.
    Mr. Mollohan. Well, given the current schedules and current 
funding levels, do we risk having our preeminence in space 
overtaken by other countries and, if so, does it matter?
    Dr. Griffin. I will answer the second question first. I do 
not intend to be in any way parochial or jingoistic, but I am 
an American and I will always be. I think that our country 
should strive to be preeminent in all things upon which the 
eyes of the world rest and space is one of those things. Space 
and space exploration is an activity that virtually every 
nation in the advanced world begins to undertake as soon as it 
is able. Most of them want to partner with us. They will not 
want to partner with us if we are not the leader. So I think it 
does matter. Clearly we have been a leader. Clearly when we are 
in a position where we are buying transportation from others to 
and from the Space Station that we took a leadership role in 
building, others will ask whether the United States is still a 
leader. I do not know what answers they will come up with. But 
during the period of time when we are not flying in space, 
Russia and China will be able to. And that bothers me.
    I have to add, for the second part of it, that I am glad 
that Russia is there as a Space Station partner to provide such 
transport because if they were not, we would not have a means 
of supplying crew or rotating crew to and from the Space 
Station and we would not be able to capitalize on the 
investment that we have made. So while I dislike the situation 
in which we find ourselves, it is preferable to some others I 
can envision.
    Mr. Mollohan. Mr. Frelinghuysen, I think I am going to go 
vote and I will be back in time for you to go vote and while 
you proceed with questions.
    Is that all right?
    Mr. Frelinghuysen. Yes.
    Mr. Mollohan. Okay.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, sir.

               RUSSIAN AND CHINESE RELATIONSHIP WITH NASA

    Mr. Frelinghuysen [presiding]. Well, thank you for your 
testimony. Sort of keeping in line with the Chairman's 
questions and your response, the whole notion that we would be 
beholden to the Russians to get where we need to get, could you 
expand on that?
    Obviously, we have a good working relationship with the 
Russians. It seems to me, and we have discussed this, that if 
the American people knew how beholden we would be to the 
Russians, you would get a far greater public demand for greater 
investments in NASA than what we have.
    The Chinese are to this lay person leap-frogging ahead. How 
would you characterize the Chinese program and does that 
represent a threat?
    Dr. Griffin. Let me answer again the second question first. 
I am very impressed with what China is accomplishing in human 
space flight. They are only the third nation to develop their 
own internal capabilities for conducting human spaceflight. I 
believe that they see it as I do, as a strategic matter for a 
great nation. I do not see it as a threat other than to our 
image of ourselves in the world. For other nations to be able 
to do profoundly difficult and daring things that we cannot do, 
in a period of time when we cannot do them, is not a position 
that the United States would wish to be in. I have been fairly 
clear about that. I think it has ramifications in the world of 
economics, in the world of soft power and I think we----
    Mr. Frelinghuysen. And military power.
    Dr. Griffin. It has implications for military power, and I 
think we ignore that at our peril. Now, with regard to Russia, 
I personally like the Russians that we work with on the Space 
Station program. I admire their capabilities and they have been 
good partners. We pay for that partnership and that is money 
which does not come back to American aerospace industry. But 
they have met their obligations.
    Mr. Frelinghuysen. But at some point in time, we are going 
to be inherently dependent on them.
    Dr. Griffin. We are and let me----
    Mr. Frelinghuysen [continuing]. For access?
    Dr. Griffin. Let me not embellish it.
    Mr. Frelinghuysen. Yes.
    Dr. Griffin. Let me not be rhetorical. Let me state 
specifically what our position is. After we retire the Shuttle 
in 2010, and until and unless we deploy the U.S. Orion crew 
exploration vehicle or until an as yet unknown commercial 
capability becomes available for a period that we estimate 
currently to be four-and-a-half years, if we wish to have U.S. 
crew onboard the Space Station, we will be purchasing those 
seats from Russia.
    If we wish to meet our existing obligations to our 
European, Canadian, and Japanese partners to provide crew 
transportation for their astronauts, which is an obligation we 
assumed, if we wish to meet that obligation, we will be 
purchasing those seats from Russia between 2010 and 2015. Even 
into 2015, quite likely into 2016, we will be flying a new 
vehicle, whether it is commercial or whether it is government-
built. Such a new vehicle cannot be initially counted on for 
crew rescue services and, yet, we must have crew rescue 
capability onboard the Space Station.
    Today the proven crew rescue capability is the Russian 
Soyuz vehicle. So until we have sufficiently flight tested our 
own vehicle to know that it can loiter at the Space Station for 
six months at a time and be capable of safely returning crew to 
the Earth in the event of an emergency, we will continue to be 
dependent upon the Soyuz system. Those are the facts.

                       ADEQUATE FUNDING FOR NASA

    Mr. Frelinghuysen. It has become common, and I do believe 
it personally, to hear that NASA is not adequately funded to 
carry out its various missions or at least not carry them out 
well.
    As you know, there was an effort last year to provide a 
billion dollars in emergency funding as belated compensation 
for the costs necessary to return the space shuttle to flight 
after the Columbia disaster.
    You have clearly defined a set of tasks in front of you 
that you have described in detail in your testimony. Can you 
carry them out with the budget you have laid before us?
    Dr. Griffin. I believe that we can carry out the tasks 
which we have said we will do with the budget that the 
President has requested for NASA. The questions you have been 
asking so far are more in the vein of are we carrying out the 
right tasks, were we carrying out those tasks rapid enough. And 
on those matters, opinion may, of course, differ.
    But subject to some of the constraints we have discussed, 
the four-and-a-half year gap and the purchase of Soyuz services 
and those things, I believe that we can carry out the program 
that the President has requested NASA to accomplish with the 
funding that he has allocated.

                            TRANSITION COST

    Mr. Frelinghuysen. One of the biggest uncertainties has to 
do with the transition cost as the shuttle program ends. I know 
we sort of indirectly commented on Presidential transition. 
Surely there are some good people that are, I assume, working 
overtime to prepare the next President with his or her 
portfolio, which certainly should include human space travel as 
a top priority.
    Do you have an estimate of the total transition cost and 
are those costs included in the budget? When we had quite a go 
around the other day, as you are aware, with the Government 
Accountability Office, the view was that those costs were not 
adequately reflected in your projections.
    Dr. Griffin. Yes, sir. I understand. I will be direct. We 
disagree with the GAO on this matter. We do not wish to budget 
explicit values for transition costs at the present time 
because by so doing, we essentially lock in an expectation or 
an entitlement that those costs will be at least at that level. 
We have been assessing transition costs very carefully for the 
last two years and, every time we look at them and we continue 
to dig into the tail, they come down.
    We will, as part of our planning and budgeting process this 
coming year, budget for transition costs, but we are 
aggressively keeping those costs as low as we can, precisely 
because of the point you just mentioned, that transitions 
costs, which are not funded by the Space Shuttle program become 
a lien on the rest of NASA.
    Do you need to go vote, sir?
    Mr. Frelinghuysen. I sure do.
    Dr. Griffin. Let me withhold the rest of my answer----
    Mr. Frelinghuysen. Yes.
    Dr. Griffin [continuing]. Until you return.
    Mr. Frelinghuysen. No. But to some extent, you are dealing 
with those transition costs?
    Dr. Griffin. We absolutely are and they represent----
    Mr. Frelinghuysen. But they must be reflected somewhere. I 
understand that if you----
    Dr. Griffin [continuing]. They are a----
    Mr. Frelinghuysen [continuing]. Put a marker there, then 
you sort of raise certain expectations.
    Dr. Griffin. Yes, sir. They are a lien on the Constellation 
Program if it should be needed. For that reason, it is in our 
interest to keep them as low as possible. Now, I understand 
that you need to go vote.
    Mr. Frelinghuysen. I do.
    Dr. Griffin. I would be happy to resume when you return, 
sir.
    Mr. Frelinghuysen. So on the Chairman's behalf, we are 
going to have a brief recess. I apologize.
    Dr. Griffin. Yes, sir.
    [Recess.]
    Mr. Mollohan [presiding]. Well, we are back.
    Mr. Schiff.

                  Congressman Schiff's Opening Remarks

    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Administrator, thank you for being here. I appreciate 
your spending a couple days with us.
    I had the wonderful experience last year for the first time 
to see a shuttle launch which was quite a phenomenal 
experience. I cannot imagine what it must be like to be sitting 
on top of that when that goes off and goes up, that is just 
amazing.
    I wanted to at the outset just reiterate my strong support 
for NASA, for both the human space flight as well as the 
robotic exploration. I realize that we will have a potential 
gap in terms of our schedule on the manned space flight. We 
need to make that window obviously as short as possible.
    But as I mentioned at these hearings last year, I view the 
NASA request as a floor and have supported and will continue to 
support additional funding for NASA. You have a very aggressive 
ambition at NASA which I applaud and I think we need to make 
sure the resources are there to follow through on that 
ambition.
    I do not think we can afford to concede our leadership in 
either human or robotic space exploration. And I think my 
colleagues on both sides of the aisle share that view.

                   SPACE INTERFEROMETRY MISSION (SIM)

    There are two issues I wanted to raise that I have some 
concern over and I know they will not come as any great 
surprise. One involves SIM. The other involves the Mars 
program.
    The big concern with SIM is we want to make sure that the 
program has enough money next year to allow for real progress 
before the new mission starts in 2010. We worked to get funding 
for that, as you know, in the omnibus last year.
    I am concerned that there is not a request, at least a 
direct request for SIM in the budget this year. Although I know 
there is some money in the other missions and data analysis for 
SIM.
    But the Congress has strong support for this effort and I 
appreciate the work that your staff has done to work with us 
and try to find a model of SIM that is within our capacity to 
afford and to do and move forward with.
    If you could in particular talk about the new money for 
SIM, JPL, I think, is going to need more than the $6.6 million 
to continue to have that ready to go, and I would like to work 
with you and our Chairman, our Committee members to try to 
augment that funding consistent with the agreement that we 
worked out on a new model for SIM. And I would love to have you 
share your thoughts and expectations on that.
    Dr. Griffin. Well, I will give you some top-level comments. 
I have Dr. Stern here who runs the Science Mission Directorate, 
and can provide some additional detail. We are, as you point 
out, this year looking at competing approaches for 
accomplishing the SIM mission, the task of finding planets 
around other stars. As we talked with you about it, when we 
feel that we have an appropriate approach to recommend that 
will accomplish the task and can be afforded, we will come back 
to the Congress and discus that with you. There is not a 
request in this year's budget for SIM. The Administration did 
not request funding for SIM. The Congress has appropriated 
funding for it and we will, of course, spend that money as the 
Congress has directed. Whether there will be an Administration 
request for SIM in a later year depends in part upon the 
outcome of the analysis that we perform this year. Alan, would 
you care to explain in a little more detail about the mission?
    Dr. Stern. Sure. Absolutely.
    Good afternoon. I would just like to tell you that within 
our----
    Mr. Mollohan. Identify yourself.
    Dr. Stern. Sure. I am Alan Stern. I am the Associate 
Administrator for the Science Mission Directorate.
    Mr. Mollohan. Thank you, Doctor.
    Dr. Stern. Yes, sir.
    I wanted to assure you, Mr. Schiff, that within our 
Astrophysics Division, in fact, within the Science Mission 
Directorate, the search for Extra-solar Planets, exoplanets as 
they are called, is one of our highest priorities.
    It has been ranked very highly by the National Academy in 
the Astrophysics decadal survey and we plan to continue to 
execute on that goal, including the next mission following 
Kepler, for which SIM is a candidate. We have put a great deal 
of resources into the development of that mission technology. 
It has gone very well. The challenge now for SIM, is for SIM to 
fit in the available budget wedge while all the other portions 
of the Astrophysics budget that are already underway are built. 
So, with the budget that has been provided by the Congress, we 
expect to be able to do that and make that determination this 
year or next year.
    Mr. Schiff. You know, I would just say we have had this 
sort of tug of war over the last several years on SIM. SIM has 
been in your glide path. Many of us want it in a quicker glide 
path. On a bipartisan basis, we expressed that sentiment for 
the budget last year.
    We have been working with you to accommodate and envision a 
more modest sized SIM that can be accommodated within the 
budget with all the other priorities that we have, and I want 
to continue to work with you all on that. I do not know what 
your time line is in terms of developing your broader policy of 
priorities in this area, but just looking at the course of this 
budget cycle, we would rather work with you in terms of shaping 
our appropriation in that area than work on it unilaterally.
    So I would invite you to give us your thoughts as quickly 
as you can on the kind of resources you think you need to keep 
this sort of new SIM concept on track so that we do not have 
big gaps in this. I look forward to working with you on that.

                          MARS PROGRAM FUNDING

    The second issue, because I know I do not have much time, 
at least in this round, and I will be following up on this in 
future rounds, is the Mars glide path has changed pretty 
dramatically from where it was last year in terms of the 
funding for Mars.
    I would like to ask you, because I think this has been 
really a cornerstone of our exploration program and has 
generated so much public support for it, I support the goal of 
a sample return from Mars by 2020, but the drastic cut in the 
Mars budget does not seem consistent with congressional 
direction, the broad support of the scientific community, and 
public excitement about the Mars missions.
    This is a drastic reduction from last year's five-year plan 
for no apparent reason. I would like to work with you both to 
restore the funding for this program and ensure that this good 
science is also funded.
    If you could share your thoughts on what changed from last 
year to this year and how we can work together to try to 
restore that support for the Mars program.
    Dr. Stern. Yes, sir. Administrator Griffin has asked me to 
take this question. So let me start by saying that the Mars 
program has been very successful and we are very proud of the 
results that we have obtained from it. We are looking forward 
to the Mars Science Laboratory (MSL) mission launching next 
year and a series of missions that we have planned and what you 
see in the budget request.
    However, the Mars mission does reside within the Planetary 
Science Division. As you know, there is a decadal survey for 
planetary sciences that speak to the needs in planetary science 
for the inner planet, the outer planets, for Mars, for 
primitive bodies, and other aspects of the field. So there are 
a variety of competing needs.
    At mid decade, which was just last year, the National 
Academy provided us with this report. This report was put 
together by a Committee chaired by one of my predecessors, Dr. 
Wesley Huntress. That report gives us grades, A's, B's, C's, 
and D's, for the different activities within the Planetary 
Science Division, grading them against the goals of the decadal 
survey.
    Our Mars program received an A. Our outer planets program 
received a D. Our Research and Analysis program received a C. 
So what you see in the President's request consistent with this 
report card is an attempt to repair the major deficiencies of 
the program within the budget resources that are available.
    Dr. Griffin. I would add a comment that the Mars program, 
of course, has its own interest and own excitement, and it is 
funded today at a very high level because it is executing a 
flagship mission, the Mars Science Laboratory.
    There then becomes an expectation, almost an entitlement, 
that funding will continue at the level necessary to support 
flagship and that cannot happen because within the overall 
Planetary Sciences Division, there are other communities who 
want flagships. Indeed, the National Research Council of the 
National Academy has recommended an outer planet flagship. We 
cannot conduct Mars at a flagship level and also do an outer 
planet flagship mission. So the budgets for the individual 
communities within Planetary Sciences have to go up and down 
and have to phase properly in order to stay within overall 
guidelines while accomplishing a varied set of goals. What we 
are really doing is returning the Mars program to its average 
funding level.
    Mr. Schiff. If I could just interject because I know I am 
probably out of time already, but I understand all that is 
true. All that was true last year as well. But, nonetheless, 
the path that Mars was on in terms of its funding and support 
last year is drastically different than what is being proposed 
this year.
    So my question, is, what changed in all that calculus from 
last year to this year that accounts for such a dramatic 
decrease in the Mars funding?
    Dr. Griffin. We have reformulated the strategy that we wish 
to use in exploring Mars as compared to our other obligations 
within science.
    Mr. Schiff. What are those other obligations?
    Dr. Griffin. Some money has gone to Earth science.
    Mr. Schiff. Mr. Chairman, I look forward to exploring this 
further during the hearing. Thank you.

                         NASA'S BUDGET REQUEST

    Mr. Mollohan. Doctor, you have got a lot of things on your 
plate. You have got the shuttle and the Space Station 
operations, development of new human space transportation 
system.
    Your budget has to support aeronautics, space science and 
technology applications and these important activities and 
ambitious human lunar program will necessitate investment.
    Your budget request, I think, had an increase of about 1.8 
percent which does not even keep up with inflation. And it just 
does not seem to fit.
    How do you sustain all that with that small an increase and 
would you not agree that that is inadequate?
    Dr. Griffin. I can only say that the President's budget is 
adequate for the goals that the President has asked us to 
accomplish. Over the years of the Bush Administration, the NASA 
budget has kept pace with inflation. In this one year, it takes 
a bit of a dip. But broadly speaking, we do keep pace with 
inflation. A free variable, of course, in your question is the 
time frame in which the accomplishments are completed. I think 
we have a very good portfolio of activity within NASA and I 
have been very pleased that whenever we have a discussion as 
with the one we just had with Mr. Schiff, it is not about the 
question of whether an activity is worth pursuing. Everyone 
that I work with here on Capitol Hill seems to think that what 
we are doing are good things and the questions are always about 
the relative priorities among good things and the pace at which 
good things can be accomplished. Clearly if more money were 
allocated, more things can be done or things can be done 
faster. But the budget submitted by the President is adequate 
to accomplish what he has asked us to accomplish in the time 
frame that we claim we can do it.
    Mr. Mollohan. Well, obviously it is not even a current 
services budget. Would you agree with that?
    Dr. Griffin. I am not sure what you mean by current----
    Mr. Mollohan. Well, it is not enough money to fund the 
activities that you are funding in 2008. It is not enough money 
to keep up with inflation.
    Dr. Griffin. It goes slightly below the inflationary level 
this year, yes, sir.
    Mr. Mollohan. Well, my point is, what adjustments are you 
making at NASA to accommodate that reality, that fact? What 
programs are being, I guess, not funded or stretched out?
    Dr. Griffin. Well, no program is not being funded or 
stretched out that was otherwise planned to be done because we 
have seen this small dip coming for a while and our programs 
have been planned accordingly. The biggest recent dip in our 
program was the Continuing Resolution that we got a year ago 
this time and we have managed to adjust our programs to fit 
that. In fact, the primary way that we adjusted our 
programmatic flow to meet the demands of the Continuing 
Resolution was that we slipped the delivery date for Ares and 
Orion, the Shuttle replacements, by six months. In general, 
with ongoing programs, that is what we have to do when for any 
reason there is a decrement in funding.
    Mr. Mollohan. And I guess the Mars program that you and Mr. 
Schiff were talking about is down $170 or so million. That is 
an adjustment you have made that was not----
    Dr. Griffin. That is true. That is a strategy adjustment we 
made since last year within Planetary Sciences. We have 
targeted money for an outer planet flagship. We have shifted 
other money to Earth science and the Mars program has a little 
bit less than it was once planned, but they would have----
    Mr. Mollohan. So that is an example of an adjustment you 
have made this year which you did not anticipate making last 
year?
    Dr. Griffin. That is true. We have a new Science Mission 
Director this year, Dr. Stern, and he has a slightly different 
strategic view of what we should do than his predecessor. And I 
chose to accommodate that.
    Mr. Mollohan. Yeah. That was the kind of example I was 
looking for. Are there other such examples?
    Dr. Griffin. There are, but that was not in response to a 
budget cut. That was just in response to, as Dr. Stern 
indicated, we do get assessments of our efforts by the National 
Academy. This one is a new one. This assessment was not in 
evidence at this time last year.
    I am a little torn. It is sometimes asserted that we are 
not sufficiently responsive to the wishes of the National 
Academy, though I try to be. And, yet, when we are responsive 
to the wishes of the National Academy, it causes change. And 
change has always two sides. Those who are on the receiving end 
of the result of the change are always happy. Those who are on 
the giving end of a change are always unhappy. It is very hard 
to know what to do. We believe that our Science Program is not 
only responsive but very responsive to the priorities that the 
National Academy sets forth and----
    Mr. Mollohan. Yes.
    Dr. Griffin [continuing]. Sometimes that does result in 
changes.
    Mr. Mollohan. I was after an example as to how your program 
has changed not because of any academy's recommendations but 
because of the budget realities that you were facing from OMB 
or Administration or otherwise. That is really what I was 
fishing for.
    Dr. Griffin. Our program has not changed as a result of any 
budget surprises from the Administration because there have not 
been surprises. The President's requests have been very 
consistent.
    Mr. Mollohan. Mr. Culberson.

               SHUTTLE RETURN TO FLIGHT COST COMPENSATION

    Mr. Culberson. Thank you, Mr. Chairman. Forgive me for 
running a little late. We had a vote and our hearing is going 
on at the same time.
    Dr. Griffin, thank you, all of you, for the work you are 
doing. You know how passionately devoted I am to you and the 
mission at NASA as everybody on the Subcommittee is. There are 
no party distinctions or labels here. We are all equally 
committed to help NASA achieve its goals.
    And I know that you are constrained by your position to 
defend the White House funding request, but I have noticed that 
while the White House laid out the vision, they have never in 
my opinion adequately funded it or given you the resources you 
need to do everything on your table.
    And I know that perhaps this has been asked before about 
the billion dollars that the Congress tried to give you last 
year, to give compensation to NASA, for example, for the loss 
of the shuttle. And in a very real sense the Agency, NASA, our 
space program is self-insured, the vehicle loss.
    We can never replace those astronauts who lost their lives, 
but the vehicle itself was never replaced as with Challenger, 
correct? We have never compensated NASA as we did for 
Challenger?
    Dr. Griffin. We are not replacing the Shuttle because the 
determination has been made to retire the fleet.
    Mr. Culberson. Right.
    Dr. Griffin. So that individual Shuttle was not replaced, 
and NASA was not compensated for the $2.7 billion in return to 
flight costs. That is correct.
    Mr. Culberson. That was my point. It is a $2.7 billion cost 
is what I was driving at.
    Dr. Griffin. We assessed that cost a year or so ago in 
response to a question for the record. The Shuttle Return to 
Flight costs were about $2.7 billion and those came out of 
extant programs at NASA.

                           HURRICANE KATRINA

    Mr. Culberson. And on top of that, you had Hurricane 
Katrina damage, where you had the potential of flooding damage 
at one of your facilities----
    Dr. Griffin. That was Hurricane Katrina, sir.
    Mr. Culberson. That was Katrina. And a couple of NASA, I 
understand, employees stayed behind and ran the pumps and saved 
the facility. Is that fundamentally the story? There would have 
been even more damage but for the initiative and bravery of a 
couple of NASA employees. And who were they and what----
    Dr. Griffin. They were actually Lockheed Martin employees.
    Mr. Culberson. What did they do specifically to save the 
facility?
    Dr. Griffin. Well, when others evacuated, there was a ride-
out crew that was formed to stay behind and there were several 
folks who were on that crew. They drove out and walked out in 
hurricane weather conditions to a pumping station which needed 
manual intervention to keep the pump running. The Michoud 
Facility where we build Shuttle external tanks and where we 
will be building tanks for our new rocket fleet, the Michoud 
Facility is in a very low-lying area next to the water because 
we ship these tanks by barge.
    Mr. Culberson. Right.
    Dr. Griffin. It is surrounded by levies which keep the 
water out. The water surge from Hurricane Katrina topped the 
levies by a little bit and so the internal area would have 
flooded had the pumping station not been able to keep up with 
the influx of water. Through the bravery of these employees, 
the area was saved. When I flew over it by helicopter a couple 
of days after Katrina, Michoud was an island of green in a sea 
of brown mud stretching 150 miles long along the coast by about 
three or four miles inland. It was quite startling to see.
    NASA awarded to all of the employees who stayed behind, a 
``NASA Exceptional Bravery Metal'' for their service. We would 
not be flying a Space Shuttle today, we would not have 
completed the international Space Station if those people had 
not taken that risk.
    Mr. Culberson. Driven out there that night and turned on 
the pumps manually. It is a great story. And I wanted to 
reemphasize it here because those employees not only saved the 
shuttle program, allowed it to continue, but also saved--you 
suffered how much damage and then how much more would have been 
suffered, do you think?
    Dr. Griffin. I have misplaced in my memory the dollar 
figure for the Katrina damage that we assessed. I can get that 
for you for the record. It was many tens of millions of 
dollars, had we lost the entire facility, its replacement 
value, I do not know.
    [The information follows:]

    As of January 2008, the total cost of NASA's response to Hurricane 
Katrina on the Gulf Coast, including operations, programmatic recovery, 
facility repairs, and risk mitigation efforts, was estimated at 
$385.1M.

    Mr. Culberson. Right.
    Dr. Griffin. But it is enormous.

                       ADEQUATE FUNDING FOR NASA

    Mr. Culberson. Just to conclude, and you know how 
passionate I am, all of us are, we want to help. But I hope you 
can help us help you.
    And I see in the February 18th issue of Aviation Week a 
report. There was a meeting that took place at Stanford 
University to look at the current vision for space exploration, 
what NASA has got on its plate, how much money there is 
available.
    You know, it was a top-flight group of scientists and 
engineers hosted by the Planetary Society and Stanford 
University Aeronautics and Astronautics Department brought 
together about 50 top U.S. space officials quoting from 
Aviation Week February 18th, including NASA industry and 
university personnel.
    But they point out in the article, and I want to, you know, 
point this out for the record because this is an indisputable 
fact, ``The failure of the White House to secure the funding 
needed to initiate the vision has led us to a point where the 
nation's space program is in peril,'' says Scott Hubbard, Co-
Chair of the event and a consulting professor at Stanford and 
former Director of NASA in its Research Center.
    NASA's annual budgets are running $3 billion short of what 
is needed each year to fulfill even the Bush vision. You know, 
based on what you have told us of the $2.7 billion cost to 
return to flight that was not compensated, obviously the damage 
from the hurricane.
    I just hope you will help us help you find a way to get you 
the funding you need because the science programs have 
suffered. The Mars program has been whacked which is 
unacceptable.
    I have to say the operating plan that I have heard was 
submitted, I know that Mr. Schiff and I are arm and arm on 
this, with the cuts that have been instituted at the Jet 
Propulsion Laboratory and some of the other science programs, I 
just do not accept and we are going to need to work together.
    Mr. Chairman, I know Adam and I are arm and arm with making 
sure. We do not want the operating plan to go forward until 
these concerns at JPL and the other science labs, the other 
centers are addressed.
    I just see what you do, what NASA does, what we do in 
investing in scientific research in general in the United 
States is a national insurance policy.
    And I know you do not have enough money to do what you need 
to do, but I do hope you will help us help you by. Even if it 
is outside of the Committee hearing process, tell us what you 
need so we can help you get there.
    Dr. Griffin. Sir, JPL is fully funded. There are no layoffs 
coming at JPL.
    Mr. Culberson. I am concerned about cuts in the SIM 
program, for example. I am concerned about the outer planets 
program, the highest priority of the decadal survey of 
planetary scientists.
    Until recently, the last couple of years, it is an 
undisputed fact that NASA has always flown the missions 
designated by the decadal survey of planetary scientists. NASA 
has always flown those number one missions, whether it be the, 
you know, the inner planets, the Earth missions, or the outer 
planets. You have always flown them.
    Cassini was the last one we did and you know that the 
mission to your robot that we have talked about before is the 
highest priority of the decadal survey and you keep stringing 
that one along and whacking it and whittling on it. And it is 
just tragic. I just do not think it is--it is not acceptable.
    I am going to work with Mr. Schiff and the Committee to 
find ways to fix that. And that is money you are taking out of 
hide of these other science programs to fund inadequate 
recommendations from OMB. And I admire the job you are doing 
and support you. This is all said in a friendly way. I want to 
help. I just want to find a way to help and we just need you to 
help us help you.
    Thank you very much for the job that all of you are doing.
    Dr. Griffin. Thank you.
    Mr. Mollohan. Mr. Ruppersberger.

                     PROGRAM MANUFACTURING FAILURES

    Mr. Ruppersberger. Again, we all have different hearings. 
Sorry I was not here in the beginning.
    I want to talk about the satellite program generally, and 
specifically the manufacturing. Adam Schiff and I are both on 
the House Intelligence Committee and I am Chair of the 
Technical Tactical Committee. And we are focusing on some of 
the satellite failures that we have had recently.
    We have been having tabletop discussions for about maybe 
six months with the general contractors that work in 
conjunction with DoD and we are trying to find out where our 
successes are, our failures are, where we are in our space 
program presently and where we will be in the future.
    We have gotten a lot of good information. And I want to 
tell you what we have learned and how it compares to where you 
are.
    We have had numerous failures within our satellite program. 
We have had manufacturing failures. We have had timing 
problems. We have had cost overruns. And it is to the point 
where we really have to look at where we are with respect to 
our satellite program generally.
    I think one of the main themes that has occurred here is 
that we have found that research and development is occurring 
once the contract is out instead of before a contract is in 
place. And what I mean by that is that we go out and, you know, 
the big hitters that do most of this manufacturing are in a 
position where they get the contract and then as they move 
forward with the contract, they are really doing the research 
and development. And, therefore, we have been having failures 
and cost overruns.
    What I think we are going to recommend is that we really 
need to refocus on our research and development before it even 
gets to manufacturing. There really should not be the failures 
that have existed in our program in the last ten years if the 
research and development is done properly. The mistakes are 
made in research and development.
    The other thing we are seeing, too, is that when you get a 
satellite built, everyone tries to pile on instruments. You 
know, a three-star General will come and say I have to put my 
program on it, I have to put my program on it. And because of 
that, we have not stayed focused on what our mission is.
    Now, these are some of the results that we are getting out 
of what we are doing on the Intel Defense side. How does that 
compare to where you think you are with respect to your 
satellite programs?
    Dr. Griffin. We think in recent years, our record of 
success has been extraordinarily high. I do not know what to 
say other than that.
    Mr. Ruppersberger. Well, let me ask you this. I will ask 
you this. Has every program been on time?
    Dr. Griffin. Well, certainly not. We have had some delays. 
We have had some cost overruns. Right now we are experiencing a 
cost overrun on the Glory Mission because of the APS sensor, 
the Aerosol Polarimetry Sensor Instrument. So our record is 
certainly not perfect. But we have not had significant mission 
failures or crippling cost overruns or schedule delays in 
recent years.
    Mr. Ruppersberger. Well, even though it might not be as 
severe as where it is on the other side that we are talking 
about, you have had problems with cost overruns.
    So what are the reasons for the cost overruns and for the 
delays specifically? Where I am heading, so I can tell you what 
I want to talk about, is that it is my understanding there is 
again more cuts in research and development in the 
Administration's budget. And I think that is very dangerous in 
the area that we are dealing in. And I know that you have to 
stand by the President's budget, but it is something that we as 
an Oversight Committee need to talk about.
    Dr. Griffin. Yes, sir. I do understand. Our budget this 
year almost, but not quite, keeps pace with inflation. So I 
cannot say that the budget has been cut. We have been given 
funds adequate to support the missions----

                    RESEARCH AND DEVELOPMENT BUDGET

    Mr. Ruppersberger. You cannot say that the research and 
development budget has been cut?
    Dr. Griffin. It has not been cut.
    Mr. Ruppersberger. Okay.
    Dr. Griffin. NASA's research and development budget has not 
been cut. We have funds adequate to support doing the missions 
that the President has asked us to do.
    Again, we are in the business of developing one of a kind, 
first of a kind things. We do things for a living that no one 
has ever done before using the best contractors in the 
industrial base that the nation has. Things do not always go 
perfectly, but I have to say that for the last few years, our 
record of execution has been unmatched.
    Mr. Ruppersberger. Do you feel that you need more resources 
in research and development?
    Dr. Griffin. I have the resources I need in the President's 
budget to accomplish the program that has been set forth.
    Mr. Ruppersberger. You are a good soldier. I don't mean 
that in a derogatory way. I mean, if that is what it is, and I 
think we are going to get--our staff is going to have to look 
more into this, because I am really surprised at the comment. 
And that doesn't mean that I don't agree with it.
    I just don't have enough data to understand that you don't 
need more research and development. That we have cost overruns 
and there needs to be a reason for it. And there needs to be a 
reason for time delays.

           ICE, CLOUDS, AND LAND ELEVATION SATELLITE (ICESAT)

    Let me give you an example of a time delay. Let us discuss 
a program that the Goddard Space Flight Center is work on, the 
ICESat-II mission. You know the Congress has urged NASA to move 
more quickly in developing the next generation of needed Earth 
science missions and satellites due to the fact that many 
existing missions are near the end of our usable life in the 
coming years. Do you agree with that statement?
    Dr. Griffin. Yes. The decadal survey has urged us to put up 
more satellites.
    Mr. Ruppersberger. But our concern is--it is our 
understanding that this mission, the ICE----
    Dr. Griffin. ICESat-II.
    Mr. Ruppersberger [continuing]. Is going from 2010 to 2013. 
And the date now is 2015. This is an example of what I am 
talking about. Now let me tell you why I am concerned about 
this.
    First thing, we have an area of climate change. We are 
concerned that there could be an area where we won't be able to 
get the information to really determine what is going on with 
respect to the issue of global warming.
    Congress I think specifically provided $33 million in 
fiscal year 2008 to jump start several of the missions that 
were recommended by the National Academy of Sciences. And here 
we have a program that we thought was going online in 2010 to 
2013. And now we are seeing 2015.
    There is an example of a program that I am concerned about 
where we are--we are going to be at 2015. When, in fact, what 
we thought would be 2010 or 2013.
    Dr. Griffin. Well, sir, the program is not experiencing an 
overrun or a delay. Alan, would you care to comment?
    Mr. Ruppersberger. Yeah. I would like to hear what Mr. 
Stern has to say.
    Dr. Griffin. This is Dr. Alan Stern who runs our Science 
Mission Directorate.
    Dr. Stern. Yes, sir. In fact, you probably know that this 
year we have actually put more emphasis in the Science Mission 
Directorate on Earth science programs, just like the one that 
you described. And because of that initiative, which infused 
about 600 million additional dollars into our Earth science 
program, we are actually able to start four decadal survey 
missions that were only recommended last year, including 
ICESat-II. We currently have on orbit ICESat-I with an 
operational capability expected to last several more years. So 
from our perspective, we have finally put ICESat-II on firm 
footing, along with other measurement needs like the soil 
moisture mission, which will be launching before it and other 
decadal survey missions that will launch concurrently after it 
as a result of the President's budget.
    Mr. Ruppersberger. So you are basically saying that ICESat-
I is in place. That we won't go dark until ICESat-II is in 
place.
    Dr. Stern. Well, ICESat-I is in place. It is functioning 
nominally. I can't promise you that it won't go dark in the 
interim. But it currently has no anomalies. It has some life-
limited items. But it is expected to last several more years.
    Mr. Ruppersberger. With the initial procurement or 
contract, what was the initial date that the ICESat-II was 
supposed to be completed?
    Dr. Stern. I would have to take that question for the 
record and get back to you on it.
    Mr. Ruppersberger. But was it before the 2013 date 
projected earlier? The date now that you are projecting is 
2015.
    [The information follows:]

      ICESat-II (Ice, Cloud, and Land Elevation Satellite) Mission

    The President's FY 2009 budget request, which was released on 
February 4, 2008, included the first assignment of funding for the 
Decadal Survey-recommended missions. The President's FY 2009 budget 
request provided sufficient funds--as one component of the line of 
``Decadal Survey Missions''--to begin formulation of ICESat-II, with a 
target launch date in FY 2015.
    NASA has not pushed back the launch date of ICESat-II. NASA has 
established an executable implementation plan that accomplishes the 
necessary ICESat-II mission and implementation development within the 
allocated resources.
    The Decadal Survey, released in January 2007, recommended an 
ICESat-II mission at a cost of about $300.0M. Throughout 2007, NASA 
conducted concept studies of all proposed Decadal Survey missions, 
including ICESat-II. These studies were intended to demonstrate the 
feasibility of, and challenges associated with, the mission concepts, 
and did not define baseline missions. One of the findings of the 
ICESat-II concept study was that a simple re-flight of the ICESat-I 
mission design would cost as much as 90 percent more than the amount 
estimated by the Decadal Survey.
    A launch date of 2015 was determined by NASA based on many 
considerations, including but not limited to: (1) technical issues 
uncovered during the current on-orbit ICESat-I mission, e.g., laser 
limitations and the need to define and develop a reliable laser system; 
(2) necessity to define a clear and comprehensive trajectory of 
requirements from the mission science objectives to the measurement and 
mission requirements, including such issues as lifetime and 
reliability; (3) a detailed mission implementation budget profile 
leading to high confidence in the cost and schedule; (4) developmynt of 
appropriate risk reduction activities with appropriate redundancies; 
and, (5) the current maturity level of the mission definition and 
required measurement technologies. NASA has embarked on an expedited 
activity to select a Science Definition Team (SDT) through competitive 
proposals solicited through an Amendment to the 2008 NASA Research 
Opportunities in Space and Earth Sciences (ROSES). NASA, working with 
the SDT and others during the current pre-Phase A formulation stage, 
will define the optimal mission configuration compatible with allocated 
resources. This extended team will investigate partnerships with non-
NASA organizations, study instrument and mission designs, and examine 
science requirements to identify significant cost and performance 
parameters.

    Dr. Stern. I will have to get that answer for you. The 
decadal survey that recommended ICESat-II, and I will admit to 
being new to the NASA program, was just released last year. Our 
response to it came the same year.
    Mr. Ruppersberger. You know, it is not about defending your 
program. It is about really doing--finding out the right way. 
Finding out the system. We need a good system in place.
    If we need more research and development--let us say that 
we do, especially in NASA. I mean, the reason we are doing so 
well in the world, that we control the world, we control 
basically the skies, is because of what NASA did in their 
research. And we have to continue to focus on that.
    But, you know, there have been some failures. And we have 
to admit some of our failures to make sure that we don't do 
them again. And we do better, because we have a lot of 
competition out there with China, Russia.
    So I will stop there. But I would like more information on 
that. Thank you.
    Dr. Stern. Yes, sir.

                             GLORY MISSION

    Mr. Mollohan. If I could follow up, Dr. Griffin, with----
    Dr. Griffin. Sure.
    Mr. Mollohan [continuing]. Dr. Stern, a little bit on Mr. 
Ruppersberger's questions about the satellites.
    It has been a huge issue with the Committee in dealing with 
the Senate. They have expressed great concerns about that about 
the satellite productions, the development, and the cost 
overruns. So in the spirit of you helping us look at this, us 
help you with regard to these issues, what should we be 
sensitive to?
    Take Glory, for example. What is happening there that 
resulted in the cost overruns and the delays that we should be 
looking at? What should we be concerned with? And what would 
you recommend the kind of oversight we have in order to help 
you get it done? Is there not a performance issue or something 
here that we should be very sensitive to?
    Dr. Stern. Well, that is an interesting example that you 
raise. And I will try to answer. We think we should be 
sensitive to it too. And we are. The Glory mission exists for 
the primary purpose of making these aerosol polarimetry 
measurements, because aerosols are a key component. The 
contribution of aerosols is a key component to climate research 
models in global warming. Aerosols have a cooling effect. Yet 
their exact influence is not well known. So we are making a 
measurement to try to refine the models for climate change 
research that NASA is responsible for.
    The particular sensor in question is being built by a 
contractor who moved and consolidated some of that contractor's 
workforce from one location to another. It may well be that in 
the long run, that move and that consolidation of contractor 
workforce in this particular case could be helpful. I don't 
know. I can't foresee that future. But they obviously did it as 
a business, because they thought it was a good move. But in the 
period of time where they are building our sensor, work 
progress has slowed quite a bit. In fact, it slowed to about 60 
percent of the rate that we had expected and that was matched 
with the funding that was provided.
    Mr. Mollohan. You mean developing the sensor?
    Mr. Stern. Developing the sensor. Now it is a research and 
development sensor. I mean, that is what you passed to do. So 
it is a first of a kind type thing. It is going well. 
Technically the sensor is meeting its goals. But it is slow.
    Mr. Mollohan. You mean now it is?
    Dr. Stern. Well, the sensors development progress is good. 
But it is slower than expected. I mean, so it is not 
encountering technical difficulties. It is just slow. Because 
it is slow, it costs more money.
    The total amount of money in question is a total of maybe 
$80 million of which about $70 million of it is due for that 
sensor directly and its effects on the rest of the spacecraft, 
because it is showing up late.
    That is a development problem, which we are certainly not 
proud. The contractor is not proud of it. These things do 
happen from time to time. We are, I want to say in the 
vernacular, we are all over it. We are working with the 
contractor. The CEO of the contractor was in my office two 
weeks ago to discuss specific steps that they are taking to 
mitigate the damage. But the fact is that when the government 
undertakes development contracts like this, they are usually on 
a cost-plus basis. So while we monitor and direct their 
performance, we do have to pay the overrun.
    I believe we will eventually have a good satellite, and 
that we will make an important scientific measurement, which 
will contribute in a very significant way to our climate change 
research. But this particular example is an example of an 
overrun. And that is the reason why.

           VISIBLE-INFRARED IMAGERY RADIOMETER SUITE (VIIRS)

    Mr. Mollohan. We are also having problems with VIIRS.
    Dr. Stern. Yes, sir.
    Mr. Mollohan. I mean is there something about the sensor 
development? And how can we do it better? And then I want to 
yield to Mr. Ruppersberger.
    Dr. Stern. NASA is not directing the VIIRS contract. I want 
to make it clear. That is a DOD contract. Although we are 
dependent upon VIIRS, because we are flying VIIRS on the in-
post preparatory program. It is the predecessor to NPOESS. It 
is not a good news story. It is late, and it is having 
technical difficulties. We will eventually get it. I am sure 
there are a lot of lessons learned there for all of us. Now, 
you are right. You raised a very good point when you say that 
there are sensor problems. I do think that there is a need in 
the country, on the government side, for us to look at the 
industrial base for advanced sensor development and to take 
steps. We need to do something different, because we can't keep 
having these problems.
    I was discussing this issue just last week with Admiral 
Lautenbacher of the National Oceanic and Atmospheric 
Administration. I think we are in agreement that we need to 
take steps to restore capability that once existed in our 
industrial base and that has managed to dissipate. That is not 
going to help us this year or next. We will just have to 
struggle through, but in the longer term, I think there is work 
we can do here.
    Mr. Mollohan. Mr. Latham, if you don't mind, Mr. 
Ruppersberger had a follow up. Mr. Ruppersberger.
    Mr. Ruppersberger. Mr. Stern, get me more information if 
you could. And I am not sure of the time frame. But we have to, 
again, evaluate where we are, our successes, and our failures.
    It is my understanding, and I can't give you the time 
frame, that we--NASA has had I think eight Nunn-McCurdy 
breaches, seven at 15 percent and one at 30 percent. If you 
could get me the information on those and get back the reason 
why. Again, I am focusing on the issue of research and 
development to see why we are where we are. To make sure that 
we can see where you are and also from our intelligence and 
defense side too.
    Dr. Stern. Yes, sir. We will provide you with just that 
information.
    [The information follows:]

      ICESat-II (Ice, Cloud, and Land Elevation Satellite) Mission

    The President's FY 2009 budget request, which was released on 
February 4, 2008, included the first assignment of funding for the 
Decadal Survey-recommended missions. The President's FY 2009 budget 
request provided sufficient funds--as one component of the line of 
``Decadal Survey Missions''--to begin formulation of ICESat-II, with a 
target launch date in FY 2015.
    NASA has not pushed back the launch date of ICESat-II. NASA has 
established an executable implementation plan that accomplishes the 
necessary ICESat-II mission and implementation development within the 
allocated resources.
    The Decadal Survey, released in January 2007, recommended an 
ICESat-II mission at a cost of about $300.0M. Throughout 2007, NASA 
conducted concept studies of all proposed Decadal Survey missions, 
including ICESat-II. These studies were intended to demonstrate the 
feasibility of, and challenges associated with, the mission concepts, 
and did not define baseline missions. One of the findings of the 
ICESat-II concept study was that a simple re-flight of the ICESat-I 
mission design would cost as much as 90 percent more than the amount 
estimated by the Decadal Survey.
    A launch date of 2015 was determined by NASA based on many 
considerations, including but not limited to: (1) technical issues 
uncovered during the current on-orbit ICESat-I mission, e.g., laser 
limitations and the need to define and develop a reliable laser system; 
(2) necessity to define a clear and comprehensive trajectory of 
requirements from the mission science objectives to the measurement and 
mission requirements, including such issues as lifetime and 
reliability; (3) a detailed mission implementation budget profile 
leading to high confidence in the cost and schedule; (4) development of 
appropriate risk reduction activities with appropriate redundancies; 
and, (5) the current maturity level of the mission definition and 
required measurement technologies. NASA has embarked on an expedited 
activity to select a Science Definition Team (SDT) through competitive 
proposals solicited through an Amendment to the 2008 NASA Research 
Opportunities in Space and Earth Sciences (ROSES). NASA, working with 
the SDT and others during the current pre-Phase A formulation stage, 
will define the optimal mission configuration compatible with allocated 
resources. This extended team will investigate partnerships with non-
NASA organizations, study instrument and mission designs, and examine 
science requirements to identify significant cost and performance 
parameters.

    Mr. Ruppersberger. Thank you.
    Mr. Mollohan. Okay. Mr. Latham.

                   CIVIL SERVICE WORKFORCE RETIREMENT

    Mr. Latham. Thank you, Mr. Chairman, and welcome. I serve 
on three Subcommittees. Government-wide we seem to have a 
problem with a whole generation of people near retirement, ones 
with institutional knowledge.
    Do you have this problem at NASA? Are you doing anything to 
address that problem? You know, basically the whole program 
geared up what 35-40 years ago. And you probably have a bunch 
of people who are on the edge of retirement. Is that a problem 
for you?
    Dr. Griffin. Well it is a problem, and it is an 
opportunity, sir. The average age of NASA employees is right 
around 50. Demographically our statistics are such that within 
the next five years, about 25 percent of our civil service 
workforce is eligible for retirement. That doesn't mean that 
they will necessarily take it. But they are.
    There is----
    Mr. Latham. I used to think that was old by the way, 50.
    Dr. Griffin. I must say that I would----
    Mr. Latham. So much has changed.
    Dr. Griffin [continuing]. Kill to be 50 again. But leaving 
that aside----
    Mr. Latham. Okay.
    Dr. Griffin [continuing]. It is a concern, because in our 
business there is much that is not written in textbooks. And I 
have----
    Mr. Latham. Right.
    Dr. Griffin [continuing]. Written a textbook. There is an 
awful lot that is not in there. So we rely in this business on 
developing one-of-a-kind things, we rely on in many ways a 
master and apprentice relationship if I could use those words. 
Where folks who are older and more experienced pass on what 
they have learned and what they know to younger folks coming 
up.
    Of course, if we get a wave of retirements of more 
experienced folks, then we do chance losing some knowledge. Now 
we are very fortunate. Everybody who works for NASA is in one 
way or another a volunteer, because they could all make more 
money working somewhere else.
    We have very good access to our network of retirees and 
former NASA and industry employees. They do serve an awful lot 
of mentoring for our younger folks. But there is a concern 
there. We pay attention to it. It is also an opportunity, 
because the newer, younger folks who are 30 and 35 years 
younger than me coming out of school, know things I don't know 
and that Bill Gerstenmaier and others here at the table here 
don't know. So when we have an opportunity to bring new young 
folks in and put them to work on our programs. We love that, 
because our overall civil service workforce is capped at 
17,900. We really only can hire new people through attrition of 
older people.
    So it really is, sir, in the spirit of your question, it 
really is both a problem and an opportunity. It is a problem to 
manage it right, so that the more experienced folks pass on 
their knowledge before they leave the agency. But it is also an 
opportunity to get the best and the brightest out of 
universities that teach stuff that sure wasn't known when I was 
going to school.
    Mr. Latham. Well you kind of lead me to my next question. I 
have two universities in the state of Iowa that are members of 
the University Space Research Association. And they believe you 
should spend more on the programs that provide funding for 
hands-on training and research at the undergrad and graduate 
levels. And that would be about one percent of your budget. I 
just wonder whether you agree with that level or not and why?
    Dr. Griffin. I wish I could spend more on everything we do. 
I really do. One of the best things that we can do for young 
scientists and engineers is to provide small instrument design, 
construction, deployment, and operations experiences so that 
they can learn the business. We do have a robust Suborbital 
Program, where payloads are typically smaller, lighter, less 
expensive, and less consequential if lost, which is an 
important thing when you are dealing with young folks.
    Mr. Latham. Mm-hmm.
    Dr. Griffin. Also Alan Stern, to introduce Alan again, our 
Science Mission Directorate, just released within the last 
couple of weeks a request for information about the possibility 
of using commercial space transportation, which is coming along 
as rides of opportunity. That NASA could be an anchor customer 
for such commercial space transportation capabilities, so that 
the instrument and the principal investigator could ride on a 
suborbital space flight and conduct research that we now do on 
unmanned sounding rockets and suborbital projectories. So we 
are paying attention to that. I don't think that I would want 
to allocate more money right now to that program, because 
anything I allocate to one program is money that must come away 
from another. It too has its proponents and adherents.
    Mr. Latham. Do you know about what level it is today? They 
talk about one percent.
    [The information follows:]

        Research Training Opportunities at the University Level

    the university research community is essential for advancing NASA's 
strategic objectives in science and for realizing the nation's return 
on investment from NASA's Earth and space science programs. Discoveries 
and concepts developed by the university research community are the 
genesis of scientific priorities, missions, instrumentation, and 
investigations. Although not always tied to specific missions, the 
tasks funded in the university research community add value to missions 
in the form of post-mission data analysis, observations required for 
mission design, mission observation support, and joint scientific 
campaigns.
    More than two-thirds of NASA sponsored Earth and space science 
research is conducted by the university community. Without this 
research, NASA's expensive science missions would only yield a stream 
of ones and zeros from space. The university research community 
converts the data from NASA's science missions into discoveries, 
knowledge, understanding, and more questions. Those new questions are 
what drive the research and development leading to the next generation 
of space missions.
    The university research community is also an essential partner in 
workforce development for NASA and the Nation. The university-based 
research and technology projects sponsored by Science Mission 
Directorate allow students and post-doctoral researchers to gain 
invaluable NASA science program work experience as part of their 
education and professional training. The suborbital programs 
(airplanes, unmanned aerial vehicles (UAVs), rockets, and balloons) and 
principle investigator-led missions enable students to participate in 
the entire lifecycle of a science mission from design and construction 
to flight and data analysis. These hands-on opportunities lead to 
experiences in problem solving and increased understanding of the 
systems engineering that is the underpinning of successful science 
missions.

    Dr. Griffin. I would have to--I would have to take that for 
the record.
    Mr. Latham. Okay. How are we doing on--Mr. Chairman?
    Dr. Griffin. I don't know what our suborbital program is.
    Mr. Latham. Fine.
    Dr. Griffin. Our student program. But I will get it for you 
for the record.

                     FOREIGN AND DOMESTIC SUPPLIERS

    Mr. Latham. Okay. I think I am just going to do one more 
question. And then I have another hearing. The GAO has noted in 
the past, questions about the percentage of the resources spent 
on acquisition, supplies, and services from foreign suppliers. 
You had a problem tracking--the things that you were 
purchasing. Where they were coming from, etc.
    Have you made any effort in that regard so we get a better 
handle on foreign or domestic suppliers for NASA? It comes from 
the GAO.
    [The information follows:]

                           Foreign Contracts

    In FY 2007, procurement obligations represented approximately 81 
percent of NASA's budget. NASA obligated $14.363B on the acquisition of 
supplies and services in FY 2007, of which $209.4M, or 1.5 percent, was 
related to foreign suppliers.
    NASA relies on information contained in the Federal Procurement 
Data System--Next Generation (FPDS-NG) to obtain information on Federal 
contracts. FPDS-NG provides data on place of performance and vendor 
addresses, allowing NASA to collect reliable information on prime 
contracts with foreign suppliers.
    Further, NASA continues to partner with the Office of Management 
and Budget and other Federal agencies in the development and 
implementation of a Government-wide subcontract reporting system.

    Dr. Griffin. I understand, sir. I understand your question. 
I will take it for the record, and answer it as closely and 
carefully as I can. I am not aware of a problem that we have in 
tracking whether or not we have
    Mr. Latham. The GAO said there is a problem.
    Dr. Griffin. They may say that. We have failed for several 
years in a row to get an unqualified opinion of our audit from 
our independent auditor, because of property tracking 
difficulties with regard to mostly the Space Shuttle programs, 
older property. A lot of that equipment was bought and is still 
in service. It was bought in years in which property was not 
tracked as carefully as we do now. It is possible that some of 
that equipment was purchased from foreign suppliers. It may be 
that to which the GAO refers.
    We are working with our independent auditors to establish a 
means by which we will write down and allocate these properties 
as they are retired from the shuttle program in the next couple 
of years. Then going forward, we should have a very accurate 
property accounting method in place, because all of our new 
property is under our new system.
    Mr. Latham. Yeah.
    Dr. Griffin. And we should be in good shape.
    Mr. Latham. All right. Thank you very much for the work you 
do. And very much appreciate it. Thank you, Mr. Chairman.
    Dr. Griffin. Well thank you for the opportunity to do it. I 
love this stuff.
    Mr. Mollohan. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. And good afternoon, Dr. 
Griffin.
    Dr. Griffin. Good afternoon, Mr. Honda. Good to see you 
again, sir.

        STRATOSPHERIC OBSERVATORY FOR INFRARED ASTRONOMY (SOFIA)

    Mr. Honda. And you. Let me get back to the subject that we 
left on last year in 2007. We had some discussion last time 
around the SOFIA Project. And particularly about the project 
management, structure, and the home for the aircraft. And I was 
wondering whether you had an update on that project, its 
disposition right now?
    Dr. Griffin. Well, NASA has a fleet of research aircraft, 
of which SOFIA is one. We think the proper basing strategy for 
our aircraft to get economies across the fleet is to base the 
aircraft at Dryden. And I have not had a reason to change that 
view. The program management of the SOFIA aircraft is being 
accomplished at Dryden, because it is a major modification of a 
Boeing 747 Aircraft. We are doing that at Dryden. Now, that 
particular aircraft will be hangered in a rental hanger at 
Palmdale.
    Mr. Honda. Right.
    Dr. Griffin. Which from an overall cost perspective made 
sense to do. I think we are running the program properly and 
efficiently. Science operations will continue to be 
orchestrated and managed out of Ames. But with SOFIA, we are 
not in the stage of doing science operations. We are in the 
stage of trying to build, if you will, an experimental 
aircraft. The place at NASA where we build experimental 
aircraft is at Dryden. So I think things are being done in the 
right order and in the right place.
    Mr. Honda. Again, we had that discussion about----
    Dr. Griffin. Yes, sir, we did a year ago. I am sorry, 
things haven't changed.
    Mr. Honda. But the efficiency of location of science and 
aircraft. The concern I had was that I had a communication that 
said that the facility was going to be not available in a 
couple of years. And I understand that plans are already being 
made to do--what to do with the space that they have right now. 
They are making other plans right now.
    Dr. Griffin. Well that is why we rented a hangar in 
Palmdale, because the Edwards Air Force Base hangar facility 
would not be available in a couple of years. So we need to keep 
the aircraft close to the workforce, which is doing the 
modifications. So, Palmdale and Mojave Airport is in that 
general suite of airports that occupy that region of the Mojave 
Desert where we do advanced aircraft development and flight 
testing. So, it seemed the logical alternative for us to go 
there.
    Mr. Honda. So the modification of the aircraft, that is the 
only place you can do that then there and----
    Dr. Griffin. Nothing is so absolute, sir. We----
    Mr. Honda. I was just trying to understand that. Our 
discussion last year was about the facility being appropriate 
and modified for the aircraft. And I didn't remember that that 
was the case.
    And I guess I understand from what you are telling me is 
that the facility is modified. And it is appropriate. And it 
being placed there for the benefit of the aircraft, is 
something that cannot be done at Ames along with the science of 
the program for SOFIA program. And----
    Dr. Griffin. Well, I want to be careful. I mean, with 
enough time and money anything can be done. I could detail a 
bunch of folks from Dryden Flight Research Center where they 
are doing the aircraft modifications. They could be detailed up 
to Ames. But that wouldn't be the most cost effective solution 
for NASA. The most cost effective solution for NASA to manage 
its money and accomplish the SOFIA program is to base the 
aircraft out of Dryden and to modify it there, work on it 
there, and maintain it there.
    Mr. Honda. So are we coming along with that project?
    Dr. Griffin. Well, Alan--I am sorry, Mr. Honda, this is Dr. 
Alan Stern. I would like him to report. You have had several 
successful SOFIA flights this year, right?
    Dr. Stern. Yes, sir. I run the Science Mission Directorate 
for NASA. And SOFIA began its in-flight testing just last year. 
It had a very successful flight test series, which we have now 
wrapped up that phase one series. The aircraft is now in 
modification for door open testing. As you know, this is a 
Hubble Space Telescope Class----
    Mr. Honda. Right.
    Dr. Stern. We have to open a door. It is two and a half 
meters across on the side of the 747. That has never been done 
before. But those modifications, as well as upgrades to the 
telescope pointing system and the infrastructure that it needs, 
are now in process for the open door flight testing that will 
begin later this year. That is on track. We expect by the 
latter part of next year, 2009, to begin science operations 
with the two first flight instruments. I would like to point 
out that we are very proud of that. That previously, just a 
year ago, had someone been here telling me that story, the 
first flight science operations would have been starting a 
couple of years later. We were going to wait for the entire 
suite of instruments to be ready before we began any science. 
We made a change to increase our productivity to begin when we 
had the first two instruments ready, so that we can start to 
become productive and learn how to use this phenomenal 
observatory.
    I would invite you to come out to California, Dryden, and 
take a look at the bird and see it. It is very impressive to 
see a telescope of that size in a mobile platform, the scale of 
a 747. No other country possesses anything like this kind of 
capability. We are really looking forward to turning it on.
    Mr. Honda. So some of the concerns that were mentioned last 
year, I thought it was about its functionality and the 
aerodynamics of the aircraft, because you are going to be 
opening----
    Dr. Griffin. Yes, sir.
    Mr. Honda. So that is all taken care of then or----
    Dr. Griffin. Well we are in the middle of that. We have not 
flown it opening the door in flight. I mean, that is what Alan 
was just getting to talk to you----
    Mr. Honda. How well do you perfect that to be----
    Dr. Griffin. Pardon?
    Mr. Honda. Nothing. I am just----
    Dr. Griffin. Okay. Well, right. I don't want to fly in it 
either until we perfect that. SOFIA is years late. It was not 
well managed earlier on. Starting a couple of years ago we 
began to make changes in how we were managing the project, 
where it was being managed, who was doing it, and getting it on 
a more realistic schedule. That involved relocating the project 
from Ames to Dryden to get the engineering work in the right 
way and changing contractors. We made a lot of changes to the 
program. We have been severely criticized, because any time we 
move a piece of work from one area to another area, it creates 
a lot of angst in the area that it is being removed from. But I 
think the results that we have gotten out of the SOFIA aircraft 
progress in the last year justify the moves and the changes 
that we have made. It is going well. We think it is going to 
continue to go well. We are on top of it.
    We look forward to creating a world-class observatory here. 
This too was a decadal survey priority. We are years late in 
accomplishing it. We are proud of what we have done over the 
last year.
    Mr. Honda. Yeah. I understand the problems. Just for the 
record, I am just trying to make sure that we keep mentioning 
it so that we can track it and meet the benchmarks.
    Mr. Chairman, do I have----
    Dr. Griffin. We are paying attention to SOFIA.

                        NEAR-EARTH OBJECT (NEO)

    Mr. Honda. Okay. Thank you.
    Yeah, the other question, Dr. Griffin, at a hearing on the 
near-earth objects held by the Subcommittee on Space and 
Aeronautics in the fall of 2007, expert witnesses testified on 
the need for the planetary radar capabilities of the Arecibo 
Observatory, to characterize potentially hazardous near-earth 
objects in a timely fashion.
    I have been told that NASA officials have said that NASA 
does not need the Arecibo Observatory. And that optical 
telescopes can provide that necessary data. The language that 
accompanied the 2008 Omnibus Appropriations states that, ``NASA 
is directed to provide additional funding for the Arecibo 
Observatory.''
    Could you elaborate on NASA's position on Arecibo? And has 
NASA met with the NSF on the future of Arecibo? And I think 
that--is it Cornell University that is part of that program 
also?
    Dr. Griffin. Yes, sir, it is. It is Cornell.
    Mr. Honda. Okay.
    Dr. Griffin. Obviously, let me start my answer by saying 
NASA will comply with the law. Now that said, the Arecibo 
Observatory is not a NASA facility, was never a NASA facility.
    Mr. Honda. Right.
    Dr. Griffin. It is a National Science Foundation facility. 
They have concluded they no longer want to maintain it. It is 
more than somewhat frustrating to have someone decide that 
simply because the National Science Foundation has decided they 
no longer need it that NASA should now take care of it. We are 
not the Salvation Army. If we are directed to maintain Arecibo 
in law, then we will do so. But it is not our facility.
    Mr. Honda. Is there other groups that NASA cooperates with 
to move along with projects, or is this one of them?
    Dr. Stern. I am sorry. I didn't quite understand the 
question, sir.
    Mr. Honda. Does NASA have contracts with other 
organizations on projects such as observation of near-earth 
objects and things like that? Is this a situation where we have 
a relationship with the university?
    Dr. Stern. Yes, sir. I am still not quite sure I 
understand. But let me try to answer. You correct me if I am on 
the wrong track.
    Mr. Honda. Okay.
    Dr. Stern. We do quite a bit of research with Near-Earth 
Objects. As you know, we have a goal set by Congress for 2008 
to find 90 percent of the kilometer scale or larger Near-Earth 
Objects that could overtime eventually impact the Earth and 
become hazardous.
    Mr. Honda. Mm-hmm.
    Dr. Stern. We are on track for that goal. In fact, we are 
putting a little extra resources into that this year. The 
detection techniques by which we accomplish that goal are 
optical, not through radar. Radar's primary use with regard to 
Near-Earth Objects is to refine their orbits when they just 
happen to come very close to the Earth where the radar can 
detect them. We have a radar at NASA that we use at Goldstone. 
It is a part of our deep space tracking network for that 
purpose. Arecibo is a National Science Foundation facility that 
can accomplish the same goals. Then Arecibo has a larger 
antenna, so it has some advantage. But for the purposes of our 
program to detect these Near-Earth Objects as mandated by the 
Congress, we need optical instruments, not radar instruments. 
That is why you heard that NASA is not requiring Arecibo as a 
part of its Near-Earth Object portfolio.
    Now in our science programs, we also have some researchers 
at various universities primarily, but also within the Agency 
itself, that are working on the characterization of near-Earth 
asteroids. They use a whole variety of different techniques, 
spacecraft missions. They do use radar from time to time. It is 
useful, spectroscopy, orbit determination, determining their 
spins, their masses. Many of their attributes so that we do 
better understand the objects once we have detected them.
    Again, radar is only one part of that equation and, 
frankly, a very narrow part of that equation in terms of the 
characterization.
    Mr. Honda. Is there someone that I can sit down with and go 
over that, the whole program and the history of the project?
    Dr. Stern. Yes, sir, absolutely. We would be happy to put 
that together for you at your convenience.
    Mr. Honda. Thank you. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. I know you are 
looking at that watch. I don't blame you.
    Dr. Griffin. I am having a bit of trouble with my contact 
lens. I am sorry, sir, go ahead.

          INTERNATIONAL PARTICIPATION IN SPACE STATION PROGRAM

    Mr. Frelinghuysen. No. We are going to have you here for a 
day and a half. I am sure I would like to get into the weeds. 
But I think we are all interested in American preeminence in 
space. It does bother me that even though we have a good 
working relationship with the Russians, I don't like the notion 
that we would be beholden to them.
    I do have a specific question relative to how the Chinese 
are progressing. The European equivalent of our space program 
has been--that they have worked pretty well with us, haven't 
they?
    Dr. Griffin. Europe and the European Space Agency and the 
United States are close partners.
    Mr. Frelinghuysen. Very close partners.
    Dr. Griffin. Yes, sir.
    Mr. Frelinghuysen. And we are working pretty closely with 
the Japanese in terms of their offering to the plate.
    Dr. Griffin. Very much so, sir.
    Mr. Frelinghuysen. So our working cheek by jowl with 
these--with our European allies and those in the Pacific.
    Dr. Griffin. As well as Canada, sir.
    Mr. Frelinghuysen. We have a lot of credibility on the line 
here. Not only on our own behalf, but to some extent we have 
promised them.
    Dr. Griffin. That is absolutely the case. The European, 
Japanese, and Canadian participation in the Space Station 
Program, as well as, many participatory activities in our 
robotic science program. Really is contingent upon the United 
States keeping its word, meeting its obligations and 
commitments to those partners for the things that we do 
together.

                         CHINESE SPACE PROGRAM

    Mr. Frelinghuysen. I don't mean to mix apples and oranges 
here. But, you know, what comes to mind is, what is it, 
``Rising Above the Gathering Storm,'' the Augustine Report. And 
I guess you are not specifically part of that. But to me you 
are part of that. You are part of, a very important part of, 
our scientific foundation.
    The thought that somehow we would be outflanked in space by 
the Russians on one hand and a very aggressive, you know, 
Chinese program. Can you talk a little bit about--you have been 
to China?
    Dr. Griffin. I have, sir.
    Mr. Frelinghuysen. You discussed the general goals and 
achievements of the Chinese space program. Where do you see the 
Chinese at this point?
    Dr. Griffin. Well, China, with its first human mission back 
in 2003, accomplished at one stroke all of the goals of the 
U.S. Mercury Program 40 years ago, which was six space 
missions. With their second human mission, they got through 
half of our Gemini Program of the mid-1960s. Their third 
mission will essentially accomplish most of the remaining 
Gemini Programs. So the Chinese are taking very careful steps, 
very carefully plotted, strategically plotted. They will be 
putting up a three-man crew after the Beijing Olympics as they 
have claimed. And I believe them.
    Mr. Frelinghuysen. And this in itself in the general sense 
is all about stature? The world view----
    Dr. Griffin. I think it is about strategic position in the 
world.
    Mr. Frelinghuysen. Yes.
    Dr. Griffin. Yes, sir.
    Mr. Frelinghuysen. They are doing to some extent I guess 
what the Russians are doing. They are partnering with a lot of 
countries around the world that may have, you know, minimal 
potential for space exploration. But they are giving them an 
opportunity should we say to put their flag in space.
    Dr. Griffin. China is forging space partnerships with 
otherwise uncommitted nations. That is correct, sir.
    Mr. Frelinghuysen. How would you describe the power and the 
force of how they are getting into space compared with our our 
program?
    Dr. Griffin. Well they are developing--is it----
    Mr. Frelinghuysen. Are they leap frogging in that sense as 
well?
    Dr. Griffin. I wouldn't say leap frogging. I would say 
catching up. China is doing the things in space that you would 
expect a great power to do. They are developing as we speak, a 
new launch vehicle called the Long March 5. It will have 
essentially the same capability, maybe slightly more, as our 
Ares 1 and Orion vehicle, capable of taking Americans back into 
Earth orbit after we retire the shuttle.
    So they are developing that. They will have it available by 
2013 so they say. Again, I believe them. So they are catching 
up.
    Mr. Frelinghuysen. It is interesting and important. Then if 
you tie in what I assume is a military aspect, which they don't 
have I think the degree of separateness that we do, we are 
talking about a highly committed effort.
    Dr. Griffin. I would not be the one to comment on their 
military efforts. But certainly the Chinese space program as a 
whole, evidences everything you would want to see in--a program 
and they are very committed. They are very committed.
    Mr. Frelinghuysen. What do you know about how much money 
they are spending?
    Dr. Griffin. I don't know that figure. In response to 
several different requests I made at several different times in 
meeting with the Chinese space officials, here and there, they 
claim with great consistency that they have about 200,000 
people working on their space program.
    And for reference, NASA----
    Mr. Frelinghuysen. Do they have a system of standards like 
we have?
    Dr. Griffin. They do.
    Mr. Frelinghuysen. I assume they have----
    Dr. Griffin. They do. And NASA----
    Mr. Frelinghuysen. They have broken it down I assume. They 
have done a pretty good job of----
    Dr. Griffin. I----
    Mr. Frelinghuysen [continuing]. If not----
    Dr. Griffin [continuing]. Think they have.
    Mr. Frelinghuysen. Doing their own innovation, they 
obviously have done some degree of their own, should we say, 
reverse engineering? And I suspect some degree of espionage.
    Dr. Griffin. Well I don't know about that. I see plenty of 
evidence that they are entirely capable of having created what 
they have done on their own. I mention the level of their 
support to their program, which they claim to include about 
200,000 people. They have claimed that on several occasions. 
Our NASA budget supports about 80,000 people.
    So clearly they are focusing a very intensive effort on 
their program.
    Mr. Frelinghuysen. See as we wrestle with your budget 
numbers if you frame it to the American people, the potential 
for us to be dependent on the Russians, and a very aggressive 
Chinese program, this is a whole issue of American preeminence. 
Maybe that is expressed in the President's vision. But it is 
certainly inherent in what you are all about, making sure that 
we are second to none.
    Dr. Griffin. Certainly that is our goal.

                            TRANSITION COSTS

    Mr. Frelinghuysen. I just want to get back to the 
transition costs issue. We started down that path.
    Dr. Griffin. We----
    Mr. Frelinghuysen. We are familiar with what the GAO says 
you should have been doing over the last couple of years, 
reflecting more of those costs in your budget figures. Is there 
something in the offing in future years?
    Dr. Griffin. Well, I am going to let Bill Gerstenmaier 
comment on transition costs. But broadly speaking, transition 
costs through fiscal year 2010, are captured in the Shuttle 
budget, because they form part of the current Shuttle program. 
After the Shuttle retires, it is our goal to keep those 
transition costs as low as we can keep them. We are not putting 
figures out there, which represent an entitlement.
    Mr. Frelinghuysen. If we can't put figures out there, 
because they represent an entitlement, and you are telling us 
that those figures are within your existing budget?
    Dr. Griffin. They are a lien against the Constellation 
budget.
    Mr. Frelinghuysen. Yes.
    Dr. Griffin. Okay. So the money is there. It is a lien 
against the Constellation budget. We obviously desire to keep 
the transition and retirement figures as low as possible.
    Mr. Frelinghuysen. And you are working to drive those costs 
down.
    Dr. Griffin. We are, sir. Bill, do you have any more 
comments?
    Mr. Frelinghuysen. We had quite an extensive discussion 
with the GAO. And, we are not necessarily buying everything 
they say. But this is one of those issues that I think is 
worthy of some public discussion.
    Mr. Gerstenmaier. Again, I would just say as Mike 
reiterated to you, through FY 2010, it is in the Shuttle 
budget. Then we have a lien for the transition activities 
beyond FY 2010. It is our goal to try to drive those down as 
low as we can. One thing that is nice about the way we are 
doing business is a lot of our systems will hand over directly 
to Exploration. For example, our pads will go to Exploration, 
the Vertical Assembly Building will go to Exploration, our test 
stands at Stennis will go to Exploration. So the transition 
costs associated with those are really not very big. I mean, 
that hardware, those physical facilities, those personnel, they 
actually transition directly to Exploration.
    So what we have been doing is going through very 
methodically all our facilities, all our major areas, and 
trying to identify where there is a unique item that actually 
has to be retired or disposed of. Then we are looking at the 
most creative and most effective way to do that disposition of 
that hardware, that physical asset. We are looking at ways to 
reduce those costs. Several years ago, when we first had our 
cost estimates, they were fairly large. But we have those. In 
the first year, we will probably have them again. But now we 
are at the point, where I think, we have got that budget 
understood sufficiently through this next budget cycle to bring 
forward and resolve it with Exploration. But we are motivated 
to bring that down as low as we can, because for every dollar 
that we spend on transition costs----
    Mr. Frelinghuysen. Yes.
    Mr. Gerstenmaier [continuing]. That is a dollar we do not 
get to spend on Exploration and doing the things that we really 
want to go do. So we didn't want to create a program. We didn't 
want to create a group whose responsibility was to go do that 
activity until it was absolutely----
    Mr. Frelinghuysen. We don't want to drag on your budget. 
But that is one of those issues.
    Mr. Gerstenmaier. I think we may not have the budget 
defined as well as GAO would like, as it looks at us. But, if 
you look at the processes, the procedures we have got in place, 
the identified work, the amount of discussions, and activities 
that are occurring, I think it is a very sound program for 
transition that sits under there.

                          INDEPENDENT AUDITORS

    Mr. Frelinghuysen. Just one last question, which may not be 
related. The independent auditors that somebody referred to 
earlier, what-- those are independent auditors. I mean, they 
are, you know, outside auditors that take a look at the----
    Dr. Griffin. Yes, sir. They are external industry auditors 
that----
    Mr. Frelinghuysen [continuing]. These are auditors that are 
intimately familiar, obviously, with this industrial base, or 
how would you characterize who these people are? Are they 
firms? Are they contracts?
    Dr. Griffin. Well, I know who it is. I mean I didn't 
necessarily want to say names. Ernst & Young are our----
    Mr. Frelinghuysen. Yes.
    Dr. Griffin [continuing]. Independent auditors.
    Mr. Frelinghuysen. No harm in giving them----
    Dr. Griffin. Okay.
    Mr. Frelinghuysen [continuing]. In making that public.
    Dr. Griffin. We have been working with them for years. 
Again, when I came to NASA, we were in a position where our 
financial status, in terms of our quality of our audits, was 
red. We have worked over the past three years to improve that. 
The current position that we are in is that everything is 
pretty much okay, except for property management. Specifically 
in property management, the Space Shuttle assets that have been 
acquired over 35 years.
    Mr. Frelinghuysen. This is a lot of stuff.
    Dr. Griffin. It is an awful lot of stuff. As we write it 
off our books----
    Mr. Frelinghuysen. And it is all over the place.
    Dr. Griffin [continuing]. Exactly right, sir. So it is all 
over the place geographically. It is an awful lot of stuff. It 
is three-and-a-half decades old in heritage. Frankly, if it 
wasn't book kept properly at the time, and it wasn't, I can't 
fix it retroactively. Even our auditors agree that we can't fix 
it retroactively. So what we have to do, going forward, utilize 
the property management system that we have in place for all 
new assets. As we retire the Shuttle, we have to write these 
things off our books and dispose of it in that way. Then we 
will finally, finally have a clean audit opinion.
    Mr. Frelinghuysen. Great. Thank you, Mr. Chairman.
    Mr. Mollohan. Mr. Schiff.
    Mr. Schiff. Mr. Chairman, I was wrong about the order. So 
please I defer to my Chairman.
    Mr. Mollohan. No, no, no. Mr. Schiff, go ahead. I insist.

                          OVERALL BUDGET CUTS

    Mr. Schiff. It is not good to supersede the Chairman. I had 
a couple of quick questions that I wanted to pose, and I know 
we have to run off to vote.
    This gets back in part to the Chairman's comment about what 
cuts are necessitated by the overall size of the budget. I am 
sure that it wasn't the intent of the National Academy in 
giving Mars Program an A and Earth Sciences a D, to bring all 
the programs down or up to a B minus by cutting funding for one 
to augment funding for another. I am sure that was not their 
intent. And I wouldn't want to see us go in that direction. I 
do appreciate what you are doing in the Earth Sciences. I think 
it is necessary and desirable.
    I think it does get back to the Chairman's point though 
that we need to make a broader investment so we can get A's on 
everything, but I do want to compliment you on the Earth 
Sciences work. I particularly appreciate the investment in SMAP 
and the scheduled launch in fiscal year 2012, the other 
missions recommended for the Earth Science, and the CATO Review 
thereafter.

              PLUTONIUM AND THE IMPLEMENTATION OF HSPD-12

    One of the two questions I want to ask is on the issue of 
plutonium. We are heavily reliant on the Russians to get our 
people into space, and we are also heavily reliant on them with 
plutonium.
    I am interested to know how much are we paying Russia for 
this. I also know there was a study commissioned in our last 
Appropriations bill to have the National Research Council 
conduct the review of what our nuclear power needs are for NASA 
missions, so if you could comment on that.
    The other issue that is quite unique--well, not unique to 
JPL but it is very significant in JPL. I know as you know many 
of the staff at JPL are concerned with NASA's implementation of 
HSPD-12. Some have filed suit, and I am not going to ask you to 
comment on the litigation.
    I do understand that other federal agencies, including the 
Energy Department and the National Science Foundation have 
interpreted HSPD-12 in a way that doesn't mandate contractors 
working on non-sensitive work to comply with HSPD-12. I would 
be interested to know why NASA is interpreting this directive 
differently than these other agencies.
    Dr. Griffin. I am sorry. I have to say that I can't tell 
you why NASA or why other agencies are interpreting HSPD-12's 
requirements as they are.
    NASA's plan was carefully reviewed with Justice Department 
and OPM before going forward with it. So we think our plan 
complies with the law. Of course, you are aware there is a 
legal challenge ongoing at the moment to decide whether or not 
that is true.
    Mr. Schiff. I would assume those other agencies also----
    Dr. Griffin. I----
    Mr. Schiff [continuing]. Conferred with Justice to make 
sure what they were doing was appropriate. I would like to 
follow up with you if I can and with the other agencies. I 
understand you are trying to comply with the law, but I think 
that we may be asking employees for information that we don't 
need. We are working on matters that aren't sensitive, and 
perhaps the other agencies have a more appropriate application 
of that directive.
    Dr. Griffin. Possibly. The matter is under litigation. What 
I can say is limited. But it would not surprise me if other 
agencies believed that what they were doing was not necessarily 
very sensitive. Whereas those who touch information technology 
facilities and aerospace facilities, as you know, aerospace 
technology is more carefully controlled than other technologies 
in this country. We have ITAR and export control limitations 
that specifically apply to aerospace technologies that do not 
apply to other sectors.
    So it would not surprise me that the details of working at 
JPL require a determination that employees are in more 
sensitive positions than might be the case for other agencies.
    We are not trying to impose any requirements beyond what we 
believe the law requires for HSPD-12.
    Mr. Schiff. I am sure that frankly there are people at the 
Energy Department that are working on sensitive national 
security issues that are of equal significance as those being 
done at JPL. I will follow up with you on that.
    If either of you have time to make a quick comment on the 
plutonium issue. Then I know we need to----
    Dr. Griffin. Yes, sir, I can. In 1988, the United States 
made a conscious decision to stop producing plutonium 238. Now 
since that time, DOE has been able to maintain a capability to 
refine it but not to produce new stuff and to encapsulate 
existing plutonium that we get, for example, from Russia. Now 
under the Atomic Energy Act, DOE, not NASA, is responsible for 
producing plutonium for all Federal government users, including 
NASA, but for all government users. So we have been using so 
far the plutonium 238 in the inventory. We are basically, you 
know, nearly out of that. It is not enough, after the Mars 
Science Laboratory, launches down at JPL, we are basically out 
of plutonium for--sorry, you are shaking your head.
    Mr. Stern. But we do have sufficient plutonium in the 
inventory for MSL, the stuff Dr. Griffin just mentioned, in 
addition for the outer planet flagship. For one additional 
small nuclear mission, Discovery demonstration of new nuclear 
technology.
    Mr. Schiff. If I could, I will follow up with you both on 
this tomorrow.
    Dr. Griffin. Okay.
    Mr. Schiff. I don't want my Chairman and Ranking Member to 
miss a vote on my account. That is the last thing I want to do.
    Dr. Griffin. Oh, okay.
    Mr. Schiff. But thank you.
    Dr. Griffin. Anyway, looking ahead, plutonium is in short 
supply. We will talk to you about that tomorrow.
    Mr. Mollohan. Doctor, we have four votes in a series of 
votes. That will take us probably until about--we couldn't 
resume till about 4:30. So we are going to recess the hearing 
until tomorrow at 10:00. And we will reassemble at B-313 in the 
Rayburn-- I am sorry, B-318 in the Rayburn Building.
    Thank you for your testimony here this afternoon.
    Dr. Griffin. Thank you, sir. We will see you tomorrow in 
Rayburn B-318.
    Mr. Mollohan. So we are in recess.
                                           Thursday, March 6, 2008.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                                WITNESS

MICHAEL D. GRIFFIN, NASA ADMINISTRATOR

                             PLUTONIUM-238

    Mr. Mollohan. The hearing will resume. And we would like to 
welcome back this morning Dr. Griffin and the NASA panel, 
welcome. Thank you all for returning.
    Let me ask the Administrator if he will elaborate, if he 
needs to, on the question Mr. Schiff asked at the end of the 
hearing yesterday when we had to go for a vote regarding the 
availability of plutonium. I think you may have been in the 
middle of an answer, Doctor, and if you want to answer here 
before us or for the record, we would like to give you an 
opportunity to elaborate.
    Dr. Griffin. Thank you sir, yes, we were right in the 
middle of answering that question when the call for a vote 
came, and so I think we left you hanging. Let me tie a bow 
around that if I might. I will provide a full answer for the 
written record. But briefly the situation is that we shut down 
plutonium-238 production for space power sources in 1988 as a 
matter of national policy at that time. We had a substantial 
inventory in the United States. That inventory has been 
gradually depleted. We have made purchases from Russia, from 
their plutonium inventory. They have advised us that they are 
down to their last 10 kilograms of plutonium. So between U.S. 
and Russian inventories, we are now foreseeing the end of that 
production line. We, at this point, have only the capability in 
the United States to refine existing plutonium-238. We cannot 
make new material. NASA has enough available now for the next 
Discovery mission and the outer planets flagship that I spoke 
of yesterday that is a high priority for the Academy of 
Sciences. When those missions are allocated, we have no more.
    It takes about seven years to bring new plutonium-238 
production on line from the day we start. I would remind 
everybody that plutonium production is not a NASA charter. That 
is a DOE responsibility. But we are told by DOE that it takes 
about seven years to bring capability on line from the start. 
So therefore, if we were to start sometime in Fiscal Year 2009, 
the earliest date we could have new plutonium for space power 
applications would be 2016, around the time we would like to be 
starting Mars sample return or another Mars Rover mission, 
which would need such plutonium. And in any case, if we want to 
do any scientific missions past the orbit of Mars, we would 
need new plutonium. So the Planetary Science Program would be 
severely hampered if we do not get that production restarted.
    Now again, I would remind everybody that NASA is a customer 
in this, not a supplier. It is not our facilities or our 
production or our production money; we would need, at the 
national level, to get DOE to restart that production. More of 
the details I would like to furnish for the record. So I think 
that finishes up Mr. Schiff's question.
    [The information follows:]

                             Plutonium-238

    The Department of Energy (DOE) and NASA have worked closely 
together to assure that the missions identified in the FY 2009 budget 
request have adequate Plutonium (Pu-238) by using any domestically 
stockpiled Pu-238 and augmenting the supply with Russian produced Pu-
238.
    NASA is currently using DOE's contract with the Russians for the 
purchase of Pu-238.
    NASA relies on DOE's contract with the Russians for the purchase of 
Pu-238. NASA is in the process of purchasing 10 kg of Pu-238 from 
Russia suppliers. Five kg will be purchased before the end of FY 2008 
and five more in FY 2009, even though NASA will not use this supply for 
a number of years. By purchasing the Pu-238 as early as possible, then 
NASA is comfortable with moving ahead with its plans for missions that 
will require Pu-238 heat-conversion power systems.
    NASA is evaluating the need for nuclear energy sources for the 
lunar surface. While it is still formulating its lunar architectural 
needs, NASA is considering that Radioisotope Power Systems may provide 
an important power source for enabling mobility for human explorers on 
the lunar surface. NASA Exploration Systems Mission Directorate will 
work with the Science Mission Directorate and the Office of the Chief 
Engineer to develop an overall Agency strategy to engage the DOE to 
acquire the Plutonium-238 that may be needed to meet NASA needs.
    NASA's exploration technology development program also has a 
Fission Surface Power Systems project that is examining technologies 
that might enable the development of a nuclear fission reactor for 
potential use on the lunar surface. The fission surface power system 
project would utilize uranium, not Pu-238, as the nuclear fuel.

    Mr. Mollohan. What are the timelines involved with that? 
You are able to do what you----
    Dr. Griffin. Well, the Outer Planets Flagship would fly 
when, Alan?
    Dr. Stern. 2016 or 2017 depending on the final choice of 
target.
    Dr. Griffin. The next Discovery mission that we have 
completed would be 2013?
    Dr. Stern. 2013-2014.
    Dr. Griffin. 2013-2014, right. So we would fly a mission in 
2013 or 2014, and another in 2016 or 2017 with the inventory we 
have, and after that there will be no more. Obviously that is 
an issue for our Science Program.

                  AMERICAN COMPETITIVENESS INITIATIVE

    Mr. Mollohan. Thank you. You know, everybody understands 
that you have worked very hard to ration your resources in a 
way that allows you to do the vision and then to fulfill the 
other missions that NASA is charged with fulfilling. A lot of 
people would like to have more resources for NASA to spend more 
money, and not only on the exploration activities but on 
science and education and aeronautics, principally. But the 
requests forthcoming from the Administration do not seem to be 
responsive to that, so we have to conclude that the 
Administration does not agree with that. But certainly the 
Congress has, and the President has signed the America Competes 
Act. And it clearly states that NASA should be a full 
participant in any interagency effort to promote innovation and 
economic competitiveness, which was the focus of that.
    Your budget request cuts aeronautics, cuts science, cuts 
education; I think I am right in all of that. And NASA Science 
Programs, am I wrong in that?
    Dr. Griffin. I do not think we cut Science, sir.
    Mr. Mollohan. Science is not cut? It is flat. It is flat 
out the next several years, yes. But the, so but NASA's 
programs are not a part of the American Competitiveness 
Initiative. Is there any reason why NASA programs should not be 
a part of the American Competitiveness Initiative? Is there 
some intrinsic aspect to NASA science, NASA research, NASA 
technology development, that would justify its not being 
included?
    Dr. Griffin. No sir, there is no intrinsic reason for that. 
In the end, since the President's initiative must be enacted in 
legislation, it is a judgment that the Congress must finally 
make. But the rationale on the Administration's part for 
leaving NASA out of it, and I did have this discussion, was 
two-pronged. The first was that the kind of science that we do 
at NASA is not immediately productive of the kinds of results 
that enhance American competitiveness. It is world class 
science, by any measure. But it does not result in near-term 
enhancements to our economic competitiveness as a nation.
    Mr. Mollohan. Really? I mean----
    Dr. Griffin. Well, that was the view, sir. I mean, when we 
do planetary science, when we investigate the geology of Mars; 
when we study the physics of the sun, those things are 
extremely interesting and very important to know, but they do 
not speak directly to economic competitiveness.
    Mr. Mollohan. You know, I do not have all the examples in 
my head but there are a lot of examples that NASA touts that 
get transferred, the technology that they develop gets 
transferred, and I know that is a real part of your actual 
statutory mission is to transfer that technology.
    Dr. Griffin. Yes sir, it is.
    Mr. Mollohan. I would bet that NASA transfers, I do not 
know how you would measure this, but I bet NASA transfers more 
technology over the years than a number of the agencies that 
are a part of the American Competitiveness. Maybe that is not 
right, but----
    Dr. Griffin. No, that is probably true. Yesterday, Mr. 
Ruppersberger referred to our research and development 
missions, and he is not wrong. We do one-of-a-kind things that 
have never been done before. In the process of inventing those 
things we invent new technology and new processes, and we do 
transfer that technology out. So that part does go to American 
competitiveness.
    Mr. Mollohan. And all of the aeronautics activity.
    Dr. Griffin. Of course all of the aeronautics activity.
    Mr. Mollohan. I mean that is, as I understand it, 
directly----
    Dr. Griffin. Yes, sir. But the other part of the rationale 
was that NASA is already being well treated within 
Administration funding. As I have pointed out earlier, NASA's 
funding from the Administration has been essentially level with 
inflation, whereas broadly speaking domestic, nonnational 
security domestic discretionary programs have actually been 
reduced across the board.
    Mr. Mollohan. So there are two rationales. The first one we 
do not have to necessarily completely agree with.
    Dr. Griffin. Correct. And the second one is----
    Mr. Mollohan. The second one is relative and----
    Dr. Griffin. It is a matter of----
    Mr. Mollohan [continuing]. It does not mean this funding is 
adequate.
    Dr. Griffin. Correct. The ACI, as proposed by the 
President, was intended to address those agencies where funding 
was perceived not to be adequate. Now, again, it is the 
judgment of the Congress as to what is adequate and what agency 
should or should not be included in the initiative, and we 
understand that. But if you ask why NASA was not initially 
included in the ACI, it was because of those two reasons.
    Mr. Mollohan. I think it makes an additional very good 
argument, and a politically correct argument at this point in 
time, to talk about NASA's contribution to American 
competitiveness and argue that it should be a part of the 
American Competitiveness Program. If not initiated from the 
Administration, a good argument is for the Congress to consider 
additional funding for that purpose. Mr. Frelinghuysen?
    Mr. Frelinghuysen. Thank you, Mr. Chairman, good morning.

                           GAO ACCOUNTABILITY

    Mr. Mollohan. Good morning, Mr. Frelinghuysen. As I 
mentioned yesterday, we heard testimony last week from the GAO 
on what they see as the highest areas of challenge and risk for 
NASA. I would like your reaction to what they had to say, and 
to summarize their overall assessment, which is not necessarily 
mine. I would like your reaction. I must say to be cooped up 
with them for a couple of hours and for them to go over your 
budget, I am not sure I would wish that on anybody. But it was 
an interesting exercise and I learned a lot. And so here we go 
here. Your large scale projects are costing more and taking 
longer to delivery than earlier envisioned. You are pursuing 
more projects than you can afford over the long term. And 
estimates for the Constellation Programs and International 
Space Station are highly optimistic and unreliable. How would 
you respond? Do you agree that those are the foremost 
challenges you are facing? And if so, what NASA is doing on 
addressing those challenges?
    I am not doing this to irritate you. And I understand, you 
embody risk taking, exploration. GAO embodies, and I am not 
knocking it, predictability, green eye shades, you know, supra 
analysis. I would like your reaction, overall reaction to their 
views.
    Dr. Griffin. Thank you, sir. I am sorry if my body language 
conveyed irritation. You actually have a constitutional right 
to irritate me, so feel free.
    Mr. Frelinghuysen. No, no. These are questions that are out 
there. If you look at the GAO report, they are substantive. And 
we have sort of got, you know, the camel's nose under the tent 
a little bit yesterday. And I think you should have an 
opportunity to respond and react.
    Dr. Griffin. Thank you. Let me try to do that. First of 
all, I flat disagree with those assessments. Specifically to 
Constellation, we are at the early stages of the Constellation 
Program with several goals. The first is to replace the Space 
Shuttle as a means of access to Earth orbital space by U.S. 
astronauts. Then from there, we proceed to the Moon. Now, 
obviously we are not into the lunar construction phase yet. We 
are into the phase of constructing systems to replace the 
shuttle. Yesterday, prior to coming to this hearing, I was in a 
budgetary and programmatic review on a piece of that system. It 
is going extremely well. Its contracts have now been let. 
Excellent progress is being made. We are a couple of years into 
the program. We are not seeing, nor are we forecasting, 
overruns. We are not having major technical problems. We are 
having minor technical problems that one expects in a 
development program. The programs are going as well as anything 
I have seen. I have been in this business for 37 years to this 
point. These programs are large programs, and at this stage of 
the game they are going very well. The early stages of a 
program are the most dangerous. The period of time when you are 
setting them up and beginning execution is when you sow the 
potential seeds for trouble later on. I think the folks who are 
executing them are doing very well.
    We are, at NASA, for the first time in NASA's history, now 
using statistical budget estimation tools, and we are giving 
these estimates to Congress. We are giving Congress and our key 
appropriations and oversight committees schedule estimates that 
are budgeted at the 65 percent confidence level consistently 
across the board on Constellation programs, and that is a major 
improvement in the quality and predictability which the GAO 
seeks. We are giving you a major improvement in the quality and 
predictability of our budget estimates. We are telling your 
staff, and our other stakeholders, exactly how we are arriving 
at those estimates and what they mean.
    When it is said that our large programs are slipping and 
are over budget, there are two of those that I can think of 
that would fit in that category, but I do not regard either 
program slippage as fatal or even close to it. One is the James 
Webb Space Telescope. In my first days as the new Administrator 
three years ago, my management team was presented with an 
overrun for James Webb. The Program was originally scoped at 
$2.2 billion and we received a $1.4 billion increase. We 
budgeted within the NASA Science Program, we deferred some 
other missions to fix James Webb's budgetary problems, which, I 
will emphasize, do not reflect a failure of execution on the 
part of the James Webb Telescope team. Phil Sabelhaus, one of 
the best program managers we have, works at Goddard. The 
Program is going well. It was under-budgeted. It is not being 
poorly executed, it was under-budgeted. We fixed that.
    The Mars Science Laboratory is experiencing a cost growth 
as they approach spacecraft integration. In Senator Nelson's 
hearing yesterday I indicated the cost growth was about $175 
million. If that changes we will let you know. It is a $1 
billion program. It is a planetary flagship mission. It does 
things that never before have been done. The cost growth, while 
regrettable, is understandable. Again, I look at the project. 
The project is not doing anything wrong. The initial budget 
estimates, made years before my time, may well not have been as 
accurate as they could have been so when the GAO talks about 
cost growth, what I want to talk about is obtaining more 
realistic estimates.

                          REBASELINED PROJECTS

    Mr. Frelinghuysen. They are critical of what they call your 
use of rebaselining and obviously there are appropriate reasons 
for that. Where is it appropriate?
    Dr. Griffin. If we believe that a program has changed 
sufficiently in its budgetary estimates and schedule 
projections the old ones are no longer relevant, we try to 
explain to you what we are doing, then yes, we do rebaseline 
the program.
    Mr. Frelinghuysen. They seem to feel that the practice of 
rebaselining is being overused to the point where it becomes 
impossible for them or anyone else to assess how much a project 
has deviated from its original estimate. And if you look at the 
original estimates, I mean in some cases they are minimal. 
Maybe they were underestimated.
    Dr. Griffin. I think that is often the case. I have worked 
very hard over the past three years to put a stop to the 
practice, and I think our team at NASA is fully subscribed to 
producing for you better estimates so that rebaselining can be 
reduced.
    Mr. Frelinghuysen. Could you talk a little bit----
    Dr. Griffin. In any case, we are completely transparent 
about what we are doing.
    Mr. Frelinghuysen. I am sure you are. Can you explain when 
and why you rebaseline projects? And what have you done to 
improve your original cost estimates and to improve the 
transparency of deviations from those estimates?
    Dr. Griffin. When and why we would rebaseline generally 
comes to what I said just a moment ago. Let me expand on that a 
little bit. If we think in the course of execution, if a 
project has deviated sufficiently, and it is a soft criteria, 
but if it has deviated sufficiently from its initial ground 
rules and assumptions as to schedule and cost, or maybe 
technical content that it will deliver, then it no longer 
becomes productive to track deviations from the original 
baseline and we need a new plan.
    Mr. Frelinghuysen. Well sometimes, when you have a new plan 
the original figure sort of goes off into history and it gets 
forgotten, except I guess by GAO.
    Dr. Griffin. I regret that. We keep track of it, and I 
regret it if that is regarded as a loss of transparency but 
that is not the intent.
    Mr. Frelinghuysen. Well, I serve on the Defense Committee. 
These types of things happen all the time for defense programs, 
that somehow GAO has a better way of tracking just defense 
programs and the development of different platforms than they 
do.
    Dr. Griffin. It actually happens less often with us.
    Mr. Frelinghuysen. Yes.
    Dr. Griffin. Now, as to what we have done to try to get a 
handle on that, again, I think the adoption of probabilistic 
budget estimation techniques with delivery dates at a 
consistent competence level, as well as explaining that to 
Committee staff and working with folks, affords an entirely new 
level of transparency to our budgeting process and cost 
control, which we have never had at NASA.

                       INDEPENDENT COST ESTIMATES

    Mr. Frelinghuysen. When and under what circumstances do you 
get independent cost estimates?
    Dr. Griffin. On the establishment of any new program, at 
any rebaselining exercise that is necessary, and we track 
programs continuously throughout their life cycle with 
independent cost estimates.
    Mr. Frelinghuysen. Well, GAO did recommend the adoption of 
new cost estimating best practices to you.
    Dr. Griffin. Which we are doing.
    Mr. Frelinghuysen. Yes, which you are doing. And are you 
including tracking the original estimates through the life of 
the program? Is that being done?
    Dr. Griffin. We certainly track the original program 
estimates through the life cycle. We absolutely do know 
internally how the programs have grown with respect to the 
original cost estimates and we try to understand why they have 
grown so that we can avoid whatever mistake was made in the 
future. Sometimes it is an execution mistake. I made reference 
yesterday to the APS sensor on the Glory Mission.
    Mr. Frelinghuysen. Yes.
    Dr. Griffin. That particular sensor is very late and it is 
causing cost growth throughout the program. We have tracked 
that and we understand it. We are monitoring it and we are 
working with the contractor to fix it. Other times, no one has 
done anything wrong, but the original estimate was low. We want 
to understand that because it is our goal to produce better 
estimates. This is not a one size fits all----
    Mr. Frelinghuysen. I understand that.
    Dr. Griffin [continuing]. Kind of a scenario. There can be 
different reasons for cost growths. For example, a year ago we 
got a Continuing Resolution, which meant that some programs 
which were counting on additional money, had to be delayed a 
bit.
    Mr. Frelinghuysen. Yes.
    Dr. Griffin. When you delay a Program you increase the 
cost.
    Mr. Frelinghuysen. You mentioned stability is so essential 
to your critical mass of all of these programs.
    Dr. Griffin. One of the best examples of how NASA is able 
to control costs occurred more than 15 years ago on one of our 
largest efforts, when we replaced the Shuttle Challenger which 
was lost in 1986. In the late 1980's we replaced it with 
Shuttle Endeavor. The money for Endeavor was appropriated all 
at one time and the project finished ahead of time and under 
budget. When we have stability of requirements and stability of 
funding and stability of purpose, we are able to perform and we 
are able to perform well.
    Mr. Frelinghuysen. Well those were the, I will not say the 
good old days, when there was more money available so now we 
are counting on you to do more, apparently, with a lot less. 
Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Frelinghuysen. Mr. Aderholt.

                    ADEQUATE FUNDING FOR EXPLORATION

    Mr. Aderholt. Thank you, Mr. Chairman. Thank you, 
Administrator, for being here. Thank you for your time before 
the Committee. One thing that I wanted to just inquire about 
and you may have, you have alluded to it a little bit but I did 
want to follow up and maybe asked a little bit more about it, 
was the concern about NASA and its request for adequate funding 
for exploration to return to the expected launch date of Ares I 
in 2014. And it looks like the request for the funding for that 
was not as much as many of us would have liked to have seen. It 
appears that the requested funding for the fiscal year 2009 is 
the same as was projected over a year ago before the fiscal 
year 2007 CR reduced the funding by $500 million. Given that it 
is critically important to minimize the gap between the 
shuttle's retirement and Ares beginning, I just wanted to know 
your thoughts and how you would respond to NASA's not being 
increased to the amount, or the request being increased to the 
amount, to compensate for the lost money that was from the 
fiscal year 2009 CR. Or I am sorry, the fiscal year 2007 CR.
    Dr. Griffin. Yes sir, I understood what you meant. Thank 
you. The only thing I can say is I serve the President and I 
support the President's budget. Extensive discussions were held 
within the Administration on whether we would request the 
additional money to compensate for the delay introduced by the 
CR into the Exploration Systems development. The final decision 
was that the Nation has other priorities which outweigh that, 
so the request for additional funding to counteract the effects 
of the CR in 2007 was not made. So the Administration chose to 
accept the 6-month delay to the Shuttle replacement systems, 
Orion and Ares, rather than request the extra funding to 
compensate the CR.
    Mr. Aderholt. So basically this in no way minimizes the cut 
that happened in fiscal year 2007. The cut that did occur is 
something that is there and you are by no means saying it is 
not an issue that has to be dealt with, it is just this is the 
way that you all chose to move forward at this time?
    Dr. Griffin. That is correct, sir. The choice was made to 
accept the damage which was done.
    Mr. Aderholt. But still recognize the damage is there?
    Dr. Griffin. Still recognizing that it is damaging, yes 
sir, of course.

                       U.S. PRESENCE ON THE MOON

    Mr. Aderholt. I have heard that there are some rare 
minerals on the Moon that may provide further justification for 
building some kind of permanent outpost there. Just if you 
could take a second and talk about what a permanent presence on 
the Moon would mean, and would mining be a part of that, and I 
will just open it up to get your thoughts on that.
    Dr. Griffin. Well, certainly I am one of those who leads 
the parade in believing in a permanent U.S. presence on the 
Moon in the form of an initially small outpost. I would urge 
you to think about something like Antarctica back in the 
1950's, when we first returned people to Antarctica and had 
them stay for long periods of time. So think about a scientific 
outpost, a research base, something small to start with. But, I 
think that that is important for the Nation, because our 
purpose with the Space Program is to take the range of human 
action, human thought and human experience outward into the 
Solar System. That is what we do with NASA, with our people and 
our robotic probes.
    Now specifically to the issue of lunar resources, lunar 
resources do not have economic value on Earth. The expense of 
transporting them back would outweigh any value they had. The 
value of lunar resources such as we might find there, is to 
reduce the dependency of such an outpost from shipping material 
up from Earth. For example, the lunar crust is, depending on 
where you are, 15 to 40 percent oxygen by weight. So one of the 
first things that a crew on a lunar outpost would do, we would 
hope, would be to learn to extract oxygen from the lunar soil 
by heating it up and capturing the effluent. There are also 
other gases that they would capture that would be useful in 
lesser quantity, but oxygen is one of the main ones.
    The sooner that we start doing things like that, the sooner 
we can reduce our dependency on a logistics train from Earth to 
support such an outpost. So yes, an early focus on our Program 
would be learning to use lunar materials, not from the point of 
view of their value on Earth, but from the point of view of 
their value on the Moon in enabling more robust exploration and 
utilization of the Moon itself.
    Mr. Aderholt. Thank you. That is all I have, Mr. Chairman, 
thank you.
    Dr. Griffin. Thank you, sir.

                    CORE VISIONS/CONSTRAINED BUDGETS

    Mr. Mollohan. Thank you, Mr. Aderholt. Dr. Griffin, how is 
NASA able to meet the time tables presented with in the 
President's vision and meet its other core visions within these 
constrained budgets? Something has to give, does it not?
    Dr. Griffin. Well sir, things have given. As I pointed out 
yesterday, this, of course, calls for a conclusion of the 
witness, but I am your witness and so I will give you my 
conclusions. I think with regard to our core programs--
finishing up Space Station and utilizing it, building new 
systems to replace the Shuttle and then return to the Moon, our 
Science Portfolio with its four individual portfolios, and our 
Aeronautics Program--I believe that all of those are 
strategically going in the right direction. I do. So when you 
address the issue of funding, how is it possible to keep them 
on track? Well, they are on track. They are going in the right 
direction. They are doing the right things. People will quibble 
at the margin, things like we should be doing a little more 
Mars or a little less Mars, or a little more outer planets or 
less outer planets. Those will be quibbles that we should have. 
The community should debate one thing versus another. But 
broadly speaking, I think we are going in the right direction. 
We are on the right track.
    So now the question becomes how fast do you move down the 
track? That is funding driven. I cannot argue with you. When 
you say that, if more money were supplied, we could do more and 
have it more quickly, you are correct. But we also have within 
the Nation many other priorities, and they also must be paced 
with the available funding. So this Administration has chosen a 
pace of accomplishment which we believe is acceptable. The 
funding that we are requesting in FY 2009 and beyond allows us 
to accomplish the things that the President is asking us to 
accomplish and that this Congress has authorized and approved, 
at a pace which is judged to be adequate.

                        SPACE TRANSPORTATION GAP

    Mr. Mollohan. Well you know, you have expressed 
considerable concern about the gap that is going to exist with 
regard to the transportation, unavailability of a 
transportation system to access the Station and otherwise. So I 
would like to talk about that just a little bit. We visited on 
that and for the record, let me read you a quote. This is out 
of a NASA document. The title of this is Resources to Implement 
the Vision Have Eroded. And it does a computation here, it all 
adds up to $11.7 billion and in a box it says, ``The cumulative 
effects of $11.7 billion in reductions and costs absorbed in 
NASA's budget since the vision for space exploration was 
announced is the overriding reason why NASA cannot develop the 
Orion Ares I by 2014 and can afford only those robotic lunar 
missions absolutely necessary to support future human 
exploration activities.'' Could you comment on that? This is 
your----
    Dr. Griffin. Yes, it is a document with which I am familiar 
that was prepared by staff. I have mentioned on several 
occasions that we do have discussions within the Administration 
as to what the budget request should be and what we should try 
to accomplish with it. That was a document which was prepared 
to support those discussions and it does reference the fact 
that, if you will, the buying power available to us in the 
Agency has eroded over the last few years by that figure that 
you quoted.
    A substantial portion of that figure was manifested, when I 
arrived at NASA, and I noted that the Shuttle and Station 
programs had been underfunded to complete the President's 
direction to finish the Space Station. We had place holders in 
the budget for Shuttle and Station, and the difference between 
the place holders and what was really needed was about $5.5 
billion. Additionally, we lost some top line budget authority 
in the Fiscal Year 2006 budget submission and then there was 
the Hubble Space Telescope Servicing Mission, Hurricane 
Katrina, and a few other things, all of which added up to the 
$11.7 billion that is in the document. So that was a document 
prepared to support those discussions. Now in the end I am 
permitted to discuss, and I am certainly permitted to make my 
arguments, but I do not win every argument.
    Mr. Mollohan. No, absolutely.
    Dr. Griffin. So the decision ultimately was made that the 
Nation has other priorities that are more significant than to 
restore that $11.7 billion in funding.
    Mr. Mollohan. This document was generated in house----
    Dr. Griffin. It is an internal document.
    Mr. Mollohan [continuing]. To justify your deliberations 
within?
    Dr. Griffin. It was an internal document generated to 
quantify what has happened over the last few years to support 
my deliberations within the administration, and that is all it 
is.

                     CONSTELLATION CONFIDENCE LEVEL

    Mr. Mollohan. Yes, okay. Let me just use that to talk about 
the gap in the availability of Constellation and what timeline 
we are talking about. I believe you had some testimony on the 
Senate side just recently about that with Senator Nelson?
    Dr. Griffin. Yes, sir.
    Mr. Mollohan. And you talked about if you had additional 
resources perhaps the confidence level of completing 
Constellation, getting Ares and Orion operational, could be 
accelerated with a certain level of confidence. Could you just 
discuss that?
    Dr. Griffin. Yes, sir.
    Mr. Mollohan. If you had additional funding and how much, 
could you accelerate its availability and with what degree of 
certainty?
    Dr. Griffin. Yes, sir. This is a question I have now been 
asked so often that I----
    Mr. Mollohan. I am sure you are tired of answering it.
    Dr. Griffin. I probably have the answer memorized so I can 
give it to you fairly expeditiously. We are with 65 percent 
confidence, using our statistical budget estimating tools that 
I spoke of, more modern cost estimation methods that Mr. 
Frelinghuysen was talking about, with 65 percent confidence we 
believe that we will deliver Ares and Orion, the Shuttle 
replacement systems, for first flight by March of 2015.
    At that same confidence level, so apples to apples, I was 
asked by Senator Nelson what is the earliest that that could be 
delivered. In fact, the first time he asked that question, I 
believe, was last November in a hearing and then he asked it 
again in the recent hearing. I said, if things went well 
technically and we had all of the funding we needed, the system 
could be delivered by September of 2013, eighteen months 
earlier. Senator Nelson asked how much that would cost, and I 
said the total price tag for that was about $2 billion as 
closely as we can estimate it spread across, at this point, 
Fiscal Years 2009, 2010, and a little bit in 2011. Very 
roughly, we have estimated that it is about $100 million to 
accelerate schedule by one month. You reach a limit on that 
when you just cannot get things done any more quickly, and that 
would be the September of 2013 limit.
    Now we have recently reexamined that, to make sure that our 
figures were as accurate as we could make them and our 
estimates were as good as they could be, and we still stand by 
that estimate. So we have a technical limit that we can reach, 
and about 18 months earlier than what we are planning today, 
and the cost of that is about $2 billion spread over three 
years. I am sorry, did I answer your question adequately, sir?
    Mr. Mollohan. You did. So if you were to be able to apply 
$2 billion more to this program with a 65 percent level of 
confidence you could accelerate its availability by 2013?
    Dr. Griffin. That is our best estimate, yes sir.

                  HUMAN EXPLORATION BEYOND EARTH ORBIT

    Mr. Mollohan. I understand that there was a conference at 
Stanford some time ago with industry groups, advocates for NASA 
and academia to discuss whether the United States is on the 
right track in its plans to reach the Moon by 2020, build a 
long term lunar base there, and eventually send humans to Mars. 
You have been reported as saying that the questions asked at 
the conference have been asked, they have been answered, and 
that it is time to move on and support the program. Is that an 
accurate characterization of your views? And would you 
elaborate?
    Dr. Griffin. It is, sir, and yes I can elaborate on that. I 
mentioned just a few moments ago, in response to Mr. Aderholt's 
question, that I do believe that the Moon is very important, 
and the most important early target for human exploration 
beyond Earth orbit once we get the Space Station built. That's 
not because I believe it, but, because before my time, that 
opinion was codified into the President's Civil Space Policy 
for NASA, and the Congress subsequently adopted that goal in 
the 2005 Authorization Act. So the order is Moon, Mars, and 
then beyond. So Space Station, Moon, and Mars in that order.
    Not everyone shares the view that those are the proper 
goals and in the proper order. That debate was extensively had. 
So some of the organizers of that conference believe that the 
Moon is not interesting. That the Moon is old hat, that we have 
been there and done that. They would like to see a more 
expeditious program going directly to Mars. I understand their 
view. Many of them are old friends of mine. I just do not 
happen to share that view. Some of the organizers of the 
conference believe that the Nation's exploration money would be 
better spent building large telescopes at what is called Sun-
Earth L1 Point, the Lagrangian Point, where we can park large 
instruments and they will stay where they are parked. I, too, 
find that to be an interesting goal but not one that I would 
adopt instead of returning to the Moon. So there are differing 
opinions on what the goals should be, and in an environment of 
limited funding some goals can be afforded and others cannot. 
Now a goal that I share with that group is the goal that I 
believe that the near-Earth asteroids are an important target 
for exploration. But I would place them in a time place between 
the Moon and Mars, not instead of the Moon. So the conference 
was basically a discussion of whether the United States space 
policy has the right goals in the right order. I think, broadly 
speaking, we do with small modifications. Some of those folks 
would disagree. Again, the discussion has been held multiple 
times. I am sure it will be held again.
    Mr. Mollohan. Do we have any asteroid program going right 
now?
    Dr. Griffin. We have a, per Congressional legislation, a 
small program going to identify--Alan help me, 90 percent of 
the near-Earth asteroids by what year?
    Dr. Stern. This year, by the end of this year.
    Dr. Griffin. By the end of this year. Ninety percent of the 
asteroids larger than one kilometer by the end of this year. 
You have recently put in some funding to increase that, right? 
To make sure we meet the goal.
    Mr. Mollohan. But that is just finding them and identifying 
them?
    Dr. Griffin. Yes, sir.
    Mr. Mollohan. How about accessing them?
    Dr. Griffin. The Constellation systems that we are building 
today can access the near-Earth asteroids, should a subsequent 
Administration or a subsequent Congress decide that that is a 
good goal. The systems we are building today can get you there.
    Mr. Mollohan. When you said between Moon and Mars, is that 
what you were referring to? Would be accessing them?
    Dr. Griffin. Yes sir, that was. The reason is, it is fairly 
simple as an engineer. The Moon is three days away. We have a 
lot to learn. I would like to learn it three days from home. 
Once we set out for Mars, the first crews to go to Mars will be 
gone in excess of two and a half years, maybe more.
    Mr. Mollohan. If you were going to plan to do that----
    Dr. Griffin. The asteroids are in the middle of that. They 
are months away from home, and so I think a stepped sequence of 
voyages from home, from days and weeks to months to years is 
the right way to go.
    Mr. Mollohan. That would be a reprogramming, that would be 
a change in your plans, would it not? If you were to put the 
asteroids?
    Dr. Griffin. It would.
    Mr. Mollohan. What would you call that? Asteroid 
exploration? Asteroid visit? How would you talk about that?
    Dr. Griffin. I would just refer to them as destinations.
    Mr. Mollohan. Okay. Asteroid destinations. That would cause 
a change in plans, would it not?
    Dr. Griffin. That would.
    Mr. Mollohan. Would that affect the budget?
    Dr. Griffin. Yes, sir. Over a decade from now, but yes sir.
    Mr. Mollohan. Would it affect the budget today----
    Dr. Griffin. No.
    Mr. Mollohan [continuing]. In terms of planning and----
    Dr. Griffin. No. It does not affect anything today or for 
the next decade because, we are building systems with 
Constellation that are capable of accessing the inner solar 
system.
    Mr. Mollohan. Would that be a good idea to look at that?
    Dr. Griffin. Yes, sir.
    Mr. Mollohan. Would it be a good idea to do it, do you 
think?
    Dr. Griffin. Again, I do think the near-Earth asteroids are 
a legitimate scientifically interesting, productive destination 
for humankind. I would, on a personal basis, favor including 
them in our program. Now to actually do anything will be after 
my tenure. But, if you are asking do I think that that is a 
useful goal, I do think so.

                   EXPLORATION ON ARCHITECTURE REVIEW

    Mr. Mollohan. Do you plan on any review of the exploration 
architecture prior to the arrival of the next administration to 
lay a groundwork for reviews by the next administration?
    Dr. Griffin. Well, I think our architecture is firmly in 
place and shows the right approach. It satisfies all the goals 
that were specified to us by the Congress and the 
Administration, and we picked it as the cheapest available 
approach with the lowest risk. So we think we used good 
criteria to select it and we think we are there. Now, our 
progress in building the systems required by the new space 
architecture is something we review all the time. We conduct 
regular reviews of our progress in meeting the goals of that 
architecture, and, when a new Administration comes in and sends 
a transition team over to NASA to discuss how we are going, we 
will be ready, willing, and able to describe for them our 
progress on those systems.
    Mr. Mollohan. Okay. Thank you, Doctor. Dr. Griffin, we are 
going to recess. We have two votes so we cannot go and leave 
some people here questioning. So we are going to take a recess 
probably for about fifteen minutes, and we will return after 
votes. Thank you all.
    Dr. Griffin. We are at your discretion, sir. Thank you.
    [Recess.]

                   SPACE INTERFEROMETRY MISSION (SIM)

    Mr. Mollohan. The hearing will resume. Mr. Schiff?
    Mr. Schiff. Thank you, Mr. Chairman. I wanted to follow up 
on a couple of questions that we discussed yesterday. First of 
all, I wanted to follow up on SIM. It is my expectation that a 
decision on how to proceed with the exoplanet research will be 
made in time for the fiscal year 2010 start. I expect, I think 
my Committee colleagues feel very much the same way, that SIM 
will be given every consideration as it meets all the 
scientific requirements of the last two decadal surveys. This 
is not just my opinion. It is a sentiment that was shared by 
appropriations committees of both the House and the Senate, and 
by your own advisory committee which believes that the 
astrometry mission is the way to go. The follow up question I 
want to ask is, what more do you contemplate that NASA will 
need to make a decision? And what is your timeline on a 
decision?
    Dr. Griffin. I am going to ask Dr. Stern to comment on 
that.
    Dr. Stern. Good morning. As you know, we are studying a 
variety of exoplanet experimental techniques that all are meant 
to achieve the same objectives, SIM being one that is quite 
mature. But over time, a number of other important contenders 
have come to the fore. Those studies are now in work, as you 
are aware, and will finish late next year. There is also the 
decadal survey currently underway in astrophysics, which will 
make a specific scientific recommendation from the National 
Academy as to which approach is preferred.
    Mr. Schiff. You know, the more that I think we are 
coalescing on something the more I hear that maybe we are not. 
We seem to be having the same debate we had last year and the 
scientific community has repeatedly expressed its support for 
SIM and in decadal after decadal survey, and then here we are 
waiting for another survey, another potential opinion. It just 
gives me great concern that we are going to be in another fight 
over this. I really do not know what more you are requiring, 
what more you want. Congress could not have been more clear on 
the subject. The scientific community could not be more clear 
on the subject. And I guess I am perplexed.
    Dr. Griffin. Well sir, I certainly do not want to have a 
fight over SIM. If the Congress legislates that we do SIM, then 
we will do SIM. Now the Administration has not requested it but 
I can ask them to do that. But I need to be honest. SIM was 
prioritized high in the last decadal survey, when it was 
assumed to be a $250 million mission. Today it is presumed to 
be a $1.6 billion mission. We do not have those funds in the 
budget. We have discussed this, those funds are not available 
without killing most of the rest of the astrophysics portfolio.
    When you say that the astrophysics community supports SIM, 
that is not the input that we are getting from the astrophysics 
community through the committees which advise NASA and the 
Congress. That is simply not the input that we are getting. 
They do not want to see this kind of damage done to the 
astrophysics portfolio in order to favor one mission. So we 
have been working with your office, and I will continue to do 
so, to find a way to accomplish the goals of exoplanet research 
without having to do the full SIM mission with all of the cost 
that that entails. Now, if that is what the Congress directs us 
to do then we will do it. But, this year we would like to study 
some alternatives to come back and talk to you about.
    Mr. Schiff. Dr. Griffin, this kind of hearkens back to your 
comments at a conference a few months ago. It is not support 
for SIM that is jeopardizing any other project. It is rather, 
in my view, coming in with a budget that is wholly inadequate 
to do the science that we want to do and that the President has 
set our goals to do. I do not think it is helpful to create an 
artificial competition over this issue. The scientific 
community has been very supportive of SIM. This Congress has 
been very supportive of SIM. I thought we had a concept of SIM 
that brought the cost down to $1 billion or less that was 
manageable within NASA's budget. I thought that was the 
operating assumption we were acting on. If this is being 
completely revisited again then I think I and the other members 
of the Committee need to know about it. We are willing to work 
with NASA to scale down a version of SIM that is affordable, 
that can fit within the portfolio, but I need some sense from 
NASA that this is a priority of yours and that we are not 
simply throwing this open again to delay and having launch 
dates slip into the distance, and killing this with a thousand 
lashes.
    Dr. Griffin. I am sorry the budget is not adequate to 
support the doing of all that folks would like to be done. I 
understand that you wish the Administration had requested more. 
When we look at SIM Light, the mission that you are referring 
to, the question logically arises, whether SIM Light would 
accomplish most of but not all of the goals of the full SIM 
mission. Given that that is the level of accomplishment we now 
strive for with this first exoplanets mission, would there be 
another technology which would do as well for less money?
    The question is not whether JPL will get to lead this 
mission. They will. The question is not whether an exoplanet 
mission is important to us. It is. The question is not whether 
it is a huge priority to us. It is. The question is whether the 
SIM technology is the best technology, given all that we know 
today, to accomplish those goals at JPL. I am trying as hard as 
I possibly can to do this on, an objective, impartial basis in 
a way that is affordable within the budgets that I am told that 
I can expect. If we implement SIM as it stands today it will 
create a very substantial amount of collateral damage to other 
astrophysics missions in the portfolio, some of which are also 
of interest to JPL. So we are looking for objective, rational 
alternatives that we can share with your office.
    Mr. Schiff. And your analysis of the objectively rational 
alternatives will be completed in time for a 2010 start?
    Dr. Griffin. We will complete it in time for a 2010 start.

                              MARS PROGRAM

    Mr. Schiff. Let me turn while I have some time remaining to 
Mars. As I mentioned yesterday, I am concerned about addressing 
programs with a D by bringing down those that have received an 
A.
    I think there was a very effective op-ed on the subject of 
the Mars program by Robert Braun in the current issue of Space 
News. It is an article entitled ``Future Of Our Mars 
Exploration Program.'' I would ask that that be made a part of 
the record.
    [The Future Of Our Mars Exploration Program Article, 
Science News, March 2, 2008 follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Schiff. Mr. Braun states that by removing all semblance 
of the continuous exploration program, NASA's 2009 budget 
request puts the Mars program on a path toward irrelevance. He 
goes on to state that the program contemplated by the budget 
request will not produce the type of compelling science that 
has been achieved over the past decade. Rather, it is the 
beginning of the end of what has been a dramatic advancement in 
our understanding of the Mars system.
    I think many of us that have looked at the Mars budget are 
concerned that he is right. I am particularly concerned about 
the loss of expertise that we will have and I can imagine that 
those who are working on the program are already pretty 
disspirited by what looks to them as a significant abandonment 
of the program.
    I, Mr. Chairman, want to work with you and my colleagues on 
the Committee to make sure that we restore the Mars program and 
keep it the robust producer of good science and fascination 
with the space program. However, I want to make my concern 
about this very clear and want to reiterate today. You are more 
than welcome to comment on it if you think Mr. Braun's point of 
view is somehow flawed, but it seems very credible to me. So I 
want to reiterate that concern.
    Dr. Stern. Mr. Schiff, I would like to say a few words 
about that op-ed which I am familiar with. It is Dr. Braun's 
opinion. But let me actually explain our Mars program so you 
understand it. We are flying the Mars Science Lab, as you know. 
That is planned to launch in 2009. Very high priority from the 
decadal survey. We are continuing that unabated. In fact, we 
are supporting it in technical and schedule difficulties. The 
next mission on our plate is called Mars Aerology and we have 
two missions competing, one of which will go forward. It is in 
our plan. That is the number three priority of the Mars portion 
of the decadal survey. The other priority among the three is 
Mars Sample Return, which is the place that we have aimed our 
program subsequent to that aerology mission. So we are actually 
planning to accomplish all three, three for three of the 
objectives of the National Academies decadal survey. I do not 
know how Mr. Braun can refer to our program as deconstructing, 
or not going after high-priority objectives because we are 
checking them all off. It will take some time to do that, but 
we are accomplishing them and accomplishing them in the way 
that they were described in the decadal survey with the 
scientific content.

                          MARS PROGRAM BUDGET

    Mr. Schiff. What is the percentage cut you made in the Mars 
program, the projected Mars budget over the next several years, 
as compared to last year?
    Dr. Stern. In the current five-year plan, it is cut about 
in half. Over the next 10 years, which includes the large 
amount of funds needed for Mars Sample Return, it is actually 
not very different than it is right now. It goes down and then 
comes back.
    Mr. Schiff. If I could just interject. In the next five 
years, Mars' budget, compared to what it was last year, is cut 
in half and you are saying that it will not affect the science, 
that it will not affect the loss of the talent pool during 
those five years, that those people will not go elsewhere and 
how can that be?
    Dr. Stern. Let me speak to both parts of your question. 
First of all, it is very important to realize that Mars Sample 
Return, as called for by the Mars community, has to be an 
international endeavor. Our national partner in this is the 
European Space Agency. In order for them to be a partner in 
this mission, it needs to occur around the 2020 time frame, not 
earlier. So our funding and our plan for the Mars Program is 
what it takes to match our European partner and get the mission 
done. Were we to try to do it earlier, they would not be able 
to participate from a financial standpoint.
    Mr. Schiff. Why is that situation radically different this 
year than it was last year? I assume you had the same 
information about European participation last year. It did not 
seem to be a concern last year. Why has it changed from 
December to January?
    Dr. Stern. In fact, it is different for two reasons. The 
first is that last year, Mars Sample Return was back-burnered. 
We have moved it up in priority and gone to Europe, and spoken 
with the European Space Agency about that. They are as excited 
as we are to do it. But it is going to take some time to get it 
back into their budget plan just as it will for ours. The other 
point that I want to make is that the Mars budget reached a 
natural high because we are doing the Mars Science Lab, which 
is a flagship class mission. The Mars budget has varied quite a 
bit over the last 20 years, up and down. The budget was, in 
fact, to return toward an average level following the 
completion of the Mars Science Lab. Now, it has come down more 
steeply than earlier projections, but it was never planned to 
sustain at that level in perpetuity.
    Mr. Schiff. Mr. Chair, I know I am out of time, but one 
concluding thought on this is if you found a way to do all the 
science with 50 percent cuts, that will be remarkable for us in 
the history of NASA and probably the history of the federal 
government.
    That does not seem to me to be enhancing the priority of 
Mars or, frankly, acknowledging the success of the program. You 
take a program that has earned an A grade and you cut its 
budget in half and that ensures that you are going to take an A 
and turn it into a C. I do not know how you possibly can keep 
the talent pool alive during the five years and 50 percent 
cuts.
    I look forward to working with my Chair and fellow 
Committee members to try to deal with this because I think this 
has been an unmitigated positive in our science program, kept 
the public interest alive when there have been a lot of 
setbacks in man space flight, and I would hate to see us put 
our shining success in the glide path towards an obscure 
future.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Mr. Frelinghuysen.

                          TRANSITION WORKFORCE

    Mr. Frelinghuysen. Changing the location quite 
dramatically. I just want to say I ran into part of your NASA 
team in Antarctica in late January when they dedicated the new 
South Pole Station. I know the Chairman has been there.
    And I must say what a privilege it was to be there with the 
National Science Foundation at their invitation and run into 
quite a lot of your NASA people. We were sort of snowbound for 
a couple of days in a blizzard, so I got to see quite a few 
different groups that are out there. Remarkable in many ways, 
pioneers and explorers in their own right.
    And I like the notion, and this sort of gets back to the 
issue of American preeminence, that you are trying to do the 
same type of work potentially on the Moon and that you are 
doing a lot of those same things with the international Space 
Station. That is a wonderful platform for the type of science 
we need for generations to come.
    I also had a chance to meet Cathy Sullivan, who is 
unbelievable. It is like putting your finger, wet finger, in a 
light socket. She is quite a remarkable person. So here I was 
with Neal Lane, Rita Caldwell, Arden Bement, and then you add 
in Cathy Sullivan, it was quite a group.
    And as the plane was pitching coming back from the South 
Pole, she was cool as a cucumber as our plane was going up and 
down. You know, she is one of your remarkable astronauts.
    Getting back to more general questions, you are on the 
brink of some pretty big shifts in your workforce needs with 
the retirement of the shuttle and the ramp-up of the new 
constellation system.
    Your budget shows the NASA workforce staying level at 
approximately 17,900 full-time equivalents for the next five 
years.
    What workforce planning have you done to support that 
request and how confident are you that you can manage the 
transition with current staffing levels?
    Dr. Griffin. I am very confident we can handle the 
transition with the current staffing levels because, as you 
know, with regard to Shuttle to Constellation transition, most 
of the change that occurs is among contractor employees who 
operate the Shuttle systems, and you are talking about a civil 
service level.
    Mr. Frelinghuysen. The largest fluctuations are in the 
contractor----
    Dr. Griffin. Right.
    Mr. Frelinghuysen [continuing]. Community.
    Dr. Griffin. So I think our civil service employment will 
remain just fine. For Fiscal Years 2009 and 2010, we actually 
fully utilize all the folks we have and could use a few more, 
but that is okay. Then, as the out years approach, the planning 
for those gets firmer. So I think our Civil Service workforce 
planning is in pretty good shape.

                          CONTRACTOR WORKFORCE

    Mr. Frelinghuysen. The contractor community, can you give 
us an overview as to what sort of changes are in store there? 
Obviously, there is a lot of apprehension and concern, but what 
process are you using to sort of manage to do that?
    Dr. Griffin. Gerst, do you mind if I turn to you and let 
you work through this? This is mostly Shuttle and mostly in the 
area----
    Mr. Frelinghuysen. I know you have been doing, what do they 
call them, workforce mapping exercises and you are about to 
come up with a report.
    Dr. Griffin. Let me mention this just at the top level 
before I give it to Mr. Gerstenmaier for a couple more details. 
We owe you on March 24th, a report, and then an update every 
six months, of our workforce mapping progress across all of our 
Centers as we transition from Shuttle to Constellation. You 
will have that. Now, we can give you a few highlights at this 
point.
    Mr. Frelinghuysen. I think that would be valuable----
    Dr. Griffin. Good.
    Mr. Frelinghuysen [continuing]. If you could do that.
    Dr. Griffin. Gerst.
    Mr. Gerstenmaier. We have done a couple of things to try to 
capture our workforce picture and give employees a sense of the 
future. We have added some additional line items within our 
existing contracts that essentially provide another charge code 
for some of the workers that are going to be working on 
Constellation. For example, for our solid rocket motors built 
in Utah, we have a contract line item allowing workers to start 
doing some work for the Constellation activity ahead of time. 
So it is actually a transitional workforce. So when they have 
some down time on their Shuttle activities, they can actually 
charge to a different charge code that goes to Constellation 
and actually begin some of that work. So there is ability to do 
that. We have done a similar kind of thing with some of our 
processing contracts in Florida. Next year in April or so, we 
are going to fly the Ares 1-X demonstration flight out of 
Florida and the folks actually supporting that effort are 
United Space Alliance employees who are supporting the Shuttle 
activities. So the employees that actually stack the rockets in 
the Vertical Assembly Building will do that same work for this 
demonstration flight. They have a different charge code and a 
different aspect. So we are able to give them a sense of the 
future and let them actually start working on some of the new 
systems while they are still doing their current shuttle work. 
That has been very effective.
    We have also provided some schooling available for----
    Mr. Frelinghuysen. So there is schooling and retraining?
    Mr. Gerstenmaier. Yes. We have also provided some schooling 
and retraining opportunities where, if a discipline is going 
away--for example, maybe some of the tile technicians we use 
that place the tile on the bottom of the shuttle--we have given 
those workers opportunities to go improve their skills in 
wiring, which will be clearly needed in the future. So we have 
given them some opportunities to go do things in other areas.
    So we have provided hands-on experience to gain future 
skills and we have also given them some training opportunities 
to go do that. So far, the workforce is very motivated about 
what we are doing. This is a very exciting time for us. The 
changes in Station and Shuttle programs are very dramatic 
during this period, but workers are also getting a chance to 
see the future.

                            NEXT GENERATION

    Mr. Frelinghuysen. I want to shift gears while we have Dr. 
Shin here relative to NextGen. We had a fairly lengthy 
discussion with the GAO on NextGen.
    Can you tell us where we stand relative to NextGen? I know 
we have this joint planning and development office and you are 
providing the basic research; is that right?
    Mr. Shin. Yes, sir. Our contribution to JPDO is, as you 
accurately pointed out, particularly through research. We have 
made really significant progress last year working with JPDO 
and all the member agencies there. Most notably, JPDO has 
released several seminal training documents. One of them is a 
NextGen research and development plan, and it identifies 163 
research needs that need to be addressed. About half of the 163 
research needs are associated with NASA. We are not leading all 
of them. JPDO has identified about 20 percent of them that can 
be led by NASA.
    And so throughout last year----
    Mr. Frelinghuysen. Twenty percent of?
    Mr. Shin. Of research needs identified in the NextGen R&D 
plan. There are all together 163 research needs, sir, in that.
    Mr. Frelinghuysen. So which ones would you be in lead on?
    Mr. Shin. Well, we will be working on airspace and ground 
automation, a lot of concept development, and assuring airport 
surface optimization can be achieved. Also, one of the 
backbones of this next encounter is about a trajectory-based 
operation, meaning that you know the airplane's location any 
time, anywhere, and you can actually predict how the trajectory 
of this airplane will be from the departure to arrival.
    A lot of automation concepts and algorithms need to be 
developed. Those are all research needs. NASA is working on all 
of those. We have gone through a fairly laborious effort of 
mapping technical milestones to the NextGen R&D plan.
    Mr. Frelinghuysen. So how would you characterize the 
process? How would you assess where you are?
    Mr. Shin. I am happy to report to you, sir, we have not 
found any gaps. All our technical milestones are addressing the 
NextGen R&D plan. In December, we also have program reviews for 
our three research programs and, most notably, the air space 
systems program, which addresses NextGen 100 percent. The 
independent review panel, which consisted of a lot of members 
from FAA and JPDO, gave excellent scores for relevance and 
quality.
    Mr. Frelinghuysen. I do not know whether you are familiar 
when the GAO testified in their testimony, they did raise some 
questions about the direction of the joint planning and 
development office and the interagency effort.
    You are familiar with those?
    Mr. Shin. Yes, I am. I am serving as a board member there, 
and so we meet periodically.
    Mr. Frelinghuysen. Well, I know you are. That is excellent.
    But their view is that maybe things are not working as 
smoothly and perhaps as expeditiously as they might----
    Mr. Shin. I think----
    Mr. Frelinghuysen [continuing]. And the sense of sort of 
urgency. Obviously, NASA has lots of priorities. But many 
members of Congress feel this is something we would rather see 
sooner rather than later.
    Mr. Shin. As I mentioned earlier, since we have been 
addressing fundamental research needs of this NextGen 
capability, we have not really heard that NASA is not working 
these things expeditiously as possible or slacking. I think the 
whole enterprise issue, this national air space system issue is 
very, as you might guess, very complex issue, so----
    Mr. Frelinghuysen. It is complicated. It is complicated by 
the fact that there has been a cut in the money that you have 
available for your work.
    Has not the Earth space systems' budget, which funds 
research for this type of work, been cut by 25 percent from 
levels that Congress established in fiscal year 2007 and 2008?
    Mr. Shin. From Fiscal Year 2008 to Fiscal Year 2009, there 
is roughly a 25 percent reduction, but that is reduction from 
the Congressional augmentation in Fiscal Year 2008. Of course, 
we have not seen the 2009----
    Mr. Frelinghuysen. Well, the bottom line is when are we 
going to see something which can be put into effect?
    I assume like with a lot of military programs, if you come 
up with technology out of whatever the spirals are that you are 
involved in, that that stuff gets, in some ways gets utilized.
    Mr. Shin. Yes. The leverage and----
    Mr. Frelinghuysen. Yes.
    Mr. Shin [continuing]. They are important as you point out. 
DoD is a member agency in JPDO. So we are working very closely 
with our DoD partners and----
    Mr. Frelinghuysen. Have they been fully cooperative?
    Mr. Shin. Yes. We have a very close working relationship 
with DoD and also Commerce and Homeland Security. So I think 
NASA's research conservation has been significant in making 
good progress.
    Mr. Frelinghuysen. You are familiar with the GAO's take on 
where you are?
    Mr. Shin. Yes. I have seen them. Also, last year, there was 
an audit of JPDO, and we participated in that audit. So I am 
familiar with GAO's view, sir.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Chairman.

                   DEEP SPACE AND NEAR EARTH NETWORKS

    Mr. Mollohan. Thank you, Mr. Frelinghuysen.
    Dr. Griffin, when adjustments are made to recognize the 
transfer of deep space and near Earth networks from 
heliophysics to space operations, it appears that investments 
in your Science Mission Directorate are unchanged from the 
fiscal year 2008 enacted levels.
    Is that pretty accurate?
    Dr. Griffin. Yes, sir.
    Mr. Mollohan. How did the Science Mission Directorate 
manage to accelerate the Earth science decadal missions and 
quintuple funds for lunar science research without an overall 
budget increase in science?
    Dr. Griffin. Well, money was moved from other portfolios to 
create the additions that you spoke of. Alan, would you care to 
comment on the specific sources?
    Dr. Stern. Yes, sir. So $570 million was moved within the 
space science to the Earth science side of the Science Mission 
Directorate. The Heliophysics Division, Astrophysics Division, 
and Planetary Divisions each participated in that. Let me be 
specific about what we did. In the case----
    Mr. Mollohan. By program?
    Dr. Stern. I am going to go by division, yes, sir.
    Mr. Mollohan. Okay.
    Dr. Stern. In the case of the Planetary Division, the money 
that funded the acceleration of the Earth Science program to 
impact Mars program funds is, as you may recall, there was a 
difficulty with the current procurement activity on the Mars 
Scout mission, which caused it to be delayed so that it would 
have to fly two years later. That meant that we did not have to 
spend large sums on the development of that mission in 2008 and 
2009. There was no other mission to infill that you could do 
feasibly just starting immediately. Therefore, the Planetary 
Division elected to make that money, that had become available, 
its contribution to the Earth Science initiative. So that was a 
relatively painless way of going about it because of the 
slippage that had taken place.
    In the case of the Heliophysics Division, we made a number 
of minor adjustments in the program. They are a smaller 
division and they did not contribute as large an amount. We 
asked them to contribute proportionately to their size. As you 
know, we were starting the Solar Probe mission. Solar Probe has 
been high priority in the decadal survey. What we did was we 
just stretched out the development of Solar Probe a little bit 
longer, and moved its launch date to the right so that 
Heliophysics could have a budget profile that accommodated 
Earth Science needs.
    In the case of Astrophysics, because of the development 
requirements of missions that are now being built in the 
Explorer Program (the James Webb Space Telescope, et cetera), 
Astrophysics was not in a position to contribute in the early 
years, but the contribution from the Planetary and Heliophysics 
program were sufficient. So Astrophysics made its contribution 
in the outyears, primarily in 2011, 2012, 2013 through 
efficiencies in the operations of missions that are now flying 
on-orbit observatories.
    Mr. Mollohan. Are those all the programs that suffered in 
order to pay for these increases?
    Dr. Stern. Yes, sir, I believe they are.

                         LUNAR SCIENCE RESEARCH

    Mr. Mollohan. Why is the increase of nearly five times 
necessary for lunar science research? This year, it increases 
at another 20 percent and most years thereafter.
    Dr. Stern. The lunar program that we proposed has two 
components. The first component was proposed by the President's 
Fiscal Year 2008 request and was a part of the appropriation 
that was passed for Fiscal Year 2008. That is a program that 
began at around the level of $40 million and then went to $60 
and $80 million. That was a part of the Fiscal Year 2008 
proposal. On top of that now, that provided research and 
analysis funds as well as for funds to build instruments to fly 
on the missions of other nations going to the Moon, what we 
call missions of opportunity where we are a minor partner.
    What we proposed in the Fiscal Year 2009 request was to 
have a lunar science robotic program within the Science Mission 
Directorate flying small missions in response to the National 
Academy's lunar science report that was published last year 
calling for just such a sequence of missions. That is where 
that second component is. That runs at $60 million a year for 
three years and then $70 million a year subsequently.

                      SCIENCE MISSIONS COST GROWTH

    Mr. Mollohan. Is there a new policy for containing cost 
growth on NASA's science missions?
    Dr. Stern. Yes, sir.
    Mr. Mollohan. What is it?
    Dr. Stern. It has three parts. The first part is that we 
properly scope the missions to fit the budget so that we do not 
put ourselves in a position of selecting what has been termed, 
``eight pounds in a five pound bag.'' That is a part of our 
selection criteria when we select the mission. We make sure 
that we are not getting ourselves into trouble to begin with.
    Secondly, as Dr. Griffin explained, we treat our reserves 
differently now using statistical estimation criteria that give 
us a very robust reserves program so that when missions do have 
development issues--and they will because, of course, we are 
doing things for the first time--we are doing things that are 
state-of-the-art in terms of the science and sometimes the 
engineering as well. We want to make sure that we have healthy 
reserves budgeted from the beginning.
    Mr. Mollohan. You do not have now?
    Dr. Stern. No. We do.

                        SCIENCE PROGRAM RESERVES

    Mr. Mollohan. What reserves do you have typically in these 
science programs?
    Dr. Stern. What we have typically done is asked the mission 
to propose its reserve level and we evaluate whether we think 
that is sufficient. Under Dr. Griffin's leadership, we have 
gone to a different approach in which we use a confidence 
curve, and we require the missions to be at the 70 percent 
level in cost confidence, which has empirically been shown to, 
on average, to be sufficient based on actual aerospace 
experience. The third component of our cost control is to make 
sure that we have in our pocket, and are willing to execute, 
appropriate descopes between full mission success and minimum 
mission success, what are called level one requirements. We 
have been taking advantage of that and using it successfully 
over the last year. I would be happy to provide examples.
    Mr. Mollohan. Have you been using it long enough to be able 
to make comparisons about what the results are and compare the 
success to the program?
    Dr. Stern. Well, I do not think that is ready for a strict 
mathematical comparison, but we have definitive examples where 
we were actually able to make relatively minor changes in those 
requirements allowing us to stay on track with the mission.
    Mr. Mollohan. Can you give us an example?
    Dr. Stern. Yes, sir. The Kepler mission is a good example. 
Last summer, they had a fairly significant problem with costs. 
We worked through their test program and their scientific 
requirements. We reduced their expected time on orbit by about 
ten percent and achieved a substantial reduction in their cost 
needs. By looking at their test program and some other aspects 
of the mission, we were able to essentially erase what would 
have been a $50 million class up problem.
    Mr. Mollohan. A cost overrun?
    Dr. Stern. Yes, sir.
    Mr. Mollohan. What kind of problem did you say that was? 
What problem? Class problem or what?
    Dr. Stern. Fifty million dollar class up problem, 
something----
    Mr. Mollohan. Oh, class up. I see. Scale the problem?
    Dr. Stern. Scale the problem.
    Mr. Mollohan. What was the explanation for the overrun? 
Just badly estimated to begin with?
    Dr. Stern. Well, the Kepler Project has had a variety of 
difficulties, some on the management side and some in terms of 
an underestimation of the technical difficulty. When you go out 
and buy a good digital camera, it has got eight million pixels 
in the CCD. This is a focal plane which will be the largest CCD 
focal plane that NASA has ever launched by a very large margin, 
approaching a billion pixels. The data handling and electronics 
that go with that turned out to be more complicated tasks than 
had been understood at the time that the proposal was initially 
accepted. That and some other technical problems as well as 
awkward management structure caused that mission to repeatedly 
get into cost difficulties. However, I have to tell you after 
the management changes and the suite of direction that we gave 
them, including this descope, they have been performing 
extremely well. They are on track and have been month after 
month for the February 2009 launch date next year. All the 
performance data we are seeing from the scientific instrument 
and spacecraft look very good. The team is performing extremely 
well.
    Mr. Mollohan. All that was a contractor issue, not a 
requirements issue?
    Dr. Stern. It involved contractors, as well as, NASA 
personnel.

                         SCIENCE MISSION BUDGET

    Mr. Mollohan. The 2009 budget request for the Science 
Mission Directorate reduces the budget for technology missions 
such as New Millennium and reduces the programmatic content for 
planetary sciences, technology development from current levels 
through fiscal year 2012.
    What are the implications of the proposed cuts on NASA's 
ability to pursue several new missions and to maintain schedule 
and cost discipline in executing them?
    Dr. Stern. What we have done is change our approach with 
regard to how we handle technology budgets. In recent years, 
much of the technology program has been pooled in a program 
called New Millennium, which was not for science missions, but 
entirely for on-orbit technology demonstrations. When we 
analyzed the effectiveness of that program, we found that it 
was not as effective as we would have liked it to be. Many 
technologies that were demonstrated were not needed by future 
missions and were, therefore, not picked up and had a 
relatively low efficiency of application. So we have gone to a 
different approach in which missions individually develop their 
own technology so that we know that there is a buyer out there 
that really needs what we are developing. A good example is the 
James Webb Space Telescope. We could give you other examples. 
Be happy to do that. In addition, you will see in our budget 
request we have also augmented the Suborbital Program, which is 
a natural test bed for technology development. It has been used 
very successfully in the past. So what we have actually done is 
redistribute and refocus the way that we spend our technology 
money, walking away from the older paradigm under a New 
Millennium to a newer paradigm in which the projects in the 
Suborbital Program spend technology dollars that we hope will 
be much more effective use of those funds.

                        NEW MILLENNIUM APPROACH

    Mr. Mollohan. Why? Talk a little more about that millennium 
approach and the way you are doing it now.
    Dr. Stern. Well, as you might imagine, if there is a pool 
of funds available for technology development, the selection 
criteria by which that program makes its decisions on what to 
fly has to be based upon projections of future needs and wants 
of the Science Mission Directorate. Sometimes those are not the 
best decisions. At least, historically speaking, we have 
learned that quite a number of those technologies that were 
demonstrated on orbit were not, in fact, subsequently used.
    Mr. Mollohan. Not used for what?
    Dr. Stern. Not used in subsequent science missions. The 
technology was developed, but it was not technology that people 
needed to have to do future missions. So by asking the missions 
to develop their own technology, we know that there is a buyer 
who really needs it. We are not spending money where we do not 
need to nor are we buying too much. We know it is going to be 
applied because it is within the mission's budget and they need 
to develop it to meet their own needs.
    Mr. Mollohan. The next phase?
    Dr. Stern. Well, once we develop it to the technical 
readiness level, where it has been demonstrated on-orbit or on 
a group test program, if that is sufficient, then the mission 
that needs it actually flies it and counts on it.
    Mr. Mollohan. A lot of cost overruns in NASA's science 
missions. They have become almost routine. Can you explain why 
two-thirds of the programs have exceeded their thresholds on 
costs and schedule?
    Dr. Stern. Yes, sir. There are quite a number of factors 
that are involved in that. We analyzed it and there is no 
single reason. Sometimes, as Dr. Griffin described yesterday, 
we have got into management issues like with the Glory 
instrument. The instrument's supplier was unable to perform 
efficiently. They moved their operations to another base of 
operations for development of the instrument and it set it 
back.
    In many other cases, the missions were----
    Mr. Mollohan. So Glory was a contractor performance issue 
essentially?
    Dr. Stern. Yes, sir. Other factors have included too 
ambitious a set of mission objectives for the available budget 
and not budgeting sufficient reserves. Those are just the 
things I spoke about earlier that we are trying to rectify now 
so that we do not have these problems going forward.

                          COST OVERRUN IMPACTS

    Mr. Mollohan. What impact do these overruns have on other 
projects within the Science Mission Directorate?
    Dr. Stern. Well, their effect is particularly what I call 
``the slaughter of the innocent.'' When we have a problem that 
is related to a mission that is in development and we want to 
go forward and finish that mission, we have to put off future 
missions. That means delaying or canceling missions that have 
not gotten into trouble but are in the wings waiting to be 
started.
    Mr. Mollohan. What are some examples of missions that have 
been delayed?
    Dr. Stern. Well, Solar Probe is a good example. Some are 
the missions that we are starting this year, the Explorer 
Program within Discovery, there is quite a long list. Almost 
any mission that we are starting now might have been started 
earlier, had we not had cost overruns or associated unexpected 
costs causing us to put them off until we could fit it into the 
budget wedge of a given year's request.
    Mr. Mollohan. How many of the programs that have been 
eliminated have been eliminated as a result of cost overruns?
    Dr. Stern. I would have to take that for the record and 
have that tallied for you, sir.
    [The information follows:]

                             Cost Overruns

    No Science programs have been eliminated as a result of cost 
overruns.

    Mr. Mollohan. Some of them have been eliminated because of 
the budget, right, due to the amounts you are getting overall, 
but some of them have been eliminated----
    Dr. Griffin. It is not a typical event at NASA to eliminate 
a given mission because another mission had a cost overrun. But 
delay is common which, of course, produces a cascading effect 
because the delayed mission then becomes less efficient and may 
itself overrun and the effect ricochets downstream. I mean, 
there has been a lot of discussion in this hearing on cost 
control. We have taken that on as a challenge that we want to 
address. We are very serious about it because if we can control 
it better, it feeds on itself. It produces a virtuous circle 
rather than a vicious circle, where one mission reflects on 
another downstream and it continues on. If we can get a handle 
around it, all of our missions will be better off.

                         RETURNING TO THE MOON

    Mr. Mollohan. Dr. Griffin, what is the justification for 
going to the Moon? Science, preparation to go to Mars, 
commerce? I read a speech by Dr. Marburger last year where he 
or a large part of it was justifying going to the Moon for 
commercial purposes.
    Dr. Griffin. Well, I personally think that the 
justification for returning U.S. astronauts to the Moon is to 
expand upon their presence. Certainly there is science about 
the Moon, science which can be done from the Moon, which is of 
the first rank. You might or might not choose as a policymaker 
to make that the primary justification, but it is one of the 
justifications.
    Another important justification is if we do believe that 
Mars is an important destination for humankind, and I do, then 
we need to go to the Moon before we go to Mars. We are going to 
be living on Mars for months at a time, many months at a time, 
and it will take months to get there. We need a lot more 
experience of living, working, and operating in space than we 
have today if we are, in my judgment, going to mount a 
successful expedition to Mars a couple of decades from now. 
That experience will be gained on the Space Station, and it 
will be gained on the Moon. When we make mistakes, as we will, 
it is better if those mistakes occur three days away from home 
than many months away from home. So it is a training ground for 
Mars in my opinion.
    Finally, Dr. Marburger's speech is one that I remember with 
great clarity. I thought it was one of the better speeches I 
have heard on the purposes of space exploration generally. Dr. 
Marburger asked the question. The question comes down to, do we 
wish to incorporate space within mankind's economic sphere of 
influence, or do we not. It is a choice. And I think that the 
choice should be answered in the affirmative.
    Mr. Mollohan. That is a question to be answered to the 
whole world at this point.
    Dr. Griffin. It is, but I would like the United States to 
be, and to continue to be, a leader in the world and in the 
world of tomorrow. In my opinion, and very firmly and often 
stated, if we are unprepared to lead in space, we will not be 
leaders on Earth.

                          LUNAR RETURN PROGRAM

    Mr. Mollohan. And it is another question to what extent are 
we prepared to provide leadership with regard to how resources 
are exploited from the Moon. I mean, as I understood it, he was 
actually talking about extraction and how you----
    Dr. Griffin. That is correct, sir.
    Mr. Mollohan. Are we thinking about that as a Nation?
    Dr. Griffin. One of our earliest goals with our lunar 
return program is to learn how to utilize the resources on the 
Moon and later, on other planets, to again reduce the 
dependency on supplies shipped up from Earth. In a word, 
without using money, we are looking at how one goes about 
creating an economic enterprise in space, how one utilizes the 
resources and capabilities that are there in furtherance of 
human activities.
    Mr. Mollohan. A lot of aspects to that?
    Dr. Griffin. There really are.
    Mr. Mollohan. Much more than to get into here.
    Dr. Griffin. It is fascinating. It is important. And it is 
about our future.
    Mr. Mollohan. Yeah.
    Mr. Culberson.

                          NASA FUNDING LEVELS

    Mr. Culberson. Thank you, Mr. Chairman.
    It is always a joy to have you guys here and to work with 
you, with NASA, with the scientific community.
    My hero, Thomas Jefferson, always said that you enjoy the 
dreams of the future better than memories of the past and it is 
one of the great aspects of this job, that we get to help you 
make the dreams of the future come true.
    And it is particularly frustrating to see the Office of 
Management and Budget continue to give recommendations to this 
Committee and the Congress that inadequately fund NASA. You 
have got more on your plate than you can deal with.
    One of the things I would love to work with you on, Mr. 
Chairman, Mr. Frelinghuysen, Mr. Schiff, and others on this 
Committee and the other authorizing Committee is I would love 
to think longer term about restructuring the way you all are 
managed.
    I think you have got a lot of funding problems because you 
are subject to the whims of the Office of Management and 
Budget.
    And I would love to see the recommendations for NASA's 
budget come from an independent panel of engineers and 
scientists that are not obligated politically to any 
Administration or any political party but are driven purely by 
science and engineering. Anyway, just something to think about 
for the future because it is just going to continue to be a 
problem.
    And I know that the Chairman mentioned earlier during the 
earlier set of hearings and of questioning.
    I know how frustrating it is to you and would love to sit 
down with you and talk to you in some detail about what we 
ought to do for the future to cure some of those problems.
    But let me zero in on a couple of areas in particular that 
are of concern. And I am struck in particular by the phrase 
``put off the future and slaughter the innocent.'' I just 
grieve. We all do.
    In particular, the most successful, I think, missions that 
NASA has ever flown, the Mars exploration program, the highest 
number of hits ever on NASA's web site were immediately after 
the Mars Rovers landed and they are, of course, still 
operating, doing beautifully. You have got a terrific team of 
scientists working on that, on the Mars missions.
    I think without a doubt that is one of the most successful 
programs at NASA. Yet, you are asking for a big cut. You are 
taking money away from--you mentioned yesterday, Administrator 
Griffin, Mars has been so successful that you are taking money 
away from it to fund other flagship missions.
    And I know you have got a lot on your plate. But it just 
frankly to my mind, and I know to Mr. Schiff and others on the 
Subcommittee, is unacceptable to take money away from Mars when 
they have been so successful.
    Could you comment on the funding levels that you are asking 
for this year that OMB, excuse me, Office of Management and 
Budget, not you guys--you made your best case to OMB and the 
bean counters over there are recommending this big cut, bean 
counters and bureaucrats, which drive me nuts. I think it is 
one of the problems.
    If we would let the scientists drive NASA and then the 
engineers who we have so much faith in it rather than the 
bureaucrats. But if the OMB recommendation were followed, it 
appears to be, and I have got this from a variety of very 
knowledgeable sources, if we followed the recommendation of OMB 
in order to keep a Mars sample return mission in 2020, would it 
not be essentially impossible to do any Mars missions between 
the Mars science lab which has, I know, had a little bit of a 
delay, I understand you may have to change the heat shield 
because of some tests that showed that the existing one may not 
be adequate and that that may delay it and knowing that you can 
only launch to Mars I think every other year because you have 
got to wait until it is essentially on its closest approach to 
Earth, so if we follow this recommendation in light of those 
restrictions, would it not be essentially impossible to do any 
Mars missions between science lab and sample return?
    Dr. Griffin. I will let Dr. Stern speak to that. But, no. 
We do have Mars missions between MSL and Sample Return.
    Alan.
    Dr. Stern. Yes, sir. We are going to be flying next the 
aeronomy mission of which I spoke to you just a little bit 
earlier, a highly recommended mission to study the mission of 
Mars' atmosphere, how it lost its oceans, et cetera.
    Mr. Culberson. Now, these are low to moderate cost 
missions?
    Dr. Stern. This is a medium-scale mission.
    Mr. Culberson. Medium scale.
    Dr. Stern. In costs, it is very similar to many of the 
orbiters that we now have operating at Mars, in fact.
    Mr. Culberson. Could you tell me its name again, sir. I am 
sorry, Dr. Stern.
    Dr. Stern. Mars Aeronomy. Aeronomy is the study of upper 
atmospheres.
    Mr. Culberson. Aeronomy.
    Dr. Stern. Aeronomy, A-E-R-O-N-O-M-Y.
    Mr. Culberson. Okay. That is actually a word I am not 
familiar with.
    Dr. Stern. It is a term invented in the 1950s, the study of 
the upper atmosphere of the Earth.
    Mr. Culberson. Okay. So that is a medium. But if you, 
therefore, are going to do a series of low to moderate cost 
missions, do you not have to postpone--this, I understand, is a 
conclusion of a group of Mars scientists who looked at this and 
concluded that if you do these moderate to low cost missions in 
2013 and 2016, you have to postpone the sample return 
indefinitely?
    Dr. Stern. No, sir, I do not believe that is the case.
    Mr. Culberson. That is not accurate?
    Dr. Stern. That is right. Our analysis, we----
    Mr. Culberson. Top scientists working on----
    Dr. Stern. The analysis that we have shows that we can 
support the Mars aeronomy mission----
    Mr. Culberson. Okay.
    Dr. Stern [continuing]. Which itself is approximately a 
half a billion dollar enterprise, an $880 million mission for 
2016. The Mars community is deciding what they want to do. That 
is a fairly large mission as Mars missions go. That is the next 
launch opportunity after aerology. In that same timeframe, we 
are supporting U.S. participation in ESA's, European Space 
Agency, rover activity, where we are putting about $70 million 
worth of instruments on their rover mission. Then it is our 
ambition to have the first of the Mars Sample Return missions, 
and they have to be staged a few launches in a row. The first 
would launch in 2018 to begin the Mars Sample Return 
enterprise. We are still looking at the architecture for that. 
We may put the orbiter there first, which would be the 
rendezvous return vehicle bringing the sample back, and provide 
communications architecture, or we may provide the rover first. 
And that study is still in process.
    Mr. Culberson. Okay. So you are happy with OMB's 
recommendation on Mars and you would not ask for any more?
    Dr. Griffin. Let me, if I might, make a comment, Mr. 
Culberson. There has been considerable discussion of the cuts 
and reductions we have proposed in the Mars program already. 
That is a matter of policy. One can spend more on Mars, but 
then one must spend less on Earth Science which we have 
recommended increasing.
    Mr. Culberson. Unless we give you more money overall.
    Dr. Griffin. Well, of course. But that is not what the 
Administration is recommending. One must spend less on an outer 
planets mission. The question is not whether good work can be 
done on Mars. Of course it can. It is a wonderful program. It 
has gotten an A grade. It is a wonderful program.
    Mr. Culberson. Why would you cut it then?
    Dr. Griffin. Because there are other programs and other 
communities of outer planet scientists. There are other 
communities of scientists besides those working on the Mars 
program. The question is, what is an equitable and reasonable 
balance of resource distribution across our many communities.
    Mr. Culberson. Okay.
    Dr. Griffin. Mars is not the only scientific community that 
NASA supports.
    Mr. Culberson. Okay.
    Dr. Griffin. And I have to say that without offering----
    Mr. Culberson. Part of our job on this Subcommittee is to 
help make those policy decisions and we will help you.
    Dr. Griffin. Yes, sir. I have to say that without any 
criticism of the Mars community which has done a wonderful job.
    Mr. Culberson. Right.
    Dr. Griffin. But our planetary science program cannot be 
all Mars all the time.
    Mr. Culberson. Well, I am not suggesting. And we know you 
do not have enough money on your plate. This Subcommittee is--
--
    Dr. Griffin. I cannot do an outer planet flagship unless I 
take money from some other pieces of the Planetary Sciences 
Division.
    Dr. Stern. Sir, if I may interject just to tell you a 
little bit of history. This is not new. Now, I have only been 
at NASA a year, but I have been in the Planetary Science 
Program for decades. For example, in the 1990s, we can only 
afford in that program, as we do in others, one flagship at a 
time. Those are very expensive enterprises.
    Mr. Culberson. Right. The Cassini class.
    Dr. Stern. Cassini was a flagship of the 1990s.
    Mr. Culberson. Right.
    Dr. Stern. Following that, we did Mars Science Lab.
    Mr. Culberson. Okay.
    Dr. Stern. Now, and according to the decadal survey, in 
fact, it has turned----
    Mr. Culberson. Outer planet----
    Dr. Stern. It is time to catch up on Europa or the outer 
planet flagship and then we go to the Mars----
    Mr. Culberson. Science, but I love it.
    Dr. Stern [continuing]. Sample Return, which is the 
following flagship to that. So we take turns and we are 
following the behavior that has been----
    Mr. Culberson. Okay.
    Dr. Stern [continuing]. In place for quite a while.

                         OUTER PLANETS MISSION

    Mr. Culberson. Talk to me for a minute about the flagship 
to Europa, the outer planets mission, which is the highest 
priority of the decadal survey, and how you intend to get there 
and what time frame to Europa----
    Dr. Stern. Yes, sir.
    Mr. Culberson [continuing]. Which is the moon of Jupiter 
that has an ocean, saltwater ocean that is as large or maybe 
even larger than, in terms of volume, the oceans on the Earth.
    And because of tidal flexing, of course, you have got heat 
coming up from the bottom of the ocean and almost certainly 
vents, volcanic vents where you have got heat and saltwater 
very likely the chemical energy then producing life like we 
have on the bottom of the mid ocean ridges on earth which is 
why, of course, we do not want to go there, right?
    Dr. Stern. Yes, sir. You are going a little further than I 
would as a scientist.
    Mr. Culberson. Logical, though.
    Dr. Stern. We are genuinely conservative in our 
extrapolations, but we do know that Europa has an ocean on its 
inside. In fact, one of the great discoveries of the outer 
planets program, which the United States has led for the world, 
is that oceans are very common. It is just that they are rare 
on the outside of planets. They are very common on the inside 
of these icy worlds like Europa. The question, the operable 
question about Europa is how deep is the ice until you get down 
to the ocean. Is it accessible that we could actually imagine 
some 21st century probe getting through that ice? If it is 
hundreds of meters or perhaps a kilometer under the surface, 
one can imagine down the road, towards the middle of this 
century having the technology to get a probe into that ocean, 
which can communicate back to us.
    Mr. Culberson. And get off and swim in the ocean.
    Dr. Stern. Like a submersible, for example. But if it is 
many kilometers, that will not be possible. So the purpose of 
the Europa mission, if that is the outer planet flagship that 
we fly, is to assess the depth of the ice down to the ocean 
interface. Now, I am not sure if you are aware, but the science 
community has put forward three different concepts for an outer 
planet flagship, which are in competition, Europa being one of 
the three. Our Cassini mission, which is at Saturn, the Cassini 
Saturn orbiter, is a flagship mission itself.
    Mr. Culberson. It is still thriving and doing well?
    Dr. Stern. It is doing extremely well. We have just 
authorized it for an extended mission. It has discovered 
another kind of ocean, actually lakes.
    Mr. Culberson. Encelioides?
    Dr. Stern. This is a Titan, a world that is larger than 
some planets in our solar system. These are hydrocarbon oceans. 
It is estimated that Titan has more than a hundred, and perhaps 
more than a thousand times the hydrocarbon reserves of the 
Earth. This shows an analogy to the early Earth's environment, 
a pre-biotic environment of extremely high interest to the 
planetary science community.
    Mr. Culberson. Maybe a good gas station on the way there.
    Dr. Stern. It could turn out to be that way in the future, 
yes, sir. There is a third competing outer planet mission.
    Mr. Culberson. Okay.
    Dr. Stern. Those are going through scientific development 
and peer review.
    Mr. Culberson. Titan, Europa, and what is the third one?
    Dr. Stern. The third one is called the Jupiter science 
orbiter, which would be a second-generation Galileo mission and 
would terminate in orbit around another one of Jupiter's 
planet-size moons, Ganymede, which also is believed to have an 
ocean like Europa on its interior, but it is easier to access 
because the radiation environment is lower at Ganymede.
    Mr. Culberson. That is the third Galileo moon?
    Dr. Stern. Yes, sir. It is, yes.
    Mr. Culberson. I was not aware it had an ocean.
    Dr. Stern. Yes, sir.

                           PROMETHEUS MISSION

    Mr. Culberson. Okay. But all the work, of course, that has 
been done, you are going through a competition now. But I 
always remember my first year on this Subcommittee, I asked for 
a variety of briefings and was absolutely charmed and 
mesmerized with the Prometheus mission that John Casani, and I 
hope he is still thriving and doing well, you are taking good 
care of the projects.
    Dr. Stern. Yes.
    Mr. Culberson. John Casani is a national treasure.
    Dr. Stern. Yes, sir.
    Mr. Culberson. He is at JPL and doing well, I hope.
    Dr. Stern. John is fine.
    Mr. Culberson. Yeah. He was leading that effort and they 
briefed me on these different missions they had. And this one 
they were developing. They were going to Europa and they were 
developing an ion engine because today we are still flying the 
same rocket engines that Robert Goddard designed.
    It is fundamentally, but they were better pumps obviously 
and better fuel, but fundamentally we are still flying Robert 
Goddard 1920 technology. It is like we have left our astronauts 
and the science community at NASA, it is like leaving our Navy 
shoveling coal in the steam-fired boilers. It just drives me 
nuts. I want to help you find a way to develop that next 
generation of rocket propulsion.
    But on the outer planets mission, what timeframe are you 
thinking about? And I am concerned that we are just not going 
to get it flown because it is a Cassini-class mission. It is a 
big----
    Dr. Griffin. We are talking 2016 or 2017 for the outer 
planets flagship, whichever----
    Mr. Culberson. For launch?
    Dr. Stern. Yes, sir. The President's budget request 
provides a sufficient budget wedge to launch that mission by 
2016 if it is Jupiter and 2017 if Saturn is the target. That is 
driven by the orbital mechanics, not by our budget needs. That 
also times well with our European partners, who will be major 
partners, as they have in other flagships----
    Mr. Culberson. Okay.
    Dr. Stern [continuing]. The outer planets. How their 
funding profile----
    Mr. Culberson. And that would include a lander obviously 
for Europa; would it not?
    Dr. Stern. No, sir, not for Europa. It is only an orbiter. 
The Titan concept does include a lander. These are very 
different missions obviously and the Jupiter science orbiter is 
yet a third architecture----
    Mr. Culberson. Okay.
    Dr. Stern [continuing]. Depending upon the needs. But we 
are----
    Mr. Culberson. Okay. So you are saying 2016 or 2017 for 
launch?
    Dr. Stern. Yes, sir.
    Mr. Culberson. And you are sure we can get there with the 
money that you are asking for on the glide path that you are 
on?
    Dr. Stern. I am quite confident of it because we are 
scoping the mission to fit the budget, not leaving it open-
ended in budget to fit whatever desires might be out there.
    Mr. Culberson. Okay. The Chairman has been very generous of 
the time. Whenever you need me to stop. I could just go. But, I 
mean, I would love to ask about SIM, for example. Can I have a 
couple more minutes, two more minutes, a minute?
    Mr. Mollohan. Why don't we come back to you----
    Mr. Culberson. Sure. Yes, sir.
    Mr. Mollohan [continuing]. Because you have had ample----
    Mr. Culberson. I know Adam will also have----
    Mr. Mollohan. Mr. Schiff.

                         OUTER PLANETS MISSION

    Mr. Schiff. I was going to say, Mr. Chairman, I would be 
happy to defer a couple of my minutes to Mr. Culberson because 
I actually just wanted to comment on something that Mr. 
Culberson said and then I would be happy to yield to the 
gentleman.
    I strongly support the outer planets mission. I think it is 
some of the most interesting work that NASA does and I am very 
excited about all the possibilities. And I have loved reading 
about the hydrocarbon lakes on Titan which are wonderful to 
imagine. My own theory is that there were dinosaurs up there.
    But I do not think the situation is that we cannot do outer 
planets if we want a strong Mars program. We cannot do our 
sciences if we want to do SIM. We cannot do SIM if we want to 
get the cost overruns under--of the Webb telescope under 
control.
    The testimony you cannot give, I will give. If you were not 
constrained to be soldiers in the service of the 
Administration, you might come in and say we have to make 
drastic cuts to Mars and it is criminal because Mars is the 
best, one of the best programs that we have run. But we are 
going to cut it in half over the next five years because this 
is what we have been given.
    You might say if you were not constrained by the 
Administration that we have historically underfunded Earth 
sciences. There is a lot of need to do work in our sciences. We 
need to understand global climate change better. We need to 
make investment there. But we are not going to come in to you 
and ask you to savage Mars to do Earth sciences.
    We want to go with outer planets. We have got three great 
candidates. We would love to do two of them or three of them, 
but that is not possible. But we are committed to doing one of 
them and we are going to find out which is the best.
    You cannot say that, but it is our, I think, responsibility 
to look at those sacrifices you are proposing to be made in the 
interest of the numbers you are getting from OMB and the 
Administration. But I do not think it is productive to try, 
either try deliberately or have the inadvertent effect of 
trying to pit one center against another or one project against 
another.
    This is not, you know, whether we do outer planets or we do 
Mars or whether we do Webb or whether we do whatnot and I do 
not think it is constructive to the process to suggest that it 
is. Exactly. Exactly
    And I would be happy, Mr. Chairman, to yield the balance 
of----
    Mr. Culberson. No. I am through. I had a chance to ask my 
question, so I would yield to my colleague.
    Mr. Mollohan. Thank you.
    Dr. Griffin. May I comment, sir, or would you prefer that I 
did not?
    Mr. Mollohan. Certainly.
    Dr. Griffin. We are not trying to pit one program against 
another or one Center against another. That is the last thing I 
want to do. I have striven hard for three years for more unity 
in support of all within our program. But it is fiscally true 
that at whatever budget level you would care to set, this 
Administration has set a budget level, which is very favorable 
to NASA in comparison with other domestic discretionary 
programs. But at whatever budget level you would set, you would 
have competition from various communities, each wanting to have 
the lion's share of that budget. We try very hard without 
putting our own spin on it to execute what the scientific 
community says are its priorities in each of these different 
camps.
    But they are irretrievably committed to scientific 
competition for scarce resources among themselves, and we try 
to sort that out on an objective an impartial basis. We are not 
trying to create rivalries of one Center against another or one 
program against another.
    Mr. Schiff. Happy to yield.
    Mr. Culberson. Mr. Chairman, may I follow-up? Thank you.
    I think one way that this Committee can certainly deal with 
it, it seems to me and our colleagues on the authorizing 
Committee, is to do whatever we can and we need to do to make 
sure that NASA flies the decadal survey missions as you always 
have. That is a great way to prioritize.
    The scientific community, as you know, has this survey 
every ten years. They meet. They talk. They debate. And they 
voted scientists one of the highest priorities. And you all 
have always flown those missions and that is, of course, what 
outer planet mission is, but the scientific community chose 
Europa.
    Why are you going back through another competition when the 
scientific community has said Europa is the highest priority?
    We have got this magnificent mission at Titan. We have 
landed on Titan. Cassini is doing beautifully, will obviously 
continue to thrive for years.
    Why are we doing another competition when the decadal 
survey says it is Europa?
    Dr. Griffin. Between the time when the last decadal survey 
said to go with preference to Europa, we have flown the Cassini 
mission and learned much more from earlier missions. So now the 
scientific community is no longer sure that they want to go to 
Europa as a first preference. They may, but these other 
possibilities have been put on the plate. I will emphasize 
again we, NASA, as a Federal agency are not trying to dictate 
to the scientific community which priority it must have.
    Mr. Culberson. Okay.
    Dr. Griffin. We are also not trying to tell them that once 
you pick Europa as a priority, it must forever remain your 
priority. We are giving them the latitude before we actually 
start spending money on a particular path.
    Mr. Culberson. On a flagship mission.
    Dr. Griffin. Flagship mission. We are giving them the 
latitude to change their minds.

                     OUTER PLANET FLAGSHIP PROCESS

    Mr. Culberson. Okay. How do you do those surveys, if I 
could, Dr. Griffin? What is the process? How do you do that? 
Who will make the decisions? I hope it is essentially a peer 
review. You know, the scientists and engineers and not being 
driven by a political appointee or a bureaucrat somewhere. That 
is really the scientific community that will make this 
decision, which flagship we fly.
    Dr. Stern. Yes, sir.
    Mr. Culberson. What is the process?
    Dr. Stern. Let me----
    Mr. Culberson. How do we guarantee that----
    Dr. Stern. You are specifically asking, I believe, about 
how we are going to choose the outer planet flagship.
    Mr. Culberson. Between these three, yes.
    Dr. Stern. Yes, sir.
    Mr. Culberson. What is the procedure?
    Dr. Stern. We are actually in the middle of that process. 
As Dr. Griffin described, science is always evolving. Because 
we flew the Cassini flagship, interest in Titan rose quite a 
bit, also in Enceladus as well, the moon of Saturn that has the 
giant geysers that you are familiar with.
    Mr. Culberson. Water geysers.
    Dr. Stern. Right. As a result, through our Outer Planets 
Assessment Group, led entirely by scientists, not bureaucrats 
or politicians----
    Mr. Culberson. Good.
    Dr. Stern [continuing]. They took it through a variety of 
different possibilities. Their charge from NASA, from the 
Science Mission Directorate was as follows. Historically and as 
we see going forward, outer planet flagships have been rare and 
precious, with approximately one every 15 years. So pick this 
one carefully based on needs and what can best advance the 
science field, because the next one will come down the road 
another 15 to 20 years.
    So start with the fact that Europa was the highest priority 
in the 2001 decadal survey process. But take into account 
everything we now know so we don't misfire using only data from 
almost a decade ago.
    Mr. Culberson. Okay.
    Dr. Stern. And then do the scientific rankings at the same 
time that we are doing engineering studies and costing studies 
to see what produces the best result to fit in the budget 
envelope, to deliver the biggest bang for the approximately----
    Mr. Culberson. Okay.
    Dr. Stern [continuing]. $2.1 billion that is available.
    Mr. Culberson. It sounds good. And I would like to be 
briefed outside of this hearing. I would like to come down and 
have you talk to me about when you are doing it, because I 
would love to help. I want to be a----
    Mr. Stern. We would love to do that.
    Mr. Culberson. We want to participate and help. I don't 
know that the OMB has ever given you a budget request that has 
been sufficient. And this Committee--your best friends in the 
world are right here. These are your best friends in the world.
    Dr. Griffin. And we take it that way, sir.
    Mr. Culberson. It is meant sincerely. We want to help. But 
it is frustrating.
    And I want to be sure, Mr. Chairman, before we--if I get a 
chance to come back to ask about the near earth asteroids that 
they were referring to earlier. If I am correct or actually you 
are supposed to identify ones that could strike the Earth, to 
identify ones that could at some point impact the Earth and how 
you would intercept them and nudge them out of the way. And be 
thinking about that. If I could, I want to do that and follow 
up. And then also trying to nail them down on SIM, if I get a 
follow up.

                        SHUTTLE MANIFEST MISSION

    Mr. Mollohan. Oh, you will get a follow up. It is quite an 
agenda there. I was going to comment that you can tell your 
best advocates are sitting on this Committee although it needs 
money.
    In light of the Shuttle flight delays that have occurred 
since the shuttle's return to flight after the Columbia 
accident, how realistic is it to assume that the shuttle will 
be able to complete all the remaining missions on its manifest 
by October of 2010, Doctor?
    Dr. Griffin. Well, to complete the remaining Shuttle 
manifest missions means that between February of 2008 this 
year, counting the mission we just flew and the end of 2010, we 
need to fly five missions a year on average. Our historical 
flight rate, including periods of time of almost three years 
each, where we had two Shuttle accidents and were down, as well 
as other periods of time where we were down for extended 
periods without an accident, our historical average is four-
and-a-half flights a year. So we are now in a period where we 
were up and running and operating relatively smoothly. I have 
every confidence that we can execute at the rate of five 
flights a year from now until retirement.
    Mr. Mollohan. And does that complete the manifest?
    Dr. Griffin. And that completes the manifest that has been 
scoped out.
    Mr. Mollohan. How will NASA avoid the schedule pressure 
that the Columbia Accident Investigation Board warned against 
when NASA's need to complete the Space Station's assembly, 
repairing the Hubble Telescope, creeps up against that October 
2010 deadline? Did your answer to the last question imply that 
you are not going to have this schedule pressure?
    Dr. Griffin. No, it didn't. We always have schedule 
pressure. I dislike intensely the idea that external reviewers 
and advisers suggest that we should ignore schedule pressure. 
The importance of schedule is obvious to all project managers 
who ever ran any project in any kind of a human field of 
endeavor.
    Time matters. The expression, ``time is money,'' didn't 
just originate for no reason. Time matters. What I would like 
for you to want of us is that we are a group of responsible 
managers who know how to balance schedule pressures against 
cost, performance, and risk, and to do so in a manner that no 
one of those parameters ever gets out of the box. It is true 
that in the past, in space projects as in many others, 
sometimes schedule pressures have been allowed to dominate 
inappropriately and to produce bad behavior and bad outcomes. 
Whenever a failure happens--a Mishap Investigation Board looks 
at it, and says that we should not do that. That is correct. We 
should not. We should not allow schedule pressure to dominate. 
But at the same time, we cannot ignore it. We must take it into 
account. We must make operational decisions to fly or not to 
fly in the face of less information than we would like to have. 
But we must do it. I think we are doing it today quite well.
    Mr. Mollohan. At what juncture will you know that you have 
time to complete all the missions on your manifest by the 
scheduled----
    Dr. Griffin. This is 2008. At this point in time, we have 
until end of Fiscal Year 2010 to accomplish the job we want. So 
all of 2009, all of 2010 and half of 2008, 30 months to 
accomplish the missions we need. If we get down to the last 
year, and still have nine missions to go, I would be very 
concerned. I mean, I would say we probably can't accomplish 
that. If we get down to the last year and have six missions to 
go, I would say we probably can.
    Mr. Mollohan. Is there a contingency to push the date out 
if necessary? And what would be the consequences of that?
    Dr. Griffin. I would not. Again, you are asking me for an 
opinion. There is not presently a plan to push the Shuttle 
missions out beyond 2010. I would not want to do that, because 
our future mission portfolio, discussed earlier from Members of 
the Committee, showed how we get into program overruns and 
delays and all of that. A classic way to get into an overrun 
situation is to have funding instability in early years. I mean 
one can make technical mistakes, one can mismanage contractors. 
Those things can happen. But a classic way is to underfund or 
to disrupt the funding stream promised to programs.
    If we fly the Shuttle beyond 2010, that will take an 
additional $3 billion or so for every year that we wish to keep 
the shuttle fleet around. That will produce a huge collateral 
damage effect on all other programs within NASA. I don't 
recommend that to you. We will do as the Congress directs, of 
course. But I don't recommend it to you that we extend the 
program.

                         HUBBLE SPACE TELESCOPE

    Mr. Mollohan. What is the priority of Hubble in that with--
--
    Dr. Griffin. The Hubble will fly this August or September. 
And so it is----
    Mr. Mollohan. It is in the--well in the----
    Dr. Griffin. It is the third flight from now. I mean, we 
are launching next week. We are launching in May, and then we 
do Hubble.
    Mr. Mollohan. Is next week's flight a night flight?
    Dr. Griffin. It is a 2:38 AM launch on March 11th we are 
currently scheduled, sir. So I don't recommend we extend the 
Shuttle program past 2010. The other thing is for the Shuttle 
workforce itself, what our workforce needs is again stability. 
Stability in our plans. They need to know that we expect them, 
and we expect to pay them through 2010. And that after that we 
will transition to new programs, that we will work with them as 
best possible to transition them over.
    But they need to know what is going to happen, not to be 
deciding every year, will we extend the Shuttle program or not 
extend the Shuttle program.
    Mr. Mollohan. Mr. Frelinghuysen.

                            BUDGET STABILITY

    Mr. Frelinghuysen. This issue of budget stability, 
obviously, was sort of one of your centerpieces yesterday. What 
in this given time of Fiscal Year 2009 and 2010 makes the 
Constellation programs particularly vulnerable?
    Dr. Griffin. We are in possibly the most difficult 
transition period in the 50-year history of NASA. We are trying 
to phase out----
    Mr. Frelinghuysen. Yes.
    Dr. Griffin [continuing]. In a disciplined, orderly, 
rational, intelligent, impartial way. We are trying to phase 
out a system that will be 30 years old by the time we fly the 
last flight. We are trying to phase in a new system to 
accomplish----
    Mr. Frelinghuysen. This is a special plane, because time is 
a wasting.
    Dr. Griffin. Yes. Yes, sir. This is a very special time 
period. We are trying to phase in a new system with a minimum 
of delay.
    Mr. Frelinghuysen. And this would be part. And I don't mean 
to be rhetorical here. Get back to what some raised yesterday 
that is you had to leave a portfolio for the next President, 
that this is part of what you would say in terms of your 
anxiety or expectations.
    Dr. Griffin. Absolutely, sir. Absolutely. On behalf of the 
Nation's civil space program. We have set a course. I believe 
it is an intelligent course. It clearly is dependent upon the 
amount of money we have. But for the amount of money we have, I 
believe we have an intelligent course of action. That we should 
stay on it.
    Mr. Frelinghuysen. Thank you for letting me get my oar in 
the water.

                            SUPPLY MISSIONS

    Mr. Mollohan. The last missions on the manifest are supply 
missions, are they not? And I understand there are provisions 
that can only be taken up by shuttle?
    Dr. Griffin. That is correct, sir.
    Mr. Mollohan. Are they at all expendable? And would you 
push out the last fly date in order to accommodate those 
missions?
    Dr. Griffin. It depends on what you mean by ``push out.'' 
Now our target is to finish flying by the end of Fiscal Year 
2010. But we rarely get, and we do not expect to get, new 
Fiscal Year monies on October 1st of any given year. So we go 
into any new fiscal year with a little bit of carryover for 
several weeks or a couple of months worth of operations.
    So no irretrievable harm would be done if our last mission 
launched in--I will just pick a number, November of 2010 versus 
September 30th, of 2010. No one would notice the difference in 
our budget. If we tried to go more than a couple of months and 
use money from a new fiscal year, we would have to keep 
contracts open that we intend to close. That would then now get 
us into a huge impact. Again, I do not want to do that. With 
regard to the last couple of flights that you asked about, the 
plan in our manifest is that those are logistics flights. Yes, 
sir. They carry up spare parts for the Station to allow it to 
continue operating in the event of breakage of some certain 
subsystems. They carry up spare parts that we cannot get up by 
any other means, because----
    Mr. Mollohan. That sounds like they are pretty important.
    Dr. Griffin. They are very important to us. Precisely 
because we expect to have a five-year gap where we don't have 
real good access to the Station, because the Shuttle will be 
retired. Our new systems will not be available. We need to 
preposition those spare subsystems and parts ahead of time. Now 
you asked, ``is it a hard cutoff.'' Well no, first of all, we 
are not flying up all the spare parts we have. We are leaving 
some on the ground. That involves a reasoned judgement as to 
which subsystems and units are most likely to fail. Which are 
least likely to fail. We make the best judgement we can based 
on our existing flight experience, but we will leave some 
things on the ground. Can you leave more on the ground? Sure. 
We don't want to. We would like to fly it all. It is a question 
of engineering judgement as to what will fail first and how 
often it will fail. We are making those judgements at a time 
when we don't really have enough flight history on the Space 
Station to make the best judgement we could make. So we are 
making reasoned judgements. They are not perfect. We hope to 
get as many spare parts as possible up before we end the 
Shuttle Program.

           COMMERCIAL ORBITAL TRANSPORTATION SERVICES (COTS)

    Mr. Mollohan. Can any of those spare parts--when will the 
unmanned alternative systems be available? Will they be 
available before the 2015 date, the COTS Program?
    Dr. Griffin. I can comment on COTS. We have a procurement 
going out this year. So I would like Mr. Gerstenmaier to 
comment on the details of the commercial procurement that we 
are trying for----
    Mr. Mollohan. Okay.
    Dr. Griffin [continuing]. Unmanned cargo, to answer your 
question.
    Mr. Gerstenmaier. We just released a draft request for 
proposal for the resupply services. That went out last week. In 
that we specify how much cargo we need, roughly, by calendar 
year. The cargo is in three categories. It is unpressurized 
cargo, cargo that can fly outside exposed to the vacuous space, 
cargo that flies on the inside or pressurized cargo, and then 
there is a line for cargo we would like to return to the 
ground. That cargo is broken out by metric ton delivered in 
each of those calendar years. We show we can start taking cargo 
as early as 2010 from a commercial supplier if we get a 
proposal back that shows that they can provide that capability 
to us. It starts at a very modest amount in 2010, roughly on 
the order of a metric ton or so. It grows to about 10 metric 
tons per year beyond that period. That is what we are seeking 
from the commercial sector to see what is available.
    Mr. Mollohan. Are there items that you are talking about in 
these last Shuttle flights that could not fly commercially?
    Mr. Gerstenmaier. We selected items for these last Shuttle 
flights that are uniquely suited to the Shuttle. For example, 
the large control gyros that provide stability for our Space 
Station.
    Mr. Mollohan. Okay.
    Mr. Gerstenmaier. There will be two of those on those 
flights. They could fly on an expendable vehicle. But they are 
going to really stretch the capability of the expendable 
vehicle. They may drive the shroud larger. They may drive up 
mass requirements. We picked items for the Shuttle flights that 
the Shuttle is uniquely suited to carry. Those last spares are 
uniquely designed for Shuttle. Also, the design environment, 
how much it will get vibrated during assent, thermal 
environment, if they need power, those kinds of considerations. 
If they are uniquely suited to Shuttle, we have chosen those to 
be placed on the Shuttle flight.
    Mr. Mollohan. Not that you could do them otherwise, but----
    Mr. Gerstenmaier. But there will be an additional cost 
and----
    Mr. Mollohan. Time and money.
    Mr. Gerstenmaier. It will be an additional expense and 
drive a unique capability to the expendable that has not flown 
on a routine or easy basis.
    Mr. Mollohan. Do you have authority, Dr. Griffin, to extend 
the sunset date for Shuttle missions?
    Dr. Griffin. I do not. No, sir.
    Mr. Mollohan. You do not?
    Dr. Griffin. I do not.
    Mr. Mollohan. Where does that reside?
    Dr. Griffin. Well, Presidential policy was established 
before--actually before my arrival at the agency. Recommending 
a 2010 retirement date. The 2005 Authorization Act for NASA 
stipulated a retirement date of 2010, I believe.
    Mr. Mollohan. So it would require a new Congressional 
authorization----
    Dr. Griffin. I----
    Mr. Mollohan [continuing]. To extend?
    Dr. Griffin. I am not an attorney. I am an engineer. I--my 
understanding of----
    Mr. Mollohan. No. I----
    Dr. Griffin. My authorization is that if one wished to 
extend Shuttle flights beyond the year 2010, it would require 
Congressional authorization. That is my understanding, sir.
    Mr. Mollohan. Mm-hmm. Mr. Frelinghuysen.

                        ARES THRUST OSCILLATION

    Mr. Frelinghuysen. Getting back to the stability in your 
budget issue, I don't want to have a play on words. But the 
road to an initial operational capability in March of 2015 
depends on stable funding.
    Dr. Griffin. That is correct.
    Mr. Frelinghuysen. Absolutely essential.
    Dr. Griffin. That is correct, sir.
    Mr. Frelinghuysen. But the road is not without some 
impediments. I don't mean to raise the specter of GAO. But GAO 
has highlighted several critical risk factors in constellation 
program, which I am sure you are quite familiar with.
    Could you comment on thrust oscillation? Where we stand. Is 
that one of those obstacles?
    Dr. Griffin. It is one of the obstacles GAO quotes.
    Mr. Frelinghuysen. Well, how do you view it? If I set these 
up, will you bat them out of the park?
    Dr. Griffin. Probably. I am happy to tell you more about 
thrust oscillation----
    Mr. Frelinghuysen. Yes, would you.
    Dr. Griffin. More than you would ever want to know.
    Mr. Frelinghuysen. How are you dealing with it, and 
defining requirements, and impact of the weight of vehicles. 
Those sort of issues that the GAO raised.
    Dr. Griffin. The issue of thrust oscillation and solid 
rocket motors is nearly universal. When we began the detailed 
design of the Ares rocket, which uses the solid rocket motor 
first stage, we realized it was likely to have, in the worst 
case, considerably more effect than we see on our Shuttle 
flights, where we have a huge stack of hardware that 
essentially damps out the vibration. That may very well end up 
being the case on the Ares. But in case it is not, we have had 
a Tiger Team looking at that for the past four months. First of 
all, we have carefully refined our estimates of those loads 
down to a factor of five or more, lower than originally 
thought.
    So the loads themselves are not as great concern as 
originally thought. Second, we have come up with several 
mitigation methods. In fact, the team that has been working 
this meets next week to provide a set of final recommendations 
for flight on how we will design the thing to deal with those 
loads. I had a review of that just yesterday, a quick review of 
progress. I am entirely satisfied with what they are doing. I 
don't see that as an insurmountable obstacle to our flying.
    Mr. Frelinghuysen. Relative to defining requirements and 
the impact on the weight of the vehicles.
    Dr. Griffin. We will have the estimate for that next week.

                           ORION HEAT SHIELD

    Mr. Frelinghuysen. Technology development such as the Orion 
heat shield.
    Dr. Griffin. The Orion heat shield is an interesting 
matter. Mr. Culberson mentioned the Mars Science Lab heat 
shield. It has been a while in this country since we have flown 
heat shields that were significantly challenging beyond the 
Shuttle materials. So we are having to reconstitute the 
Nation's technical base for those types of heat shields. It 
does not rise to the category of a problem for Orion. It is not 
a schedule driver. It is not a cost driver. It is not a 
technical driver. But it is a fair statement to say that the 
Nation, as we sit here today, cannot replicate the heat shield 
used for the Apollo spacecraft.
    Mr. Frelinghuysen. Yes.
    Dr. Griffin. We drifted away from that technology when we 
adopted Shuttle. There was no other market for it, so we have 
to recreate it. But I am not worried about that.

                          WIND TUNNEL TESTING

    Mr. Frelinghuysen. Their contention that test facilities 
are inadequate to demonstrate new technologies.
    Dr. Griffin. I do not think that is right. We are testing 
those technologies today out of the Ames Research Center in our 
jet that we have out there. We do other tests in wind tunnels.
    Now, we do need to again reconstitute a technical base that 
was allowed to drift away, that once existed in the Nation when 
it was allowed to drift away.
    Mr. Frelinghuysen. It drifted or atrophied?
    Dr. Griffin. It atrophied. But between the Aeronautics 
Research Mission Directorate and the Exploration Systems 
Mission Directorate, we are aware of that. We know what we need 
to do and it is in the budget.
    Mr. Frelinghuysen. And that is reflected, of course, in the 
confidence factor which you have repeated again. And we will 
not have you mention the percentage.
    Dr. Griffin. Absolutely. I am not trying to convey the 
impression to the GAO or anyone else that we do not have 
technical problems to solve. We do. You, this Congress, 
appropriate money for us to do bold new things that involve the 
overcoming of technical problems. You pay us to do that. We are 
doing it. It is frustrating sometimes and I think ultimately 
counterproductive for people to say, well, you have technical 
problems to solve as if that were new news.
    Mr. Frelinghuysen. You do it every day?
    Dr. Griffin. We do it every day.
    Mr. Frelinghuysen. Everything you do is inherently risky?
    Dr. Griffin. It is what you pay us to do.
    Mr. Frelinghuysen. That divisible report, I just wanted to 
give you an opportunity to, shall we say, set the record 
straight.
    I do not have any problem with your reassurance, but 
sometimes the public record needs to reflect your strong 
objectives to some of the conclusions they have reached.
    Dr. Griffin. Do not mind providing you with that 
opportunity.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Dr. Griffin. If we did not have technical problems to 
solve, I would not be interested in this job.
    Mr. Frelinghuysen. I am sure. Thank you.
    Mr. Mollohan. Mr. Culberson.

                         CHINESE SPACE PROGRAM

    Mr. Culberson. Thank you, Mr. Chairman.
    Dr. Griffin, we talked last year a little bit about the 
Chinese and where they are going with their space program.
    Do you think today, as we sit here today, that it is likely 
the Chinese will land on the Moon before we do?
    Dr. Griffin. I certainly believe that they can if they wish 
to.
    Mr. Culberson. Can you talk to us a little bit about their 
plans and their program and the time table that they have set 
out to go to the Moon.
    Dr. Griffin. Well, China has not exactly laid out for us a 
blueprint of its space program. What they have announced is 
that their next flight to be conducted in the same timeframe as 
the Beijing Olympics will feature a crew of three. That is a 
very impressive feat for them on their third human space 
flight. Their third orbital flight will feature a crew of 
three. They have announced the intention to put up a small, I 
would call it a Salyut class Space Station like what Russia did 
in the late 1970s and early 1980s within their next few 
flights. I have no doubt that they will accomplish those goals. 
They are working on the development on the Long March Five 
which you can look on open sources on, you know, the web and 
find that they project to have a 25 metric ton carrying 
capacity and to be available in 2013. With four Long March Five 
launches, it is entirely possible to construct a scenario by 
which Chinese astronauts could be placed on the Moon. In my 
opinion, that could be done by late, in the next decade quite 
easily if they choose to do so. I find no fault with what they 
are doing. In fact, I admire their program. The Chinese are 
building a robust human spaceflight program, step by logical 
step in the very careful and very thoughtful way that they do 
everything else. So we should not be surprised by that.
    Mr. Culberson. Sure. They could land on the Moon then 
before the end of the next decade. And when under our current 
schedule will Americans return to the Moon?
    Dr. Griffin. Under our schedule, in 2019 or 2020.

                             SEA TREATY LAW

    Mr. Culberson. The law of the Sea Treaty has intrigued me 
and watching the Russians and others try to make claims to some 
of the mineral resources under the Arctic is in my mind, and 
correct me if I am wrong, but there is no law governing those 
mineral assets under the Arctic and there is no real 
established law or treaty governing who has ownership rights or 
can exploit the mineral resource, for example, mineral 
resources on the Moon or on an asteroid that is rich, true? Am 
I right or wrong about that?
    Dr. Griffin. I do not know anything at all about the law of 
the Sea Treaty, sir, or the Antarctic Treaty. I am sorry. We 
recently did, at Congressman Feeney's request, with benefit of 
external advisors as well, a study of the status of law and 
policy regarding lunar property rights.
    Mr. Culberson. That is where I am driving at.
    Dr. Griffin. Okay. So that study has been completed 
internally. It requires review within the White House before it 
can be released. But when it can be released, it will be 
provided to you.
    Again, I initiated that study at Mr. Feeney's request, but 
certainly it will be available to you as soon as we can make 
it.
    Mr. Culberson. It is an important question that the 
Chairman was driving at that a little earlier, too, is about 
who has ownership rights or the ability to--because obviously 
the Moon is rich in resources. You got asteroids that are rich 
in resources. So I look forward to hearing it.

                           NEAR EARTH OBJECTS

    Let me follow-up, if I could quickly, on the near earth 
objects and the charge from Congress, I think a number of years 
ago, that NASA identify asteroids of a kilometer in length.
    Dr. Griffin. Our requirement is to identify, by the end of 
this year, 90 percent of all the near-Earth objects of one 
kilometer or greater in size.
    Mr. Culberson. And I know a part of that, because it was in 
some language that we in this Committee adopted year before 
last, Rusty Schweickart came in to see me several years ago. I 
think he was on the Apollo 9 mission and brought it to my 
attention. And it seems to me an important function of what you 
are doing identifying these objects is to how would you 
intercept one if you needed to nudge it out of the way?
    What has NASA done in terms of trying to identify 
technologies or prepare for a mission if indeed one was 
spotted? Like, I think there was one last year that they 
thought for a while might have a chance of--would make a real 
close pass.
    And I forget the name of the asteroid, but it is going to 
make a close pass and depending on how close it is in the year 
2014, you will be able to see it visually from Europe. It will 
come so close to the Earth that I think in broad daylight, you 
will be able to see the thing whiz by. And Rusty showed me the 
calculations and it is going to come very, very close.
    What contingencies has NASA prepared to send the mission 
out to nudge an asteroid out of the way if indeed it looked 
like it might strike the Earth?
    Dr. Griffin. We've prepared no such contingencies. We're 
not authorized by the Congress to do that mission. Money has 
not been appropriated for it, and the President has not 
directed us to do that.

                      ALPHA MAGNETIC SPECTROMETER

    Mr. Culberson. OK. Obviously, you don't have enough money 
to do everything your plate right now. But it's something I 
just wanted to get on the record to find out where you were on 
it. I do think it's important. But we've got to make sure you 
have enough money for other requirements as well.
    I'm glad to hear you're asking private contractors to find 
ways to get cargo to the Space Station.
    If I could also, Mr. Chairman, just briefly ask about the--
when the Texas delegation met with you a number of months ago, 
that's a cosmic ray experiment I think.
    Dr. Griffin. The AMS, the Alpha Magnetic Spectrometer.
    Mr. Culberson. What are you doing to try to find a way to 
fly that? I know it would require--it has to fly on the shuttle 
in order to make it up to the Space Station. And about $1 
billion has, I think, already been spent to get this thing 
ready. And commitments were made that it would be flown, I 
think. I know the University of Texas is heavily involved in 
it.
    I'm not intimately familiar with it. But it is a very 
important science experiment that the scientific community is 
very supportive of, and is a high priority. Yet I don't 
understand. It's not going to be flown? What can be done to 
make sure that is on the manifest.
    Dr. Griffin. Allow me, if I might, to review the status of 
that with you.
    Mr. Culberson. OK.
    Dr. Griffin. In last week's hearing before Senator Nelson 
we received a direct action to study a particular approach to 
manifesting the AMS by removing some of the spare parts that 
Mr. Mollohan mentioned earlier.
    Mr. Culberson. And AMS stands for?
    Dr. Griffin. Alpha Magnetic Spectrometer.
    Mr. Culberson. Okay.
    Dr. Griffin. That is the name of the experiment. We will, 
of course, answer that action. We will also answer the action 
to determine exactly what it would take to fly the AMS on a 
separate shuttle mission. So Mr. Gerstenmaier has those actions 
in work.
    Mr. Culberson. Okay.
    Dr. Griffin. The results are not completed but they will be 
completed as soon as possible and furnished to the Congress.
    Mr. Culberson. Broadly speaking, AMS is a 15,000 pound 
particle physics experiment. I am not a scientist, or certainly 
not a particle physicist, and I accept that it is a good piece 
of science to do. And I certainly know that in an earlier time 
commitments were made to fly it.
    When we lost Columbia we drastically reduced the number of 
Shuttle flights, limiting them to those that were involved with 
the construction and maintenance of the Space Station until its 
completion. So a good deal of science has now been left on the 
ground by the reduction in Shuttle flights and the AMS was one 
of those. It does represent science with a substantial 
international commitment, as well an interagency commitment to 
DOE. And I understand that.
    Mr. Culberson. About $1 billion has already been spent, is 
that right?
    Dr. Griffin. I am not arguing that point. So one of the 
damaging results out of the loss of Shuttle Columbia was 
leaving this experiment on the ground.
    Mr. Culberson. $1 billion experiment.
    Dr. Griffin. Now there has been considerable advocacy to 
fly it. So I have said in the strongest possible terms that I 
do not recommend that the mission be directed to be flown if 
the consequences of flying that mission would be to remove 
Station logistics spare parts from the Shuttle manifest. I 
think that would be a poor trade. The Space Station is worth 
many of tens of billions of dollars and I just do not believe 
that it is wise to place it at risk to fly a science mission. I 
do not have the authority to direct adding one more Shuttle 
mission to the manifest. So I cannot take advantage of that. I 
do not have the money in the budget anywhere to make the 
changes to the AMS necessary to fly it on an expendable 
vehicle, or the purchase an expendable vehicle, and I do not 
recommend, as an engineer, making such changes to the 
experiment. They will be very costly and very difficult.
    Mr. Culberson. Okay.

                      AUTHORITY TO CHANGE MANIFEST

    Dr. Griffin. So I do not recommend that.
    Mr. Culberson. So the one option is find a way to get it on 
a shuttle flight. And you do have the authority, though, to 
change the manifest of what is flown on the shuttle.
    Dr. Griffin. But in the strongest possible terms I do not 
recommend, I recommend that you do not direct me to fly, to 
eliminate Station logistics units in favor of the AMS. I 
believe you would be putting at risk the Space Station in which 
we have many tens of billions of dollars of investment.
    Mr. Culberson. Very quickly, just one last follow up. It 
only would require the removal of about 25 percent of one cargo 
I understand?
    Dr. Griffin. No sir, that is by volume. You would have to 
remove 43 percent by weight.
    Mr. Culberson. Okay, so forty-three----
    Dr. Griffin. Which would be several racks of spare parts 
that we would want to take up.
    Mr. Culberson. But you are doing this analysis for Senator 
Nelson I understand?
    Dr. Griffin. We are doing the analysis for Senator Nelson.
    Mr. Culberson. We will see that on this Subcommittee as 
well. You will give it to us as well, I hope.
    Dr. Griffin. Yes, sir.
    Mr. Culberson. I would like to ask for it. Thank you, Mr. 
Chairman, for being so indulgent with me. Thank you, sir.
    [The information follows:]
        
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Mollohan. Thank you, Mr. Culberson.
    Mr. Culberson. Thank you, Dr. Griffin.

       IRAN, NORTH KOREA AND SYRIA NON-PROLIFERATION ACT (INKSNA)

    Mr. Mollohan. Dr. Griffin, you need authorizing 
legislation, do you not, to permit you to buy sole use flights 
from Russia beyond 2011?
    Dr. Griffin. Yes, sir.
    Mr. Mollohan. What is the status of that? Are you in 
conversations with the authorizing committees about that?
    Dr. Griffin. We are in conversations within the 
Administration to produce a coordinated request from the 
Administration for such additional exemption going beyond 2011. 
We have the exemption until 2011. I have notified the 
authorizing committees that, as a courtesy if you will, that 
they should expect such a request, that we are working within 
the Administration to obtain it. That the consequences of 
failure to get that exemption would be that there would not be 
any U.S. crew on the Station after 2012, nor would we be able 
to complete our existing obligations to our international 
partners to fly their crew.
    Mr. Mollohan. What authorizing committees have 
jurisdiction?
    Dr. Griffin. I believe that the House and Senate Foreign 
Relations Committees have jurisdiction over this. But of 
course, I have to also notify my authorizing Committees and am 
doing so.
    Mr. Mollohan. So the committees that have jurisdiction that 
will move the legislation is Foreign Affairs Committee?
    Dr. Griffin. I believe that is right, sir.
    Mr. Mollohan. And when would be the last date that you 
would have to have this authorization as a matter of 
practicality in order to negotiate with the Russians a deal?
    Dr. Griffin. As a practical matter, let me work backwards. 
As a practical matter, we need to fly in the Spring of 2012 a 
crew. We would have a normal crew flight, logistics flights, in 
the Spring of 2012. There is a three-year production sequence, 
for the Soyuz system. So we would have to have a contract in 
place, up and running, by the Spring of 2009 with the Russians. 
So as a practical matter, by this time next year, in order to 
have an uninterrupted logistics plan, I would have to have a 
contract in place with the Russians. Backing up from that 
then----
    Mr. Mollohan. You really need this authorization this year.
    Dr. Griffin. I do, sir.
    Mr. Mollohan. Does the Administration plan on coming 
forward with the request?
    Dr. Griffin. We have so far nothing but positive 
indications from within the, we have had not negative 
conversations within the, Administration. It is just a matter 
of coordinating carefully with all of the stakeholders to 
produce a request that is fully coordinated among all the 
appropriate parties.
    Mr. Mollohan. You would think the Appropriations Committees 
would have a room either in some office building or in the 
Capitol that we owned that we could control hearings, would you 
not?
    Dr. Griffin. Well, you too sir are with government, as are 
we, and I think we all know the efficiency of government.
    Mr. Mollohan. Now what should we do about that?
    Dr. Griffin. Would you like to come over to NASA and resume 
the hearings? I am certain I can find a room for you.

                       Chairman's Closing Remarks

    Mr. Mollohan. This is a Ways and Means Committee room and 
we are ten minutes past due in turning it over to them. And we 
have a lot of other, I mean, aeronautics questions, you have 
folks here who we have not even spoken to. But we are going to 
bid you all a goodbye and submit a lot of questions for the 
record. Mr. Frelinghuysen cannot be here this afternoon so we 
very much appreciate your attendance. We appreciate the 
excellent work you and your staff--these guys are smiling--do 
for us and we look forward to working with you. And if you 
would be forthcoming in answering our questions that we submit 
for the record we would appreciate it. Thank you, Dr. Griffin.

                Administrator Griffin's Closing Remarks

    Dr. Griffin. Thank you, sir. We will answer all questions 
as expeditiously as possible. I would like to say for just a 
moment that I do recognize that there are of course differences 
between this Committee's views and those of the Administration. 
I very much appreciate your support of us and our plans for the 
Space Program to the extent that you have been able to do that, 
and very much appreciate the collegial working environment that 
I think we have established. Thank you.

                       Chairman's Closing Remarks

    Mr. Mollohan. Thank you, and we are going to work very 
hard. You see the support on the Committee. It is just scarce, 
we have the same issues at trying to find money that you do. 
But we are going to work very hard to see in some of these 
areas if we cannot get you additional resources. Thank you, Dr. 
Griffin. Thank all the witnesses here today. Thank you to 
everybody.
    Dr. Griffin. Thank you, Mr. Mollohan. Thank you, Mr. 
Frelinghuysen.
    Mr. Mollohan. The hearing is adjourned.
    [Whereupon, at 12:42 p.m., the Subcommittee was adjourned.]
    [Questions and answers submitted for the record follow:]
    
     
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                        Tuesday, February 26, 2008.

                OFFICE OF SCIENCE AND TECHNOLOGY POLICY

                                WITNESS

JOHN H. MARBURGER, III, DIRECTOR

                  Congressman Mollohan Opening Remarks

    Mr. Mollohan. Good morning. I would like to welcome all the 
members, staff and agency witnesses and the public to the 
Commerce, Justice, Science and Related Agencies Appropriations 
Subcommittee's first hearing of the second session of the 110th 
Congress.
    There are many fresh faces here on the subcommittee staff, 
some familiar, others new, but I want to welcome them and 
encourage you all to reach out to them.
    This year, like the last, will be another busy year with a 
fast-paced hearing schedule, but this time it will be wedged 
into an election year. We surely have our work cut out for us, 
but I hope and expect this year to be exciting and productive. 
I am certain, given my past experience in working with the 
ranking minority member of the subcommittee, Mr. Frelinghuysen, 
that it will be a cooperative one.
    Before we proceed with this morning's hearing, I want to 
reiterate this subcommittee's procedures.
    For purposes of asking questions, I will recognize members 
arriving prior to the beginning of the hearing in the order of 
seniority. And then, for those arriving after the start of the 
hearing, I will recognize them on a first-come, first-served 
basis.
    All members will have 5 minutes of questioning during the 
first round, 10 minutes in the subsequent rounds. And in order 
to ensure that all members get to ask questions--Rodney, you 
and I will abide by this, and then we will inform people as 
they come in--that they respect the time restrictions.
    I ask, Doctor, that you keep your oral remarks to 10 
minutes or so. And we won't be as restrictive with you, as your 
prepared statement, as you know, will be made a part of the 
record.
    This year's first witness before the subcommittee is Dr. 
John Marburger, III, the director of the Office of Science and 
Technology Policy for the executive branch of the President. 
Dr. Marburger serves as the senior advisor to President Bush 
and also co-chairs the President's Committee of Advisors on 
Science and Technology and supports the President's National 
Science and Technology Council.
    We are here today to more fully understand the President's 
proposals for Federal research and development across our 
Government, with particular interest in NIST, NSF and NASA. Our 
Nation's investments in science and technology; our place in 
the world and how it is threatened; and how we, as a Nation, 
must respond to the narrowing gap. Collectively and 
cooperatively, we must ensure that limited Federal resources 
are optimally invested to sustain U.S. leadership in science 
and technology.
    Dr. Marburger, I would like to welcome you to the hearing 
today. Thank you for your good service to the President, to the 
administration and to the Nation. We are really pleased to see 
you here this year, and we are sorry that you weren't able to 
be with us last year, which we understand, but we are really 
glad to see you here this year, for all the obvious reasons.
    And before turning to you, Doctor, I would like to 
recognize the ranking member of this subcommittee, Mr. 
Frelinghuysen, for any opening comments that he may wish to 
make.

               Congressman Frelinghuysen Opening Remarks

    Mr. Frelinghuysen. Thank you, Mr. Chairman. I look forward 
to working with you, as we go through the hearing process here, 
and having the active involvement of all members of the 
committee.
    I am pleased to join Chairman Mollohan this morning and 
welcome you, Dr. Marburger, to testify on the Nation's science 
and technology policies and priorities, as well as the 
appropriations request for the Office of Science and Technology 
Policy in the Executive Office of the President.
    First, let me congratulate you and the administration. You 
are again representing a very strong budget request for basic 
scientific research under the American Competitiveness 
Initiative, particularly for the National Science Foundation 
and for the National Institute of Standards and Technology 
under this subcommittee's jurisdiction.
    This request for NSF is an increase of 13.6 percent, and 
the request for NIST core research is 21.5 percent. When you 
consider the overall non-security discretionary budget is under 
1 percent, it is clear that science is at the very top of the 
administration's budget priorities.
    Congress has endorsed in this committee large increases for 
science budgets in both the America COMPETES Act and in the 
appropriations bills for the last 2 years. So I think you will 
continue to find broad bipartisan support for the increases you 
are proposing.
    However, like other committees, this one operates in a 
climate of limited resources. At the same time the 
administration hands us this outstanding science request, we 
have other areas, including State and local law enforcement, 
all of which are popular and necessary, where deep and 
unsustainable cuts are proposed. All of it comes from the same 
allocation. The Chairman and the subcommittee have had a 
historically very difficult task in balancing these priorities, 
and this year will be no exception.
    You are here to testify in support of your own OSTP budget 
request, for which you are proposing a modest 2 percent 
increase. I and all of us look forward to your testimony, and 
we will have specific questions later on.
    Thank you, Mr. Chairman.
    And thank you, Dr. Marburger, for being with us this 
morning.
    Mr. Mollohan. Dr. Marburger.
    Mr. Marburger. Well, thank you, Chairman Mollohan and 
Ranking Member Frelinghuysen and members of the subcommittee as 
they appear. I am very pleased to appear before you once again 
after a gap of a year to present the President's fiscal year 
2009 research and development budget.
    My written testimony has more detail about the overall 
budget, and I know you have considerable detail about the 
agencies that we will talk about, so I will make my oral 
remarks brief, and I will answer questions to the extent I can. 
And if I can't do it here, I will do it in writing. And I want 
to make sure that we are all clear about this budget.
    First, I want to thank this subcommittee for its support of 
the President's American Competitive Initiative through the 
initial House passage of the fiscal year 2008 Commerce Justice, 
Science and Related Agencies Appropriations Act. Unfortunately, 
the provisions of that act were not ultimately included in the 
2008 omnibus funding bill. But the President remains committed 
to the ACI and is once again requesting funds to ensure 
America's future economic competitiveness.
    The ACI and the ACA, the America COMPETES Act of 2007 that 
the President signed last summer, do respond to recommendations 
from a wide range of scientists, business and educational 
leaders and they're many organizations who believe Federal 
actions are needed to ensure America's future leadership in 
science and engineering--fields that are essential to the 
processes of innovation that lead to long-term economic 
competitiveness. And I look forward to working with this 
subcommittee to address the important goals of these 
initiatives.
    While the President's fiscal year 2009 budget substantially 
funds authorizations under the COMPETES Act, of the $13.8 
billion authorized in fiscal year 2009 in the act, the 
President's budget funds $12.2 billion, or 85 percent, which, 
in total, compares favorably with the 82 percent level at which 
Congress funded the act last year in the omnibus bill.
    If the President's request is funded, the COMPETES Act 
budgets would grow by almost 15 percent. To place this in 
context, as Ranking Member Frelinghuysen has noted in his 
opening remarks, the President's overall request for all non-
defense R&D increases by 6 percent, compared with the remainder 
of the non-security discretionary budget which increases by 
less than 1 percent.
    In constant dollars, growth and outlays in non-defense R&D 
have increased by nearly a third under this administration. 
Total Federal R&D in the 2009 budget stands at $147 billion, an 
increase of $4 billion over last year's appropriated amount, 
which represents $1 out of every $7 requested by the President 
in the discretionary budget, a growth of 61 percent during this 
administration. So it is just an extraordinary record for the 
R&D budget of this Nation.
    My written testimony summarizes the President's request for 
several key research programs that cut across agencies and 
gives somewhat more detail for the agencies under the 
jurisdiction of this subcommittee.
    Overall, the President is requesting an increase of $850 
million in the basic research category, for a total of $29.3 
billion in basic research, which includes a 15 percent increase 
of $1.6 billion for the three agencies that are prioritized in 
the American Competitiveness Initiative: the National Science 
Foundation, the Department of Energy's Office of Science, and 
the laboratories of the National Institute of Standards and 
Technology.
    Basic research at the Department of Defense, which is 
another important priority for us, would grow by 19 percent, or 
$270 million, over the fiscal year 2008 request.
    The budget provides for key multi-agency science programs, 
including more than $2 billion for climate science, a 12 
percent increase over the 2008 enacted, and an increase of 
about 9 percent for the entire range of climate-related 
activities, including science, technology, international 
assistance, and tax incentives. The total climate package in 
this budget is nearly $9 billion when everything is taken into 
account.
    The budget includes increased funding for a number of Earth 
observation programs: $74 million for NOAA for certain climate 
sensors that had been demanifested from the National Polar-
Orbiting Operational Environmental Satellite System, otherwise 
known as NPOESS; there is $103 million for NASA to begin a 
series of Earth observing missions recommended by the National 
Research Council's Earth Sciences Decadal Survey; and $102 
million for ocean science and research at NOAA, NSF and the 
U.S. Geological Survey in Interior.
    Information technology is another major cross-cutting 
Federal program. The Networking and Information Technology R&D 
program--we call it NITRD--would receive $3.5 billion in this 
administration. That amount has doubled.
    Another cross-cutting program, the National Nanotechnology 
Initiative, would receive more than $1.5 billion--on an 
international scale, one of the major contributors to this area 
of research.
    At the agency level, National Science Foundation budget 
would increase by 14 percent to $6.8 billion, $822 million 
above the 2008 appropriation. The NSF physical sciences 
directorates, a priority for this administration, would 
increase about 20 percent.
    The NIST core research and facilities budgets would receive 
$634 million in 2009, an increase of 22 percent over the 2008 
omnibus provisions for these crucially important parts of the 
NIST portfolio. That includes increases of nearly $114 million 
for new initiatives at NIST in high-leverage areas such as 
nanotechnology manufacturing, expansion of NIST neutron 
facility for material studies, and improved understanding of 
complex biological systems to accelerate innovations and enable 
investment in the biosciences.
    I have already mentioned new Earth observing programs at 
NASA. The NASA budget would increase by 3 percent over fiscal 
year 2008 to $17.6 billion. And, once again, this is a complex 
budget. I would be glad to discuss it further in response to 
your questions about NASA. But I do want to emphasize in my 
oral remarks that it is important to maintain NASA budget 
appropriations in order to avoid costly schedule delays in 
their large and multiple missions.
    For NOAA, the 2009 budget provides $383 million for oceanic 
and atmospheric research and again requests $20 million for 
ocean science and research as part of a $40 million interagency 
effort to implement the Ocean Research Priorities Plan, which 
is part of the President's U.S. Ocean Action Plan.
    Finally, my own office, Office of Science and Technology 
Policy--which, by the way, sustained a 6 percent reduction in 
fiscal year 2008 in the omnibus--is requesting $119,000 above 
the fiscal year 2008 appropriation but $215,000 below the 
fiscal year 2008 request on a budget of $5.3 million. This 
fiscal year takes us through the end of the current 
administration and the beginning of the next, and I believe the 
increased funding is important for this transition.
    And I am also requesting that the Science and Technology 
Policy Institute--we call it STPI--continue to be funded within 
the NSF budget. I would be glad to explain why this is 
important.
    So I thank you for this opportunity to highlight the 
President's 2009 budget proposal for science. I think it is a 
strong proposal, and I urge your support of it. And I would be 
glad to provide more detail. I know we will discuss these 
issues in the question-and-answer session.
    I am happy to be here once again. Thank you for the 
opportunity to appear.
    [The written statement of Dr. John Marburger, III, 
Director, Office of Science and Technology Policy follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Mollohan. Thank you, Dr. Marburger.

                           BUDGET PREPARATION

    Dr. Marburger, you serve as the science advisor to the 
President and as the director of the Office of Science and 
Technology Policy. In those roles, you provide counsel to the 
President and to his executive offices on the impact of 
science. You coordinate science among the agencies and the 
interagency effort to develop sound, balanced budgets in 
research and technology.
    Describe for the committee, how you discharge those 
responsibilities, and particularly as they relate to the 
development of the annual budget estimates that the President 
sends to the Congress. What is the interaction with the 
agencies and with OMB?
    Mr. Marburger. Congressman, the process begins early in the 
year with requests to the chief scientists in the various 
agencies for recommendations for priorities for the subsequent 
year. And it continues with a priorities memo that I sign 
jointly with the Director of OMB, which outlines the priorities 
that will be paid attention to in the budget process for the 
ensuing fiscal year.
    And the agencies prepare their budget proposals, which are 
submitted to OMB, during the early and mid parts of each year. 
And as those budget proposals come in from each agency, my 
office works with OMB to review the proposals that the agencies 
are making, see to it that they do reflect the plans that have 
been worked out jointly among the agencies on who will do what 
and what the priorities are. And then, subsequently, we 
participate in the presentations that the budget examiners make 
to the budget director and advise on priorities in that forum.
    The ultimate choices about the actual amounts that the 
President will request are made, of course, by the President in 
consultation with the budget director and his Cabinet officers. 
And our primary role in that is simply to advise on the quality 
of the proposals and their relevance to the priorities that 
have been established.
    Mr. Mollohan. Do you review those budgets before they are 
sent to OMB?
    Mr. Marburger. We do not review them before they are sent 
to OMB, no. We see them at about the same time that the OMB 
staff does. The OMB staff receives them and shares them with 
us. Sometimes the agencies share the budgets with us. But it 
is----
    Mr. Mollohan. Before they go to OMB?
    Mr. Marburger. No, at the same time.
    Mr. Mollohan. You receive the budget requests from the 
agencies under your jurisdiction at the same time they are sent 
to OMB?
    Mr. Marburger. That is correct. And I think we probably 
both receive them at pretty much the time that they are 
completed and ready to submit.
    Mr. Mollohan. Excuse me for interrupting. Do you recommend 
to the agencies, while they are working up their budgets? Do 
you give direction to them in any way? Is there any 
interaction?
    Mr. Marburger. We do continually interact with the 
agencies, some more than others. The agencies that we interact 
with tend to be the ones that have larger science budgets and 
that have budgets that cross agency boundaries.
    For example, we would probably give considerably less 
direction, if you wish--it is not so much direction as advice 
and working with them on their priorities--we probably give 
less to agencies like the National Institutes of Health, which 
more or less owns biomedical research, and on issues that are 
totally within an agency's purview. Energy research is another 
example.
    Mr. Mollohan. Well, at what point in the process are the 
administration's priorities imported to the agencies, so that 
when agencies come forward to you and OMB at the same time they 
reflect the administration's priorities?
    Mr. Marburger. I would say the strongest feedback on 
administration priorities comes within the context of the 
budget preparation. Although, we do let the agencies know the 
general priorities in that priorities memo that we produce 
about in mid-year or spring of each year.
    But the most direct feedback does come in the budget 
process, where the agencies are negotiating with the Office of 
Management and Budget regarding the amounts and what they will 
be spent on, because those agreements will be reflected in the 
document that you receive from the President.
    Mr. Mollohan. Right. But in that process, it seems logical 
that you would be inputting at some point, if not at a budget 
level, at a policy level, what you want these agencies to 
concentrate on. For example, ``We want you to fund MEP,'' or, 
``We consider TIP--'' or something else that is to be a 
priority or to highlight something that is in the COMPETES Act.
    In other words, how does that policy interaction occur?
    Mr. Marburger. We actually work with the agencies all year, 
during the course of the year. We convene them in interagency 
working groups to develop strategic plans and so forth.
    And, you know, unlike other areas of Federal operations, 
science, particularly the research part of the R&D budget, is 
something that comes from the scientists. We don't attempt to 
dictate what the best course of action is in a research 
program. We tend to follow the recommendations from the 
agencies, from their advisory groups, and particularly from the 
National Academies of Sciences, and from the reports that are 
prepared by the President's Council of Advisors on Science and 
Technology. And we try to assimilate that material and find out 
what the science community and the people who rely on the 
science community for their technologies, what they want and 
what they think is most important. And so, it is not exactly a 
top-down process.
    There are some raw principles that the administration 
espouses. The administration does believe that basic research 
is the most important research activity for the Federal 
Government to fund, and applied, shorter-term, lower-risk 
research is the proper province of----
    Mr. Mollohan. Do you carry out that priority in this 
interaction that occurs during the year?
    Mr. Marburger. Yes.
    Mr. Mollohan. Do you give direction to the agencies?
    Mr. Marburger. We let agencies know that that is what the 
priority is. But most of them seem to sense that without us 
telling them.

                             RESEARCH GOALS

    Mr. Mollohan. When you came to the job, did you have any 
personal goals about where the country should go with regard to 
basic or applied research?
    Mr. Marburger. Yes, I did.
    Mr. Mollohan. What were those?
    Mr. Marburger. Well, my personal goals were to achieve a 
good, balanced portfolio for the Nation. I did believe, coming 
into this job, that basic research was a very important driver 
for the country, that it's not very well understood by the 
public and what its role is, but that it needed to be sustained 
and supported in a variety of areas in order to feed everything 
else.
    I do believe that technology draws upon the physical, 
biological phenomena, the natural phenomena that research 
investigates and clarifies, and that we have a, sort of, 
hierarchy of activities that have to be carried out, extending 
from basic research, primarily supported by the Federal 
Government, through applied research and development and on to 
industrial research and applications and innovation.
    And I came into the job with kind of a vision, a picture, 
of how that should work. And that picture is formed by being a 
scientist myself, being the director of a national laboratory, 
president of a research university. I saw it work. And I read 
the literature, I read the reporters of the National Academies, 
which I highly respect, and experienced imbalances in the 
budget that I thought were hampering our ability to compete 
internationally.
    I came to the job believing that it was important to 
increase funding for basic research in the physical sciences, 
in certain key areas. And I still believe that that is an 
urgent necessity for the country.
    And, otherwise, my intention was to try to make science 
work for the Nation. And I still believe that science is an 
important tool for us that we need to use in this globalization 
of our economy and world competitiveness.
    Mr. Mollohan. If you are comfortable, would you share with 
the Committee what you think we, as a country, are doing right 
and where we might not be doing as well, as reflected in the 
President's budget or in whatever terms. This is just an 
opportunity for you to address what we can do better. If you 
don't feel comfortable answering----
    Mr. Marburger. I understand. No, I do feel comfortable with 
that, because I think we are very lucky in America. We do have 
huge investment in science. We really are doing very well. We 
are the envy of other nations, all of whom are trying to copy 
our models, and that puts a great deal of pressure on us to get 
it right.
    I think that we do have a need to have steady, more or less 
reliable funding. I think, speaking as someone who has managed 
research as a high level for much of my life, it is almost more 
important to have stability and predictability in Federal 
funding in research and programs than it is to have a lot of 
money. Although, a lot of money is desirable.
    So I think we do a lot right. We do have substantial 
Federal programs. We do listen to the science community. The 
agencies do a good job of that.
    Mr. Mollohan. The important word I had in my question was 
``specifically''--``specificity.'' Because, at the end of the 
day, we have to end up putting dollars on accounts. Can you 
talk about it in those terms?

                    INVESTMENTS IN SCIENCE PROGRAMS

    Mr. Marburger. Well, I will tell you one very specific 
thing: I think the NIST research budget is the most underfunded 
budget, if not in the world, at least in the country. NIST is a 
hugely productive and high-leverage operation. And I am 
speaking particularly of the research that they do into basic 
physical phenomena that underlie most of our products, 
including biomedical products, software, hardware, just about 
anything that you can name. NIST is a focused, well-managed 
agency that ought to be about four times bigger than it is, in 
my humble opinion. And, although it is a small agency, that is 
why it features in the President's American Competitive 
Initiative, and that priority has been embraced in the America 
COMPETES Act and by others.
    So I would start with NIST. If I had to put my money where 
my mouth is, I would start with NIST, their basic research 
budget. They have had three Nobel prizes in the last decade, 
and they know what to do. And I would be very proud of that. I 
have never worked for NIST. I don't have any stake in it, other 
than I think it is important.
    Second would be the infrastructure for science, the big 
facilities that are operated by a number of agencies, including 
NSF and Department of Energy, both in NNSA and the Office of 
Science. And NIST operates a research reactor. The Department 
of Defense operates some important facilities.
    Mr. Mollohan. NIST operates a research----
    Mr. Marburger. Yes, NIST operates probably the most 
sophisticated research reactor in the United States.
    Mr. Mollohan. I didn't mean to interrupt you.
    Mr. Marburger. And that is used for material studies, 
improvement of various materials such as fuel cell membranes 
and things like that.
    So, similar facilities in other agencies that provide 
platforms for thousands, tens of thousands, of users in 
industry and universities, we need to make sure those platforms 
are there and available.
    And that is one of the reasons why the Department of 
Energy's Office of Science was featured as a priority, because 
it operates, for example, the X-ray synchrotron facilities that 
are used to unravel the structure of biomedical molecules. All 
of these nice pictures that you see on the covers of magazines 
that show intricate molecules, they look like tangles of yarn--
those structures are determined on the Department of Energy's 
Office of Science's machines.
    The Spallation Neutron Source has just been completed in 
Oak Ridge. That is another example of an infrastructure 
platform that--we need to sustain these. Other countries have 
discovered that they are important for their future economic 
competitiveness. They are building them at a great rate, and we 
need to make sure that we catch up on those.
    And then the important university-based research that is 
traditionally funded by the National Science Foundation, NIH. 
The Department of Defense is a very important funder of basic 
research and engineering. That needs to be sustained.
    Mr. Mollohan. But quantify that for us a little bit. I 
mean, give us an idea of how you think we are doing with that.
    Mr. Marburger. In these areas, there is an imbalance, in my 
opinion, between our relatively healthy funding for biomedical 
research and the other areas of research. Particularly in 
certain areas of the physical sciences, there has been an 
imbalance in funding.
    Now, I don't mean to suggest that NIH is getting too much 
money.
    Mr. Mollohan. No.
    Mr. Marburger. They also need to have stability and 
predictability in their budgets.
    Mr. Mollohan. Right.
    Mr. Marburger. But we have an imbalance here.
    Even the biomedical sciences depend on the physical science 
infrastructure and continued research in these areas. And so 
one of the things that the COMPETES Act, as well as the ACI, 
does is try to prioritize a little bit and, during the next 
some portion of a decade, try to redress that imbalance.
    It is hard for me to say just how much money is required, 
because it is more important for us to get the balance right. 
We invest, as a Nation, much more money than anybody else in 
the world does, including the European Union and Asia and so 
forth. They are catching up. They will be investing comparable 
amounts, and already in some areas they are. But I am not so 
much worried about the absolute amount of money that we have; 
it is how it is distributed and how we manage it.
    Mr. Mollohan. Thank you.
    I have terribly overstepped my time and apologize to Mr. 
Frelinghuysen.
    Mr. Frelinghuysen. Well, thank you, Chairman. I hope you 
will let me violate your rule.
    Mr. Mollohan. I will. I will.
    Mr. Frelinghuysen. Let me again----
    Mr. Mollohan. It is really good testimony.

                            COMPETITIVENESS

    Mr. Frelinghuysen. It is excellent. No, I think this whole 
issue of imbalance is important.
    And, quite honestly, we respect what you call your humble 
opinion. You are at the top of the heap, in terms of the 
leadership hierarchy. You are the President's science advisor. 
So you don't need to be humble about your opinion. That is why 
you're here. And we thank you for a very long and distinguished 
career.
    We became first acquainted when I visited all the 
Department of Energy labs, and you greeted me out in 
Brookhaven. And I think I have visited just about every one. 
And they are somewhat, at times, crying the blues in terms of 
their basic research.
    But, by definition, you are, sort of, the chief cheerleader 
for the American Competitiveness Initiative. I mean, it is you, 
perhaps the National Science Board and a lot of other groups 
with many different acronyms that, sort of, have oversight 
here.
    And we talked about it indirectly, you know, pointing to 
the National Institutes of Health, it has almost been like a 
favored nation, NIH. We don't take anything away from them. But 
both Republicans and Democrats have been able to say, over the 
last couple of years, that we doubled NIH funding and we took 
pride in that.
    We are talking, in some ways, the same language relative to 
this administration's investments in science, although we have 
fallen pretty short of the mark for reasons I have mentioned 
and you have mentioned. It is more than dollars. How do you 
judge what are really concrete and specific results?
    And then I want to get into the issue here, too, and if we 
have--how do we measure what we anticipate from these programs, 
the imbalance issue? And then where we stand, let's say, next 
to People's Republic of China; growing capacity and activity in 
parts of India. I mean, when we talk about competitiveness, 
there may be some internal, domestic competitiveness. It is 
more than just competing with Europe.
    How would you characterize where we are relative to--you 
know, dollars are one thing, but how we actually measure 
competitiveness?
    Mr. Marburger. Well, I will try not to take too long in my 
answers. Those are big questions.
    This administration is very interested in the process of 
measurement and assessment and understanding what works and 
what doesn't so you can invest wisely. And from the earliest 
days of my tenure in this position, my office has worked with 
OMB to craft some ways of making sure that science programs--
which are notoriously difficult to assess, because usually they 
have long-term benefits, and you can't just wait for many years 
to find out how something works. But, together, we have crafted 
assessment tools and the process of measuring and evaluating 
science programs and agencies.
    And each year in our budget request, the science chapter 
does include a section on how we do this. If you go to the 
President's budget proposal for this current year, you will see 
in there a description of the evaluation process.
    Economists have studied the impact of basic research on 
competitiveness and economic growth over the years and give 
some overall figures on how we are doing. And they always 
indicate that there is a very high rate of return on Federal 
investments in research.
    As to how we are doing with competing with other countries, 
we still are leading. We are still very competitive, according 
to national polls and surveys, particularly according to the 
OECD data. We continue to be a leader in competitiveness. And I 
think that the openness of our society and the encouragement of 
entrepreneurial behavior are real assets that will sustain us 
in the future.
    But other nations, the rest of the world, are investing 
heavily in infrastructure that is pretty clearly designed to 
feed their innovative capacity. Certainly, Europe is getting 
its act together. It is beginning to fund basic research on a 
Europe-wide basis that uses American models, peer review and 
planning and deliberate investments of their money. Asia also 
is making focused investments in areas of science, particularly 
physical sciences, where they expect to be able to innovate in 
the future and compete with us in areas like information 
technology.

                            CHINESE ECONOMY

    Mr. Frelinghuysen. As you are aware, the Chinese economy 
has been growing at, like, 10 or 12 percent each year. I assume 
that productivity is fueled by their scientific research and 
innovation. Are we measuring that? Look where we are.
    Mr. Marburger. It is not clear to what extent innovation 
and science-based programs are responsible for the great rate 
of growth of the Chinese economy, but certainly they expect it 
to be important in the future and they are investing heavily in 
it. They still have a long way to go, and it is not clear just 
how their approach to planning their economy will work out in 
the long run.
    The U.S. has to have confidence that we have the right 
approach, and not lose faith in the ability of the basic 
research and technology development that we do so well.

                       MATH AND SCIENCE EDUCATION

    Mr. Frelinghuysen. There are many spokes on the wheel here, 
and I just want to concentrate on one for a minute, relative to 
math and science education. The work of the National 
Mathematics Advisory Panel, established by the President by 
Executive order in April of 2006. It was created to advise the 
President and the Department of Education on the conduct, 
evaluation and effective use of the results of high-quality 
research pertaining to the effective teaching of and learning 
of mathematics.
    The group has met 11 times, reviewed over 16,000 studies 
and scientific documents, received public comments. Its 
recommendations are, I think, to be issued momentarily. Would 
you like to give us a little bit of a preview, from what you 
know?
    I mean, you know, one of the things I tell my 
constituents--and they get quite irritated, especially when I 
visit schools--they only go to school for 180 days a year. I am 
not sure what their Japanese and Chinese equivalents do.
    But, you know, what would be some of the findings that you 
would suspect that they would be recommending?
    Mr. Marburger. I can't speak specifically to the findings 
in that report. I do know that it is modeled on the highly 
successful similar panel for reading. And controversies over 
best practices in how to teach reading were actually settled 
through the efforts of that panel, and I expect that similar 
controversies over the teaching of mathematics will be settled 
in connection with the report of the National Math Panel. That 
appears to be a successful operation.
    I have a lot of opinions myself, having talked mathematical 
topics, mathematical physics in my day. And I do believe that 
it is important for us to pay attention to how math is taught, 
from kindergarden all the way up through college, and that some 
of the programs that are authorized and have been funded in 
connection with mathematics and science education will 
certainly take us closer to ideals.

                            GATHERING STORM

    Mr. Frelinghuysen. When I see you here, I think of Norman 
Augustine, Rising Above the Gathering Storm. And, you know, I 
hate the whole notion--I think all of us do--of recommendations 
sitting on the shelf somewhere. But one of those 
recommendations, obviously, is to take a look at what we are 
doing in a variety of areas.
    Mr. Marburger. There are some successes. It is hard to 
identify exactly what the reasons are. Everyone is concerned 
about the teaching of mathematics. We need more math teachers. 
We need more math teachers who are qualified in mathematics and 
not just doing it grudgingly as an assignment because the 
schools couldn't find somebody else to do it. And one of the 
objectives of the American Competitiveness Initiative is, in 
fact, to increase the number of qualified teachers in these 
subjects.
    But my understanding is that test scores in some grade 
levels have gone up over the past 5 years and that, although 
the results are sometimes difficult to interpret, the U.S. is 
making some progress in how----
    Mr. Frelinghuysen. Would you say--I don't want to take 
words out of context--the imbalances of which the Chairman--you 
were reacting to--it is not only financial, you know, the 
imbalances. It could be that we are, you know, maybe doing--we 
should be doing some other things.
    Mr. Marburger. Yes. These education issues are multi-
dimensional. And they depend on having good teachers. They 
depend on having parents that are aware of the opportunities 
for their children and doors that might be closed by not taking 
certain subjects. They are affected by the system of rewards 
that society offers for teaching positions. They are affected 
by the ability of local governments to fund adequate facilities 
for schools. There are so many different things.
    I think we have to address these both with broad measures 
like No Child Left Behind, accountability approaches, and also 
with sharper measures like giving teachers tools, such as the 
national math advisory and reading panels would give. And all 
of these things have to be done at once. It is not clear which 
one of them is going to have the greatest effect. But, from my 
perspective, I am the science advisor, I am interested in using 
good information.
    Mr. Frelinghuysen. You want things to move ahead.
    Mr. Marburger. I want things to move ahead.

                        INTERNATIONAL COMPARISON

    Mr. Frelinghuysen. Simultaneously. And, obviously, there 
are some areas there where we have shown some weakness compared 
perhaps to our international competitors.
    Mr. Marburger. Yes. The international comparison tests show 
Americans not anywhere near the front of the pack.
    Mr. Frelinghuysen. It is discouraging, deplorable, so much 
so that sometimes people don't want to talk about it. But you 
are in a critical position, and we are counting on your humble 
opinion. We value that opinion.
    Mr. Marburger. My humble opinion is that this is an 
important thing for us to do and that we need to continue to 
invest in the kinds of----

                                  OMB

    Mr. Frelinghuysen. And the last comment here is, we have 
our own view of the Office of Management and Budget; it doesn't 
matter which administration it is. We want you to press on. 
And, you know, this committee believes that basic research in 
science and science education is important. We don't want you 
to bend too much.
    Mr. Marburger. I am grateful for your support.
    Mr. Frelinghuysen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Marburger. It helps.
    Mr. Mollohan. Thank you, Mr. Frelinghuysen.
    Dutch Ruppersberger joins us this morning. He has a busier 
hearing schedule than anybody I know in Congress. And he told 
me a couple of weeks ago that he wasn't going to be here for a 
couple of months, because he was having a very serious 
operation. So I am shocked to see him here this morning in one 
way, but I am not shocked on the other, because, as busy as he 
is, he is more faithful than anybody in attending the hearings.
    Dutch, it is great to see you. And I am glad you are----
    Mr. Ruppersberger. Thank you, Mr. Chairman.
    Mr. Mollohan [continuing]. I hope, recovering.
    Mr. Ruppersberger. I had spinal fusion. Thank goodness for 
the research and discovery, so they are able to fix your backs 
when you get to be a little bit older.
    Mr. Mollohan. Yeah, well, there you go. Welcome.

                        RESEARCH AND DEVELOPMENT

    Mr. Ruppersberger. Thank you.
    Well, first, thank you for your testimony. What we do in 
research and development is so important to our country.
    One of my first questions is this: it is my understanding 
that we in the United States spend more money for research and 
development than probably all the other G-7 countries combined. 
Is that correct?
    Mr. Marburger. I believe that is correct.
    Mr. Ruppersberger. Do you know how we relate in the amount 
we spend in research and development compared to China and 
Russia?
    Mr. Marburger. I can't give you those numbers off the top 
of my head, but we spend substantially more overall in science 
R&D, both in the research part and in the development part, 
than China does.

                               SATELLITES

    Mr. Ruppersberger. The Chairman talked about my schedule. 
We all have heavy schedules. I am also on the Intelligence 
Committee, and I chair the Research and Development 
Subcommittee. And we are now focusing on our satellites. We 
have had a lot of failures in our satellite industry. Years 
ago, when Sputnik was launched from Russia, we responded, as 
Americans, by within 12 years of putting a man on the moon. And 
one of the main reasons that we are the most powerful country 
in the world is because we do control the skies. And we must 
maintain that advantage. And, as you know, China and Russia are 
getting very close to us in that regard.
    We have brought in all of the major contractors, and we are 
working a tabletop exercise and looking at our space industry 
with the DNI, Director of National Intelligence. And one of the 
things that has developed is that we are doing a lot of our 
research and development with our operations. In other words, 
we put out contracts to major contractors, and once they have 
these--I am not going to give you the costs, but they are very 
expensive contracts to build our aerospace industry--contracts 
they are doing the research and development as they are 
building the satellites, which I think is very dangerous.
    Because when you start the actual manufacturing of the 
satellites, there should not be any room for error. And there 
have been numerous errors. The research and development must 
take place before you actually put the contract out for the 
operation.
    Do you have any opinion on that position?
    And I know that you do not do defense; you are non-defense. 
But it is still very relevant to a lot of the areas that you 
work in, as far as research and development.
    In other words, my question: doing the research and 
development, having the failures, doing what you need to do 
before we actually get to the manufacturing mode?
    Mr. Marburger. Yes, sir. Well, in fact, we do have a great 
interest in the defense research budget. And I agree with the 
analysis that you just suggested about the need for the 
research and development to be done before large amounts of 
money are spend on production or even pilots.
    This is one of the reasons why we--in the materials 
associated with the President's American Competitiveness 
Initiative, although we didn't target the Department of Defense 
science budget for doubling over 10 years, we did indicate that 
it was important for them to increase their basic science 
research. That is one of the reasons that, in this year's 
budget request, the President is asking for a 19 percent 
increase in basic research in the Department of Defense.
    One of the things that the Department of Defense needs to 
do is develop their in-house basic research capability, so that 
they can clear away some of the questions that are needed to 
resolve issues across the board in many more-advanced 
development projects. And I believe that they are headed in 
that direction.
    Certainly the research capacity of the Department of 
Defense is important for maintaining the ability to evaluate 
contracts or readiness of programs to move forward. And I 
believe that it is important for them to sustain that ability.

                                 DARPA

    Mr. Ruppersberger. How did you see DARPA, with the role 
that they play? Which I believe, personally, is a very positive 
role, is their research and development.
    Mr. Marburger. DARPA is an excellent organization. They 
have a great history, and I believe that the current leadership 
of that organization is attempting to follow that history, of 
taking risks, funding early-stage research and development of 
concepts that may eventually pay off----
    Mr. Ruppersberger. Are you familiar with IARPA?
    Mr. Marburger. I am.
    Mr. Ruppersberger. And IARPA is really DARPA, only in the 
intelligence community. I think there is a strong belief that, 
because of the competition not only in the area of terrorism 
but Russia and China and our overhead architecture, that the 
intelligence committee needs a DARPA. And DARPA has just been 
stood up last year. Do you have an opinion on IARPA?
    Mr. Marburger. Well, you know, these are all----
    Mr. Ruppersberger. Research and development, out of the 
box.
    Mr. Marburger. Right. Well, in my mind, it is more the 
nature of the research that is funded and the quality of the 
management of it. The structural niceties, like having a DARPA 
separate from the service organizations or having a central 
research organization that isn't committed to any particular 
one of the services, those are good ideas that could be 
captured in other kinds of management arrangements.
    DARPA was created, was successful and is used as a model in 
other agencies. But I believe that research programs, such as 
those in National Science Foundation or NASA or elsewhere, can 
be successful without that specific type of organization.
    So when it comes to evaluating a DARPA or IARPA, it really 
boils down to the leadership and the management, the people you 
have in place, the traditions that they have established to 
manage their research.
    So I think it is too early to assess the success of IARPA. 
But it is there, and it is an idea that is modeled on other 
successes. And we have to wait to see how it does.

                                  ITAR

    Mr. Ruppersberger. Let me ask you, are you familiar with 
the International Traffic in Arms--ITAR it is called?
    Mr. Marburger. As much as I can be, with such a complex 
issue. I am not an expert.
    Mr. Ruppersberger. Basically I think, just to bring it 
down, that ITAR limits the sales of high-tech items to foreign 
countries.
    Mr. Marburger. Yes.
    Mr. Ruppersberger. That is the purpose of ITAR.
    And another thing that we have seen and has been developing 
is that ITAR efforts seem not to be working in other countries. 
In other words, we are doing this to protect our sale of all of 
our high-tech so that other countries wouldn't take our high-
tech, and yet it seems now that, especially in Europe but in 
other places too, that a lot of the European contractors are 
offering ITAR-type free satellite development. And it has been 
said, again, getting back into the satellite area, that in the 
commercial area especially, that the United States is almost 10 
years behind Europe in the development of what needs to be done 
from commercial satellites.
    So I am asking you, it seems on its face to be pro-American 
not to give away our high-tech, and yet other countries now, 
most of the European countries, are now taking their research 
and development, and they are using it, and it is now putting 
us in a position that could hurt us. Do you see that? Do you 
hear that?
    Mr. Marburger. Yes, I am aware of those analyses. I am 
concerned about the impact of ITAR on the ability of American 
firms and research organizations, including universities, to do 
work to advance the interests of our national security. So I 
think it is very important for us to watch ITAR and to evaluate 
it continually and update it and make it more effective.
    I think it is in our national interest to have a program, 
something like ITAR, to make sure that we don't inadvertently 
give our potential adversaries, whether they are economic or 
military, advantage by using our own assets against us. So 
there is a need for a program, but it has to be done very 
carefully to avoid the kind of undesirable side effects that 
you refer to.
    Mr. Ruppersberger. It seems like we have the technology 
today to protect our high-tech. That is what the intelligence 
community is about, the classifications and people that have 
clearances.
    But what would you recommend, to try to look at some of the 
complaints that we are receiving now about how ITAR is now 
putting us, the United States, and our major contractors at a 
disadvantage compared to a lot of the European countries and 
also China?
    Mr. Marburger. It requires a review. As I recall that, I 
have to be careful answering this question because my memory is 
failing me about recent administrative actions on this. But we 
are concerned, and I am not the only one who is concerned about 
these impacts, and the administration has activities ongoing to 
evaluate and review ITAR. The Commerce Department has been 
quite involved in these efforts and is interested in doing it 
right.
    So we do participate with this. My office convenes 
interagency discussions about what should be done, and I might 
say something that is incorrect if I just----
    Mr. Ruppersberger. If you come to some conclusions on how 
you think you could make it better, if you could have your 
staff contact my office or contact this committee and get that 
information.
    Mr. Marburger. What I would do is tell you what is going on 
right now, and that would be our response to that.
    Mr. Ruppersberger. Mr. Chairman, I have one quick question.
    Mr. Mollohan. Sure.

                       JAMES WEBB SPACE TELESCOPE

    Mr. Ruppersberger. As you know, NASA is funding the James 
Webb Space Telescope, and it is very important, I think, to our 
country. And it is the at-large infrared optimized space 
telescope scheduled to launch 2013. And I notice you did not 
mention it in your statement or for the record. Is this 
considered an R&D activity?
    Mr. Marburger. Yes. The Webb telescope is considered an R&D 
activity. It is a very important telescope, it has received 
high marks in all the reviews done by the National Academies 
and other advisory bodies. And although it has had cost 
overruns and schedule slips, there remains a commitment to it 
to get this done.
    Mr. Ruppersberger. Thank you for your testimony.
    Mr. Mollohan. Thank you.

                     BUDGET REQUEST FOR MEP AND TIP

    Doctor, you indicated earlier the importance of NIST 
funding. Within NIST, there are two programs that were 
authorized in the COMPETES program: MEP, the Manufacturing 
Extension Program and the TIP program, the ATP follow-on. The 
administration's budget zeroes out those two programs. And 
based upon your thoughts expressed earlier, perhaps that was 
just a prioritization of funding and not a reflection by the 
administration necessarily or you particularly that those two 
programs weren't valuable, but other programs in this were 
valuable.
    I want to give you an opportunity to talk about MEP and TIP 
and their importance, and why the administration chose to zero 
those programs out, because they have a lot of support here on 
the Hill, and so you are up against that. I suspect you are not 
looking at it in terms of being up against those programs or 
against those programs. My sense is there is just a funding and 
allocation issue here.
    Mr. Marburger. Yes. The short answer is it is a 
prioritization issue. I will say that I feel very strongly that 
the basic research part of NIST, their core operations are the 
most important things, and that they are underfunded. I want to 
be clear about that. The what I would call, ``technology 
transfer operations'' have been much improved. The ATP program, 
I know, was developed in cooperation with Congress and with 
NIST to try to address some concerns that had been expressed, 
which I will mention a minute, about these types of programs. 
And I don't want to suggest that these are bad programs or that 
they are failing or that they are poorly managed, but only that 
in the grand scheme of things, if we have money that we can 
spend on NIST, I would like to see NIST grow its much more 
high-leverage operations first and let these others sort of 
rest until we can get the core up. So that is my personal 
opinion.
    Let me say about the technology transfer programs, there is 
clearly differences among administrations and various sectors 
of commentators about these types of programs. Many people feel 
that--well, it is very clear that the Federal Government should 
be supporting basic long-term, high-risk basic research, and 
the private sector should be supporting very short-term 
development activities. There is a grey area in the middle, and 
there is a lot of room for disagreement about the priority of 
programs in that grey area.
    This administration believes that the private sector should 
be investing in the types of activities that the MEP and the 
ATP program historically had been funding. So I want to 
acknowledge that the difference of opinion about the 
appropriate work to be done in private versus public sector 
does exist and does influence the decision about how to fund 
them.
    That said, the primary reason that these activities in NIST 
are not funded in the current requests is prioritization. I 
certainly understand the interest of Congress in doing these, 
and I regret that we can't just fund everything under the 
constraints that have been established for this budget.

                              MEP OUTCOMES

    Mr. Mollohan. We have very impressive statistics that NIST 
itself reports regarding the MEP program per se. NIST reported 
the results of a survey of manufacturers that used the MEP 
program in 2006. One year after using MEP services, these 
manufacturers reported--I don't know if you are familiar with 
these statistics or not, so let me read them, and if you would 
comment on them--52,000 jobs created or retained; $6.8 billion 
in new or retained sales; $1.1 billion in cost savings; and 
over $1.7 billion in private investment leveraged. If those are 
accurate statistics, those results came from a $100 million 
Federal program.
    That seems to be pretty good leveraging. What do you think? 
Do you think those numbers are accurate, or maybe the impact of 
MEP was marginal, and there would be some of these statistics 
existing if MEP didn't exist? Are you familiar enough with the 
program to comment on that?
    Mr. Marburger. I am somewhat familiar with the program, and 
you, Mr. Chairman, answered a lot of my questions before I 
could get to them. But, yes, I do believe that some of those 
things are happening. It is not clear how much of that would 
have happened without the MEP funding. I do believe that 
industries and companies that gain benefits from MEP are bound 
to be happy with them, and I don't want to criticize the 
management of the program by NIST. I think----
    Mr. Mollohan. I know you are not criticizing the 
management.
    Mr. Marburger. So I think that these are probably well run 
programs. The first question is to what extent are funds that 
are being used for that program could be used on activities 
that simply wouldn't ever happen if they weren't funded there? 
And I believe that the type of basic research that--basic and 
applied research that NIST does, and that it does much of it in 
cooperation with industry and in laboratories, this has very 
close ties in its core programs with industry and universities. 
That work has a potentially much higher benefit in terms of 
jobs and competitiveness and economic growth than the sort of 
``one accomplishment at a time'' pace of MEP and ATPO.
    So it is a question of putting your money where the biggest 
payoff is in the long run. I believe, that we would get much 
more if we funded NIST to be--for example, to be more active in 
taking leadership and setting standards for nanotechnology 
applications worldwide. NIST is acknowledged to be a leader in 
Europe and Asia in the standard-setting process. We ought to be 
funding them to do more of that. And that is part of their core 
activity. But they are also leading the way in characterizing--
I used nanotechnology as an example and may as well continue. 
NIST is leading the way in characterizing nanotechnology 
products in a way that can be used by the people who study the 
health effects of nano. There is a lot of concern about that 
right now.
    Well, we can't study the health effects unless we know what 
is in the people. And NIST is where people turn for techniques 
for understanding the characteristics of these new substances. 
So it is that kind of a thing that we could be funding rather 
than the one-company-at-a-time job creation, which is--you 
know, it is--I don't deny its importance, but if you have got a 
choice to make, I would spend our money first on this, and if 
we can find money somewhere else to do some of these 
activities, then that should be evaluated very carefully. But I 
would say we have got a priorities problem.
    Mr. Mollohan. So your position, if I might restate, isn't 
that MEP or TIP don't have value or potential value in and of 
themselves. It is that the money is within the NIST budget. 
Being in the NIST budget, you would have a different priority?
    Mr. Marburger. That is correct. I do have some sympathy 
with the notion that private sector does have an obligation to 
fund that sort of thing, and I know that some companies find it 
hard to get access to private-sector funds. But I would be 
willing to work harder on helping private sector find ways to 
do that. For example, part of the American Competitiveness 
Initiative is to make the tax credit for research and 
experimentation in the private sector permanent and to simplify 
it so more companies can take advantage of it. It is 
conceivable that incentives like that could create pools of 
funds that could assist in the tech transfer end of the 
business.
    So I think we have got other tools that we can use to 
address some of these functions. We should try to do that.

                 BASIC RESEARCH AND TECHNOLOGY TRANSFER

    I just wanted to add one thing to that. The private-sector 
assets, revenues and the private-sector investment in research 
is growing at a pace greater than that of the domestic 
discretionary budget at this time. And I have spoken over the 
past year about the desirability of finding ways to encourage 
the private sector to invest a greater portion of its assets 
and resources in more basic research or research and 
development that is a little bit closer to the tech transfer 
functions. So I just wanted to add that as an important----
    Mr. Mollohan. Well, basic research isn't in that area. 
Basic research is as you have described it. There is a real 
consensus that the Federal Government ought to be investing in 
basic research. But these are applied programs, and I would 
suggest that while there may be other ways of getting it. There 
could be some tax incentive that could incentivize this kind of 
activity. I am sure that this was considered when the 
authorizing legislation was developed. Nonetheless, this is 
impressive leveraging--if these statistics are correct--over 
$1.7 billion in private investment leverage. This is the number 
that NIST reports, so that is a pretty impressive leveraging of 
private sectors.
    But I guess my point is--and it is not to try to tie you 
down or anything, but it is to get an appreciation for your 
primary reasons for supporting the zeroing out of these two 
programs, and it is that dollars are scarce, it is a zero-sum 
game, and given your predisposition about the prioritizing of 
that and favoring basic research, you just think that money 
could be better spent at NIST basic research, it is not that 
you are per se opposed to these programs?
    Mr. Marburger. That is correct.
    Mr. Mollohan. If that is a fair assessment?
    Mr. Frelinghuysen.

                       MATH AND SCIENCE EDUCATION

    Mr. Frelinghuysen. Dr. Marburger, I want to get back to how 
we improve math and science education. The increases for math 
and science have been primarily in the Department of Education 
programs. For the National Science Foundation, the American 
Competitiveness Initiative prioritizes basic scientific 
research over education programs. The NSF education request, as 
you are aware, falls far below the amount authorized by the 
COMPETES Act.
    I suppose the basic question, are the National Science 
Foundation education programs effective? And if they are, which 
ones would you single out for perhaps being the most 
successful?
    Mr. Marburger. I would first like to point out that the 
President's 2009 budget request does request about a 9 percent 
increase in that part of the National Science Foundation that 
deals with education. So that is a sort of vote of confidence 
in NSF programs there.
    I think that the proper funding of research in science and 
math education is an important part of the American 
Competitiveness Initiative and obviously an important part of 
the COMPETES Act, so there is no animosity toward the National 
Science Foundation programs. The fact that it is only 9 percent 
is--well, which I think is a healthy increase at a time when 
the domestic budget is being held to 1 percent. But the fact 
that it is only 9 compared to 15 or 20 percent, which is the 
amount--20 percent is the amount that the physical science 
budget would increase at NSF under this budget is just an 
indication----
    Mr. Frelinghuysen. Those who have reviewed these programs 
have they found them to be effective, and it all boils down to 
what part of this ensures that we are actually, quote, 
competitive.
    Mr. Marburger. Yes.
    Mr. Frelinghuysen. And how we measure that.
    Mr. Marburger. There are two things I want to say in 
response to that question. The first one is that the National 
Science Foundation itself, as you know, most of its money goes 
out to university-based research programs. The NASA Science 
Foundation requires that the research grants that it gives 
under these programs have evaluation tools built into them so 
that they have accumulated a lot of information about what 
works and what does not in their research programs.
    Now, that is the first sort of general answer. Secondly, 
the Department of Education and OMB in cooperation with my 
office have launched a study of the very large number of 
education programs, and particularly in math and science, 
spread around the entire Federal Government. There is a large 
number of such programs. They established a committee, an 
interagency committee, called the ACC, Academic Competitiveness 
Council, I guess, which made recommendations about assessing 
all of these programs. And under the actions of that committee, 
my office was asked to prepare a document that gave more detail 
and more direction to agencies about how they might go about 
evaluating these programs to find out what does work and what 
doesn't, because most of these programs are not evaluated in a 
way that would allow you to tell if they are working.
    Mr. Frelinghuysen. So they are being evaluated?
    Mr. Marburger. They are being evaluated. Some of them are 
being evaluated now, and more of them will be evaluated during 
the coming months as this process rolls out. Once again----
    Mr. Frelinghuysen. Because these are the programs that 
provide the very underpinning if we are ever going to get ahead 
of what is occurring in China and India where the numbers are 
staggering. The teaching of English, in the second or third 
grade, I assume both science and mathematics, the statistics, 
and you are pretty familiar with them, are pretty shocking, a 
huge wake-up call. You say there is oversight through this new 
acronym or this new group?
    Mr. Marburger. Yes. I am satisfied that we are moving 
toward having a much more uniform and widespread evaluation 
process for all education programs throughout the government, 
not just the ones in NSF or the Department of Education, but 
elsewhere as well. I think it is needed, and we are supporting 
that effort. We are probably doing some things right. We could 
probably do a lot of things better. And we have to sort out 
which is which.

                  AMERICAN COMPETITIVENESS INITIATIVE

    Mr. Frelinghuysen. Well, you are in the critical position. 
So we are supportive of whatever you are doing to crack heads 
and make sure that things are coordinated, one hand knows what 
the other hand is doing. I just wanted to touch basically, 
obviously the cornerstone of the American Competitiveness 
Initiative is the National Science Foundation basic research, 
which obviously receives a pretty healthy increase, 13.6 
percent. The biggest increases, correct me if I am wrong, are 
for math and physical sciences, engineering, computer sciences, 
and cyber infrastructure. Why are we prioritizing these 
specific disciplines or technologies over others?
    Mr. Marburger. This is the area that we have been hearing 
about for the last--almost a decade from industry, from 
educators, from scientists and universities and the national 
academies. This is the area where there appears to have been 
the greatest lag in funding, and the greatest mismatch between 
opportunities and abilities, capabilities because the funding 
has been lagging. The physical sciences----
    Mr. Frelinghuysen. I am interested to know, you are in the 
process of responding, what data supports----
    Mr. Marburger. There are a large number of--I will be glad 
to provide reports----
    Mr. Frelinghuysen. So there is substantive data that 
supports these types of investments?
    Mr. Marburger. Yes. These investments are in the areas that 
support the information technology, nanotechnology and 
instrumentation, the measuring instruments that are used in all 
areas of science. The physics and chemistry and information 
technology, computer science and systems engineering, all of 
these things are very basic components of practically every 
field today. Most contemporary research----
    Mr. Frelinghuysen. The general consensus is, and I am a 
believer, that these will pay the biggest dividends. Do they 
match their counterparts from what we can gather from our own 
intelligence gathering of what is happening in parts of India, 
China?
    Mr. Marburger. Other countries are aware----
    Mr. Frelinghuysen. The Pacific Rim?
    Mr. Marburger. I give you one example. Just last year 
Russia decided to make a huge investment in nanotechnology, 
just huge. It is $1.5 billion per year, which is comparable to 
our investment. It is just an amazing investment. It is 
structured very differently. It doesn't have quite the same 
emphasis on the basic research that ours does. But that is an 
example of a type of investment that countries are willing to 
make in these areas. They are building the kinds of 
infrastructure that are sustained by these physical science 
budgets and NSF and the Department of Energy and elsewhere. And 
we know that they are making those investments there, 
particularly because they see the payoff. So we are competing.
    Mr. Frelinghuysen. Just to sum up, we are doing it here, 
and it seems that everybody has a piece of the initiative. I 
mean, there are lots of consortiums or consortia that are 
around there. But who is sort of pulling all the disparate 
parts together such that we would have some way of knowing 
whether we would match the Russia initiative? I assume the 
Chinese are not asleep at the switch here, either through their 
own inventiveness or through what many of us suspect is their 
ability to, shall we say, cop information.
    Mr. Marburger. Congress has mandated a series of reports 
both from--in the case of the administration, the President's 
Council of Advisors on Science & Technology has taken on this 
responsibility and from the National Academies to report 
periodically and frequently on the status of the nanotechnology 
initiative in this country and compared with other countries. 
And there are reports available that are pretty current that 
have these data in them. It shows our investment compared with 
Asia and Europe.
    Mr. Frelinghuysen. There are people like you, and people 
who serve on the National Science Board, through whom these 
reports filter such that we have a pretty good grasp of what 
everybody is doing in university-based research and different 
medical centers, and within the DOD.
    Mr. Marburger. Yes. Our office runs a national coordinating 
office for the National Nanotechnology Initiative, and they 
produce copious reports. I will make sure that those reports 
are available to you.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you.

               VISION FOR SPACE AND FUNDING TO EXECUTE IT

    Doctor, you used the words when we were talking a little 
earlier about the necessity for dependability in funding, 
dependability on direction in some of these programs. I would 
say the stability in them in every way. As I look at NASA, I 
don't know any other agency that has had less stability, 
neither programs or funding.
    I would like to ask you a few questions about NASA. Let me 
begin with the notion which we get a lot of up here that the 
current vision focuses on space shuttle, space station 
programs, phasing out shuttle, doing something with station, 
followed by human exploration of the Moon. And there are those 
who would argue that that results in a deemphasis of the 
aeronautics accounts and the science accounts and the education 
accounts particularly. First I would like to ask you, were you 
involved with the development of the President's vision for 
exploration? Did that happen before you came, or were you----
    Mr. Marburger. I was involved with that, yes.
    Mr. Mollohan. How did that happen? What led us to the 
conclusion that the President would initiate the exploration 
vision that he did?
    Mr. Marburger. The primary driver, the proximate cause for 
that vision exercise was the Columbia Accident Investigation 
Board report that found that the vision for NASA in general was 
in need of renewal and reexamination, that there needed to be a 
high-level statement of a program and a vision for what NASA 
was trying to do, where it should be going. And that 
recommendation in the accident investigation report triggered a 
number of activities. Another commission was formed which 
reported, and an extensive policy and exercise occurred in the 
White House involving NASA, and at the end of which the 
President made a speech and issued a policy statement on the 
vision. And I have given speeches about this giving my 
perspective in detail on this that I would be glad to make 
available to the committee.
    Mr. Mollohan. Would you do that?
    Mr. Marburger. I will do that.
    In my view, a practical vision for space is rather 
constrained by physics. We need to make sure that we have the 
ability to get equipment up and to maintain complex operations 
in space, which is subject to physical constraint, one of which 
is just the cost of getting material up, various kinds, out of 
Earth's gravity. So I attempted to advise the policymaking 
process based on the perceptions of my staff. Obviously I was 
working with experts on this. We advised the policy process on 
this regarding the constraints we thought were built into the 
science of space travel, if you wish, and space exploration, 
and the current vision does include those aspects.
    I think that the current path that NASA is on is a 
reasonable one and sustainable. In the President's statement on 
this, on the exploration vision, he emphasizes the importance 
of having a sustainable step-by-step process and to try to get 
away from the notion of sort of one-shot spectacular missions 
that are very expensive, but that don't accumulate an 
infrastructure that can be used to make subsequent missions 
both less costly and safer. So the whole program of phasing out 
the shuttle and working on a new generation of crew exploration 
vehicles that can serve the shuttle, as well as going beyond to 
the Moon and----
    Mr. Mollohan. Service station, a service station?
    Mr. Marburger. Correct. I think that is a reasonable 
vision. And we do try to fund NASA on a regular basis. It is 
not easy. Of course, the President did request a budget within 
a long-term framework in 2008, but the omnibus bill failed to 
support it. That causes problems. The NASA budget is 
particularly sensitive to these shifts in funding.
    So I think the administration has a pretty clear picture of 
where it wants to go and how it should be funded, but we 
desperately need to be working with Congress to make sure that 
we have got the funding on a pretty smooth path.
    Mr. Mollohan. So you are affirming your support for the 
vision, generally----
    Mr. Marburger. Yes.
    Mr. Mollohan [continuing]. As it was proposed by the 
President as currently being carried out given the funding you 
have. You used the term reasonable and sustainable.
    Mr. Marburger. Yes.
    Mr. Mollohan. Not optimal, I assume.
    Mr. Marburger. Optimal is hard to define.
    Mr. Mollohan. It definitely involves more money. But could 
you give us your thinking about the concerns expressed by 
people that the emphasis on exploration does come right now 
given the President's request at the expense of science, 
aeronautics education? And it is said that Dr. Griffin makes a 
case that science is, given his budget and his direction, not 
deemphasized, that it is not adequately funded, but it is in 
the balance of things fairly funded. There are a lot of people 
that don't agree with that, and I am asking for you to comment 
and give us your thoughts about that. In other words, it is a 
balancing question within NASA. Do you agree with how the 
administration----
    Mr. Marburger. First of all, if you have more money, you 
can do more things. Secondly, NASA is doing a lot of science. 
After NIH, NASA has the largest share of the science budget, 
the nonmilitary, nondefense research budget. NASA has the 
greatest share. NASA is currently flying about 60 science 
missions. They are up there gathering data. And that is just 
hugely more than anyone else is likely to have in the near 
future.
    Mr. Mollohan. When you are at these conferences, and all 
your science-biased colleagues come up to you and start banging 
on you, is that the response you give them?
    Mr. Marburger. Yes. I look them in the eye and I say, can 
you tell me how many active science missions NASA has now? We 
know about the rovers on Mars, we know about the Hubble 
telescopes. How many? Well, they usually guess about 15 or 20. 
Well, there are 60. And so I tell them, how many do you think 
we ought to have? You can always put more up, but you need--you 
know, it is just a question of money. So I say that for the 
type of science that we are getting, and it is very exciting 
stuff, we are making a big investment in NASA science.
    There are pressures on NASA to do even more because we have 
a science community that sees possibilities. They would all 
like to have their satellite programs. And we have a very 
aggressive, competitive, capable space science community out 
there that is pushing for more and more. And I think that it is 
very important for us to have a clear idea of what we should be 
doing first so that if we do run short of money for one reason 
or another, there is a hiccup in the funding or another 
accident occurs, and we have to incur great expense, we know 
what we should be sustaining.
    Congressman Ruppersberger asked about the Webb telescope, 
for example. Well, that is a high-priority project that NASA is 
just going to keep doing regardless. And there are a number of 
science projects in that category. But I think it is a mistake 
for us to just try to do everything that everybody wants to do. 
We----
    Mr. Mollohan. Well, surely that doesn't happen. But I had 
here a couple of years ago, or maybe it was last year, a list 
of all of the science programs that were being pushed out or 
terminated, and it was a pretty large list. So there were 
projects in the queue that for budgetary reasons were 
cancelled.
    Mr. Marburger. In my view, that was a direct result of the 
very tragic accident that took the shuttle program off line and 
incurred.
    Mr. Mollohan. Because NASA had to pay for that out of its 
hide, so to speak.
    Mr. Marburger. Yes. It sent ripples through the NASA 
budget.
    Mr. Mollohan. But NASA had to cover that cost within its 
own budget instead of having a supplemental or an emergency 
funding to pay for that.
    Mr. Marburger. There was some return-to-flight funding 
during that period. But, NASA deals with these big projects 
that have intrinsic difficulties that create cost overruns and 
schedule slips. You are pushing the edges of technology on 
these things, and there ought to be some flexibility in their 
budget to do that.
    Mr. Mollohan. You know, I know there is a lot of concern 
expressed about the vision, the vision being underfunded, I 
mean, by some accounts $4 billion, $4 billion-plus, and then in 
addition to the underfunding for the science and aeronautics 
and education. So do you agree with that? Do you disagree with 
that? Do you push for more funding for NASA in your efforts?
    Mr. Marburger. I talk about it differently from the NASA 
Administrator. He has a certain discretion about how he does 
these things. Since you mentioned education and aeronautics 
now, and I haven't responded to it yet, let me talk about those 
first and then the other.
    Mr. Mollohan. Please.

                      AERONAUTICS PROGRAMS AT NASA

    Mr. Marburger. NASA has basically reorganized its 
aeronautics function, I think, in a very healthy way, 
restructured it to emphasize a smaller number of more focused 
objectives, back to basics as it were. There has been a lot of 
planning activity and policy-level activity on the aeronautics 
program. The President approved an aeronautics policy, and now 
we have an aeronautics strategic plan, and the expenditures 
that the President is requesting in the 2009 budget are 
consistent with the new look that NASA has given the 
aeronautics part and with the policy and strategic plans that 
have been developed.
    So I am comfortable with the direction of aeronautics. It 
definitely has been a change. There has been a refocusing, as 
it were, a reprioritizing of their mission. So I think that 
aeronautics and NASA is on the right track now.
    As far as the education part, well, that has to be 
evaluated along with all the other education programs that we 
have been talking about. NASA has real assets for education. 
Kids love it, grownups love it, and they make a lot of 
educational materials available.
    Mr. Frelinghuysen. Just if I can ask the Chairman. Why is 
NASA not part of the American Competitiveness Initiative along 
with NOAA?
    Mr. Mollohan. Absolutely.
    Mr. Marburger. The reason NASA and NOAA aren't part of the 
doubling track, for the American Competitiveness Initiative is 
that--there are two reasons. The first one is that they are 
more nearly adequately funded for the missions that they 
perform than these other parts of the science agency community; 
and secondly, that the direct product of their research is less 
relevant to long-term economic competitiveness and to the line 
of products that sustain the American economy at the likely 
future economy. So while there are important economic aspects, 
big economic impacts, of the operations, space operations, for 
example, weather and so forth, the research products are less 
directly relevant to the technologies that are likely to be--I 
mean, just to make it clear what I am saying so that----
    Mr. Frelinghuysen. I don't want you to get too excited by 
responding, but this is the Chairman's time. The issue of 
sustainability----
    Mr. Marburger. For example, cosmology or understanding dark 
matter in space, those are very important issues where there 
are many important opportunities in science. You can call them 
physical science as well. But they don't lead to technologies 
that are likely to be important in our economic future. You can 
get spin-offs from the various----
    Mr. Frelinghuysen. Our economic future is certainly 
connected to the 72 percent of the world's surface that is 
oceans.
    Mr. Marburger. That is correct.
    Mr. Frelinghuysen. And the way we treat our oceans--and 
obviously we have a lot of scientific assets directed towards--
--
    Mr. Marburger. That is correct.
    Mr. Frelinghuysen. Talking about competition, look what the 
Chinese and Japanese are doing out there in terms of their 
fleets and the depletion.
    Mr. Marburger. Those parts of the NASA budget should be 
funded, and, in this request that we are discussing here, the 
President is asking for increases and dollars for carrying them 
out. But the entire agency budgets, research budgets, don't 
have the same level of sensitivity to economic competitiveness.
    So, I am trying to give you the rationale for these 
decisions, and they have been made carefully and based on 
analyses and extensive reports. It is not something that we 
just thought up. We try to listen to the communities out there 
and respond to what they think is important.
    So to get back to the funding gap, as it were, that we here 
discussed in connection with NASA, this is where the emphasis 
that the President has made on sustainability and step by step 
comes in. We think it is important for NASA not to have big 
increases and then decreases in its budget. We think that it is 
important for NASA to have a budget envelope that Congress can 
support and sustain administration after administration, if you 
wish, not something that is going to go up and down with the 
fashions of the moment or the political interests of a 
particular administration, because this is something that takes 
place over many, many years, decades.
    Mr. Mollohan. I would subscribe to the notion that we 
should have sustainable funding, and it should be level, and I 
think there would be a lot of concern, which I would share, 
about the adequacy of it, and it should be sustained at a 
higher level in order to achieve the goals of the vision and at 
the same time to fund the other terms. But thank you very much 
for your thoughts on that.

                            NASA AND THE ACI

    Going back to Mr. Frelinghuysen's question about NASA being 
a part of the American Competitiveness Initiative, it is 
interesting to me that you said because the products that come 
out of NASA aren't as relevant, I think there would be a lot of 
people on Capitol Hill, and I would be one of them, that would 
think and believe that actually it is a part of NASA's 
authorization to be very concerned with and very focused on 
meeting goals with regard to technology transfer and bringing 
technologies to the economy that directly impact on America's 
competitiveness. I think, and please correct me if I am wrong, 
that is a part of the statutory mandate; is it not?
    Mr. Marburger. I believe so. And my remarks may have been 
misleading in this respect. There is no question that NASA and 
other agencies have important products that have an important 
impact on our competitiveness, but that there is a 
differentiation and impact among different areas of science. 
The people who are concerned about information technology, 
communications, telecommunications, materials, energy----
    Mr. Mollohan. Again, kind of emphasizing the basic 
research----
    Mr. Marburger [continuing]. Biomedical research. All of 
these things are pointing to these agencies as being 
significantly underfunded for the role that they play. They are 
not pointing to NASA as being significantly underfunded for the 
role that they play.
    So it is dangerous for me to make invidious comparisons 
here. I don't want to do that because all of these agencies are 
carrying out their missions quite well, but there are some 
differences at the level at which we have been funding these 
things, and we have had a situation where we have let a certain 
very key area of science go underfunded for decades, and we are 
trying to fix that.
    Mr. Mollohan. It is basic research?
    Mr. Marburger. Basic research in certain areas of physical 
science. And NASA and NOAA and a number of other agencies, 
while very important agencies doing their jobs well, are not as 
significantly underfunded as these key prioritized agencies. 
And even in the materials that were produced at the time that 
the President announced the American Competitiveness 
Initiative, we tried to explain that there were other agencies, 
and we particularly mentioned the Department of Defense as 
being a key agency, that had traditionally invested in research 
in this area that needed to increase it, but it was not being 
proposed to be put on a doubling track. Only these most 
seriously underfunded agencies relative to their missions were 
put on that doubling track according to the President's 
principles.
    You know, I tried to explain the rationale for a fairly 
targeted initiative. The idea was that within an overall 
constrained budget, you had to have some priorities, and 
priorities had to make sense, and we tried to design priorities 
that would funnel the dollars to the highest leverage, most 
needy areas, high-impact areas, while acknowledging the 
importance of all areas to achieve economic competitiveness; 
funding those high-priority things first, making sure that that 
got done, and then subsequently when balance is restored, we 
can, you know, move ahead on all fronts if we can afford to do 
that. So that is sort of the picture here. It is all about 
priorities.

                    REVISITING THE VISION FOR SPACE

    Mr. Mollohan. One of my last questions with you with regard 
to NASA has to do with the basic vision, concept at this point 
in time, and I say NASA is one of those agencies that has been 
least stable in its funding profile, and that we try to 
redefine or some try to redefine every year. But there is 
significant thinking out there in the community, rethinking, of 
the vision, which I am sure you are aware of, and if I can just 
read a few paragraphs from Aviation Week and ask you to respond 
to this.
    First introductory paragraph: Influential leaders of the 
space community are quietly working to offer the next U.S. 
President an alternative to President Bush's vision for space 
exploration, one that would delete a lunar base and move 
instead toward manned missions to asteroids along with a 
renewed emphasis on Earth environmental spacecraft. 
Participants in the upcoming meeting contend there is little 
public enthusiasm for a return to the Moon, especially among 
youth, and that the Bush administration has laid out grandiose 
plans, but has done little to provide the funding to realize 
them on a reasonable time scale. Another contention is that 
abandoning the President Bush lunar base concept in favor of 
manned asteroid landings could also lead to much earlier manned 
flights to Mars' orbit where astronauts could land on the Moon. 
And it goes on to more specific justifications for revisiting 
the vision. But are you familiar with this thinking?
    Mr. Marburger. Yes. Yes, I am.
    Mr. Mollohan. And my first question was, learning 
progresses and ideas mature, and people begin one direction, 
and they get so far in the direction and decide, gee, there is 
a better one, but they wouldn't realize there was a better one 
if they hadn't pursued the first vision in this case. But was 
this notion a competing one? Was this vision that this group is 
touting a competing one of the President's vision at the time?
    Mr. Marburger. Yes. You know, people have been conjecturing 
or conceptualizing things to do in space and what our approach 
should be for decades, and nearly everything that you can think 
of, including missions to asteroids and buildings, structures, 
and so-called Lagrange points, which are points in space, all 
of these things were more or less in the air, have been in the 
air for a long time. And so when we began looking around, and 
others, at the time the vision was assembled, there were scores 
of ideas about how to proceed.
    With respect to the specific ones that you mentioned, I 
think there are some good ideas in there and some not so good 
ideas. I certainly believe that Earth observations are very 
important. Probably the highest priority for space operations 
for this country should be Earth observations. The most 
interesting thing in the solar system is the planet Earth, and 
that is where we are. So I agree that that should have a high 
priority.
    As far as visiting asteroids, I don't regard that as a good 
idea, except in connection with a larger plan that does include 
the use of the Moon. The Moon is unique in being a source of 
material that is not deep in the Earth's gravity well. It is 
unique. There is nothing else like it. It is the closest thing, 
and it provides a stable base. Unlike anything else that is 
accessible to us, only the Moon provides a stable base for 
complex operations. And the reason you go to the Moon is not to 
just repeat the Apollo experience, but because you want to 
establish operations there that could very well serve the 
Earth-observing capabilities that we have in a way that reduces 
the cost of sustaining them. It is conceivable that there could 
be commercial operations and commercially successful operations 
on the Moon in the future where it is inconceivable to me, at 
least within centuries, that you could have similarly 
commercial viable operations anywhere else. The Moon offers a 
source, sort of an infrastructure that can be exploited for all 
other space exploration. So that is what I think.
    Mr. Mollohan. And this group would disagree with that very 
premise?
    Mr. Marburger. This group disagrees with that, and I 
think----
    Mr. Mollohan. I am not going to mention all the folks.
    Mr. Marburger. I know about that conference. But I think 
they are wrong, just to make it clear. I think they have some 
good ideas, but on that one I think that that is a mistake.
    Mr. Mollohan. Is there debate within the administration on 
that issue----
    Mr. Marburger. Not particularly. You know, the 
administration does listen to outside advice.
    Mr. Mollohan. Are you sure?
    Mr. Marburger. And there is a debate within that community. 
There is one sector that thinks the Moon is the thing, and the 
reasons that many people think the Moon is important are 
somewhat different. In other words, people have different 
reasons for going to the Moon. Other people favor building a 
big infrastructure in something called the Lagrange point, 
which is a gravitationally stable place where things don't 
float away if you drop them. Once again, there are serious 
disadvantages with that and so on. There are a number of 
factions out there that have their--and some people think that 
we should just go right to Mars and not worry about building 
all of this infrastructure in between. All of these things have 
to be analyzed seriously and continually.
    Mr. Mollohan. Are these either/or visions?
    Mr. Marburger. Not necessarily. Once again, it depends how 
much you want to spend. You know, the more money you put on the 
table, the more different things you can do. But to my mind, 
looking at that time from a dispassionate point of view, my 
responsibility, I looked at all of these things and listened to 
all of these people, and it seemed to me that there are certain 
things that you would want to do whatever else you did. One of 
those things is exploiting whatever resources you can find on 
the Moon. Whatever else you do, that is the big thing that is 
up there that has mass that--it is very expensive to get mass 
out of the Earth's gravity.
    Mr. Mollohan. Is there momentum out there for a change in 
the vision that we just described, and are those who are 
proposing, are they credible? Are these proposals and these----
    Mr. Marburger. We have a very aggressive, capable, as I 
said before, capable community of space scientists, many of 
which have their own ideas about how to do things and what to 
do. There are organizations, clubs, Web sites that have formed 
around different approaches to this so that you can probably 
find momentum in almost any direction.
    The trick here is to try to be responsible about it; what 
are the criteria that you would use to select among these 
things and prioritize them. In my view, it is pretty obvious 
that the Moon has got to be a major objective for any space 
vision, and, number two, that we have to get away from this 
notion that we are just there to impress other countries and 
plant flags and so forth. That is not why we are there. There 
are other really pragmatic reasons, including science. Science 
is one of the functions that should be served by space 
exploration, and very important science can be done on any of 
these missions, but they can all be sustained by a development 
of complex operations on the Moon.
    Mr. Mollohan. Have you spoken on this topic before this 
hearing?
    Mr. Marburger. Yes, I have. Yes. A number of times.
    Mr. Mollohan. Is it available?
    Mr. Marburger. Yes. I will provide----
    Mr. Mollohan. We can go online probably and find it.
    Mr. Marburger. I will make sure that you get it. I gave a 
talk, an actually quite well-received talk, to an annual 
symposium, the Goddard Space Flight Center, on this 2 years 
ago, and it is on my Web site. And, in fact, in about 2 weeks, 
I will give another one of these talks.
    Mr. Mollohan. On this topic?
    Mr. Marburger. On a similar topic, yes, exactly. And I will 
make sure that once I get it written----
    Mr. Mollohan. Thank you, Doctor.

                           SCIENCE EDUCATION

    Mr. Frelinghuysen. Very briefly, I would just like to get 
back to planet Earth for a few minutes here and get back into 
the issue of science education. You are involved in the 
Academic Competitiveness Council. Are you familiar with their 
work and their recommendations?
    Mr. Marburger. Yes.
    Mr. Frelinghuysen. Obviously their job is to examine, see 
where things are working, where they are not, whether there are 
efficiencies. You are familiar with their recommendations?
    Mr. Marburger. Yes, I am.
    Mr. Frelinghuysen. Do you have any reaction to their 
recommendations? And you are aware that the council found a 
general lack of evidence, effective practices and activities in 
STEM education? You are familiar with all of those, correct?
    Mr. Marburger. Yes, I am.
    Mr. Frelinghuysen. What is your feeling on those 
recommendations?
    Mr. Marburger. My feeling is that they are in the right 
direction, and that they need to be articulated and carried 
out. The Academic Competitiveness Council has charged my office 
with coming up with methodologies for further guidance for 
carrying out some of these suggestions.

                         NATIONAL SCIENCE BOARD

    Mr. Frelinghuysen. And tell me, didn't the National Science 
Board make some recommendations to your office?
    Mr. Marburger. Also the National Science Board also made 
recommendations that are separate from the Academic 
Competitiveness Council.
    Mr. Frelinghuysen. Where do those recommendations stand? 
This is the whole issue of better coordination for STEM 
education and the National Science Board. Has that been done?
    Mr. Marburger. The recommendations of the National Science 
Board--or the National Science Board is an external advisory or 
oversight group for the National Science Foundation, and the 
Academic Competitiveness Council is an internal administration 
executive branch organization that is----
    Mr. Frelinghuysen. So you are reviewing the American 
Academic Competitiveness Council recommendations?
    Mr. Marburger. Yes. So we have a specific task under the 
Academic Competitiveness Council recommendation, and we are 
considering what to do with the recommendations of the National 
Science Board that have recommended a number of things. They go 
in very different directions.
    Mr. Frelinghuysen. Well, just out of my curiosity, are you 
creating a standing committee on the National Science Board 
recommendation?
    Mr. Marburger. We are going to respond to the National 
Science Board recommendation with a committee that is probably 
a little bit different from the committee that they actually 
recommend. I don't know whether they were familiar with our 
structure or not, but we have a structure in which that 
function would fit very well that we plan to use in the 
National Science and Technology Council. So we are prepared to 
be responsive to the National Science Board recommendation 
fitted within the framework that we have to operate.
    Mr. Frelinghuysen. Well, I assume the National Science 
Board is pretty familiar with the Academic Competitive Council 
and their recommendations.
    Mr. Marburger. I hope so. I hope so.
    Mr. Frelinghuysen. I know that the National Science 
Foundation is increasing, I think, by 32 percent their graduate 
fellowships. I am sure that is admirable, they do great work. 
Why is there a flat funding for the National Math and Science 
Partnership and what they call the NOYCE scholarships?
    Mr. Marburger. Those are two different programs. The NOYCE 
scholarships will, in fact, increase in the President's 2009 
budget request. The Math and Science Partnership program will 
not increase, that being funded primarily in the Department of 
Education. Did I get that wrong? I do believe that the NOYCE 
scholarships will increase.
    Mr. Mollohan. I am not sure that is right.
    Mr. Frelinghuysen. The increases are pretty small, and if 
you compare them to the graduate fellowships.
    Mr. Marburger. Okay. My budget expert says that there was 
an increase of about 5 percent in the NOYCE scholarships. It is 
a matter of fact, we can straighten it out among ourselves, but 
the intention was for that to go up. Once again, it would go up 
more if there were more money on the table and the priorities 
were different.
    Mr. Frelinghuysen. The priorities, not to go argumentative, 
32 percent for graduate NSF fellowships, obviously, is a 
priority, you have to measure that against what we might be 
doing on the math and science partnerships, which are pretty 
important as well.
    Mr. Marburger. Right. The math and science partnership 
program is being funded by this administration primarily in the 
Department of Education. So there is no----
    Mr. Frelinghuysen. Again, you are part of that science 
hierarchy, and we hope that the resources will be--I won't say 
evenly divided----
    Mr. Marburger. The Department of Education does science, 
too, but they particularly run these big programs for schools. 
The Department of Education has a somewhat different function 
than the National Science Foundation. The National Science 
Foundation does research, and it is focused on graduate 
education much more than K through 12. The math and science 
partnerships are more of a K-through-12 function that is, that 
we would like to see expanded in a program that is suitable for 
the Department of Education. So I accept all of the Federal 
agencies as appropriate domains for carrying out the signed 
education mission.
    Mr. Frelinghuysen. Thank you for what you do.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Frelinghuysen.

                              ICE BREAKING

    Doctor, last year, it was some interest to the committee 
that the National Science Foundation expressed concern about 
their ice-breaking capability. There are some studies underway, 
interagency discussions were underway then, I don't know what 
the status of those are now. I would like to ask you what the 
status of those are now.
    I would like you to talk to the committee about the problem 
we face with regard to ice breaking capability, what the 
interagency studies are coming up with, with regard to 
solutions and what your personal feelings about it might be and 
how you would suggest that the committee approach that, it 
involves a lot of money, you are not asking for it. How do we 
address this problem?
    Mr. Marburger. So my office has been working to understand 
the problem and to make sure that the National Science 
Foundation had the ability to gain access to the important 
science facilities in Antarctica, the South Pole particularly. 
And we participated in a solution to their problem, which was 
to make sure that they had money in their budget to arrange for 
ice-breaking services----
    Mr. Mollohan. You participated in a solution, I am sorry?
    Mr. Marburger. Yes, in the current situation, that is 
working, which is that there is money in the National Science 
Foundation budget for them to procure ice-breaking services so 
that they can have access to their South Pole stations. Their 
arrangement includes providing a relatively steady stream of 
funding to the Coast Guard for backup services, but as I 
understand it, they are using their funds for primary services 
to rent or lease ice-breaking capabilities from other countries 
to serve the South Pole station. So that is the least expensive 
way for them to carry out their science mission.
    Now the issue of future ice-breaking capabilities for the 
South Pole is--well, for both poles actually, is an issue that 
is larger than just science. The National Science Foundation--
the missions of the National Science Foundation are not the 
primary drivers for ice breaking capabilities. And so, 
consequently, there are policy level processes going on 
currently to try to get all the actors together, the State 
Department, the Department of Defense, the Department of 
Commerce and all the other actors who have a stake in this, to 
work together to develop a policy for going into the future.
    I do not regard the ice breaker issue as primarily a 
science issue. It is a broader issue and needs to be addressed 
in a broader context. So what is driving this, there are two 
things. One is that the current ice-breaker capabilities of the 
Coast Guard are aging, need to be renovated or replaced, number 
one. And number two, the polar regions are increasingly 
interesting, particularly the north polar region, the arctic 
region, where the ice is melting rapidly, and there is a great 
deal of rapidly growing interest in commerce and natural 
resource exploitation, extraction and so forth that go way 
beyond the science interest. So those agencies that have those 
aspects in their portfolios need to come together and agree on 
the path forward, and that, such a path is being explored 
currently at the policy level.
    Mr. Mollohan. Mr. Frelinghuysen has a question.

                            SOUTH POLE TRIP

    Mr. Frelinghuysen. In the interest of full disclosure, I 
had a chance to travel with Dr. Bement and two of his 
predecessors, Rita Colwell and Neal Lane, a trip to remember, 
to the South Pole. It was fascinating to me, the partnership 
between the National Science Foundation, all those countries 
and how the military provides access. While I am certainly a 
red-blooded American, it did bother me that they had to use a 
foreign ice breaker. It was considerably cheaper, quite 
honestly, than if we would had perhaps our own Coast Guard 
there. But I would agree with you from what I can gather. There 
is a larger picture. I was hugely impressed, so that is why I 
am somewhat wearing my NOAA watch today. So when you don't 
include them in the American Competitive Initiative, given all 
the good things they are doing down there, I was a little bit--
but I would agree. The research down there is absolutely 
fascinating, and we need to get in there.
    I thank you, Mr. Chairman.
    Mr. Mollohan. Sure.
    Well, it is my understanding--and I would be interested in 
hearing about Mr. Frelinghuysen and what he has learned on his 
trip down there--but that the NSF polar research actually has 
become the primary use of our ice breakers. And this year, 
NSF's budget eliminates funding to continue the caretaker 
status of the Polar Star since NSF does not envision current or 
future use of this vessel in support of its mission. If that is 
true, how do you think--well, let me ask you specifically, is a 
report planned on this? You have got an interagency study going 
on?
    Mr. Marburger. I am not aware of a report in preparation. 
There is an early policy process that is occurring.
    Mr. Mollohan. It can't be too early, Doctor, this has been 
going on for I can't tell you how many years.
    Mr. Marburger. Well, the policy process that I am referring 
to is one that includes all, appropriates the recent 
developments in the Arctic and the rapidly increasing interest 
there; brings in these considerations, brings in the 
geopolitical considerations that make it mandatory, I would 
say, for other agencies to participate. I do not regard this as 
primarily an NSF problem or a science problem. This is, the 
issue of ice breakers is one that has to be solved in a much 
broader context.
    Mr. Mollohan. Well, are you involved in that solution, 
because if it is not only an NSF or a sciences issue, it is in 
part an NSF and a science issue.
    Mr. Marburger. That is correct. My interest is in making 
sure that the National Science Foundation has access to their 
polar station. How they get that access is less interesting to 
me. Now as a member of the administration, as a U.S. citizen, I 
care a lot about the ability of the U.S. to be able to operate 
in the polar regions, but my specific interest as a director of 
the Office of Science and Technology Policy is to make sure 
that the National Science Foundation has access to their 
operations in the South Pole. And I don't want to see the 
National Science Foundation budget burdened with a national ice 
breaker program. That doesn't make any sense to me. That is not 
their mission. And their budget would be artificially inflated 
if the money to build new ice breakers would be put into it. So 
that is why I have been insisting that there be a larger 
process, and I think we need that.
    Mr. Mollohan. Well, last year, we had testimony from NSF 
that the conditions in the Arctic actually were contributing to 
the necessity of more ice-breaking capability. Which prompts us 
to ask how are we solving that problem, but you have given us 
the benefit of your thinking here today at the hearing.
    Let me ask you if you would step back and provide a full 
discussion of this issue and submit it to----
    Mr. Marburger. Yes.
    Mr. Mollohan [continuing]. The committee and give us some 
direction on where you think the needs are, to what extent the 
science community has needs, to what extent they are going to 
be met and how, so that we can stop worrying about how we are 
going to fund ice breakers if indeed that is not going to be 
something that this committee is going to have to look at.
    Mr. Marburger. Good.
    Mr. Mollohan. Should we go to the Defense Committee and ask 
them to come up with some money here? I'll let you submit that 
for the record.

                CLIMATE CHANGE DATA AND ITS AVAILABILITY

    A number of changes have been made that the conduct of 
climate change science and expression of findings have suffered 
from political interference, and I know you are familiar with 
that. We are familiar with that. I would like for you, Doctor, 
if you would, talk a little bit about that issue and what role 
you envision playing or what role have you been playing to 
ensure that the integrity of scientific work with regard to 
climate change is there and that the administration is focused 
on ensuring it and assuring the public that the science with 
regard to climate change is being conducted in a scientific way 
and that the information that comes out of those efforts are 
available without filtering to the public and the scientific 
community generally. If you would give us your thoughts on 
that, please.
    Mr. Marburger. I think the easiest, most efficient way for 
me to answer that question is to recall that the--what bill was 
it, the--a bill was passed last year that required my office 
to--what was it? Oh, it was the COMPETES Act. I'm sorry, my 
staff tells me that it was in the COMPETES Act that a 
requirement was transmitted to my office to issue a guidance to 
all the agencies that provided for a complete and open 
transmittal of scientific information. I am sure that one of 
the contributing factors for that language was the concern that 
you have expressed about possible interference with scientists 
who have attempted to express themselves, particularly about 
climate change. And so we have worded our response to that 
requirement in a way that takes that into account. And so, 
consequently, and I don't know if this has gone out yet. It is 
still in the interagency review.
    The process that we have for these official transmissions 
of guidance to agencies is that we first consult with the 
agencies to make sure that the wording is something that they 
can actually carry out. And then we rely on the Office of 
Management and Budget to go through a process of vetting this, 
and it is in that process right now. The memorandum that we are 
sending out, that I am sending out to agencies is basically in 
process now, and it includes a description of best practices, 
that there needs to be guidance to scientists as well as other 
employees that emphasizes the importance of complete, timely 
and accurate disclosure of scientific information, makes it 
possible for scientists to interact with media or the public in 
a free way. And we include the reference to best practices that 
already exists in some agencies.
    So I take this very seriously. I have been--I have resisted 
sweeping statements about the causes or the reasons or so 
forth, but I do acknowledge that there have been incidents 
where guidance was needed and think that it is important for us 
to be responsive in this way to those concerns, and we have 
done it. We are in the process of getting it out. It should be 
out within the next month I would say.
    Mr. Mollohan. Just thinking about this, I have no doubt 
about what you understand the importance of credibility in this 
area. You are a scientist. But you also have a policy role 
here, certainly. You probably want to get that out as soon as 
you can. I mean, that is a part----
    Mr. Marburger. Yes.
    Mr. Mollohan [continuing]. Of what you did.
    Mr. Marburger. Yes, I want it to be out.
    Mr. Mollohan. Sure, you do, but I think it is in your 
personal interest, given the responsibility that you have, to 
make sure that that gets out for you and make sure it is clear 
and unambiguous and that it is followed, but time is marching 
by. So I just encourage you to--you know, part of legacy.
    I have some questions with regard to climate change that I 
would like to submit for the record, give you an opportunity to 
respond thoughtfully and completely. We are very interested in 
that. We have established, last year in the bill, a review, 
group of that with the academy. I might even want to talk with 
you about that some time, chat with you about it.
    Mr. Marburger. Sure.
    Mr. Mollohan. Mr. Frelinghuysen, do you have anything else?
    Mr. Frelinghuysen. Nothing else. Thank you, Mr. Chairman.
    Mr. Mollohan. Again, I am extremely pleased that you are 
here today and appreciate your thoughts on all these issues. We 
will follow up in areas that we need to follow up on. And as I 
said, we will submit these climate change questions. If you 
have any other thoughts after the hearing that you would like 
to submit for the record on any of these topics we have 
covered, we would certainly welcome them, we would value them. 
You have scarce resources, and we have scarce resources, and we 
want to apply them certainly with your thinking, and as all of 
our hearings and input would suggest that your thoughts are 
very important to us. Thank you very much for your testimony 
here today, Doctor.
    Mr. Marburger. And thank you for the opportunity to appear. 
It has been good, thank you.
    Mr. Mollohan. I thought it was excellent testimony. We 
appreciate it.
    [Questions and answers submitted for the record follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                      Wednesday, February 27, 2008.

           NATIONAL SCIENCE BOARD/NATIONAL SCIENCE FOUNDATION

                               WITNESSES

DR. STEVEN BEERING, CHAIRMAN, NATIONAL SCIENCE BOARD
DR. ARDEN L. BEMENT, JR., DIRECTOR, NATIONAL SCIENCE FOUNDATION

                 Congressman Mollohan's Opening Remarks

    Mr. Mollohan. The hearing will come to order. Welcome. Glad 
to see everybody was able to get in and get settled. We 
appreciate your attendance.
    Welcome to Dr. Beering and to Dr. Bement. This Subcommittee 
looks forward to your testimony here today on the budget 
request for the National Science Foundation and our nation's 
strategic direction in the area of science research.
    The budget request for the National Science Foundation is a 
mixed bag. On the one hand, it is an exciting day for the 
Foundation. The budget request from the President proposes a 
total of over $6.8 billion, an increase of over 13 percent from 
the enacted level.
    The budget request puts the Foundation back on the doubling 
path outlined in the American Competitiveness Initiative.
    That sounds good on the one hand. However, on the other, 
the budget request falls far short of the levels authorized for 
the Foundation and the American COMPETES Act, some $472 million 
below the authorized level in fiscal year '09.
    The Congress approved this funding level in response to the 
findings contained in the report, ``Rising Above the Gathering 
Storm, Energizing and Employing America for a Brighter Economic 
Future.''
    The report noted that the scientific and technological 
underpinnings, critical to the United State's economic 
leadership, are being weakened at a time when our international 
competitors, led by China's emergence, are enjoying large and 
sustained increases in GDP.
    COMPETES response to that threat. Dr. Beering, your recent 
companion piece to the Digest of Key Scientific and--of science 
and engineering indicators notes these trends.
    Some have expressed concerns about the priorities that the 
Foundation is setting. Funding requested for research and 
related activities grows by 16 percent. While the major 
research, equipment, and facilities construction account is cut 
over 33 percent, deleting funding for many ongoing projects and 
denying any new construction starts.
    Similarly, while education and human resources is slated to 
get an increase of almost nine percent, the Foundation's budget 
for education is some $200 million below the authorized levels. 
Critical to respond to the challenges of educating qualified 
math and science professional and K through 12 programs, they 
are slated for cuts in real terms, programs like STEM Talent 
Expansion Program, the Advanced Technology Program, and the 
Noyce Teachers Scholarships.
    In keeping with the Administration's emphasis on the 
mathematical and physical sciences, engineering and computer 
sciences, each see an approximate 20 percent increase over 
fiscal year 2008, while the biological sciences receive a 10 
percent increase. Social and behavioral and economic sciences 
see an 8.5 percent increase.
    Although the COMPETES Act does not assume that all fields 
receive equal increases each year, the law does call on the 
Foundation not to disinvest in the biological and social 
sciences over the longer term.
    So there is some anxiety about this. And we look forward to 
hearing about the research priorities presented to the 
Committee this year by the Board and the Foundation.
    For EPSCoR, the budget proposes $113.5 million for fiscal 
year 2009. We look forward to talking with you, Dr. Bement, 
about EPSCoR about why the Foundation has chosen to disregard 
the Congressional direction to fund the EPSCoR program and the 
Noyce Scholarship Program at the levels specified in the 
conference report accompanying 2008.
    And we look forward to your testimony and that explanation 
and working with you on that as we go forward, not on this 
appropriation but with the implementation of the 2008 bill.
    Thank you both for appearing today. We look forward to your 
testimony. And before we proceed further, I call on Mr. 
Frelinghuysen.

              Congressman Frelinghuysen's Opening Remarks

    Mr. Frelinghuysen. Thank you, Mr. Chairman, and good 
morning to all of you. Please to join the Chairman in welcoming 
you, Dr. Beering, Dr. Bement to the hearing today.
    You are here today to testify in your fiscal year 2009 
budget request for the National Science Foundation. As I 
mentioned to Dr. Marburger, the President's Science Advisor, 
yesterday, it is clear that science is at the very top of the 
Administration's budget priorities.
    The National Science Foundation request for fiscal year 
2009 totals $6.85 billion, an increase of 13 percent from the 
enacted 2008 level.
    I am very pleased to see this level of commitment to 
funding basic scientific research and to maintaining our 
leadership in science and technology.
    It will be very difficult to provide increases of that 
magnitude given the many competing priorities and limited 
resources. But it is reassuring that you are being aggressive 
in requesting the resources.
    Let me say that I also associate myself with the Chairman 
in terms of the Augustine report, The Gathering Storm. That 
should never remain on the shelf. That should be always a goal 
for us to shoot towards.
    I look forward to your testimony today. And I will have a 
number of questions. And may I associate myself with just about 
all the remarks of the Chairman about the American 
Competitiveness Initiative and your efforts to improve science 
and technology education.
    Let me just take this opportunity, Mr. Chairman, I know 
that you have been to Antarctica, to express my thanks to Dr. 
Bement and the National Science Foundation for including me as 
part of the group that was involved in the opening of the new 
South Pole Station.
    I wouldn't call the trip a life-altering trip. But in 
reality it did alter my view of the world. And gave me an 
incredible respect for the work that is being done there. And I 
know it is being done. Other types of scientific research is 
being done in other parts of the world.
    I had a very, very positive impression. And what impressed 
me the most is the number of young people, maybe because I am 
over 60. But the dedication. And you have seen it. The 
dedication of the men and women there and in other parts of the 
world. This is obviously one of the most inhospitable, yet most 
interesting places. The dedication--the true dedication of the 
workforce there, which is enlarged during the summer and 
shrinks during the winter. But I want to thank you and your 
staff for making that trip a remarkable trip. And I came away 
with a huge respect, a much greater respect, for the work of 
those who work with you.
    So thank you very much. And thank you, Mr. Chairman.
    Mr. Mollohan. Gentlemen, again, welcome to the hearing. 
Your written statements will be made a part of the record. And 
if you would proceed with your oral statements and summarize in 
any order that you wish. Thank you.
    Dr. Bement. Would you like to----
    Mr. Mollohan. Do you have a preference, if not, we will 
call on Dr. Beering.

                     Dr. Beering's Opening Remarks

    Dr. Beering. Okay. Thank you. Good morning. Chairman 
Mollohan, Ranking Member Frelinghuysen and members of this 
Subcommittee, I appreciate the opportunity to address you 
today.
    I am Steven Beering. And I am the Chairman of the National 
Science Board. I am honored to represent the 24 members of our 
Board before you today. I would like to thank the members of 
this Subcommittee for your long-term commitment and support of 
the National Science Foundation and our investments in the 
portfolio of research and education.
    We also applaud your strong bipartisan support for 
legislation over the past year that will bolster the U.S. 
leadership in science and technology, including the American 
COMPETES Act.
    The National Science Board and the broader science and 
engineering community are disappointed, however, by the actual 
appropriations in the fiscal year 2008 Omnibus Bill, which 
erased most of the anticipated increases in support of 
research.
    In such an uncertain funding climate, we are concerned with 
the signal it sends to our potential partners in the National 
Science Foundation, but also the message to international and 
American students who may be deterred from pursuing science and 
engineering careers in this country.
    As many other countries invest heavily in science and 
engineering research, graduate a record number of scientists 
and engineers, and increase incentives to attract outstanding 
international students and scholars, it is a dangerous time for 
the United States to neglect our science and engineering 
enterprise.
    The National Science Board is committed to helping this 
country maintain our leadership in science and technology. In 
addition to its policy and oversight role at NSF, the Board has 
also addressed a number of significant policy issues for U.S. 
science and engineering.
    Let me cite a few. We are working with NSF to implement 
recommendations in several recent research and education 
reports, including the national action plan for addressing the 
critical needs of U.S. science, technology, engineering, and 
mathematics education system, our STEM report.
    Moving forward to improve engineering education.
    Hurricane warning, the critical need for a national 
hurricane research initiative.
    Enhancing support for transformative research at the 
National Science Foundation and science and engineering 
indicators, which includes the digest of key science and 
engineering indicators. And a companion piece policy statement 
entitled ``Research and Development: Essential Foundation for 
U.S. Competitiveness in a Global Economy.''
    We will be introducing an additional report in March 
entitled ``International Science and Engineering Partnerships: 
A Priority for U.S. Foreign Policy and our Nation's Innovation 
Enterprise.''
    And we just a few weeks ago began an in-depth study of 
renewable energy issues, which will be ongoing this year.
    In response to the American COMPETES Act, the Board has 
undertaken a number of actions. We recently sent reports to 
Congress to make recommendations on NSF policies regarding cost 
sharing and on preconstruction and management and operation 
cost coverage under the major research equipment and facilities 
construction account.
    And we will be preparing a final report for Congress on 
this subject later this year.
    The report is also--the Board is also reviewing the impacts 
of NSF policies on interdisciplinary research and on limiting 
the number of proposals for institution of high education for 
some awards. The Board will report back to Congress on both of 
these issues by August 2008.
    Finally, the Board will evaluate a pilot program for grants 
for new investigators at NSF and report these findings to 
Congress by August 10.
    For fiscal year 2009, the request for the National Science 
Board is $4.03 million, an increase of 1.5 percent over the 
fiscal year 2008 budget.
    Next year's budget will allow the Board to strengthen its 
oversight and policy duties for NSF and to provide independent 
scientific advice for the President and Congress.
    In addition, the Board will continue to increase 
communication and outreach with all of its stakeholders. For 
example, we continue to engage with numerous stakeholders to 
implement recommendations from our STEM education action plan.
    The National Science Board supports the fiscal year 2009 
budget for NSF and for basic science research in other agencies 
of the President's request, so that we can begin to make up for 
the opportunities that we will miss this year under the 2008 
Omnibus Appropriations Bill.
    You have my pledge on behalf of the Board that we will 
continue to work closely with the NSF Director to ensure that 
funding decisions continue to provide maximum returns on the 
taxpayers' investment in our Nation's future.
    Thank you very much.
    [The written statement of Dr. Steven Beering, Chairman, 
National Science Board follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      Dr. Bement's Opening Remarks

    Dr. Bement. Yes, thank you. Chairman Mollohan, Ranking 
Member Frelinghuysen, and members of this Subcommittee, I am 
pleased to present the National Science Foundation's budget for 
the 2009 fiscal year.
    NSF proposes an investment of $6.85 billion to advance the 
frontiers of science and engineering research in education.
    Our budget request includes an increase of $789 million or 
13 percent over fiscal year 2008. This increase is necessary to 
put NSF back on the course that was charted by the American 
COMPETES Act and the President's American Competitiveness 
Initiative.
    This budget reflects the Administration's continued resolve 
to double overall funding for the NSF within ten years.
    Let me begin by expressing by sincere appreciation of this 
Subcommittee's support of the American COMPETES Act. I would 
also like to thank you for recognizing the importance of our 
agency operations and award management account in the 2008 
Omnibus Appropriation.
    Our stewardship activities allow us to serve award 
recipients with tools such as the new grants management 
website, research.gov.
    The timing of this testimony coincides with a period of 
economic uncertainty in our country. I have come here today to 
tell you that an investment in the National Science Foundation 
is an investment in America's economic security.
    NSF provides the two essential ingredients of a healthy, 
high-tech economy: Basic research discoveries and a highly 
trained workforce.
    For over 50 years, NSF has been the foundation of 
innovation, fostering great ideas and the great minds who 
discover them. NSF discoveries have led to many of the 
technological innovations you and I take for granted today.
    And yet for fiscal year 2008, NSF's budget increase fails 
to keep up with inflation. By contrast, other nations of the 
world are steadily increasing their investments in STEM 
education and basic research and development.
    I assure you that multi-national companies will have no 
problem relocating their operations to the countries where they 
can find the best trained workforce and the latest research 
ideas.
    The world is changing. Lead times for new products are 
shrinking. Now more than ever, basic research discoveries are 
essential to keeping the wheels of innovation turning in 
America's high-tech companies.
    It is not merely enough to maintain the federal R&D 
investment status quo. It is our solemn obligation to keep up 
with corporate America's demand for innovative people and 
ideas.
    At NSF, we are responsive to emerging potentially 
transformative ideas of research. I would like to highlight 
some of our new cost cutting multi-disciplinary initiatives. We 
created these initiatives in response to inputs we received 
from the research communities we serve.
    We request $100 million to continue cyber-enabled discovery 
and innovation. Our bold two-year initiative, to apply 
revolutionary computational tools and concepts to all fields of 
science engineering and education.
    Our request includes $20 million for Science and 
Engineering Beyond Moore's Law. This initiative aims to 
position the United States at the forefront of communications 
and computation. Moving us beyond the limitations of current 
systems.
    We are requesting $15 million to fund Adaptive Systems 
Technology. Our new effort aimed at using all aspects of 
biological science to inspire transformative new technologies.
    Our request of $10 million for the Dynamics of Water 
Processes in the Environment initiative, will bring together 
researchers from various disciplines to enhance our ability to 
understand the complexities of fresh water systems at regional 
and local levels.
    In addition to our ongoing efforts in transformative 
research, we believe that a truly competitive workforce is one 
that reflects the full potential and diversity of the American 
people themselves.
    Our efforts to broaden participation in science and 
technology target students at all educational levels and from 
all geographic areas.
    We train the Nation's skilled workforce by providing 
research opportunities for undergraduates, graduate students, 
and post-docs. We research and evaluate effective STEM 
curricula for the Nation's K to 12 classrooms. And provide 
opportunities for teacher education.
    And we develop innovative programs for informal science and 
technology learning for students young and old in museums, 
through the mass media, and through other outreach activities 
that touch the imaginations of millions of Americans.
    Mr. Chairman, time does not permit me to describe the other 
numerous activities NSF sponsors to strengthen and support our 
Nation's science and technology research and education.
    NSF's relatively small size relies on its catalytic impact 
on all sectors of the economy. I am hard pressed to think of 
another example in which the taxpayers derive such a tremendous 
return on investment.
    Thank you for extending me the invitation to speak with 
this Subcommittee today. And I look forward to answering your 
questions.
    Thank you.
    [The written statement of Dr. Arden L. Bement, Jr., 
Director, National Science Foundation follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  NATIONAL SCIENCE FOUNDATION AND NATIONAL SCIENCE BOARD RELATIONSHIP

    Mr. Mollohan. Thank you, Dr. Bement. I thank both of you 
for your testimony. You have an unusual relationship, unusual 
for a federal agency. The governing board has oversight 
responsibilities, program direction responsibilities, and the 
Foundation has implementation responsibilities. That balance 
between autonomy and working cooperatively must present such 
challenges.
    The Committee would appreciate the benefit of your 
discussion of those challenges as they exist, and how you work 
them out, and how that relationship is today. I would like both 
of you to speak of that.
    Dr. Bement. If I could lead off?
    Mr. Mollohan. Please.
    Dr. Bement. Being a member of the Board and also being a 
former member of the Board, I feel that the relationship 
depends very much on leadership and also on the congenial 
relationship between the Director and the members of the Board.
    We have very good leadership in Dr. Beering. And the 
relationship is better than I have known it for quite a long 
time. Obviously, there are issues that arise. Those need to be 
negotiated. And we do negotiate. They take continuing 
discussion with individual members of the Board. But I would 
say that those discussions are going quite well.
    Mr. Mollohan. Dr. Beering.
    Dr. Beering. Let me add that I have profound admiration and 
respect, not only for our Director and his deputy, but for all 
of the remarkable staff members that comprise the NSF group.
    We meet regularly, not only in connection with the Board, 
but also before and after and on occasions like this. And there 
is complete agreement on our objectives and on how we can work 
together to further the objectives of the Foundation.
    We are there to help the Foundation realize its goals and 
to serve the public in the best way we can. And I must say in 
my almost six years now, I have enjoyed this assignment very 
much. And look forward to continuing a very productive 
relationship.
    Mr. Mollohan. Are there any challenges before you today 
that pit the Board and the Foundation?
    Dr. Beering. I am unaware of that.
    Mr. Mollohan. How effective is oversight? Dr. Beering, do 
you feel like you are on top of oversight of the Foundation? Is 
the Foundation appreciative of that relationship?
    Dr. Beering. Well I think it is a collegial relationship. 
We are not an IG board. We work together as colleagues. And we 
understand each other's roles very well. We are really one 
common entity. And I have total confidence in what Dr. Bement 
and his associates are doing.
    Dr. Bement. I would like to add that the Board serves as a 
very important and effective interface, as well as a 
communication channel with the community at large. They 
represent the community.
    In some cases, they also provide the support for the 
Foundation in dealing with the community in setting budget 
priorities and in dealing with some of the hard policy 
decisions that we have to govern ourselves by.
    So I think that the Board, and the structure that we have, 
is very positive.

       U.S. LEADERSHIP IN SCIENTIFIC AND TECHNOLOGICAL INNOVATION

    Mr. Mollohan. The Committee appreciates the work of the 
Board in developing the report, ``Science and Engineering 
Indicators of 2008.''
    It makes clear that we are at a critical time for the 
nation in science and engineering. The report shows that the 
U.S. remains the world leader in scientific and technological 
innovation.
    But our leadership is being challenged in many areas. What 
trends most concern you, Dr. Beering?
    Dr. Beering. Well, I guess it is the beginning of the 
enterprise that most concerns me. And that is the subject of 
the STEM report. If we don't improve our STEM education 
enterprise, we are not going to have the manpower to compete 
effectively in the world of science globally.
    And that keeps being documented in our indicators report. 
We have fallen behind many other countries. And we would like 
to see us regain the advantage that we enjoyed at one point. 
And I think we can. But it is going to take a concerted effort 
by all of us.
    And there is no magic wand that we can wave. It is going to 
take a great deal of help by parents, by communities, by 
schools to get the underpinnings of our educational enterprise 
back in order.
    And I am looking forward to an early implementation of our 
recommendations, in particular the Non-federal Coordinating 
Council that would assist the 95,000 school board members 
around the nation in their work.

                NATIONAL ACTION PLAN FOR STEM EDUCATION

    Mr. Mollohan. You mentioned in your opening remarks a STEM 
action plan.
    Dr. Beering. Yes.
    Mr. Mollohan. Talk to us about that a bit please.
    Dr. Beering. Well the main thing is that we are 
recommending horizontal and vertical alignment of curricula 
efforts and a national non-federal coordinating council that 
would serve all of us.
    And then secondly, another main recommendation----
    Mr. Mollohan. Excuse me, what does ``horizontal'' and 
``vertical'' mean?
    Dr. Beering. This has to do with the flow of curricula 
opportunities for students. Right now when a student moves from 
one school district to another, he may miss the sequence of 
offerings that he would have had had he stayed in the same 
school district. And there just isn't any crosstalk among the 
school boards and school systems right now that would be 
desirable to make a smooth transition possible for the 
students.
    And the other big thing is that teachers are not paid in 
keeping with the marketplace value that they have. A math 
teacher, for example, can be employed by industry at a much 
higher salary than this individual would get in the school 
system. And that is why we see a great many of them bailing out 
after two to five years and going into the private workforce 
and leaving the school system.
    Mr. Mollohan. Okay, thank you. We have a number of members 
here today. And we are going to proceed on a five-minute rule 
in first round. And ten minutes in the second round to assure 
that everybody gets an opportunity to ask questions. And we 
will see how many members remain after that. But sticking to 
the five-minute rule, Mr. Frelinghuysen.
    Mr. Frelinghuysen. Yes, thank you, Mr. Chairman. Dr. 
Beering, you are responding to the Chairman's questions 
relative to what is called the National Education Plan; isn't 
that right?
    Dr. Beering. Yes.
    Mr. Frelinghuysen. You know, you mention 95,000 school 
board members. I mean, it is a thankless job.
    Dr. Beering. Yes.
    Mr. Frelinghuysen. And I just wonder, how are you going to 
shake things up? Maybe that is not the politically correct way 
to say it. You have got obviously 50 states, each with a 
history of doing somewhat whatever they have always done.
    There is always a question of how much an impact federal 
policy has. I mean, they are still arguing about the 
consequences of the No Child Left Behind Act.
    How do you and others that you are working with plan to 
insert yourselves into a situation, which is sort of 
traditionally hidebound, stove-piped. All those things that may 
be appropriate to other parts of the government.
    How are we going to get some success here? We can't sit 
around and argue philosophical things here. How are you going 
to insert yourself here?
    Dr. Beering. We are not proposing to have the National 
Science Foundation or Board manage individual school districts.
    Mr. Frelinghuysen. I wasn't suggesting that. I am just 
suggesting if we are going to vertical and horizontal.
    Dr. Beering. We are hoping that this National Coordinating 
Council will assist the individual school jurisdiction to 
structure a voluntary set of standards that everyone would 
subscribe to.
    And to also have a better flow of curricula events so that 
there is some coordination across the state lines and also up 
and down the system.
    Mr. Frelinghuysen. So this is what you have somewhat 
charged Dr. Marburger with; is that right?
    Dr. Beering. Yes indeed.
    Mr. Frelinghuysen. And his response to my question on that 
yesterday was a little cloudy and unclear.
    Dr. Beering. Okay.
    Mr. Frelinghuysen. Where do you think the situation stands? 
I mean----
    Dr. Beering. Well, I think----
    Mr. Frelinghuysen [continuing]. You charged him and his 
office to create a standing committee within the National 
Science and Technology Council with the responsibility to 
coordinate all federal----
    Dr. Beering. Right.
    Mr. Frelinghuysen [continuing]. STEM education. How would 
you characterize where that might stand?
    Dr. Beering. Well I don't know how he feels about doing 
that. I hope that he is positively inclined, because so many 
federal initiatives right now that are not coordinated either. 
That was the intent of that particular committee to bring 
together the federal efforts. And to coordinate them.
    And then the National Coordinating Council, non-federal, 
would assist the individual states and school jurisdictions to 
coordinate the rest of it around the nation. It is going to 
take----
    Mr. Frelinghuysen. Well, I am all for it.
    Dr. Beering. Okay.
    Mr. Frelinghuysen. Quite honestly, I have always felt that 
between our Department of Energy labs, our military 
installations, and the resource of the National Science 
Foundation, we ought to be turning the eyes and brains of a lot 
of fantastic federal employees and for those in university-
based research, more towards K through 12. And I assume this is 
something, which is happening.
    So maybe to Dr. Bement. His Board recommended create a 
roadmap for STEM education, K through 12 and then to college 
and beyond. Could you comment as to where you think we are?
    Dr. Bement. Yes. I think we are doing quite well. Our 
Education and Human Resources Directorate has not only taken 
that charge seriously, but has spent a lot of time this past 
year developing partnerships with our research directorates in 
order to facilitate the implementation of the plan.
    They identified five cross cutting themes, which will add 
impact and improve the outcomes of our education investments.
    One of those themes is really to do institutional 
integration, the vertical part of what Dr. Beering called 
attention to. Namely being sure that at critical junctures in 
the education process, there is a seamless transition, so that 
expectations for performance match requirements for higher 
level education.
    We call that our two plus two plus two approach. The first 
two is the last two years of secondary education, the junior 
and senior years in high school, including advanced placement 
and international baccalaureate programs. The second two are 
the first two years of undergraduate education, which brings in 
the community colleges as well. And then the third two-year 
period is the second two years of undergraduate education, 
which also includes matriculation of students from community 
colleges into four-year colleges and universities.
    Being able to stimulate and to guide students through those 
critical decision periods is part of the vertical integration I 
am talking about.
    Mr. Frelinghuysen. Well, you certainly gave some of my 
people in New Jersey a pretty clear path. I appreciate that.
    Dr. Bement. Thank you.
    Mr. Frelinghuysen. I hope we are doing as well around the 
rest around the country. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you. Mr. Latham.

              LEVEL OF INVESTMENT: U.S. VS. OTHER NATIONS

    Mr. Latham. Thank you, Mr. Chairman, and welcome both of 
you. I'd like to step back in kind of a broader picture.
    Where are we compared to the other advanced nations as far 
as our level of investment? Can you give us kind of an 
overview? A lot of people think we are falling way behind. Is 
that, in fact, the case? What do we need to do? And how do we 
rank?
    Dr. Bement. Well, I will give you my impression. But Dr. 
Beering could talk more about the science and engineering 
indicator results.
    I think in terms of high-tech manufacturing and development 
of innovative products, we are still a world leader in terms of 
percent of global market share of wealth generated by that type 
of industry.
    On the other hand, we have to look ahead and look at the 
rate of change. And the rate of change is a little disturbing, 
not only because of the increasing rate of investment in China, 
where they vow that they are going to triple their investment 
over the next 20 years, but also because of their heavy 
investment in higher education, especially in graduate 
education, masters and PhD programs, which will greatly reduce 
the incentive of Chinese students to come to the United States 
and other countries for graduate education.
    Projections indicate that China will close the gap with the 
United States over the next 20 years, in terms of not only 
innovation potential but also market share for high-tech 
products.
    In order to address that challenge, we have got to keep our 
innovation system strong. But we even have to make it stronger. 
And so that is where my concern is.

                 CHINA'S INVESTMENT IN HIGHER EDUCATION

    Mr. Latham. Give me a comparison. I mean, you state there 
is a heavy investment in higher education, and advanced 
training in China. What does that mean? I mean, compared to 
what? How do they range?
    Dr. Bement. It is the founding of whole new universities 
and whole new graduate programs in China. A huge increase in 
investment.
    I can get you numbers for the record. But I don't have them 
off hand.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latham. Okay, if you would. We hear about this all the 
time. I hear it. And I have Iowa State University in my 
district. We have difficulty getting top international students 
anymore to come in. A lot of them are going to stay in Europe 
or some are staying in Asia.
    Dr. Bement. The cost of education is a big factor. We are a 
very expensive country when it comes to the cost of education 
for international students, especially coming----

         INVESTMENT IN RESEARCH AND DEVELOPMENT: U.S. VS. CHINA

    Mr. Latham. Do we know how much they are increasing, you 
know, percentagewise, their research--I mean, we have been 
reasonably steady.
    Dr. Bement. Well if you look at the increase in research 
investment, at the present time China is investing at the rate 
of one percent of their gross domestic product in research and 
development.
    Their intent is, by year 2020, to increase that to three 
percent of gross domestic----
    Mr. Latham. Where is the U.S.?
    Dr. Bement. At present, we are at about 2.6 to 2.7 percent 
of GDP. And about two thirds of that is private sector 
investment; one third is federal investment or public sector.
    On the other hand, the public investment has been skewed 
very much more strongly toward development and away from basic 
and applied research. And so it tends to be much more short-
term oriented than it had been in the past. And that is a 
concern, especially for the National Science Foundation.
    Mr. Latham. Dr. Beering, do you have any comments or----
    Dr. Beering. Yeah. I might give you some numbers here. In 
terms of the U.S. versus China, our indicators show that China 
is rising rapidly, investing in capabilities associated with 
high-growth, high-technology industries.
    They have captured a growing export share of high 
technology and manufacturing, reaching 20 percent share in 
2005, while our share declined from 23 to 12 percent. Japan's 
share declined from 21 to 9 percent, and the European Union 
from 39 to 28 percent. And we don't know how India is doing. 
But we suspect they are ramping up as well.
    So in a global context, we are reducing our efforts. And 
China is the remarkable tiger in the cage here. They are coming 
on strong.

     IMPACT OF FY 2008 APPROPRIATION ON THE NUMBER OF GRANTS FUNDED

    Mr. Latham. I know the fiscal year 2008 funding set you 
back. Can you give us any idea of how many fewer grants you 
were able to fund because of that?
    Dr. Bement. Yes, I can. The lost opportunity we had in 2008 
as a result of the Omnibus Appropriation was the loss of 1,000 
grants. Those are 1,000 new ideas that will have to be put on 
hold.
    In addition to that, since we educate graduate students 
through our research grants, that could represent as many as 
1,500 graduate students that will not get support as research 
assistants.
    It could also represent 300 to 350 young investigators, 
within five years of their last degree, that will not get 
funding support this year.
    And I think that is a very big loss.
    Mr. Latham. How many grants do you give? You are saying 
1,000 less.
    Dr. Bement. Last year, it was--I can give you the exact 
numbers. It was about 11,000 grants. Maybe I can. Here we are. 
Yes, last year we gave 11,500 awards based on 45,000 proposals. 
And we hope to increase that in the '09 budget by about 1,000 
grants.
    Mr. Latham. Okay, very good. Thank you, Mr. Chairman. I 
will have some more questions later.

                  URGENCY OF ADDRESSING STEM EDUCATION

    Mr. Mollohan. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. And Dr. Bement and Dr. 
Beering, thank you for being here today too.
    October of last year, the Board released a National Action 
Plan for Addressing the Critical Needs of the U.S. Science, 
Technology, Engineering, and Mathematics Education System.
    And I was really excited to be at the unveiling here on 
Capitol Hill. I support a number of your recommendations.
    Currently I am developing legislation to coordinate the 
STEM education activities of the state, the federal agencies, 
institutions of higher education, and business through the 
Council for STEM Education and for the establishment of STEM 
education at the Department of Education.
    And relative to that, my questions to both of you are what 
sense of urgency do you feel around making this a reality? And 
what might be the cost of waiting to provide the infrastructure 
to meet the challenges of what you have identified as a global 
economy?
    Dr. Beering. Well, I think it is urgent that we move ahead. 
But on the other hand, I would like to see us be deliberate. Do 
it right. So I am not going to set a time frame on it. I hope 
that everyone will agree that that is an issue that needs to be 
addressed at all levels. And that we ought to work together to 
achieve some of these proposals that have now surfaced as part 
of that STEM report.
    Mr. Honda. Well let me follow up on your comments. What you 
say is we should make haste with all deliberate speed.
    Dr. Beering. Deliberate speed, right.
    Mr. Honda. Starting when?
    Dr. Beering. Yesterday. As soon as possible.
    Mr. Honda. Okay. So it is an urgency that needs to be 
addressed now.
    Dr. Beering. Right.
    Mr. Honda. What you say is we should lay out the roadmap 
and those things--the components of it, check it off to see if 
there is concurrence. And then move on. And who would do that? 
Would that be the council that has been recommended to be put 
together? Do you have any idea?
    Dr. Beering. Well it would be multiple efforts. The council 
would be one. And the committee at Dr. Marburger's level would 
be another. The Department of Education, if they concur and 
appoint an organization within their department to address this 
issue, would be a third. The roadmap development that NSF is 
working on would be a fourth. And I think there need to be a 
great many collateral efforts that would all come together at 
the end.
    But we all need to work at it.
    Mr. Honda. Dr. Bement.
    Dr. Bement. Well you talked about partnerships. And 
partnerships are very important. We find in our Math and 
Science Partnership Program that bringing the private sector 
in, bringing community colleges into the picture, and also 
local and state governments are critically important in order 
to make progress.
    And in that program, we have seen that getting whole 
communities together, including parents and businessmen, has 
really made a difference in sustained improvement, continuous 
improvement, in the education system, because everyone reads 
the scorecard, everyone keeps track of improvements, and 
everyone cares.
    Now the issue is how do we do that at a larger scale? How 
do we do it at the stage of scaling up new initiatives, new 
interventions, new and best practices? And then how do we 
transfer that across the whole Nation? That is a higher order 
of partnership that we really need to work on. And that is 
where the state governments and the federal government have to 
be willing to come together on developing new standards, 
guidelines, and curricula improvements.
    Mr. Honda. So with respect to the action plan and 
developments of the council and the Office of STEM Education, 
were they not part of the thinking of the Board when they put 
the action plan together?
    Dr. Beering. That was part of it.
    Mr. Honda. Okay.
    Dr. Bement. We directly participated in the report of the 
Board. I would like to add, and I think it is very important to 
bring this before the Committee, that we have very close 
working relationships with the Department of Education at every 
level.
    And while we are doing the research and developing new best 
practices, we work closely with the Department of Education to 
link those to state efforts through their formula grant program 
in order to do just what I was talking about, in order to scale 
these efforts up, and also to transfer them broadly.
    I think that type of a partnership has been effective. And 
it would certainly be prominently represented in our roadmap.
    Mr. Honda. If there was a vision that was put together to 
coordinate all these things together, and if you have a statute 
that allows you to do that, an enabling act, it would seem to 
me that there would be some initiative on someone's part there 
to create at least the first step in participation of that.
    And if we look at our current curricula and the way it's 
established, it is pretty much disjointed, we don't coordinate 
our instruction of math, physics, chemistry.
    And the way science is going now with their nanoscale, 
there is an obvious convergence of biological life science and 
natural science. If we don't start talking about that and 
preparing our teachers and our students to think like that, the 
industry's going to be continuously pulling people together, 
creating that team, and creating that mind set. It seems to me 
that this is something that we should be looking at.
    Dr. Bement. Yes. I----
    Mr. Honda. I am concerned about the sense of urgency.
    Dr. Bement. I fully agree with you. Right from the 
beginning of our nanotechnology initiative, we set aside 
funding to support education in the schools. And that is a very 
active program at the present time.
    In almost all of our advanced technology programs, we pay a 
lot of attention to upgrading curriculum and inserting new 
knowledge, contemporary knowledge.
    Mr. Honda. Right.
    Dr. Bement. That is critically important.
    Mr. Honda. Okay. And then in line----
    Mr. Mollohan. Mr. Honda, we will get you next round. Mr. 
Price, please.
    Mr. Price. Thank you, Mr. Chairman. I want to welcome both 
of you to the Subcommittee. Dr. Bement, as time permits, I 
would like to take up two matters with you.
    The first being the funding for the Advanced Technological 
Education Program, the only NSF program focused primarily on 
community colleges. And I would like to ask you to tell us what 
the implications are of the President's proposed flat funding 
for that program in terms of the number of meritorious 
applications you will be able to fund. I may have to do some of 
that for the record.
    Dr. Bement. Yes.

               SCIENCE AND ENGINEERING BEYOND MOORE'S LAW

    Mr. Price. Because I first want to turn to your Moore's law 
initiative. The international technology roadmap for 
semiconductors produced by the SIA and the Semiconductor 
Research Corporation, located by the way in Research Triangle 
Park, North Carolina, projects that Moore's law will reach its 
limits around 2020.
    Dr. Bement. That is correct.
    Mr. Price. Now, my understanding is if we are going to be 
producing commercially-viable technology that goes beyond 
Moore's law by 2020, the key seminal papers conceptualizing 
that technology need to be published now or very soon. Others 
appear to be moving on the issue.
    A press release last week announced that the European Union 
plans to invest 3 billion euros. That is about $4.5 billion 
over the next ten years in nano-electronics. So it would appear 
your inclusion of funding explicitly targeted at taking science 
and engineering beyond Moore's law is very well conceived.
    With this situation in mind, including the competition we 
are facing, I wonder if that $20 million is a sufficient 
figure? It is not clear to me how that figure was arrived at. 
Nor is it clear how new this focus is. Is this $20 million new 
money newly focused on Moore's law? Or has a roughly equivalent 
amount been directed toward this problem in the past and this 
is more of an attempt at improved coordination?
    Dr. Bement. Well let me answer the question two ways. First 
of all, we have a working relationship with the Semiconductor 
Research Corporation. We both put a million dollars to 
supplement ongoing grants in order to look at particular issues 
that are on their roadmap. And that has been a very good 
working relationship.
    With regard to your second question, we see opportunities 
looking ahead to molecular electronics, which would bring in 
the biological sciences, looking at quantum dot devices and 
quantum electronics, which would bring in math and physical 
sciences as well as engineering.
    So what we are trying to do is to integrate across the 
Foundation initiatives that have been supported in each of the 
directorates and offices in the Foundation. So this is just the 
beginning, the first year of a growing effort to do that 
interdisciplinary integration and to call for proposals that 
will offer transformative ideas on how best to get beyond 
current CMOS technology on silicon.
    Mr. Price. That integration and improved coordination is 
worthwhile in and of itself. Do you have any estimate, though, 
of how much in the way of new investment or investment beyond 
past levels that $20 million represents?
    Dr. Bement. I'm sorry. I didn't understand.
    Mr. Price. How much of this is new money so to speak, or 
how much of it is just mainly pulling together existing 
projects and the funding streams?
    Dr. Bement. It is part of the increased funding we are 
requesting in 2009. So it is over and above the funding that we 
have been investing in this area.
    If you look at our overall initiative in communications or 
what we call the NITRD program, which is working in information 
technology research and development, it is well over a billion 
dollars all together. So this is the beginning of a new funding 
wedge that will deal with the cross integration through the 
Foundation.

                 ADVANCED TECHNOLOGY EDUCATION PROGRAM

    Mr. Price. As I said, I commend you for that. I think it is 
an important initiative. And hope that we can support it fully.
    As time permits, now let me turn to the ATE Program. I 
should acknowledge and commend both the Administration and the 
Committee for the increase in the current fiscal year that ATE 
has enjoyed, something like 11 percent, much needed.
    However, we are back now to the old pattern of flat 
funding. And I wonder what you would say about that. And 
explicitly what you would say about the kind of proposals you 
are receiving that have merit. And how many of them you are 
able to fund. Do you have figures or can you furnish figures 
about the----
    Dr. Bement. Well, I can----
    Mr. Price [continuing]. Number of ATE proposals submitted 
for 2007, what percentage of those were funded, and how many 
you anticipate funding for 2008.
    Dr. Bement. In fiscal year 2007, we received 185 proposals 
and made 53 awards for a funding rate of 29 percent. In 2009, 
we expect to make 70 new awards with the available funding. And 
the percentage of the budget that will be available for new 
awards will be 60 percent of the budget. Forty percent will be 
used to continue ongoing awards.
    And I can get the numbers for 2008 if you would like.
    Mr. Price. Well on the face of it I don't see how the 
funding we are talking about translates into that level of 
awards or that percentage of awards.
    What would you say in general about the merit of the 
proposals you are receiving in these areas and what in the best 
of all worlds we would be funding?
    Dr. Bement. Well this program enjoys a much higher funding 
rate than the Foundation in average. Our average funding rate 
is about 21 percent. So I would say that the awards that we are 
getting are very fundable.
    In terms of award size, that is variable. The Center awards 
range from about $375,000 to $1.25 million per year. But we 
also give awards for individual projects----
    Mr. Price. Yes.
    Dr. Bement [continuing]. In addition to the Centers. And 
those range from $25,000 to $300,000 per year. So the total 
number of awards is a combination of those two categories.
    Mr. Price. Well, I would appreciate it. I know my time has 
expired. I would appreciate you presenting, if you will, for 
the record in tabular form the full account of the awards 
granted versus the applications for these three years we are 
talking about. And any other information you think would be 
relevant to help us assess where we are going with this program 
and where we need to go.
    Dr. Bement. Well we have that information. We would be 
pleased to provide it.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Price. Thank you. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you. Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman. I just at the outset 
want to comment that the work being done at the Research 
Triangle is incredibly valuable and important. Although I think 
we all have to acknowledge that it pales in significance next 
to Advanced LIGO, which I think is done, oh, actually in my 
district.
    Mr. Price. I am shocked, Mr. Schiff, that you would even 
broach the subject.

                         NSF FUNDING TRAJECTORY

    Mr. Schiff. I want to ask you about a couple of things. And 
if there is time, get back to Advanced LIGO.
    In terms of the overall budget for NSF, had you not been 
dinged by the Omnibus last year and gotten an increase last 
year that would have put you on track to double your funding, 
does the 13 percent increase this year make you whole in terms 
of where you would be on that trajectory? Or is it still short 
of that? If it is short of that, when you submitted the budget 
request or the proposal to OMB did you ask for more? That is my 
first question.
    Why don't you go ahead, either one of you. And I have a 
follow-up question.
    Dr. Bement. Well let me say that we are delighted, 
considering the amount of funding available for non-defense, 
discretionary spending, that the President has put us in a 
position where we can stay in the doubling track. So the 13 
percent would keep us on that track.
    Mr. Schiff. So if you had gotten the increase last year, 
you wouldn't be any further ahead if you get the full 13 
percent this year?
    Dr. Bement. Well if we had gotten the request last year, 
that would have been part of the 13 percent. So that would have 
made up about 7 percent of the 13 percent.
    Mr. Schiff. Okay.
    Dr. Bement. So this would be a continuation.
    Mr. Schiff. And I realize that your grantees would be 
further along----
    Dr. Bement. Yes.
    Mr. Schiff [continuing]. If that happened. I am glad to see 
that the funding trajectory in the proposed budget has been 
restored.
    Dr. Bement. Well, there were a large number of programs 
that had to be put on hold. And there were a number of other 
programs that had to be flat funded. And quite frankly, there 
are certain facilities where there may have to be reductions in 
force as a result of that.

                       POLITICIZATION OF SCIENCE

    Mr. Schiff. Dr. Beering, let me ask you as an independent 
advisor to the Congress and the Administration, over the last 
several years there have been concerns raised in different 
fields within science and the Administration of politization of 
science. This was most notable in areas like global warming. 
From time to time large groups of scientists would write to 
raise this issue--that they considered that science was being 
put aside.
    Is there anything going on now in any of the areas of 
science that our government is involved in? Do you think that 
the scientific conclusions are being either ignored, changed, 
altered, diminished for reasons that are separate and apart 
from good science?
    Dr. Beering. Well in general I would say no. But there are 
some indications, for example, off and on that stem cell 
research has major promise for the treatment of diabetes, 
particularly juvenile diabetes and Parkinson's disease to cite 
two. And there is more interest on the part of the private 
sector than on the part of the public sector to support that. 
That is more on the NIH side than it is on NSF. That is the 
only one I cite right now.
    Mr. Schiff. I don't know if you have anything you would 
like to add on that question as well.
    Dr. Bement. Well we do have a robust program in determining 
the rate of climate change. And, of course, that is different 
in different parts of the world. So we study it in the polar 
regions especially, because that is where the change is most 
dramatic.
    We make all of our results publicly available. But we----
    Mr. Schiff. Are either of you in a position where 
scientists who work within the Administration come to you and 
say, look, the work that I am doing and the conclusions that I 
am reaching are being misrepresented or are not being given the 
kind of public scrutiny that they deserve for reasons that I 
don't think are appropriate and are undercutting our work?
    Are you the kind of positions that people would go to if 
they had those concerns? Have you heard those concerns?
    Dr. Bement. As a matter of policy, we don't try to 
represent the research results of our grantees. We expect that 
they will present that type of information and full disclosure 
of their data in the open literature or other open formats on 
the Internet.
    So we look to the community itself to develop their own 
conclusions. Now just to give you a snapshot of where I think 
the community is at the present time, there is absolutely no 
doubt that we are entering a period of global warming. I think 
that issue has a clear consensus.
    There is also a clear consensus within the community that 
there is an anthropogenic forcing effect. That human beings are 
part of the problem.
    Where there is a lack of consensus is the degree to which 
that forcing function is driving our current climate change. 
How much is cyclical and how much of it is due to anthropogenic 
effect.
    And so there is a wide range of opinion. And it will take 
time, I believe, for the community, through further research, 
to narrow that range of variability on that issue.
    So I think that is pretty much where things are at the 
present time.
    Mr. Schiff. Am I out of time? Thank you.
    Mr. Mollohan. Thank you. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman. This is I think the 
most satisfying part of my job is being able to help this 
wonderful Subcommittee, where there are no partisan 
distinctions when it comes to investing in the sciences and in 
NASA and in protecting the future of this country by investing 
in basic R&D.
    It is the one area I know that we can invest our dollars 
and know that it is truly going to improve the quality of life 
for our kids and our grandchildren.
    And it is--I mean it sincerely, Mr. Chairman, Mr. 
Frelinghuysen, and all of you. It is just a joy to work with 
you, because we are all on the same page. And it is a lot of 
fun knowing that we have got these wonderful--this wonderful, 
friendly competition going between North Carolina and 
California. And Rice University, with nanotechnology research, 
the work being done at the Texas Medical Center, where they are 
using gold nanoshells where they appear to have essentially 
cured cancer in soft tissue cancers using these gold 
nanoshells. And work that is being done with single wall carbon 
nanotubes at Rice University to improve the semiconductor, 
making Moore's law.
    Chairman Price, perhaps you are right. Absolutely using 
nanotechnology to make Moore's law obsolete is--it is just 
exciting stuff.
    My hero, Thomas Jefferson, always said he liked the dreams 
of the future better than the memories of the past. And this is 
the one area where we can make the dreams of the future come 
true. So I am thrilled to be a part of this Subcommittee and to 
help with it.
    And certainly to see the 13 percent increase. And Mr. 
Schiff's question is right on target. I am sorry you got dinged 
by the Omnibus but that the 13 percent gets you back on track.
    And thinking about the strategic importance of the National 
Science Foundation to the future of the Nation. And the need to 
keep you on a path to doubling and sort of insulated process, 
reminds me of the--if you think about the Congress over the 
years has insulated the Federal Reserve Board from the 
pressures of politics by setting them out to serve as an 
independent agency.
    The Congress has over the years protected the Government 
Accountability Office from the pressures of politics. And set 
them up as sort of an independent agency. The Congress has sort 
of insulated the Pentagon as essential to our strategic 
survival as immune from politics largely. And sort of set them 
and given them some special protections against the currents 
and winds of politics.
    And I really hope--I would really love to work with the 
members of this Subcommittee and think of a way, for example, 
for the--following up on what Mr. Honda is talking about when 
it comes to strategic planning for education.
    Why don't we think about long-term legislation? I would 
love to see the National Science Board for example be given the 
authority to give us a yearly budget. Just completely take 
science out of the President and the Executive Branch budgeting 
process. And let the National Science Board give the 
Appropriations Committee essentially a recommendation on what 
they think the funding level should be that is immune from 
politics and completely separate.
    I think we owe that to our kids and grandkids. NASA frankly 
ought to be in the same boat. I just threw it out, because I 
think it is important we think outside the box.
    We are facing challenges that this Nation has never really 
encountered before. And it is deeply disturbing. You are 
exactly right, Dr. Bement, to point out Norman Augustine's 
comment that unless we make substantial investments in basic 
scientific research, that the next generation of kids and our 
children and grandchildren may be the first in our Nation's 
history to see a lower standard of living.
    And I couple that with the fact that the GAO--and I don't 
know if many of us have focused on this or seen it, because it 
is not--may be not widely known. But David Walker, the 
Comptroller of the United States, has calculated that the 
existing financial obligations of the United States are about 
$54 trillion. It works out to $175,000 a person. We would all 
have to write a check for $175,000 to pay off the existing 
obligations of Medicare, Medicaid, Social Security and the 
other federal government programs.
    And the only way we are going to dig out of that hole is by 
not only strict fiscal discipline here, and not just on this 
Committee, but on Ways on Means, all the authorizing committees 
for the big social programs. But investing in science. I mean, 
you truly, throughout the Nation's history it has always been 
the investments in science that have made the--helped it--you 
know, increases in productivity, increases in scientific 
advancement.
    We even have the possibility, Mr. Chairman and members, I--
in talking to the scientists at the Texas Medical Center, not 
only have they--I don't have a question here, because I am 
totally committed to you guys. I just wanted to share this with 
the Committee. They have literally almost cured cancer.
    They have literally been using gold nanoshells that they--
two female chemists at Rice University have developed. They can 
create a batch of gold nanoshells that will stick to only a 
particular type of cancer. And they inject them in your body. 
They will after 72 hours shine an infrared light on your body 
that travels through your body like our body is as transparent 
as glass. And the gold nanoshells then heat up under the 
infrared light killing the cancer cell they are sticking to.
    And without drugs, without surgery, without side effects, 
without chemotherapy, it kills every cancer cell in your body. 
And you are cured. And it works. Appears to be 100 percent 
effective. They are testing it now in head, neck, and throat 
cancers.
    That research is also leading to the--and this is being 
done in California as well. I am not sure about North Carolina 
or elsewhere. But I hope it is, because we all need to work 
together on this. But they can also take this a step further. 
Just to throw this out to you all.
    This is why this is so important what we do here and also 
at the National Institutes of Health, which by the way also 
needs to be pulled out of politics, because it is absurd that 
they have a flat funding this year. It is ridiculous.
    But very quickly, just let me share this with you. They 
cannot only with gold nanoshells cure cancer, but now 
technology they are developing nanosponges that they can--when 
a child is in the womb, with the amniocentesis not only 
determine if the child has birth defects, but identify 
genetically based diseases such as--Lou Gehrig's disease or 
polio or diabetes, et cetera.
    And this is literally being worked on right now in the 
Texas Medical Center using nanotechnology and research grants 
coming from the NIH and National Science Foundation. If the 
child is genetically predisposed to a particular disease, whip 
up a batch of nanosponges. And with a protein fix they can fix 
the genetic defect by reinjecting that back into the amniotic 
fluid. Which the child will then take up and cure the child's 
diseases before she is born.
    Just extraordinary. And that is all there within our reach. 
But every year you guys have to go from pillar to post, and 
fight the bean counters at OMB, and make the case to them that 
you need this funding. I mean, it is just absurd.
    And there are no party labels in this Committee. It is one 
of my--the whole Committee has been wonderful about it, but 
particularly this Subcommittee. And on Homeland Security, I 
mean, we are focused on the needs of the nation.
    I just want to tell you how proud I am of the work you are 
doing. How I am of this Subcommittee and how devoted I am. As 
conservative as I am, this is the one area where the answer is 
always yes. And I am just very proud of you. And look forward 
to working with you Mr. Chair, Mr. Frelinghuysen, and the 
Subcommittee members to make the dreams of the future come 
true.
    Dr. Bement. It only amplifies very elegantly the importance 
of one transformative idea. And that is where we are focused: 
at the frontier and supporting transformative research.

                        STEM EDUCATION RESEARCH

    Ms. Melvin. Thank you, John. Mr. Culberson states the 
sentiment of the Committee. And you have to look on that--just 
compelled to say right now is you have to look to the 
Committees mark as it came out of Committee to appreciate the--
this Subcommittee's sentiment with regard to the National 
Science Foundation. And there is chagrin shared by every member 
of the Committee in the ding that you experienced in the 
Omnibus. We regret that. But we are glad to see your request 
put you back on track.
    There is a lot of interesting STEM research in education. 
What we do, what we model, how we model it, how you scale it 
up. I would like to give both of you an opportunity just to 
kind of summarize your feelings about what we ought to be doing 
in order to meet the challenge that is presented by--every year 
report to the Committee that we are falling behind or we are 
not catching up with regard to producing enough scientists and 
engineers. And what we need to do in our educational system in 
order to solve that problem. And every year we talk about it. 
And this does not seem to be a solution.
    But what are we doing? What is NSF's role? And is there 
adequate funding?
    Dr. Bement. I would like to focus for a moment on a very 
important element of education, which really deals with the 
goals of the America COMPETES Act and also the American 
Competitiveness Initiative, to stimulate innovation in the 
country.
    If you look at the growth of the STEM workforce, there are 
some problematic issues. The growth in the demand for stem 
scientists and engineers is growing at the rate of about five 
percent a year in high-tech industries especially.
    However, the growth in degree production is only going up 
at the rate of 1\1/2\ percent a year.
    Mr. Mollohan. I'm sorry, the growth in what?
    Dr. Bement. Degree production is about 1\1/2\ percent a 
year in science and engineering in STEM areas.
    The serious factor on top of that is that we are beginning 
to retire significant numbers of baby boomers. And that 
retirement rate will also begin to increase over the next five 
to ten years.
    So we are going to see very high level talent hollowed out 
from some of our laboratories, both defense and non-defense, 
and also from some of our industry laboratories.
    So the budget request for 2009 addresses that. And I should 
say that we don't prioritize separately science from education, 
because they are integrated. Research and education are totally 
integrated along with broadening participation in the 
Foundation. So they are all equally important.
    And as an illustration of that, we support the education 
and training of our graduate students through the research 
grants that we provide. And 95 percent of our total budget goes 
out the door in the form of grants.
    Now in 2009, we will be able to support the education and 
training just through our research grants of 40,775 graduate 
students, which will be an increase from 2008 to 2009 of 5,000 
graduate students.
    Through our fellowships and traineeships, we will be able 
to provide fellowship and traineeship support to 5,450 graduate 
students.
    Those are the students in the next three to four years, 
five years perhaps at the outset, that are going to provide a 
stimulus to keeping our innovation system strong, and help 
offset some of the losses that we are likely to see over the 
next five years due to retirements and other factors.
    Mr. Mollohan. Does this solve our problem?
    Dr. Bement. It would certainly be a step in the right 
direction. It is pretty hard to know what would totally solve 
the problem. I don't think the numbers are adequate. But I 
think they are going to be helpful.

                     GRADUATE RESEARCH FELLOWSHIPS

    Mr. Mollohan. The graduate research fellowships you are 
talking about, is that what you are talking about----
    Dr. Bement. Yes, the graduate research fellowships.
    Mr. Mollohan. A 32 percent increase in----
    Dr. Bement. There is a 32 percent increase, which will 
increase the number of graduate research fellowships by 700, 
which is a significant increase. And it will make up for some 
of the losses in 2008 for that matter.
    I should point out that in our graduate research 
fellowships, our flagship fellowship program, about 73 percent 
of those who get these fellowships go on and complete their 
PhD. And over the history of this fellowship program, we have 
supported the work of 29 Nobel Laureates.
    Furthermore, Sergey Brin, who is the founder of Google, 
started his research with a graduate research fellowship at 
Stanford in ranking websites. And, of course, what we see is a 
return on that investment in a relatively short period of time, 
in ten years or less.
    So these are the types of returns we are getting from this 
fellowship program. And it is also a way of providing talent 
directly to both universities and industry. As they graduate, 
they take with them their knowledge, their skills, their 
understanding of where the frontier is, what new ideas are 
viable, commercially viable, that can make a difference. And, 
of course, it is not just in industrial settings. It is also in 
medicine and many other settings as well.
    Mr. Mollohan. Well, that part of your answer focuses at the 
graduate level.
    Dr. Bement. Yes.

                         PRE-K TO 12 EDUCATION

    Mr. Mollohan. Should we be doing something at the earlier?
    Dr. Bement. Absolutely. It has to be along the entire 
pipeline. And it is for that reason that the Foundation starts 
even before kindergarten, pre-K all the way to postdocs.
    Mr. Mollohan. I know you do, but what should we be doing at 
pre-K and K through 12? And are we doing it? And is there 
adequate funding for it?
    Dr. Bement. We should be, to start with, starting earlier 
in exposing young minds to hands-on activity related to science 
and engineering technology.
    Mr. Mollohan. Are you looking at how you do that?
    Dr. Bement. Yes. It is a very important part of our 
program.
    Mr. Mollohan. And when do you----
    Dr. Bement. It is not just in doing research on how early 
that can be effective, but what else should be taught in the 
earlier grades.
    Mr. Mollohan. Okay. Well----
    Dr. Bement. But also how to prepare teachers to provide 
that type of education.
    Mr. Mollohan. Okay. Well, just focusing on that very early 
age, what are you doing, and I'm not saying you alone? What are 
we doing as a Nation? And I am very interested in the NSF's 
role. With regard to pre-K, the group you are talking about 
right now, what should we be doing? What are we doing? Is there 
adequate funding?
    It is one thing to do it in the laboratory, but how do you 
communicate this to the educational community and implement it? 
And is it possible to implement it?
    Dr. Bement. I think you are getting in an area where I 
should have Dr. Ward respond.
    Mr. Mollohan. Sure.
    Dr. Bement. Dr. Ward is Deputy Assistant to the Director of 
our EHR Directorate.
    Mr. Mollohan. Because honestly every year we say this. We 
have this discussion. But the products maybe aren't developed. 
But they are not implemented. They don't become a part of the 
educational system. So----
    Dr. Ward. May I speak loudly?
    Mr. Mollohan. Yes.
    Dr. Ward. Okay. Thank you, Mr. Chairman.
    Mr. Mollohan. You certainly may. Yes.

                  MATH AND SCIENCE PARTNERSHIP PROGRAM

    Dr. Ward. I would follow along what Director Bement 
mentioned earlier. Just one example is the Math and Science 
Partnership. And that is a program that focuses very heavily on 
teacher education, most particularly professional development 
of existing teachers.
    But some aspects of pre-service also, trying to make the 
connection before students actually become teachers. We have 
evidence based on some of the tools that have been developed 
with the Math and Science Partnership, working in close 
collaboration with the Department of Education. That even early 
in this program, which began around 2000 or so, we are seeing 
significant improvement in student test scores, which is one 
indicator. Not the only indicator.
    But in both science and math, at the elementary through the 
high school level, through the math and science program, they 
work very--in a very engaged fashion as Dr.----
    Mr. Mollohan. So you are employing this program on a trial 
basis in some areas----
    Dr. Ward. Well MSP is----
    Mr. Mollohan. Is that----
    Dr. Ward [continuing]. Nationwide. And it has almost 52 
partnerships in existence now. And we have evidence of the 
effectiveness of this large teacher education program. And it 
results in the students----
    Mr. Mollohan. So it is still a trial. How would you 
characterize the effort? Is it a trial?
    Dr. Ward. It is trial in the sense of the development of 
research and development of assessment tools of curriculum 
practices, of master/teacher strategies, and the like.
    Mr. Mollohan. What is it called?
    Dr. Ward. Math and Science Partnership.
    Mr. Mollohan. Math and Science Partnership.
    Dr. Ward. Yes.
    Mr. Mollohan. And when do you draw conclusions about the 
success of the program and make recommendations based upon that 
success?
    Dr. Ward. That is part of the scale up and transfer----
    Mr. Mollohan. When does that happen?
    Dr. Ward. After adequate assessment.
    Mr. Mollohan. Well, I mean, I was looking for kind of a 
period, a time. Two thousand ten or two thousand nine.
    Dr. Ward. Well recently some of the evidence that we have 
as recently as 2006 is convincing enough. It is early data. But 
it is convincing enough that it is being adopted by some of the 
state education MSPs. Policies are being implemented statewide 
in places like Georgia. Other locations as well on the basis of 
convincing evidence that is resulting from assessments underway 
by some of the best experts in the field.
    And, again, this is from elementary through high school. It 
is encouraging. It is still early. But it is encouraging. It is 
impressive enough to be picked up by the state level.
    Mr. Mollohan. Do you anticipate it being--I don't know how 
you would characterize it, but a product that can be taken by a 
school system at different grade levels and implemented in 
their system and----
    Dr. Ward. We have many examples of that.
    Mr. Mollohan. Yeah. Well, that's exciting.
    Dr. Ward. We are working with the University of Michigan. 
Statewide work in Georgia now adopted from those kinds of 
assessments.
    Mr. Mollohan. And it is still ongoing. I would be 
interested in following up.
    Mr. Frelinghuysen. Would the Chair yield?
    Mr. Mollohan. Since he is finished, I will yield to you.
    Mr. Frelinghuysen. You might just remain standing for a 
minute if you don't mind. Thank you.
    On the Math and Science Partnerships, I want to get a 
little more specific. Most of the money goes to the U.S. 
Department of Education, is that right, about $179 million. The 
National Science Foundation portion is $51 million. Is that 
flat, or has there been a reduction? And if there has been a 
reduction, was there some sort of method to that?
    Dr. Ward. A few years ago there was a very steep reduction 
to the NSF investment in the Math and Science Partnership. We 
are very encouraged that we are seeing a reversal of that. Even 
last year, there was a significant reinfusion of funds back 
into the Math and Science Partnership. And even now there is 
about--I believe about a five percent, five and a half percent, 
growth rate. And as was mentioned earlier, as existing awards 
come to completion, we can fund up to 15 to 20 new Math and 
Science Partnerships over several categories of this program.
    So we are pleased about that. We are pleased about the 
impact that we can make, not only in the return of our budget.
    Mr. Frelinghuysen. Okay.
    Dr. Ward. But, again, in terms of being able to transfer 
and disseminate the findings of these tools at the research 
throughout all of the Math and Science Partnership.
    Mr. Frelinghuysen. Thank you for the good work you are 
doing.
    Dr. Bement. I can augment that just a moment. And Dr. Ward 
hopefully will correct me if my numbers wrong. But I think at 
the present time we have Math and Science Partnerships in about 
30 states; is that correct?
    Dr. Ward. That is correct.
    Dr. Bement. And about two thirds of the states are 
participating in implementation of some of the methods that are 
developed out of our Math and Science Partnership. And that is 
through full participation of the Department of Education, 
which has responsibility for scaling these programs up.
    So I see our respective roles of the National Science 
Foundation doing the research and development to determine what 
works and can be shown to work through effective evaluation and 
the Department of Education working with the states and with 
the National Science Foundation to make what works work more 
broadly in our education systems.
    Now at present, we only touch about 5 percent of all the 
school districts in the country. There are roughly 15,000 to 
16,000 school districts. So it is a daunting task to carry on 
that transformation throughout the country. But that is what we 
have to do. That is the challenge that we have. And that is 
where the----
    Mr. Frelinghuysen. I don't mean to be solicitous. You have 
huge credibility.
    Dr. Bement. We have a large footprint.
    Mr. Frelinghuysen. Yes, you do. And not to say that the 
Department of Education doesn't. But when your stamp of 
approval goes on there, a lot of thought, and time, and effort 
goes into it. I commend you for your involvement. And at every 
opportunity, we need to promote.
    Dr. Bement. And I see the good work of the Board in 
developing their action plan is addressing that issue.

                        INTERNATIONAL POLAR YEAR

    Mr. Frelinghuysen. I wasn't leaving the Board out. But I 
appreciate their support.
    Dr. Bement, I want to shift somewhat dramatically, but not 
because of the absence of the Chairman. Your involvement as the 
lead agency for the International Polar Year----
    Dr. Bement. Yes.
    Mr. Frelinghuysen. I sort of wear my heart on my sleeve. I 
would like you to talk about your leadership in that arena. 
Where are we working with our international partners? And why 
these polar missions, and particularly our work at the South 
Pole, is so important in the overall scheme of things, relative 
to scientific exploration, pushing that envelope in those 
unique harsh regions.
    Dr. Bement. Well I think our leadership has existed on 
several fronts. One is we were the lead agency for the 
interagency program of the U.S. and our being involved in the 
International Polar Year.
    But we have also worked with international organizations as 
well, ICSU and some of the other international organizations 
that started this whole initiative, the International Polar 
Year.
    But also we have taken a multi-national approach and both 
in the Arctic and the Antarctic we have multi-national 
initiatives. Not only to study climate change, but also ice 
sheet stability and other global issues that are before us.
    For example, in the Antarctic, you saw the Andrill Coring 
Operation. That was an international partnership. Some of the 
coring that is going throughout the ice sheet in the Antarctic 
involves cooperation with several nations.
    In the Arctic, we are working with a number of nations now 
to set up an Arctic Observing Network.
    So it is not just what is occurring in the International 
Polar Year, which will end this year. It is the legacy that we 
will leave behind that will be ongoing activities involving 
international participation.
    But also in capturing all the data that is coming out of 
this two-year effort and mining it in the future to get a 
better understanding.
    Mr. Frelinghuysen. It has been a while since we have had an 
International Polar Year.
    Dr. Bement. That is right. They come every 50 years.
    Mr. Frelinghuysen. Yes. It has been a while. The effort is 
something which I quite honestly was not totally aware of.
    Dr. Bement. Well we are putting infrastructure in place 
that didn't exist before the International Polar Year. And that 
new infrastructure will support science going forward over the 
next----
    Mr. Frelinghuysen. Your Office of Polar Programs has an 11 
percent increase. And I assume you are going to put that to 
good purposes.
    Dr. Bement. Absolutely.
    Mr. Frelinghuysen. I just had a comment. As I said earlier, 
I was impressed by the dedication and relative youth of those 
that are involved with the research on behalf of the National 
Science Foundation and other federal agencies.
    And the university connections, and obviously people are 
very proud of their own university-based research, and I think 
we had a brief discussion. I think that the National Science 
Foundation ought to be somewhat--I won't say selfishly more 
identified with some of those projects, because were it not for 
your--you know, the reviews that you make in a very--some of 
those university-based projects would perhaps never see the 
light of day.
    I do hope and I know that each of these sites that I 
visited has a Web site. And in reality we need to put a human 
face, even though it may be difficult for me to explain exactly 
what--although I did see certain things in the sediment. To 
think that you could actually transmit that scientist, that man 
or woman, the work that they are doing, right into an American 
classroom, that speaks of why we--why we are doing so much in 
terms of STEM education.
    I just wondered if you would speak to that issue briefly.
    Dr. Bement. I am glad that you brought that up, because it 
is a very important part or our International Polar Year. Apart 
from the publications that each of the individual scientists 
put into the public domain, we have, as part of our leadership, 
established an IPY Web site that brings together all the work 
of all the agencies that have been involved in this program, 
and makes that information available to the public.
    In addition to that, through our public outreach 
activities, and our Office of Public and Legislative Affairs, 
we have any number of initiatives, more than I could recite 
briefly, but we can submit this for the record, where we are 
informing the public not only through museums but by other 
means. And I would like to have the opportunity to provide that 
information.
    [The information follows:]

         National Science Foundation Public Outreach Activities

    The National Science Foundation's Office of Legislative and Public 
Affairs has formed a variety of partnerships to communicate science 
broadly through print, broadcast and multimedia outlets, including the 
Internet, newspapers, magazines, public forums, television, and radio. 
Below are a few examples.
                      national media partnerships
    NSF has partnered with the ResearchChannel to provide 150 hours of 
programming a year. The programming includes a series of scientific 
lectures, panel discussions, and new and archived video from research 
and educational communities. ResearchChannel is available in more than 
26 million U.S. households. Another recent partnership is with U.S. 
News & World Report. NSF provides weekly content for the newsmagazine's 
science section on http://www.usnews.com/sections/science/index.html. 
In addition, NSF works with universities and colleges around the Nation 
to publish weekly articles and daily images or video to Live Science 
(http://www.livescience.com/index2.html), an online community news 
resource that attracts more than 4 million visitors each month.
                            new online tools
    NSF is collaborating with the AAAS Center for Public Engagement 
with Science and Technology to offer online communication webinars, 
how-to tips for media interviews, strategies for identifying public 
outreach opportunities, and more via ``Communicating Science: Tools for 
Scientists and Engineers'' (http://communicatingscience.aaas.org/Pages/
newmain.aspx). And, in order to better illustrate the outcomes of NSF-
funded research, NSF is developing a Science and Innovation Web site 
that highlights research by state, region, and Congressional district. 
This site is under development and will be launched in fall 2008.
                         collaborative efforts
    NSF's public affairs office has established two-day workshops with 
public information officers at American colleges, universities, and 
research institutions to foster stronger collaborative communications 
efforts. A related Web site--the Public Information Officer Resource 
Center--offers a forum to share ideas and learn more about how NSF can 
help reach diverse audiences: http://www.nsf.gov/news/nsfpio//.

                           POLAR ICEBREAKING

    Mr. Frelinghuysen. Well thank you. And lastly, we had some 
discussion with Dr. Marburger. I am not sure we caught him off 
guard on the fact that our Antarctic stations are dependent on 
ice breaking capability. I am not sure he was prepared for that 
question.
    Could you sort of talk about that issue just for the 
record? Obviously, we have been able to count on a far and 
assist. But the Committee had some interest yesterday. Maybe 
that was reported to you, where we should be making 
investments. And we certainly don't want to do it at the 
expense of your budget.
    Dr. Bement. Our primary interest is, of course, to support 
science in these extreme environments. So the ice breaking we 
support. It is primarily for that mission only. Recognizing 
that there are other missions for ice breakers.
    With regard to that responsibility, we are also required 
under executive directive that we do it in a most cost 
effective way. And we have benefitted from the availability of 
the Oden to break through the ice to McMurdo. Primarily because 
they bring their own fuel, they are not dependent on McMurdo. 
They have berthing space and laboratory space to support 
scientists. So it is really a research vessel as well. And that 
is an added benefit.
    But getting beyond ice breakers per se, we are also trying 
to invest in our infrastructure to use renewable energy, 
instead of using fuel to reduce the fuel loading. But also to 
find alternate ways to transport fuel from McMurdo to the South 
Pole. And improve our storage capacity, so it may not in the 
future be necessary that we break through the ice each and 
every year. We will have enough storage capability to perhaps 
skip a year from time to time.
    Those are the economies that we constantly look at with 
regard to logistics support.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Mollohan. Mr. Honda.
    Mr. Honda. Thank you. If I could direct the question to the 
Assistant Secretary.
    Mr. Mollohan. Deputy.

                        PRE-K TO 12 PROGRAMMING

    Mr. Honda. I am sorry, I didn't know your name. But just to 
pick up the conversation on what the Chair had asked about. The 
question really was towards pre-kindergarten I believe. And you 
were addressing kindergarten and on.
    What are the kind of activities that are being geared 
towards pre-K and those from K-12 on? My sense of what is going 
on in the field is that what you are describing is not really 
out there as of yet. You said there are 20 states, two third of 
the 30, which is 20 states, that are actively involved. Do you 
have a written report on this kind of activity?
    Dr. Ward. I certainly can provide that. We can provide 
ample detail to that.
    Mr. Honda. By when?
    Dr. Ward. But thank you also for the follow up. In addition 
to that program, and I will--you are correct. The emphasis is 
on elementary through high school. There is some involvement 
through significant outreach through parental involvement and 
the like, even at the pre-K before they actually get to 
kindergarten.
    But another very important avenue for us at NSF is through 
our Informal Science Education program. We can provide that 
information to you as well. There is significant outreach 
through exhibits, through the media, Bill Nye the Science Guy, 
through our teacher proposals.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Honda. Okay. So that you will have that in writing. And 
the mechanism by which you extend this information.
    Dr. Ward. Absolutely.

                         STEM POLICY NATIONWIDE

    Mr. Honda. But this is not in a formal manner. It is what 
you are doing as a matter of course at this point in time.
    The issue about the council and the office of STEM 
education, the office of education, as a person from that 
department, is there a need for this focus in order for us to 
be able to move forward and accomplish what we are asking about 
the coordination of the different disciplines? And the 
disciplines are only in the science areas. It is not in ethics 
or any other humanities, which I think it should be part of the 
full educational process. So that we have citizens who 
understand, who are exposed to science as well as the 
humanities.
    But the Office of Education and establishing the Office of 
STEM Education, is that something that you see as necessary to 
accomplish the goals that have been laid out? I know it is a 
loaded question.
    Dr. Bement. That is a question for the Administration. I 
can't really speak for the Administration on that issue.
    Mr. Honda. Well, we are putting together a bill. And that 
was part of your action plan. It was part of your 
recommendation.
    Dr. Bement. Yes. But the report put out by the Board was 
not just for the NSF. It was for the federal government at 
large. So it was policy advice to the Administration for the 
most part.
    In other words, it is a report for the nation more than 
anything else. Would you----
    Dr. Beering. I think the problems that we are confronting 
today as a world, which is a small world, a flat world, we can 
communicate instantly around the globe, are really issues of 
humanity and society that affect everybody. And it is not just 
while the manifestations may be local, it isn't just an 
American problem or a Japanese or Chinese problem. It is a 
global problem.
    And so I look forward to presenting to you the ideas that 
come from our international task force, which we will get to 
you in a matter of weeks.
    And the key word there is partnerships around the globe. 
And we would like to foster an environment where we work 
together on commonly recognized issues that affect all of us.
    And I guess what is the biggest challenge is going back to 
Plato and Aristotle and Socrates is how can we frame the best 
questions to address all of these issues that would be 
understood and subscribed to by the people around the world?
    We need to take the lead in that, because we have the 
resources, we have the background. We have the fundamental 
ability to make a huge difference for everybody. And I look 
forward to that.
    Mr. Honda. Through the Chair again. Intellectually I 
understand what you said. Practically in terms of taking 
action, we know what we have to do. You laid it out there as 
recommendations of a plan of action.
    You know, to be partners and full partners, we have to be 
prepared to do that. And part of that preparation it seems like 
we are not preparing our systems to do that. We know what we 
have to do. We know how to extend Moore's law to 2010-2020. The 
nano initiative says that. We can accomplish income that 
exceeds a trillion dollars. And also extend Moore's law. I 
think it is up to 50 years in this arena.
    The more I know these factors, it seems to me somehow there 
should be a sense of urgency to have our departments work 
together, come out with a plan, and lay it out in front of us 
so that we can say ``yea'' or ``nay'' and fund it 
appropriately, teacher education, student preparation, and 
parent participation.
    Maybe I am missing something.
    Dr. Beering. I think you are right on. And I love the 
attitude that you have all displayed here. And I would like to 
take up Mr. Culberson's charge to be nonpolitical and 
nonpartisan. And not be constrained by arbitrary budget 
restrictions. It would be exciting.

                     GRADUATE RESEARCH FELLOWSHIPS

    Mr. Mollohan. Thank you. And Dr. Bement, when I left we 
were talking about education funding. And I wanted to give you 
an opportunity to speak to the graduate resource fellows 
program. We understand how important they are and how important 
they are to you.
    Your request in 2009 is for $117 million. That is--if this 
is accurate, this is a 32 percent increase. But it is actually 
a request above the authorization. So do you know you are 
asking for a request above the authorization?
    I mean, it is fine that you do that. But I want to give you 
an opportunity to----
    Dr. Bement. I wasn't aware of that.
    Mr. Mollohan. Yes. I just want to give you an opportunity 
to talk about how important that program is to you, because 
that is a big increase you are asking.
    Dr. Bement. I think it is the most important investment we 
can make in our graduate education program and in our 
fellowship program.
    I think I expressed myself a little bit earlier about the 
impact of that program, potential impact, and why we consider 
it so important.
    The more top talent that we can put out into our innovation 
system in the short term, in the next four or five years, the 
better. I believe this is one of the best investments we can 
make. And I would give that very high priority.

                             EPSCOR FUNDING

    Mr. Mollohan. Okay. Thank you. You in your op plan, and we 
just received it last night, I had a chance to see it. I knew 
you were the high-tech agency. When it came across, we couldn't 
open it last night. Maybe it was our fault.
    Your justification would suggest that you are going to 
recommend funding EPSCoR at $111 million.
    Dr. Bement. Yes.
    Mr. Mollohan. We included $115 million in the conference 
agreement. So you have nicked that. And then your 2009 request 
is $114 million.
    Dr. Bement. Yes.
    Mr. Mollohan. So how do you--what is your reason?
    Dr. Bement. Well, first of all, we consider the EPSCoR a 
major program as far as the American Competitiveness 
Initiative. We can't meet the Nation's goals to be 
internationally competitive without full participation of the 
EPSCoR states.
    In structuring the budget, however, we pay attention to the 
number of commitments we have in terms of continuing grants, 
renewal grants, and also new proposals for all of the 27 states 
that are part of the initiative and the two districts.
    And as we look at the 2009 budget year, we feel that we put 
enough funding in for all the expected RII grants and also the 
track 2 grants. So we feel we not only are prepared to meet 
those commitments, but we might even have a little extra money 
left over, which is often the case. And it means carrying over 
funding from year to year. And, of course, that funding got 
rescinded as part of the Omnibus Bill.
    The problem we have is lack of flexibility, because there 
is a partition of what we can put into the RII program and what 
we can put into the co-pay program. And I consider that 
unfortunate, because we have now increased the leveraging of 
the co-pay program over time. It used to be a dollar for 
dollar. Now it is two dollars for a dollar. So we get much more 
bang for the buck in order to leverage the funding in the 
EPSCoR account by funding provided by the other directorates.
    And it would be very helpful to us if we had the 
flexibility of taking money that we may not use for the RII 
grants and put that into co-pay in order to use all the funding 
effectively.
    So the short answer to your question is I think I believe 
we have put enough money in the 2009 budget to meet all of our 
requirements.

                            EPSCOR PROGRESS

    Mr. Mollohan. Okay. How are the states doing in the EPSCoR 
program? How do you measure how they are doing?
    Dr. Bement. Well one way we intend to measure it-- first of 
all, I brought the program up to the office of the Director in 
order to try and make it more strategic and to put more of a 
planning component into the program. That has been embraced by 
each of the EPSCoR states.
    And they are now developing strategic plans, which not only 
deal with how they are going to invest the resources, but also 
how they are going to graduate over time. So it is a much more 
proactive stance than we have had in the program for some 
years. We haven't seen those plans yet, but they will be 
forthcoming with new proposals.
    At the present time, looking at the states that are in the 
EPSCoR program, there is only one state that is close to 
graduating under the current criteria for graduation. And that 
state is just a little bit below the mark, which is .75 percent 
of the NSF budget. They are .7477 percent, which is getting 
awfully close, even out to the third decimal point.
    But that generally has to be sustained and demonstrated 
over a three-year period. Going beyond that one state, the 
numbers trail off very rapidly. So many of the states are not 
going to be ready to graduate for many years to come.
    Through our outreach activity, we hope we can continue to 
improve the effectiveness of the program, but also improve the 
competitiveness of these states for getting grants in our base 
program through all of our directorates. And, of course, that 
will be the measure of success; how successful they are going 
to be in order to get normal grants and compete with other 
scientists throughout the community.
    Mr. Mollohan. Okay. Thank you. Mr. Frelinghuysen. Oh, Mr. 
Latham.

                     PLANT GENOME RESEARCH PROGRAM

    Mr. Latham. Thank you, Mr. Chairman. As I understand in 
your budget proposals, you proposed to move the National Plant 
Genome Research Program from one program to another.
    And there is great concern that this will effectively 
reduce the funding for that type of research by about 25 
percent. Clearly, that would have a very negative impact as far 
as plant biology, as far as current/future crops.
    I just wondered if you could give me any assurance that 
type of reduction will not occur. The Chairman may remember we 
had a great witness at the end of last year that spoke about 
the importance of this project. If you could give me any kind 
of information.
    Dr. Bement. I can assure you that that program will not be 
reduced. It is one of our most important programs. In fact, it 
is more important now than it has been. We are making good 
progress in completing the understanding of Arabidopsis as a 
standard.
    We are now into a ten-year program to understand the 
expression of all the genes in the genome. That is critically 
important as a reference.
    We have a very active program in completing genomes for 
rice, maize, and other crops of economic importance. And now we 
are on the threshold of dealing with biomass for energy 
conversion.
    And so the science that we are doing on plants is also 
dealing with the recalcitrance of extracting sugars from these 
plants and also advanced processing. And perhaps even 
eventually getting to green gasoline, converting biomass 
directly to gasoline. That is quite possible.

                            BIOFUEL RESEARCH

    Mr. Latham. Yeah. Well and that is exactly my next 
question, talking about ``green gasoline.'' Could you maybe 
elaborate on that? And what other types of research projects 
are you funding in that biofuels, and you know, green gasoline 
area? And what impact?
    Dr. Bement. I can give you three or four examples. But I 
welcome being able to present a more complete----
    Mr. Latham. Right.
    Dr. Bement [continuing]. Listing for the record. 
Investigators at the University of Wisconsin, in collaboration 
with the Danish Technical University and the Max Planck 
Institute in Munich, have explored the use of using inorganic 
catalysts to take the sugars that come out of the early 
extraction process, converting them directly to what is called 
furfurals, which is a precursor to gasoline.
    Now that process has been brought to a demonstration stage. 
In fact, it is a truck-mounted demonstration we want to bring 
to the Hill one of these days to show you how this works. But 
we still have to get through that first stage of extracting the 
sugars from the biomass.
    Part of the research really has to do with how can you, by 
bioengineering, design plants that are more amendable to 
processing so that recalcitrance can be overcome? Some of this 
work is being done jointly with the Department of Energy as 
well.
    We have another program that deals with the biocatalysts, 
which are poisoned by the alcohol. And so there is a dilution 
factor. It has to be sufficiently dilute, so you don't destroy 
the biocatalyst.
    Researchers at MIT are using genetic engineering to 
actually come up with biocatalysts that are much more resistant 
to alcohol poison. And we will be able to work with much more 
concentrated liquids, and get much higher yields.
    Finally, the third example would be work at UCLA, I 
believe, in looking at production of isobutanol, which is a 
much more effective fuel, insomuch as it has the same energy 
content as gasoline. It has a much lower vapor pressure than 
ethanol. And you don't have to take range penalty as far as 
mileage in the blending of gasoline with alcohol.
    And there are many other advantages that have to do with 
compatibility in storage containers and so forth, because it 
doesn't take up water as ethanol does.
    So those are just a few examples.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latham. What we do in this area is absolutely critical. 
We passed the energy bill last year with substantial renewable 
fuel standards. And a great deal coming from cellulose 
production of fuels.
    And we are not there. With current technology, there is no 
way we are going to meet that standard. And that is why I think 
your research is absolutely critical.
    Dr. Bement. Cellulose is about the only pathway forward. So 
we have to crack that.
    Mr. Latham. I guess I have a few other questions I would 
submit for the record. Is Culberson really with you on this 
stuff?
    Dr. Bement. We would welcome any of you to come to NSF and 
spend some time with us.

                           AGENCY STEWARDSHIP

    Mr. Latham. In your brochure here with your budget 
request--I understand the pie chart here and the discovery 
learning, research infrastructure, etc., and the $404 million 
of stewardship.
    From the description, I don't know exactly what this is, 
``Support excellence in science and engineering research and 
education through a capable and responsive organization.'' I am 
not sure what that is. Maybe it is----
    Dr. Bement. That----
    Mr. Latham. Maybe it is me. But what is ``a capable and 
responsive organization''?
    Dr. Bement. Almost the bulk of that is for agency operation 
and award management expenses. That includes salary and space. 
But it also includes our management of the whole grant 
processing cycle and also our pre-award and post-award auditing 
of performance under those grants. So it is something that 
involves the whole agency.
    In addition to that, it also includes support for physical 
security, as well as our information systems within the agency: 
Systems like FastLane, which is how proposals come to the 
Foundation, but also systems within the Foundation for 
processing those proposals. It deals with many other 
administrative systems that we have.
    And it also helps support upgrading some of our technology 
systems within the Foundation, which because of shortfalls in 
this account over the last two or three years, have gotten 
pretty seedy and really need to be replaced or refurbished.
    Mr. Latham. Maybe if you just point administrative costs, 
ongoing expenses to run----
    Dr. Bement. This is within the five----
    Mr. Latham. It may be a little clearer to me anyway.
    Dr. Bement. This is within our five percent overhead that 
makes the other 95 percent worthwhile.
    Mr. Latham. Thank you very much. And keep up the great 
work. Appreciate it.
    Mr. Mollohan. Mr. Frelinghuysen.

                     INTERNATIONAL COMPETITIVENESS

    Mr. Frelinghuysen. I just have a few sort of general 
comments. You know, as I read this report, and I know this is a 
distillation of a much larger report, Dr. Beering, there is 
some level of optimism.
    Dr. Beering. Yes.
    Mr. Frelinghuysen. But then there is a sort of an onset of 
somewhat pessimistic projections. You know, we are three years 
into the American Competitiveness Initiative. And I am not 
quite sure how we judge our success to date, how you would. How 
do we define and measure how we are doing in the 
competitiveness arena?
    And I don't want to have this a play on words. But, you 
know, when you talk about the American Competitiveness 
Initiative, and I don't mean to be Chinese centric here, but 
let us say that there is a countervailing for us in the Pacific 
known as Chinese competitive initiative. They have quite a 
different system of government. And they can make things 
happen.
    We have our own stove pipes. We have our structure. We have 
our own, these days, architecture, all this. You know, I sort 
of would like to have a better handle as to how we are doing 
relative to what appears to be in your own words here, ``their 
acceleration on a lot of fronts.''
    I serve on the Defense Appropriations Committee.
    I get the view that they are doing things in their 
education system, obviously, dealing with a massive population. 
But they are teaching English starting in the second or third 
grade. I mean, we would have to have one major transformation 
in our country to meet the Chinese competitive initiative, if 
there is one.
    I sort of was sharing somewhat anecdotally when I should 
have been paying attention. I was so enthused by Congressman 
Culberson. We look towards the next budget cycle. And, you 
know, that the fact that 1,000 young people might not get their 
scholarship grants. But our Chinese competitors, and I am not 
picking on the Chinese, I am hugely admiring, they are looking 
towards 10 or 15 or 20 years.
    Here we are on the edge of a recession. They are not immune 
to the things that are out there. They may, in fact, in some 
ways contribute to it. Some say they might provide stability by 
owning our paper. They maybe even own some of our subprimes. 
Somebody's got to own them.
    I want to sort of get your take on where we are going. I am 
not an alarmist. There is a little bit of sugarcoating here.
    Would you react to my statement? I know I have been all 
over the map. But I think we are dealing with a major power 
here that really has got its act together.
    Dr. Beering. I guess a good summary would be that we are 
not falling further behind in this particular set of 
indicators, as compared to previous two-year reviews of that. 
And we admire what they are doing in the Far East. And 
certainly there are cultural differences that are profound.
    The individual initiative that is exhibited by Koreans and 
the Chinese students is extraordinary. We see that in our own 
universities when they come here. They work day and night. They 
don't seem to need to sleep or eat. They are just constantly 
engaged. And it is tough for our students when they see an 
Asian student in their midst to try to out compete that person. 
So they just give up. They say, ``Well, we know they are smart. 
They wouldn't be here otherwise. They work harder. And so we 
will just let them do their thing.''
    And when you go over there, which I have done, and you see 
what happens there, it is astounding. They bring their mats to 
the office and to the laboratory. They don't even go home. And 
they are just there. They work. That is a cultural thing that I 
don't think we can bring about here.
    I see some of this in Ireland by the way where I have also 
visited. And the parent involvement there is profound in their 
K-12 system. And it is not acceptable to drop out of school 
like we have a huge problem here with school drop outs all over 
the country. It is just not done. And the parents see to it 
that the kids do their homework. They actually come to school 
with them. And they help the teachers in the classroom. And it 
is a kind of a community effort.
    Well it is not a community effort in the United States 
unfortunately. And we hope that we can focus ourselves on these 
challenges and do better.
    Mr. Frelinghuysen. To some extent, you know, obviously we 
don't want to denigrate our own system. Obviously, part of what 
we want here is to have the workforce of the future.
    Dr. Beering. Yeah.
    Mr. Frelinghuysen. We know where their workforce is. They 
are pretty demonstrative now. They are not waiting. A lot of 
countries are not waiting.
    And then, we ring our hands obviously at the loss of our 
industrial base, which is pretty difficult to ever recapture.
    Dr. Beering. Right.
    Mr. Frelinghuysen. I obviously congratulate you for all 
your public service. But I worry that this report doesn't 
dramatize the situation enough.
    Dr. Beering. Well I think you are quite accurate in this 
characterization, because we tend to react to crisis in 
America. And unless we see a desperate situation, we don't rise 
up as a group to meet it.
    And this situation hasn't been characterized as desperate 
by individual school districts or states by any means.

                    SUPPORT BY SCIENTIFIC DISCIPLINE

    Mr. Frelinghuysen. Well, I think we need a little bit of 
shock treatment here. I am not sure who is going to perform it. 
Certainly, politicians being respectful of institutions and the 
way things are done, I am not sure we are the best 
administrators. But, obviously, we have some responsibility.
    I am not unhappy with your response. I am that we can't do 
more.
    The cornerstone of our American Competitiveness Initiative 
is the national science basic research, a pretty healthy 
increase of 13.6 percent. The biggest increases are for 
physical and computer sciences and engineering. We have 
somewhat talked about this.
    Why are we specifically prioritizing these disciplines? And 
are they matched? Are they somewhat related to what I am 
talking about in a more general sense as to what may be 
happening in the Pacific or for that matter let us say within 
EU countries?
    Dr. Bement. I think the reason for that is primarily the 
reason why it was recognized in the American Competitiveness 
Initiative. This really deals with our innovation system and 
where the critical needs are at the present time to support 
that system.
    Unfortunately, the physical sciences and engineering, which 
are key drivers, have not been given adequate attention over 
the years. In fact, overall funding in costs and dollars is 
almost halved in the last couple decades.
    And so that needs a shot in the arm. That doesn't in any 
way say that other disciplines are any less important.
    The one thing I would caution, however, is don't just look 
at the organization chart and assume that that is where all the 
work is being done.
    Biosciences, for example, has an increase of about 10 
percent, which is the largest increase they have had in about 
eight years.
    But the point is that everyone in the Foundation recognizes 
that we are in the biocentury. So you are going to find in math 
and physical sciences significant programs in biophysics, 
biochemistry, biomaterials. And our CISE directorate, computer 
directorate, you are going to find significant work in 
bioinformatics. And in our engineering directorate, you are 
going to see significant work in bioengineering.
    So it is threaded throughout the Foundation. And our polar 
programs, a good part of our polar program, as you saw in 
Antarctica, is biorelated.
    But it is important that we do support the biosciences, 
because that is where the fundamental work is being done. That 
is where the basic concepts are being developed all the way 
from the molecular scale up to the organismic scale and the 
ecological scale.
    So that has to be supported well. And it has to be the 
backbone of all the other Foundation efforts that we have.
    Social behavioral sciences are also interconnected with 
almost all of our advanced technology programs, because all 
those programs have a human dimension. They have a human 
element that has to be attended to.
    And that is especially important in human machine 
interactions. How do you adapt humans to machines, and how do 
you adapt machines to humans? How do you develop virtual 
organizations? That is a symbiotic relationship, because 
advanced computer technology enables virtual organizations. But 
if you don't have the social component of virtual 
organizations, it is not going to be very effective.
    But in setting our budgets, we not only wanted to increase 
and strengthen all of our disciplines, but we also wanted to 
pay attention to alignment with the American COMPETES Act and 
also the American Competitiveness Initiative.
    Mr. Frelinghuysen. I appreciate your view. I must say, one 
of the things that Chairman Mollohan and I heard quite a lot of 
yesterday from Dr. Marburger is the whole issue of imbalances. 
That is pretty worrisome here. He somewhat is a gatekeeper, 
overseer, as I suppose you are, Mr. Chairman. I know you are 
doing your level best to educate us to fill the gaps. But I 
must say there was a sort of unease we had.
    Dr. Bement. Well, as an interdisciplinary agency, we can't 
serve our community, and we can't serve the Nation unless we 
keep all of our disciplines strong.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Mollohan. Mr. Culberson.

              NANOTECHNOLOGY RESEARCH AND PARTICLE PHYSICS

    Mr. Culberson. Mr. Chairman, I will be as brief as I can. 
But I wanted to ask in particular about nanotechnology research 
that you see being done around the country and what NSF is 
doing in particular, because while I am passionate about the 
sciences, the nanotechnology is something I am particularly 
enthusiastic about. I am convinced it will revolutionize the 
21st century and the future in ways we can't even imagine. And 
certainly affect our future in this century in much the same 
way that oil and electricity affected the 20th century.
    And I just wanted to ask you to talk to us about what NSF 
is doing in supporting and funding nanotechnology.
    And then secondly I noticed also you have specified that 
you are paying particular attention to particle physics. And I 
assume that is because the Department of Energy for whatever 
reason has decided we don't need particle accelerators in the 
United States, which I think is appalling. I understand most of 
the research money is going to Europe. And I think in the very 
near future we could be in a situation where there will be no 
particle accelerators in the U.S.
    So I want to ask you about nanotechnology and particle 
physics.
    Dr. Bement. The facilities that we support in particle 
physics are pretty much accelerators and light sources that are 
used as tools to study materials, study other substances.
    We are not trying to delve into that kind of work. Although 
we are part of the Large Hadron Collider. So we are doing some 
theoretical work. But----
    Mr. Culberson. Individual research----
    Dr. Bement [continuing]. I want to keep this--I am sorry, 
go ahead.
    Mr. Culberson. Individual research--do you more focus on 
individual research projects----
    Dr. Bement. Well----
    Mr. Culberson [continuing]. And the Department of Energy is 
investing in infrastructure to build the----
    Dr. Bement. Yeah.
    Mr. Culberson [continuing]. Particle?
    Dr. Bement. You are absolutely correct. The Department of 
Energy at their national laboratories build user facilities. 
And we support the users. At least we support a large fraction 
of users.
    Mr. Culberson. Is it accurate to say DOE is, you know, 
shrinking our investment in particle physics? I have been a 
subscriber to journals Nature and Science for years. And it is 
my impressions from reading those articles that there is a real 
alarm among scientists that all the particle accelerators are 
going to wind up being in Europe. And we are just simply not 
replacing, or enhancing, or building new facilities in the U.S. 
Is that correct?
    Dr. Bement. From my vantage point, the Department of Energy 
has been a champion for particle physics. And they--it is not 
just particle physics but nuclear science in general. And I 
don't think anyone in the Department of Energy is happy with 
the 2008 appropriation.
    Mr. Culberson. Right.
    Dr. Bement. That really cut nuclear science and particle 
physics, which really put on the brakes where they wanted to 
go.

                        NANOTECHNOLOGY RESEARCH

    Mr. Culberson. Well if I could then in the brief time we 
have got, because I know that everybody needs to wrap up. But 
talk to us a little bit about the nano research and where you 
see that.
    Dr. Bement. The nano research is robust. It covers every 
field of nano science from engineering, to nanoparticles to 
device technologies to nano manufacturing.
    Mr. Culberson. I am sorry, sir. Can you expand?
    Dr. Bement. But, again, this is another example. We not 
only have our own nanocenters, which serve the interests of the 
academic community, but we also support researchers that use 
the Department of Energy facilities and other nano facilities 
as well, which gives us tremendous leverage.
    The one area that we have increased funding for in the 2009 
budget is in the area of environmental health and safety of 
engineered nanoparticles. And we are working with NIST, with 
the Department of Energy, and other agencies, especially the 
regulatory agencies, EPA and so forth, in trying to understand 
fundamentally what risks there may be in these particles being 
in the environment, being ingested in----
    Mr. Culberson. It is particularly important, because we 
don't want the country to react as the Europeans did to the 
bioengineered--like corn and other products.
    Dr. Bement. Right.
    Mr. Culberson. But specifically if I could ask you, because 
I am also convinced nanotechnology will--from what I have seen 
at Rice University with the single-wall carbon nanotubes, allow 
the country to become energy independent.
    Dr. Richard Smalley was a friend who passed away about a 
year and a half ago. He actually developed and had on the 
drawing board a device about the size of a washing machine that 
would store enough electricity. You could buy electricity off 
the grid at night when it was cheap. And then use it during the 
day to run your entire house, charge your automobile. And if 
you invest in this technology and this was distributed out 
throughout the country, I think he told me that if as few as 30 
maybe 40 percent of the households in America had this washing 
machine sized device to store electricity, that we would then 
be completely free of foreign oil.
    And it would just completely revolutionize the electrical 
grid. A single wire of carbon nanotubes is smaller than your 
little finger and will carry ten times the electricity carried 
to one of the giant overhead towers from Los Angeles to New 
York with zero loss of electrons due to either radiation or 
heat, because they don't conduct. It is ballistic transmission 
of electrons, because it is a tube like this.
    So it also has the promise not only of allowing us to 
identify and cure human diseases, but making the United States 
completely energy independent, correct?
    Dr. Bement. When we lost Dr. Smalley we lost one of our 
great visionaries in nanotechnology. And NSF takes pride in 
supporting the research that he did. And there is a great deal 
that can be done with nanotechnology. We have only scratched 
the surface.
    Mr. Culberson. These are competitive review grants, Mr. 
Chairman, and I just in conclusion want to point out that the 
NSF has been magnificent in supporting this type of work. I 
wanted you and Mr. Frelinghuysen to know both that, for 
example, NASA, which we will also hear from later actually had 
a signed contract. Well I am, you know, NASA does great work 
but is an example of the difference between the way NSF, which 
is driven by science, and NASA, which is driven both by bean 
counters and bureaucrats, is that NASA actually has a signed 
contract with Rice University for $6 million to invest in 
infrastructure at Rice to develop the quantum wire, which I 
just described, which would have revolutionized the electricity 
conduction, every device that we use. Anyway, signed contract, 
Rice went out and hired physicists, brought in graduate 
students, was building the facilities. And then the new NASA 
Director came in and said, ``No,'' and tore the contract up. It 
is just maddening. And you just do a magnificent job at NSF. We 
just need to find a way to further insulate you, I think, from 
politics and do what we can to help NASA limp along.
    Thank you very much. It is a pleasure to be on this 
Subcommittee with you, Mr. Chairman and Mr. Frelinghuysen, and 
thank you for what you do.
    Dr. Bement. Thank you.

                         FACILITIES MANAGEMENT

    Mr. Mollohan. Well, it is good to have you on the 
Subcommittee, sincerely. You talk a lot about accountability in 
your justification. You talk about reviewing projects. You talk 
about delaying funding for projects. And that suggests to me 
that you have some issues in that account. I just wanted to 
give you an opportunity to talk about it at the hearing.
    Dr. Bement. Yes, thank you. Almost from the time I came to 
the Foundation there was activity underway to address concerns 
of the Congress in the management of our facilities account, 
which led to a study by the National Research Council, which I 
was fortunate enough to begin implementing with a Deputy. So 
that led to a lot of internal activity within the Foundation to 
develop a facilities manual in managing these facilities, which 
we wanted to be the very best in government. And that 
facilities manual has been in place. We have been actually 
operating against it. It has been presented to the Board. The 
Board has approved it. But we were left with a lot of legacy 
facilities, because these are multiyear projects. So we just 
could not go back and redo all the projects to force fit them 
into the manual. But now that the manual has issued we do have 
new projects in the wings, and we want those projects to comply 
with the manual. And one of the----
    Mr. Mollohan. How many projects?
    Dr. Bement. We have one, plus three. Advanced LIGO will 
start in 2009, and then we have three in the wings. The Ocean 
Observatories Initiative, the Alaska Region Research Vessel, 
and NEON, the National Ecological Observing Network. And ATST 
as well. Now for those projects going forward, we want to 
employ the rigor that we built into our policies and our 
practices in managing these projects. And one of the 
requirements is that they meet a rigorous final design review 
before we submit the proposal to the Board for approval to put 
funding in our budget. Because without that final design review 
there are risks, there are issues that carry over. We are 
constantly redoing the base lining of our budget. We are 
changing the contingencies. And in many cases, if we cannot fit 
within the assigned budget we have to descope the project, 
which detracts from meeting the scientific requirements that 
the facility was designed for in the first place. I am 
convinced we can do a lot better, and that is what we are 
proposing to do.
    Mr. Mollohan. Do you have some troubled projects right now?
    Dr. Bement. No, I would not say that we do. I think all of 
our projects, the one area where we have some difficulty is in 
ship building because of the fact that shipyards are full. We 
have hyperinflation in commodities, steel, and so forth. If you 
lose time then, of course, the price of these commodities goes 
up. And in just keeping projects on schedule, we are pretty 
much at the mercy of the shipyard because our projects are not 
of a scale that they want to divert all that much engineering 
and high skilled technical labor away from other, more 
lucrative projects. So we are always fighting with shipyards to 
pay attention to their contract.
    Mr. Mollohan. So all of your projects are within budget and 
on time?
    Dr. Bement. All of our projects are within budget. They are 
not all on time. The one where we have slipped is in the 
Scientific Ocean Drilling Vessel, and that is one of the 
shipyard problems I was talking about. That will be delayed 
about six months. But it will be ready for shakedown testing 
this summer, and we expect to have it in operation this coming 
fall.
    Mr. Mollohan. Are you familiar with all the specifics of 
these projects? You may not be able to answer all of them.
    Dr. Bement. I would say yes. I get reports every month and 
I read them.
    Mr. Mollohan. Well that is good. NEON, is it within budget 
and within schedule?
    Dr. Bement. NEON, we are not asking for additional funding 
until, again, it complies with our manual. That will have its 
final design review this summer and any issues from that design 
review will have to be resolved before we come forward with any 
more funding requests. But NEON has come a long way. It is 
really a very attractive project right now. It will be 
transformational.

         BENEFICIARIES OF LARGE FACILITY CONSTRUCTION PROJECTS

    Mr. Mollohan. Typically, who are the beneficiaries for 
these projects?
    Dr. Bement. The science community at large. These projects 
are proposed by the science community. They are initially 
funded under the Research and Related Account in order to 
develop the concept, to be sure that the design of the 
facilities meets all the scientific requirements. And those 
scientific requirements are set by numerous workshops with the 
community in order to be sure that, first of all, they are 
feasible, and secondly that they are affordable. So there is a 
lot of give and take in changing the scope of the project in 
order to be sure that the funding that we ask for is, first of 
all, adequate, but not unreasonable. So that is pretty much how 
the process starts.
    Mr. Mollohan. And it would be an academic institution? A 
federal laboratory?
    Dr. Bement. Usually they come from academic institutions or 
from community organizations representing the community.
    Mr. Mollohan. Is there a matching requirement for these 
projects?
    Dr. Bement. No.

                    FUNDING FOR FACILITIES PLANNING

    Mr. Mollohan. No? There is a difference of opinion, or a 
consideration and reconsideration, among the Board and the 
Foundation, you, about how the initial planning, the funding, 
might be achieved. Could you talk with us about that and where 
that issue is? And ask Dr. Beering to address that as well.
    Dr. Bement. Let me dispel that notion. I asked the Board, 
actually, to get involved earlier in the development of our 
projects as they come through the horizon stage and before they 
go into our readiness stage.
    Mr. Mollohan. Mm-hmm.
    Dr. Bement. So we are actually welcoming their 
recommendations and we want to work more closely with them so 
that we get their----
    Mr. Mollohan. Well you know, honestly, my point is not that 
there is a disagreement. My point is just understanding, 
letting you talk about how the planning should be funded and 
what you think about that. And just share your ideas, and have 
you reach a consensus on that.
    Dr. Bement. All right. Let me address that. Up to the point 
where we satisfy all the scientific requirements we feel that 
that type of planning and design should be carried under the 
Research and Related Account, because it really deals with 
science issues.
    Mr. Mollohan. It ought to come out of the Directorate?
    Dr. Bement. And that comes out of the Directorates.
    Mr. Mollohan. And why is that? Is that because they are 
closer to the substantive need?
    Dr. Bement. Some of these projects are very complex. Some 
of them require research and development, in some cases a lot 
of development. And they deal with very complex science issues, 
which are better dealt with by the science community.
    Mr. Mollohan. This question of whether this project is more 
important scientifically than another project?
    Dr. Bement. Well, this is where the prioritization comes 
through the Board, and this is why we would like to get the 
Board involved earlier in the process so that the 
prioritization starts earlier. But there are special 
circumstances as the project matures. Once it has passed a 
preliminary design, it pretty much has satisfied all the 
scientific requirements. Then you start getting into a 
preconstruction phase, which deals with things that have 
nothing to do with science, like site preparation.
    Mr. Mollohan. Mm-hmm.
    Dr. Bement. Like meeting changes in regulations----
    Mr. Mollohan. Mm-hmm.
    Dr. Bement [continuing]. Which requires some 
reconstruction. Those types of burdens, we feel, should really 
be assigned to the MREFC account, under construction, rather 
than under science in the R&RA account.
    Mr. Mollohan. And right now it is with science?
    Dr. Bement. And right now it is with science. And so this 
is where the Board and the Foundation have been working 
together in trying to come up with a better approach.
    Mr. Mollohan. Dr. Beering, do you have thoughts on that?
    Dr. Beering. Yeah. We want to be and are eager to be 
helpful in early planning and be involved in the entire scoping 
of the project. And there has been a misperception on the part 
of some of the scientists and others involved that the granting 
of planning funds means that the project is automatically 
approved at the end of the planning cycle. We want to make sure 
that that misperception is clarified, that planning is 
planning. That the project approval comes after that.
    Mr. Mollohan. Typically or has that always been the case?
    Dr. Beering. Well, it has been confused. But I think we are 
together on it now.
    Mr. Mollohan. No, no. I mean, as a matter of fact has, if 
someone gets approved at the, I am hoping I am using the right 
characterization----
    Dr. Beering. Yeah, at the planning stage.
    Mr. Mollohan [continuing]. At the Directorate or the 
planning stage in the past, did that equate to automatic 
funding for construction?
    Dr. Beering. I think most of that time that has been the 
case.
    Mr. Mollohan. Have there been any exceptions, just to----
    Dr. Beering. I cannot answer that.
    Mr. Mollohan. Okay, it does not matter. No, no, there must 
have been exceptions.
    Dr. Bement. We have stretched some projects out until they 
were much better defined and until we had a more credible 
budget.
    Mr. Mollohan. Is there a difference of opinion here or is 
there a consensus? You are asking for an authorization here 
from this Committee, so we have to understand.
    Dr. Bement. I think all the projects that are in our 
funding request, asking for authorization, have been approved 
by the Board and so they have pretty much gone through this 
process.

                USE OF MREFC FUNDS FOR PLANNING PURPOSES

    Mr. Mollohan. But as I understand it, you are asking for an 
authorization to use the construction money for planning 
purposes.
    Dr. Bement. Correct.
    Mr. Mollohan. And that is something that you are not 
allowed to do now.
    Dr. Bement. That is correct. So----
    Mr. Mollohan. So the point of my questioning is that we 
want to feel comfortable. I mean, we are not in the 
authorization business. It is tough for us to think about even 
authorizing it. But we do want to feel comfortable that there 
is a consensus and if there is not, we would like to know.
    Dr. Beering. No, we are together on it.
    Dr. Bement. I think there is a consensus. I think there is 
a meeting of the minds on that.
    Mr. Mollohan. Okay. And so you are requesting of this 
Committee with regard to this what?
    Dr. Bement. What I am requesting is, if there are 
circumstances beyond the establishment of scientific 
feasibility for a project that is more related to 
preconstruction or construction that that be included as part 
of the MREFC budget for that project.
    Mr. Mollohan. Is that stated correctly? Okay, thank you. 
Mr. Frelinghuysen.

                         MREFC ACCOUNT PROJECTS

    Mr. Frelinghuysen. We are a little bit past high noon here, 
so I do not want to keep you here. I am not sure what the 
Chairman's plans are. I just want a little clarification. Your 
request for this account is reduced by a third, right?
    Dr. Bement. Yes.
    Mr. Frelinghuysen. And that is largely due to the fact that 
these three projects are being deferred----
    Dr. Bement. Until they pass final design review.
    Mr. Frelinghuysen [continuing]. Until they pass?
    Dr. Bement. It is not only final design review, but they 
have to have a risk management plan. They have to have a 
supportable contingency. And so, at the time we start 
construction all these early issues are pretty well resolved.
    Mr. Frelinghuysen. But as you defer these, you are moving 
ahead with a new project? The Advanced Technology Solar 
Telescope?
    Dr. Bement. Yes.
    Mr. Frelinghuysen. And that obviously is priority number 
one. Behind that project is a growing backlog, which obviously 
you are quite cognizant of.
    Dr. Bement. Well, actually, what is happening is that over 
the next year, actually this year and next year, we will be 
completing three or four of our projects. And so the overall 
budget in the MREFC account will probably dip and then slowly 
come back again. But I think we are over the hump at this 
point.
    Mr. Frelinghuysen. But at some point in time you are going 
to have----
    Dr. Bement. We are going to have three----
    Mr. Frelinghuysen [continuing]. You are potentially going 
to have three----
    Dr. Bement. Three or four new projects, that is correct.
    Mr. Frelinghuysen. Which would mean that you would have a 
need for some pretty substantial construction funds.
    Dr. Bement. Yes. But that would not be unusual with regard 
to the level of funding we have had in this account in past 
years.

                     ATACAMA LARGE MILLIMETER ARRAY

    Mr. Frelinghuysen. Let me just get a little parenthetical 
in here. We briefly discussed in our time together what was 
happening in Chile. Is it called the ALMA Project?
    Dr. Bement. Yes.
    Mr. Frelinghuysen. And of course, the paper underscored the 
fact that the participants there are anticipating that the 
National Science Foundation is going to come through for them. 
Can you maybe shed a little light on that?
    Dr. Bement. Oh, absolutely. Once you get that far into a 
project you certainly do not want to disrupt it because then it 
becomes very expensive.
    Mr. Frelinghuysen. So how would you characterize the 
project? That particular project?
    Dr. Bement. I think it is on schedule. It is on budget. I 
think it is going along quite well right now.
    Mr. Frelinghuysen. It is the single largest project, is it 
not?
    Dr. Bement. It is the single largest and the most complex.
    Mr. Frelinghuysen. So just put a dollar figure on it for 
me?
    Dr. Bement. Total?
    Mr. Frelinghuysen. Yes.
    Dr. Bement. Let me see if I can----
    Mr. Frelinghuysen. The man who wears that raincoat over 
there. I hear half a billion, but it is a whisper behind me.
    Dr. Bement. It is, it is actually a jointly funded program 
between NSF and our partners, and the European Southern 
Observatory and their partners. They are putting out $500 
million, we are putting out $500 million.

                         RESEARCH FUNDING RATE

    Mr. Frelinghuysen. Just a last question. One of the 
measures of the health of research funding is the funding rate 
issue, percentage of proposals you are able to fund. I 
understand that this year you expect to fund 24 percent of the 
competitive research programs you receive. I understand, and 
you have added some emphasis to this, with the requested 
increase you would expect to support approximately 1,370 more 
research grants in 2008. Will this translate into an increase 
in the funding rate for research proposals?
    Dr. Bement. Yes.
    Mr. Frelinghuysen. And where do you match up the whole 
issue of having a greater increase in the number of grants and 
the whole issue of the increase in the average award size?
    Dr. Bement. I think the total number of proppsals has 
stabilized at around 45,000. It was ramping up earlier, and 
that is why our success rate was dropping. If you just take the 
competitive research proposals, the ones that we provide grants 
for, our success rate on average would be about 21 percent as 
of today. With the budget that we are requesting for '09, that 
success rate would go up to 23 percent. And it would also 
enable us to fund well over 1,000 new grants.
    Mr. Frelinghuysen. There are those grants and then there 
are the dollars which focus on the national centers. That is 
about 5 percent?
    Dr. Bement. Yes. There are centers, there are contracts. 
What other categories?
    Mr. Frelinghuysen. What is the percentage and does it match 
whatever Dr. Beering and his colleagues----
    Dr. Bement. Well, some of those grants are renewal grants. 
And the reason why the overall success rate looks higher than 
what I quoted, like 21 percent, is that when you are renewing 
grants, you are not competing with a lot of other grants. So 
that the success rate is like 100 percent. So when you average 
everything in, the overall success rate would be higher than 
the success rate just for the competitive research grants. And 
that is why I say today that percentage is 21 percent, and we 
expect it will go up to 23 percent.

                           AVERAGE AWARD SIZE

    Mr. Frelinghuysen. On the average award size, could you 
make any comments on that?
    Dr. Bement. Yes. I think we have that. We can provide that, 
we can provide that for the record. But it is going up slightly 
in 2009. I want to say it is about $160,000.
    [The information follows:]

          NATIONAL SCIENCE FOUNDATION AVERAGE ANNUAL AWARD SIZE
------------------------------------------------------------------------
                                     FY 2007      FY 2008      FY 2009
                                     Estimate     Estimate     Estimate
------------------------------------------------------------------------
NSF all..........................     $146,270     $151,355      158,290
Biological sciences..............      182,246      191,000      200,600
Computer & information science &       139,000      150,000      180,000
 engineering.....................
Engineering......................      115,860      116,000      118,000
Geosciences......................      153,922      155,000      160,000
Mathematical & physical sciences.      130,459      145,000      145,000
Social, behavioral, & economic         115,337      115,550      117,810
 sciences........................
Office of Cyberinfrastructure....      511,682      440,000      440,000
Office of International Science &      156,673       50,000      175,000
 Engineering\1\..................
Office of Polar Programs.........      238,398      245,198      249,398
------------------------------------------------------------------------
\1\ The spikes in average award size in FY 2007 and FY 2009 are related
  to Partnerships for International Research and Education (PIRE)
  competitions, which are held every other year.

    Dr. Olsen. It really depends upon discipline, the average 
award size, but what we are trying to do----
    Dr. Bement. Well, across the Foundation we have those 
numbers and we will provide those for you, what the average 
award size is. I thought I had it here but I am not finding it.
    Mr. Frelinghuysen. Thank you both.
    Dr. Beering. Thank you.
    Mr. Frelinghuysen. Thank you. Thank you, Mr. Chairman.

                USE OF MREFC FUNDS FOR PLANNING PURPOSES

    Mr. Mollohan. Okay, thank you Mr. Frelinghuysen. Dr. 
Beering, I just want to be clear on this whole question of 
spending planning funds, or using funds out of the major 
construction fund for planning, is that decided on the Board? 
Or is that being now considered by the Board or reconsidered by 
the Board? What is the status of it within the Board?
    Dr. Beering. Well, we talked about it. And A, we wanted to 
be involved in the early planning and the total project 
scoping. And B, we wanted to make certain that the applicants 
did not confuse planning grants with project grants. There was 
a two stage process. And I think we are totally in agreement on 
that.
    Mr. Mollohan. But this question of funding planning out of 
the construction account?
    Dr. Beering. Yeah, we did not really care. The Board did 
not care which account it came from so long as we all 
understood how we were doing it and what the administration has 
proposed is quite acceptable.
    Mr. Mollohan. Okay. But you represent here that you are in 
total agreement?
    Dr. Beering. Yes, we are.
    Dr. Bement. Mr. Chairman, let me change the wording. It is 
not really planning. The planning is pretty much done. It is 
late stage design or redesign as a result of circumstances that 
are brought about by either changes in construction planning or 
changes in regulations. And at that point, generally the 
proposal, or the project, has already gone through a fairly 
rigorous preliminary design and final design review. But then 
there are issues that come up after final design that are 
really preconstruction in nature.

                              OUTSOURCING

    Mr. Mollohan. A couple of questions about contracting out. 
How has your contracting out your A-76 initiatives affected the 
mission of the Foundation?
    Dr. Bement. We have been operating with many of these 
operations contracted out for a very long time. As a matter of 
fact, we reached pretty much the bottom of the barrel. So we 
have had pretty stable operations for some time now.
    Mr. Mollohan. Reached the bottom of what barrel?
    Dr. Bement. Well, in terms of what we can outsource, for 
contracting out.
    Mr. Mollohan. You have exhausted the number of functions 
you can outsource?
    Dr. Bement. We started well over twenty years ago 
contracting out administrative functions, security functions, 
many of our support functions. There is not a lot more to 
outsource.
    Mr. Mollohan. My question was how has it affected the 
mission of the Foundation?
    Dr. Bement. I do not think it has affected the mission, 
because the oversight of all of those activities are done by 
the Foundation, and if we need to correct them we will correct 
them. But I think our mission is being well fulfilled.
    Mr. Mollohan. Well, talk to me a little bit more about the 
quality of the service you get from contracting out and by 
giving me some examples perhaps of good results that I would be 
interested in, as well as problems.
    Dr. Bement. Let me ask my Chief Operating Officer to 
respond. She is closer to it than I am.
    Mr. Mollohan. Certainly. Thank you, doctor.
    Dr. Olsen. We contract out our IT services, the facilities 
maintenance of our building, those types of activities that are 
not what we consider essentially governmental. So things like 
our merit review and that kind of stuff stays within the 
National Science Foundation. In many cases we have oversight of 
that and we review the contracts over certain periods to be 
recompeted. We contract out our cleaning services. And we do 
not have any issues.
    Mr. Frelinghuysen. Maybe you could just give your name for 
the record, please?
    Dr. Olsen. Kathie Olsen.
    Mr. Mollohan. Yes, thank you.
    Dr. Olsen. Oh, and we are red, as you know, in terms of the 
yellow, red, and green. In terms of competitive outsourcing we 
are actually red. We have always been red because of the fact 
that, again, as Dr. Bement indicated under Eric Bloch's 
leadership, he started looking at things that were not 
inherently governmental and already contracted them out. So 
when the President's Management Agenda came aboard, we actually 
did not really have anything additional that we could consider 
that we were not already doing to run the Agency effectively.
    Mr. Mollohan. Do you have any other additional activities 
that NSF plans to outsource?
    Dr. Olsen. The only other issues that they had asked me to 
put on the table is the icebreakers in terms of competitive 
outsourcing, to say ``This is what we need to enable the 
science'' and then have everyone compete for that. But that is 
not anything I think that in reality----
    Mr. Mollohan. What table do you put that on?
    Dr. Olsen. Table in terms of discussions, in terms of 
internal----
    Mr. Mollohan. Who are you discussing it with?
    Dr. Olsen. Internally.
    Mr. Mollohan. Who else are you discussing it with?
    Dr. Olsen. Within the Foundation at this point.
    Mr. Mollohan. That is all?
    Dr. Olsen. At this point.
    Mr. Mollohan. You are not discussing it with OMB?
    Dr. Olsen. Well, we have had that discussion in terms of 
competitive outsourcing, researching----
    Mr. Mollohan. Well, that was my question. Who are you 
discussing it with?
    Dr. Olsen. Well, I have discussed it recently with Clay 
Johnson.
    Mr. Mollohan. And who is he?
    Dr. Olsen. He is the Deputy of OMB.
    Mr. Mollohan. How is the travel service working out for 
you?
    Dr. Olsen. That is a challenge. It is FedTraveler. It is 
something that every one of us faces. And we have to look at 
it, we have some very good staff at NSF that are evaluating 
that. And it is one that could be improved, let us put it that 
way.
    Mr. Mollohan. What is the ``that'' you are evaluating.
    Dr. Olsen. Basically, it is very----
    Mr. Mollohan. This is really, this is really easy.
    Dr. Olsen. Digging down to sort of the level is very time 
consuming, it is very difficult.
    Mr. Mollohan. What is very difficult and time consuming?
    Dr. Olsen. The actually making the system itself. Okay? And 
it is just, it is a challenge. And so that is one that we have 
actually looked at, and whether or not we should, we are trying 
to work with the contractor to improve that system.
    Mr. Mollohan. Are there any other contracting out 
situations that you are having difficulty with?
    Dr. Olsen. I think FedTraveler is our----
    Mr. Mollohan. Well, I know it is, I understand that seems 
to be the most difficult example. But are there any other 
examples that you have?
    Dr. Olsen. Not that I am aware of.
    Mr. Mollohan. Not that you are aware of? Okay. Thank you.
    Dr. Olsen. You are welcome.
    Mr. Mollohan. That was easy. I mean, that was not hard. Mr. 
Frelinghuysen.
    Mr. Frelinghuysen. Nothing for me.
    Mr. Mollohan. Nothing for you? Would you, gentlemen, like 
to add to your testimony, or is there anything you think the 
Committee would appreciate hearing about?
    Dr. Bement. Well, the one thing that I would have stated at 
the very beginning was to express my appreciation for the 
support you gave us in the '08 budget.
    Mr. Mollohan. In the early budget.
    Dr. Bement. I am sorry it came out the way it did.
    Mr. Mollohan. In the early budget.
    Dr. Bement. In the early budget.
    Mr. Mollohan. Well, as we said during Mr. Culberson's 
testimony, the final result was not satisfactory to us and what 
we want to do was reflect it in our House Bill. And hopefully 
we will have better opportunities to fund the Foundation at the 
level that I think everybody on this Committee wants to fund it 
at in this cycle.
    Dr. Bement. Thank you.
    Mr. Mollohan. We certainly want you to, and we are glad 
that your request, as you have testified, gets you back on the 
track that you want to be back on. Dr. Beering?
    Dr. Beering. Thank you. We do not want to be hit by another 
bus.
    Mr. Mollohan. Well, thank you very much for your testimony. 
Thank you for the good work of everyone, and everyone attending 
here today.
    Dr. Beering. Thank you. Thank you very much.
    [Questions and answers submitted for the record follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Thursday, April 10, 2008.

                EQUAL EMPLOYMENT OPPORTUNITY COMMISSION

                                WITNESS

NAOMI C. EARP, CHAIR, EQUAL EMPLOYMENT OPPORTUNITY COMMISSION

                Congressman Mollohan's Opening Statement

    Mr. Mollohan. Good afternoon. The Subcommittee would like 
to welcome Naomi C. Earp, Chair of the Equal Employment 
Opportunity Commission, to discuss her agency's fiscal year 
2009 budget request. We are pleased to see you again, Ms. Earp, 
and thank you for your time. You have the distinction of being 
the last regularly scheduled hearing of the season. I am sure 
we will have other hearings as the year goes on but this is the 
last regularly scheduled on the President's budget submissions 
for our Subcommittee.
    Most people who have not experienced employment 
discrimination probably do not have a full appreciation for the 
depth and breadth of this problem. Employment discrimination 
can and does take place in this country and we rely on the EEOC 
to help remediate that discrimination, set precedents to deter 
future violations, and educate employees about their rights.
    Unfortunately, the administration's budget requests for 
EEOC over the last five years have not been sufficient to 
adequately carry out these important responsibilities. 
Increasing receipts and decreasing staff levels have combined 
to create a chronic backlog of pending charges that grows 
bigger every year. That backlog may look like just a column of 
numbers on a spreadsheet but each one of those pending charges 
represents an employee and an employer who are waiting for 
closure on what is no doubt a painful and contentious issue 
between them. Delaying the closure has real impacts on real 
people and I think we need to ensure that we do not lose sight 
of that fact.
    This year, for the first time in a number of years, the 
EEOC's budget proposal contains a real increase in basic 
operations. Specifically, the 2009 budget provides an increase 
of $12.6 million, or a little less than 4 percent, to slow the 
growth of the charge backlog and to complete the transition of 
the now defunct National Contact Center to an in-house 
capability. We are pleased to see these proposals but we remain 
concerned that they do not accomplish such essential tasks as 
actually reducing the charge backlog.
    The population of the United States is getting bigger, 
older, and more diverse as the years pass. Ensuring that we 
have a robust capacity to protect basic civil rights is only 
going to become more important as vulnerable populations 
continue to grow. We will be closely examining your request to 
make sure that the EEOC is well positioned to help you achieve 
that goal. And before we invite you to offer your oral remarks, 
and your prepared statement will be made a part of the record, 
I would like to turn to our Ranking Member, Mr. Frelinghuysen, 
for his opening statement.

             Congressman Frelinghuysen's Opening Statement

    Mr. Frelinghuysen. Ms. Earp, good afternoon, welcome back. 
I join the Chairman in welcoming you here this afternoon to 
hear your testimony in regard to your budget submission for 
2009. As the Chairman says, you are requesting a total of 
$341.9 million, which represents an increase of $12.6 million, 
or 3.8 percent above last year's level. Much of this increase 
would be devoted to recreating the Commission's customer 
response function in-house after the cancellation of the 
contract call center. Also, there is a modest increase toward 
reducing the significant, and as the Chairman has said, growing 
backlog of private sector discrimination charges.
    The EEOC is tasked with preventing and eradicating 
employment discrimination across the United States. As the 
Chairman has said, yours is an important and difficult mission 
and we would like to work with you to find ways to maximize 
your effectiveness within available budgets. And again, 
welcome. Thank you for being here.
    Ms. Earp. Thank you.
    Mr. Mollohan. Thank you, Ms. Earp. And again, your written 
statement will be made a part of the record. You can proceed.
    Ms. Earp. Thank you.
    Mr. Mollohan. Thank you.

                     Chair Earp's Opening Statement

    Ms. Earp. Good afternoon, Mr. Chairman. I appreciate the 
opportunity to testify in support of the President's fiscal 
year 2009 budget request of $341.9 million for the Equal 
Employment Opportunity Commission. It is indeed a pleasure to 
appear before you again this year. As always, I thank you for 
your past and anticipated future support of EEOC.
    Our mission is to ensure fair and inclusive workplaces so 
workers can compete on the basis of merit and pursue their 
individual versions of the American dream. To do this, we are 
continuously assessing the strategic focus of our enforcement 
litigation and federal programs. We also educate employees and 
job seekers from teens to retirees, as well as employers from 
small business owners to the largest corporations. I have 
submitted for the record a written statement that highlights 
specific aspects of the budget. But before answering questions 
I would like to just take a few minutes to highlight the issues 
and challenges we have faced since I last appeared before you.
    First, I want to mention our workload. I note that our 
dedicated employees are challenged on a daily basis with a 
workload that is prodigious. In fiscal year 2007 we received 
almost 83,000 private sector charges, over 13,000 federal 
sector appeals and hearing requests, we filed 336 lawsuits, and 
we recovered close to $350 million in benefits for victims of 
discrimination. However, we still ended the year with an 
inventory of 54,000 charges. For those accomplishments I thank 
the dedicated employees at EEOC who have made all of this 
possible. They are our most valuable resource and I am proud to 
be a part of their team. Approval of our 2009 budget request, a 
$12.6 million increase over this year, will greatly assist us 
in managing our workload.
    Next I want to call the Committee's attention to staffing. 
In 2007 we hired 172 new employees but this was just barely 
enough to match the number of separations. There was no net 
gain of employees last fiscal year because employees were 
retiring, transferring, and otherwise leaving as fast as the 
new employees were coming on board. The news is better for 
2008. We have improved our hiring processes and as of today we 
have a net gain of forty-six new hires over separations. I am 
committed to backfilling front line positions as they become 
vacant, and as the budget permits. And I am always looking for 
dollars to ensure that we put the resources on the front line.
    For fiscal year 2009, in addition to the backfills, we 
project 175 new hires, the vast majority of which will be for 
front line positions. Of the President's budget request, almost 
75 percent will go to staffing. This will enable us to retain 
and hire the investigators, mediators, attorneys, and support 
staff that we need. The new hires are critical to reducing the 
rate of the inventory's increase.
    Finally I want to note, as has been said, that the National 
Contact Center has met its demise. Having completed the hiring 
and training of our information intake representatives this 
past March, the customer response function is officially in-
house. The full time trained, permanent, government employees 
work at fifteen of our district locations and they are now 
handling roughly 85,000 calls a month. The good news is that 
the fifty-five employee outsourced center has been abolished 
and the new internal, sixty-six federal employee customer 
response system is operational. The bad news is that this 
internal operation is costlier to operate.
    In conclusion Mr. Chairman and Committee members, the 
charges that we receive are increasing nuanced and more 
complex. This requires refocusing and making a strategic 
alignment to enable the Commission to continue to be effective 
in this twenty-first century environment. The President's 
request for 2009 provides a significant increase and will allow 
us to continue our mission.
    Thank you for inviting me to appear before you today. I am 
happy to answer any questions.
    [Written statement of Naomi Churchill Earp, Chair, U.S. 
Equal Employment Opportunity Commission]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                           BACKLOG REDUCTION

    Mr. Mollohan. Thank you, Ms. Earp. EEOC's charges pending 
at the end of the year have been increasing consistently over 
the last few years. The backlog reached nearly 40,000 at the 
end of 2006, which was a 19 percent increase over the previous 
year, and the backlog grew in 2007 to 54,970, a 38 percent 
increase. The backlog is projected to grow to 75,000 in 2009. I 
understand that according to a presentation that you made to 
some stakeholders, you think it might go to as much as 100,000 
in 2010. Is that correct?
    Ms. Earp. Yes.
    Mr. Mollohan. I mean, that is really unacceptable. You are 
projecting 109 new personnel, and I commend you for having an 
increased budget request. I do not know how you were able to do 
that, but there is a lot of people that testified here before 
you that I am sure are envious. But is that adequate? If 109 
new personnel can only slow the growth of the backlog are we 
doing what we should do? And what would it take to begin 
erasing this backlog?
    Ms. Earp. Mr. Chairman, EEOC's financial issues are very, 
very longstanding. They go across a number of administrations. 
We are pleased with the President's 2009 budget because it is a 
beginning to address, in our base, issues that have been so 
longstanding. We need the front line employees. During the same 
period of time that you mentioned when charges were increasing 
anywhere from 19 to 34 percent, investigators were decreasing 
anywhere from 3 to 10 percent. So we feel very pleased that we 
are an agency with an increase this year while so many others 
are actually being cut.
    Mr. Mollohan. Okay. Well, I wanted a little more on that. 
What do you think we would have to do in order to reduce these 
backlogs and begin a downward trend in real terms?
    Ms. Earp. We need----
    Mr. Mollohan. You are estimating that the percentage of 
charges you will resolve within 180 days will jump from 56 
percent in 2007 to 73 percent in 2008 and to 75 percent in 
2009. Are those realistic?
    Ms. Earp. They are the best projections that we could put 
together given the number of people that we have and the 
anticipated workload.
    Mr. Mollohan. Are they realistic?
    Ms. Earp. Fairly realistic.
    Mr. Mollohan. Okay. Have you done a mid-year review for 
2008?
    Ms. Earp. Yes.
    Mr. Mollohan. Are you reducing at the rate of 73 percent 
for the first six months of 2008? Or however many months we are 
into 2008?
    Ms. Earp. Not quite. But at this point in 2008 we have a 
net gain of forty-five employees, the vast majority of which 
are front line employees. So there are investigators at the 
point where charges and receipts come in.
    Mr. Mollohan. What is your point?
    Ms. Earp. The point is, last year we did not have a net 
gain at all. This year up to this point we have----
    Mr. Mollohan. You did not have a net gain?
    Ms. Earp. In employees for 2007.
    Mr. Mollohan. Oh, oh, okay, sure.
    Ms. Earp. So we feel we are a bit ahead.
    Mr. Mollohan. But what I was asking was, what is your mid-
year experience? You are estimating that your charges resolved 
within 180 days will jump to 73 percent in 2008. And this is 
just one measure, I guess. But my question is, have you done a 
mid-year review to test that against real experience?
    Ms. Earp. May I provide the----
    Mr. Mollohan. Oh sure. Absolutely.
    Ms. Earp [continuing]. Written information for the record.
    Mr. Mollohan. Oh, for the record. Okay. If you have to, 
yes.
    Ms. Earp. Yes. I do not have that data at my fingertips.
    Mr. Mollohan. Well, I have got it here so I am ahead of 
you. I just cannot interpret it immediately. Well, I guess I 
would suggest that if the numbers do not prove themselves out 
that those are rosy projections. I will tell you what the 
Committee would like to have, but I imagine you will need to 
spend some time with this and can only submit it for the 
record. We would like to know not what you have requested but 
what you would have to request in order to reverse this 
unacceptable trend line. And obviously you are not going to do 
that in a year.
    Ms. Earp. Right.
    Mr. Mollohan. But in some acceptable period of time, which 
I leave you to select. Would you do that for the record?
    Ms. Earp. Yes, sir.
    [The information follows:]

                          Workload Management

    The percentage of charges that will be resolved within 180 days is 
a strategic goal and we are devoting our resources and energies to try 
to achieve it. At midyear, of the 34,636 resolutions, 17,853 (51.5%) 
were resolved within 180 days. We also know that the average processing 
time for resolutions at midyear is 206 days, which would indicate that 
the inventory continues to be an issue in resolving charges within 180 
days. Our budget request for 2009 brings us a step closer towards 
meeting that strategic goal.

    Mr. Mollohan. What it would take. What is the number of 
employees and what positions, and can you associate that with a 
dollar amount. I am going to yield to Mr. Frelinghuysen at this 
time.
    Mr. Frelinghuysen. Why are you anticipating such a dramatic 
growth in the backlog?
    Ms. Earp. Primarily it has to do with the attrition of 
staff.
    Mr. Frelinghuysen. So staff? Disassemble the backlog for 
me. How many of these cases have been pending for two years? 
Three years? Or are there some that have been hanging around 
the EEOC for years without resolution?
    Ms. Earp. Yes. I can provide specific data for you for the 
record. But we know that we have some aged cases. The work that 
EEOC does is very labor intensive. The backlog, well actually 
the inventory, does not mean that the case is not being worked. 
It means it has worked through various phases as it makes its 
way from intake to whether or not we are going to litigate it. 
A lack of resources at any point along the continuum slows the 
process, and we have had a lack of investigators to complete 
investigations of cases in the inventory.
    [The information follows:]

                        Age of Pending Inventory

    EEOC has been vigilant in attempting to ensure that charges are 
resolved as quickly as possible. EEOC field offices have continued to 
focus on charges more than one year old to ensure that they are 
promptly addressed. Of the more than 72,000 charges in our inventory at 
midyear, 1,636 were two years old or older. Of the 1,636 charges two 
years old or older, 532 were three years old or older. Our data system 
tells us that 50% of the charges two or more years old are prioritized 
under processing as ``A'' charges and are likely in extended 
investigation or conciliation between EEOC, the employer and the 
employee. For those charges three years old or older, 70% are 
prioritized as ``A'' and are in extended processing.

    Mr. Frelinghuysen. Well, the backlog seems to be exploding. 
But I always thought the phrase ``justice delayed is justice 
denied,'' surely you are working on some of the older ones 
first?
    Ms. Earp. Yes. We prioritize the aged cases.
    Mr. Frelinghuysen. So how many aged cases are there? Do 
they go back five years? Or? And do some of these parties give 
up? I mean, what happens? After a while here I would assume a 
lot of people say, ``Well, you know, we are not getting any 
resolution here.''
    Ms. Earp. The best information that I have today is the 
average age of our charges is about 209 days. And the short 
answer to your question is, yes, when we are unable to 
investigate in a timely manner we lose witnesses, we sometimes 
lose charging parties. Yes, people do eventually sometimes give 
up.
    Mr. Frelinghuysen. The 109 new investigators, attorneys and 
support staff, is it your intent that all of those new 
positions will be working on the private sector enforcement?
    Ms. Earp. The vast majority of the President's increase, 
roughly 90 percent of those funds, will go to staff and staff 
related expenses.
    Mr. Frelinghuysen. The EEOC has been working in these areas 
for years.
    Ms. Earp. Yes, sir.
    Mr. Frelinghuysen. And I do not mean to be insulting, but 
obviously I assume there is a fair amount of the same sort of 
charges and issues. Some have a far greater degree of 
complexity than others. After a while, there must be some 
recognized ways that in some cases you could expedite some and 
perhaps because of the complexity, or lack of staff, you could 
not expedite others. I just wonder whether you had tried to 
introduce some more efficiencies, either through the use of 
different or new technologies. I know that your budget document 
mentions a cost/benefit analysis that shows that the EEOC could 
achieve efficiency savings of $15 million if you implemented a 
document management system agency wide.
    Ms. Earp. We are working on that.
    Mr. Frelinghuysen. So what exists now? Is it all hard copy 
or carbon paper? Or is there some degree of, what is it? Are 
you online?
    Ms. Earp. Quite a bit of what we do is online. Our document 
management posture is uneven. Because when you are an agency 
that is resource intensive, where the majority of the funds go 
to paying staff salaries, it really leaves very little for the 
kind of technological advancements and advanced planning that 
is necessary. But in the last couple of years we have been able 
to realize efficiencies through the use of the web, the 
internet, and various technological support, especially to our 
legal staff.

                               MEDIATION

    Mr. Frelinghuysen. And lastly, I am not a lawyer but I do 
have a huge admiration for people who spend a good portion of 
their lives on mediation. You know, there is a possibility of 
intervention. Where is that in the overall scheme of things?
    Ms. Earp. Mediation remains a centerpiece of what we do and 
is one of the truly good news success stories that EEOC has to 
tell.
    Mr. Frelinghuysen. But as I look at some of your budget 
materials, the number of charges being resolved through 
mediation apparently is dropping. Is that accurate?
    Ms. Earp. It is. It has to do with the fact that we have 
both mediators who are federal employees on our staff, as well 
as contract mediators in various places around the country. And 
we have not had contract dollars. We also have not had as many 
pro bono mediators as in the past.
    Mr. Frelinghuysen. We have through the doors here the Legal 
Services Corporation. And they promote the idea, which I think 
we are enormously sympathetic for, that members of the Bar 
ought to be doing more. Certainly in my neck of the woods there 
are more law firms, maybe it is just a great place to practice 
law. But you would like to see a few more law firms stepping up 
to the plate in terms of participating. I do not mean to get 
off track here. I think mediation is a good thing in a lot of 
different legal arenas.
    Ms. Earp. I agree.
    Mr. Frelinghuysen. Thank you for the time, Mr. Chairman.
    Mr. Mollohan. Okay, thank you. Let me follow up on that 
line of questioning that I had before. I think I understand 
these numbers a little bit better, partially based on your 
testimony just a moment ago. Let us help you in this process by 
your identifying what I would like to get at the end, 
identifying the responsibilities, the jobs, that need to be 
increased and where they are, if you will cite them in light of 
this information. These statistics would suggest that you had 
pending at the end of February 2007, 45,671 charges. At the end 
of February 2008 you had pending 70,209 charges. If that is 
correct, in one year you would have a 53.7 percent increase in 
pending charges. Are those statistics accurate?
    Ms. Earp. Those statistics sound somewhat flawed. The 
largest single increase that I am aware of is somewhere between 
about 25 and 30 percent. And that would not have been between 
2006 and 2007 where we realized----
    Mr. Mollohan. No, between 2007 and 2008. Did I say 2006 and 
2007? I meant February of 2007 and February of 2008. This would 
be a mid-year snapshot. Would you be able to turn around and 
answer this question by consulting with your staff? And if so, 
would you please do it?
    Ms. Earp. My Program Director says she believes that data 
is accurate. But that by the end of the year that number will 
have dropped significantly as we close cases by the end of the 
fiscal year.
    Mr. Mollohan. Okay. Well I hope that is true. But right now 
those are accurate. We want to help you achieve that goal. That 
is why we are going through this exercise, for no other reason. 
The average age of the charges in days was 189 days in February 
of 2007. February of 2008, the average age of those charges is 
211 days, a 22-day increase. So it is taking you longer this 
year rather than shorter compared to 2007. You had received, in 
February 2007, 30,775 charge receipts. In February of 2008, 
40,328, a 31-percent increase. So you are receiving more 
charges. Something is going on out there. Your resolutions, in 
February of 2007 were 27,433. In February of 2008 you had 
27,516 resolutions, a .3-percent increase. But it is taking you 
18 days longer. I just cite those last statistics to round this 
out. This is not a good picture. So we need to address this.
    Since 2001 you have lost over one-quarter of your employees 
and your charges are increasing. So it is no wonder that you 
are having this very unfortunate trend line. You are about 200 
FTE below your ceiling right now. The Inspector General has 
declared ``it is imperative that senior level management place 
greater emphasis on the human capital condition at EEOC.'' Do 
you agree with that?
    Ms. Earp. Yes.
    Mr. Mollohan. Are you doing that?
    Ms. Earp. Yes.
    Mr. Mollohan. How are you doing that?
    Ms. Earp. We are working on a Human Capital Plan. We need 
to make sure we have the right positions at the right grade 
with the right skills.
    Mr. Mollohan. And the right number.
    Ms. Earp. And the right number.

                             BUDGET REQUEST

    Mr. Mollohan. Well, does your budget request provide 
sufficient funding to hire those 200 already short FTEs in the 
fiscal year 2008 staffing ceiling, in addition to the 175 new 
FTEs you are requesting?
    Ms. Earp. No, sir. It does not. The gap between----
    Mr. Mollohan. What does your funding request allow you to 
do then? Just hire the 175?
    Ms. Earp. The 175.
    Mr. Mollohan. So you are still going to be short 25 for 
this fiscal year. So how many employees and in what positions 
would you have to hire to reduce this trend line?
    Ms. Earp. That is the information that I am going to be 
very happy to provide to you?

                          IN-HOUSE CALL CENTER

    Mr. Mollohan. For the record, all right. Now, let me ask 
you one other question. I am going to get deeper into this but 
I want to go to Mr. Honda here in a second. What relationship 
is there between the quality and quantity of the intake 
personnel that you are in the process of hiring because you are 
taking the call center in-house and a resolution of these 
cases? My thinking is that if you had a capability at that 
initial contact point, that you might be able to resolve cases 
at that point, or shortly thereafter. That may be all wrong. It 
just seems logical to me that you could because I have heard, I 
must tell you, that the folks being hired at those positions 
are pretty entry level, minimally credentialed people. So I am 
just wondering if it would be possible to resolve some of these 
cases with higher credentialed people at the contact point, and 
help in that way to reduce this backlog?
    Ms. Earp. Theoretically, I think so. In an ideal world, if 
we had intake being performed by attorneys or highly skilled 
investigators, sure. Because they understand the law and they 
more quickly would be able to apply the law to the set of facts 
that the charging party is explaining. But that is a very, very 
expensive proposition. For the people that we are currently 
hiring, I think over time they can be trained to add additional 
value. Right now we are just making sure that we get the charge 
in and that we understand what is being alleged. After the 
employees have been with us for a while and better understand 
the process that they are helping to administer, I think we 
will get more value.
    Mr. Mollohan. Well, that suggests a number of other 
questions to me which I will ask in another round. Thank you. 
Mr. Honda.

                   SUCCESSION AND TRANSITION PLANNING

    Mr. Honda. Thank you, Mr. Chairman. And welcome. I 
understand that a question has already been asked regarding the 
workload and shrinking workforce. But I was wondering whether 
there has been any planning on succession on those slots that 
have been vacated or within the Department, whether there is a 
succession planning that you have created or implemented? And 
if so, what does it look like in terms of demographics and 
language abilities?
    Ms. Earp. We do not have at this point what I would 
describe as a fully fleshed out succession planning system. We 
have a strategic human capital plan that we are working on 
which will include provisions for succession planning. And it 
is anticipated that the succession planning will take into 
account how diverse America has become, and the changes that we 
see in our charge receipts.
    Mr. Honda. And with the changes that have occurred, the 
increasing diversity what would you consider some of the 
characteristics of an employee that should be embedded in that 
person in order to reflect or deal with the change in the 
population?
    Ms. Earp. Well, clearly employees who are multilingual 
would be an important skill to have. But also employees who are 
more analytical, who have some understanding of statistics. 
There are a number of skills that we would consider for the 
21st century that perhaps were less important in our old case 
work.
    Mr. Honda. Would you submit for the record a list of the 
permanent hires made since 2006, including the date of hire, 
the position for which they were hired, and the position they 
currently hold, and a description of their positions, and the 
office to which they were assigned?
    I have a question, Mr. Chairman, and I am not sure if it is 
pertinent for this hearing but since it is EEOC and it is a 
question that probably applies to general practices across the 
board during the time of change, and if I may ask the question. 
During this time of change, there may be some shifting of 
personnel across the board in the capital. And I have always 
had a concern that some folks may be placed in one position 
over another in another position over someone who has been 
waiting for a promotion. Coming from another department, if 
they are favored by the person who has more control over 
personnel. Is that something that one watches out for and 
monitors or looks at when new hires, what positions will be 
moved around? That kind of, for lack of a better word, cronyism 
is avoided?
    Ms. Earp. I am not sure I completely understand the 
question. But I would----
    Mr. Honda. I will be more blunt then.
    Ms. Earp. Okay.
    Mr. Honda. In a time of change, some people will be placed 
in positions over other people by a political appointee before 
they leave.
    Ms. Earp. We do not have any burrowing going on at EEOC. We 
do not have, the only political staff at EEOC are the 
Commissioners, the Legal Counsel, the General Counsel, and the 
Legislative Director. Those are the only ones. And the Office 
of Personnel Management has been very clear by directive about 
positions happening between now and next November, and that 
they have to be vetted by OPM. So I think that we are pretty 
vigilant and we are on guard for making sure that our career 
employees----
    Mr. Honda. That is a better word.
    Ms. Earp. If there are positions to be filled, that they 
are the ones that get them.
    Mr. Honda. And I did not mean for the question to be 
directed towards EEOC. But EEOC's function, I thought, might 
also extend into other practices in other departments. And 
there is some sort of watch dog implemented, such as the one 
you described for your department.
    Ms. Earp. No. Other than having watch dog responsibilities 
for diversity and equal opportunity, we do not look 
specifically at what is transpiring during a transition period.
    Mr. Honda. Okay. Do you have a suggestion where that might 
be, that question might be placed?
    Ms. Earp. Well, both the Merit Systems Protection Board and 
the Office of Personnel Management have responsibility for non-
meritorious promotions or hires.
    Mr. Honda. Okay. Very good. Thank you very much.
    Ms. Earp. Thank you.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Mollohan. Okay. Mr. Frelinghuysen?
    Mr. Frelinghuysen. Could you tell me, of the charges that 
are brought, obviously a number are resolved but obviously you 
have not been able to resolve too many because you lack staff. 
A number are pending and those figures are escalating. What 
would be your make up of those charges? Let us take age, race, 
sex discrimination, national origin, issues related to people 
with disabilities. Could you just give us a general run down?
    Ms. Earp. Yes. Roughly----
    Mr. Frelinghuysen. And is there sort of a history relative 
to any of those categories? And I do not mean to be saying that 
those are the only ones you deal with, are historically issues 
that relate to one of those areas more prevalent in the pending 
category?
    Ms. Earp. I think that our inventory is probably pretty 
consistent with the level of charge receipts on various bases. 
Historically, race is the number one charge filing that we 
receive and race normally accounts for somewhere between about 
30, 35, 37 percent. Usually the number two category is gender, 
including sex discrimination, pregnancy discrimination, those 
kind of things. Number three can fluctuate but most recently it 
is retaliation. In fact, depending on how you slice the data, 
retaliation might actually be the number two basis. And then 
disability and age and national origin typically come in 
somewhere around 10 to 15 percent or less. But race and gender 
tend to be number one and number two.
    Mr. Frelinghuysen. Do you have case managers? Obviously, 
you have some people with more institutional memory and 
experience than others. Are people assigned that have a wealth 
of experience in a certain area to work on those cases? How 
does it work actually? Do those that work on behalf, on your 
behalf, do they own these cases until they are resolved? How 
would you characterize your workforce? Do they own these cases 
until they are resolved?
    Ms. Earp. A single individual, I cannot say----
    Mr. Frelinghuysen. I know you get input from all sorts of 
people, obviously, if certain people are doing investigatory 
work and----
    Ms. Earp. Right.
    Mr. Frelinghuysen. Doing all the things that are necessary.
    Ms. Earp. Well first of all, we try to pair our staff so 
that more junior staff gets the benefit of being mentored and 
trained and monitored by more senior staff. The best example of 
that is the way we are approaching systemic litigation and 
investigation where we are teaming those staff that have a lot 
of experience with the less experienced, more junior staff. But 
the complaint, the charge is owned on a continuum by the staff 
assigned to that particular process. In intake the intake staff 
takes care of it. They own it. They do everything they have to 
do with it. Then the investigator has it. Then it may go to a 
mediator. And certainly when it gets to legal, legal owns it, 
and becomes very passionate about it.
    Mr. Frelinghuysen. So they own it----
    Ms. Earp. On a continuum it is owned by staff with various 
expertise.
    Mr. Frelinghuysen. When the National Contact Center ceased 
operations in December their work was brought in-house.
    Ms. Earp. Yes, sir.
    Mr. Frelinghuysen. So these people would be classified as 
intake?
    Ms. Earp. Yes.
    Mr. Frelinghuysen. And those intake workers are in the 15 
offices around the country, is that right?
    Ms. Earp. Yes.

                              CALL CENTER

    Mr. Frelinghuysen. Last year you submitted for the record 
that bringing the function in-house would involve one time 
costs, I think you mentioned of $2.3 million, and additional 
costs of $3.5 million. Do those estimates still hold?
    Ms. Earp. Pretty much.
    Mr. Frelinghuysen. Have there been any benefits in terms of 
overall efficiency and customer satisfaction, not forgetting 
the fact that there is this enormous backlog? Has there been 
any positive reaction to the new, to doing things the way that 
they historically had been done before the National Contact 
Center was set up?
    Ms. Earp. Well, we hired the customer intake 
representatives just last March. So it is still a pretty new 
function for us. But it is up and running. We will have 
customer satisfaction surveys in fairly short order to send out 
so that we can do some comparison. But at this point, I would 
basically say we are performing the intake function and 
responding to the public. And we will get better at it.
    Mr. Frelinghuysen. And how would you define repositioning?
    Ms. Earp. We basically collapsed our field structure from 
twenty-three district offices to fifteen. That allowed us to 
save by not having to hire twenty-three executives, hire 
fifteen instead. And it also gives better management control.
    Mr. Frelinghuysen. Has it?
    Ms. Earp. Yes, I would say so.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Chairman.

                            STAFFING ISSUES

    Mr. Mollohan. Thank you. I would like to follow up a little 
bit on the staffing issues which really are going to have to be 
addressed if EEOC is going to do its job. You are going to have 
to have better staff and they are going to have to be qualified 
staff. Looking at your pending retirement eligibilities, I note 
that the IG report found that 42 percent of EEOC employees will 
be eligible to retire between 2007 and 2012. That includes 46 
percent of the investigators, which is a huge number, and 24 
percent of the attorneys, which is a large number. So talking a 
little bit about your succession plan, tell us how you are now 
thinking and those in your organization who are thinking about 
this, how are you planning for succession?
    Ms. Earp. We are working on a human capital plan which will 
take into account the fact that so many of our employees over 
the next five years are retirement eligible. The most important 
thing, especially for attorneys and for investigators, is to 
make sure we have the right number of people in the right 
places at the right grade level. Part of our inability to fund 
all of the positions that we have has to do with unfunded 
promotions and just structural deficiencies. A big centerpiece 
of our Human Capital Plan will be position management.
    Mr. Mollohan. Unfunded promotions means you cannot promote. 
Or if you do, you tell the people, ``Great you are getting a 
promotion but we are not able to fund it. Therefore you are not 
receiving any more salary.'' Is that right?
    Ms. Earp. Well basically we have professional staff but we 
just do not have the dollars. If you hire someone at the GS-12 
level and the only budget you have is for a GS-12, if there is 
an across the board cost of living adjustment, increase in 
benefits, promotion, we have to take that money from somewhere 
in order to fund it. So usually we would take it from a 
vacancy.
    Mr. Mollohan. Thank you. So does this year's budget request 
address those concerns and those short fundings?
    Ms. Earp. Modestly. But you have already indicated the 
problem, and the problem is the gap between our ceiling and 
what we can really afford.
    Mr. Mollohan. I see.
    Ms. Earp. The plan that I will give you proposes to close 
that gap. This is a structural problem that we have lived with 
probably for twenty years.
    Mr. Mollohan. When will you be able to get that plan up to 
this Committee? How long will it take you to do that?
    Ms. Earp. My Budget Director thinks about a week, maybe 
two.
    Mr. Mollohan. Okay. Does your Budget Director have that in 
his head? Okay, but you are going to pull it together and get 
it up here within a week? All right. Just sharing some ideas. 
You are hiring x number of people to bring the call center in-
house.
    Ms. Earp. Yes.
    Mr. Mollohan. How many offices do you have across the 
country?
    Ms. Earp. Fifty-three.
    Mr. Mollohan. Fifty-three. Are you going to hire an intake 
person, that is a person who will be replacing the 
responsibilities of the call center, in every one of the fifty-
three offices?
    Ms. Earp. No, fifteen.
    Mr. Mollohan. Okay, I thought I heard that. So you are only 
going to have those in fifteen offices?
    Ms. Earp. Yes.
    Mr. Mollohan. And how many people will that be in each of 
the fifteen offices?
    Ms. Earp. It varies by the size of the district, but we are 
hiring sixty-six total, which includes sixty-one to actually 
answer the phone and the rest are either tech support or 
supervisors.
    Mr. Mollohan. I see. And the places you think you are 
saving is on the supervisors and the tech support, I guess?
    Ms. Earp. Yes.
    Mr. Mollohan. This is a huge attrition due to retirement. I 
think it is. I am just wondering if it would not be a good idea 
to hire, going back to my previous questions, people who are 
credentialed higher than you would normally think of hiring for 
an intake person, and look to move those people into 
investigators and attorneys positions. See, that would be a 
terrific training ground to move people in. Then you would ask 
for budgets to support them.
    Ms. Earp. Well, I would note that while 40 percent of our 
employees are eligible to retire over the next five years, the 
fact is EEOC's employees stay on average six to eight years 
beyond retirement eligibility. So those employees who are 
eligible to retire, we still believe that for most of them the 
exit will be a lot slower.
    Mr. Mollohan. So that is about 20 percent?
    Ms. Earp. It is about 19 percent a year actually eligible 
to leave.
    Mr. Mollohan. All right, well whatever those numbers are I 
just think that would be a good way to get talent into the 
entry level of your organization. When they were hired, if they 
are interested in this kind of work, and people who are 
interested in it are passionate about it, then they know that, 
wow, there is an opportunity for advancement. Again this is off 
the top of my head and I am not doing anything but sharing 
thoughts with you.
    But I will say this. This cannot fail. With these backlog 
rates, and we are going to do our very best to look at funding 
and be responsive to these numbers you come up with, you cannot 
fail here. If hiring people at these fifteen offices does not 
work, that is a bad thing. So you need to be really carefully 
looking at the successful transition of the call center to the 
in-house function. I respect totally that you live with this 
every day. We are going to be making judgments after the fact, 
which is always easier to do. But because of your expertise you 
are in a better position to make these judgments prospectively. 
But you cannot fail in this. We have backlogs here. This is the 
United States of America and this backlog record from 2001 is 
abysmal. We have all talked about that and you totally agree 
with it. We are agreeing together here, and I am sure most 
people sitting here also agree. This Committee wants to support 
you. So we need to know what to do.
    If only putting people in fifteen of these call centers is 
not good enough then you need to rethink it. If it is, that is 
great. If bringing people in who are more credentialed into 
these entry level positions, opportunity made available because 
you are bringing the call center activity in-house, I think, 
just off the top of my head that sounds like a great strategy. 
I think you need to do a cost benefit analysis regarding the 
various levels of expertise that can handle your intake. In 
other words, if you bring somebody into these call center 
positions or these entry level contract positions that is a 
little higher credentialed, that is a great training ground. 
They are going to move up and they can resolve cases. But what 
is the rate, and is there an opportunity to help reduce the 
backlog and to resolve charges at the entry point if there are 
people handling those entry level calls that have greater 
capability? Or greater experience, however you want to say 
that? That would be kind of a cost benefit. Maybe you pay a 
little more money for them, but you resolve more cases. I 
assume even somebody taking a call right now with the entry 
level people you are hiring can resolve some of these cases----
    Ms. Earp. Mm-hmm.
    Mr. Mollohan [continuing]. Probably, just by giving them 
information, right? So that is more of a speech, but do you 
have any thoughts to express on that?
    Ms. Earp. I would just like to underscore how pleased we 
are to have the $12 million increase and the opportunity to 
begin to address some of these structural issues. It is 
absolutely imperative that EEOC have a human capital plan that 
includes position management. I would agree with you that we 
need to refine exactly what skill at what level is needed along 
the continuum.
    Mr. Mollohan. Yes.
    Ms. Earp. Maybe for the most complex, the most nuanced 
charges, having a front line staff doing intake that is highly 
skilled and therefore expensive in some small number of cases 
is the way to go. But for 60 percent, perhaps, of the people 
who call, perhaps we would not want to spend more than what we 
are already investing. But I am very happy to continue to 
explore that and to provide for the record some thoughts on how 
to close the gap in our funding.
    Mr. Mollohan. Well again, nothing I have said is a judgment 
about this. I am in a poor position to make those judgments. 
You are in an excellent position with this good staff behind 
you to make those judgments. But I do think I am correct in 
looking at the number of folks that at least are eligible to 
retire and the fact that you are increasing the number. You can 
look at all this as an opportunity. You know, you need to do it 
right. And hopefully you really are and I know you are trying. 
Mr. Frelinghuysen.

                          KNOWLEDGE MANAGEMENT

    Mr. Frelinghuysen. According to your budget document, and I 
quote, ``to move towards the vision of knowledge management, 
EEOC obtained external expert resources to conduct a knowledge 
management study, et cetera, et cetera, et cetera.'' Where is 
that study?
    Ms. Earp. Well, we are actually implementing some of it 
with the in-house call center. To make sure that the people on 
the front line have the appropriate understanding of civil 
rights law to be able to vet the questions and respond to 
callers in an effective way.
    Mr. Frelinghuysen. Well, it is more than that though, is it 
not?
    Ms. Earp. Yes.
    Mr. Frelinghuysen. And it falls under the title of 
information technology, employing the latest technology.
    Ms. Earp. Yes.
    Mr. Frelinghuysen. The gathering of statistics, of data, 
and drawing some conclusions from that data. So it is more than 
reinvigorating or educating the intake workers that are now 
back in the fifteen different centers.
    Ms. Earp. Well, in the sense that the technology is used to 
give the intake workers scripts and scenarios that allow them 
to immediately look to see is the caller stating a fact 
pattern, that more easily guides the intake worker to what the 
answer is. It is putting the knowledge in an easily accessible 
way through technology.
    Mr. Frelinghuysen. You completed this analysis in 2007?
    Ms. Earp. Yes.

                                OUTREACH

    Mr. Frelinghuysen. My last question. In terms of outreach 
and education, wherever I go, whatever office I visit, 
prominently there is usually some poster which has the EEOC. 
While people may get it, some sort of ignore it because it is 
on the wall for a long time. However, it is a viable document. 
How would you characterize your outreach? In other words, some 
things are so innate and so abominable. But in many ways you 
are proactive on the prevention side of things here. There is a 
certain maturity out there, but in some cases, you are 
reinforcing things which are so basic, so obvious, so human. 
How are you doing your outreach? How would you characterize 
your outreach these days?
    Ms. Earp. We would characterize our outreach as highly 
effective and a contributing factor in the rising receipts.
    Mr. Frelinghuysen. Good. Thank you, Mr. Chairman.

                       STATE AND LOCAL ASSISTANCE

    Mr. Mollohan. Thank you. Your fiscal year 2009 request 
contains a reduction in EEOC's support to state and local Fair 
Employment Practice Agencies and Tribal Employment Rights 
Organizations. At the requested level you will reimburse the 
FEPAs and the TEROs about $26 million in 2009, which is $3 
million less than you reimbursed them for, or are planning to 
reimburse, in fiscal year 2008. What is the justification for 
this reduction in state and local assistance?
    Ms. Earp. The workload.
    Mr. Mollohan. Has gone down?
    Ms. Earp. For the state and local agencies, yes.
    Mr. Mollohan. Is that demonstratable across the country?
    Ms. Earp. Yes.
    Mr. Mollohan. Well, would you give us detail on that 
please?
    Ms. Earp. Sure.
    Mr. Mollohan. I mean right now. Can you do it right now? 
Talk to us about how the workload has gone down.
    Ms. Earp. Well, the state and local agencies around the 
country are somewhat uneven. They have different 
responsibilities. Some of them can take a charge all the way to 
an administrative decision. Others merely complete an 
investigation. But over the last several years, the charge 
receipts from state and local agencies have trended downward.
    Mr. Mollohan. And this reduction will not result in an 
increase of charges being carried forward, or create a backlog 
at the state and local level?
    Ms. Earp. We do not think so because the charges are 
considered dual filed. When they are filed with the state or 
local agency, or whether they are filed with us, ultimately 
they are considered filed with EEOC.
    Mr. Mollohan. Well if that is true I would think almost by 
definition they would be carrying increased backlogs. Because 
you are, and if they are dual filed and you are not disposing 
of them, then why are they not increasing at the state level?
    Ms. Earp. Well we think that is why our receipts are going 
up, because they are decreasing at the state and local level.
    Mr. Mollohan. Well, would it not be to your advantage then 
to promote the states taking up and disposing of these cases at 
the state level? And are you doing that?
    Ms. Earp. We work very, very closely with the FEPAs. We use 
some of them not just for processing charges but conducting 
investigations, mediations----
    Mr. Mollohan. But are you promoting their taking cases? I 
guess that is an outreach and education effort and I know that 
your outreach and education budget is going down.
    Ms. Earp. Because the front line activities, our priorities 
are investigations and legal to put----
    Mr. Mollohan. Do you think the states are not taking cases, 
or are assuming a declining responsibility in this area in part 
because they are not being encouraged or educated or outreached 
by the national EEOC?
    Ms. Earp. No, I do not think that.
    Mr. Mollohan. Really?
    Ms. Earp. I think that across the country there are complex 
reasons why some state and local agencies do very well and some 
do not. On average, their receipts have been trending downward.
    Mr. Mollohan. No, I know that and that is why we are asking 
these questions. I am sure it is an uneven experience across 
the United States. Some states are leaning forward in this area 
and some states not. But that was not my question. My question 
was, do you think you could reverse what is an unfortunate 
trend line? With backlogs going up nationally there is 
obviously a need out there. So it is unfortunate that the 
states are not taking it up. But is that possibly in part 
because the federal government is not being aggressive enough 
in outreaching and encouraging the states to take on this 
responsibility? Which if they were to do it would arguably 
lighten your load.
    Ms. Earp. I think that we could always improve our support 
of the FEPAs by advancing them more.
    Mr. Mollohan. Well, you have a variety of outreach and 
education programs. I really would like to know an answer to 
this. You are requesting less and less money all the time for 
education and outreach. That is going down. I know the focus of 
your outreach and education is to the companies, it is to the 
communities, it is telling people what their rights are. But is 
part of your education and outreach program to the states also? 
Or not?
    Ms. Earp. It could be. Typically they are our partners in 
the various outreach activities.
    Mr. Mollohan. Okay. Well these three sources are on the 
decline and your justification states that, ``We plan to reduce 
the resources committed to this activity,'' outreach, ``to 
support our administrative enforcement inventory reduction.'' 
Well, we are extremely supportive of backlog reduction. But I 
am not sure I see why that would come at the expense of 
outreach and education. Why should we treat these two 
activities as though they were a zero sum game?
    Ms. Earp. Basically, because everything cannot be a number 
one priority.
    Mr. Mollohan. Basically because you have not been given 
enough money. You would like to have more money in education 
and outreach? Is that correct? You would like to have more. I 
am not asking you to disown OMB as much as you would like to. 
Well, that was presumptuous. I take that back. Don't tell them 
I said that, will you please, Mr. Frelinghuysen?

                       HEADQUARTERS RESTRUCTURING

    What is the status of your headquarters restructuring 
effort?
    Ms. Earp. It is on hold. We are a commission and we have 
not been able to reach a consensus, majority point of view, to 
reorganize headquarters.
    Mr. Mollohan. What options are being considered by the work 
group, or by the group of folks that are considering this 
question?
    Ms. Earp. Basically, the work group is looking at ways to 
be more efficient in the service to the field, to eliminate 
redundancies in headquarters, and there are a few. But at this 
point we do not see any consensus for moving forward.
    Mr. Mollohan. Does your budget request take into 
consideration a headquarter restructuring?
    Ms. Earp. No, but it does take into consideration about a 
20 percent attrition rate of headquarters staff.
    Mr. Mollohan. Do you think that is realistic?
    Ms. Earp. It has been borne out more or less, senior people 
retiring in Washington.
    Mr. Mollohan. Well, are they not going to be replaced?
    Ms. Earp. Where we have the opportunity to replace for the 
most part we are not doing it at headquarters. We are replacing 
in the field.
    Mr. Mollohan. How many people do you have working in 
headquarters?
    Ms. Earp. 450.
    Mr. Mollohan. And as they retire? What explains the 
attrition?
    Ms. Earp. Mostly retirements, but also promotions and just 
other opportunities.
    Mr. Mollohan. Okay. And you are not replacing these people?
    Ms. Earp. For the most part, no.
    Mr. Mollohan. Does the fact that you are not replacing them 
partly explain your growing backlogs?
    Ms. Earp. No. Washington has less effect on helping to 
process the inventory than the field does.
    Mr. Mollohan. Have you done an assessment of what is needed 
in headquarters in terms of employment recently? Because it 
sounds like you do not need this number of people, if you are 
not replacing them when they leave.
    Ms. Earp. We hoped to accomplish just that with the 
headquarters working group but, again, we were not able to 
reach consensus so we have not had an opportunity to fully 
review where efficiencies could be gained in headquarters.
    Mr. Mollohan. Well, we need a little more information on 
this. I mean, most agencies can tell you how many people they 
need operating in the various offices that are under their 
jurisdiction. So I guess the question is, how many people do 
you need working at headquarters? Can you tell us that?
    Ms. Earp. That is a question that I had hoped the working 
group would answer.
    Mr. Mollohan. Well of course you are answering it as a 
matter of practice every day when you are not replacing people 
who are leaving. You are saying, ``Well, we do not need that 
person.''
    Ms. Earp. Well, what I am doing is robbing Peter to pay 
Paul. Essentially, if I have a GS-14 who retires in Washington, 
D.C. but I need an investigator in Tupelo, Mississippi I am 
going to try to make sure I put that investigator close to the 
field, to where that person is needed in the field. It is 
prioritizing.
    Mr. Mollohan. Have you had an outside entity, GAO or the 
IG, look at your staffing needs from headquarters down to the 
field offices recently?
    Ms. Earp. The working group that looked at headquarters 
repositioning essentially recommended that we have an outside 
firm with organizational development expertise look at 
headquarters.
    Mr. Mollohan. When was that recommendation made?
    Ms. Earp. Last fall.
    Mr. Mollohan. And what has happened to that recommendation?
    Ms. Earp. We have not acted on it because to spend the 
money we need a consensus from our commissioners to do it. And 
there is no consensus.
    Mr. Mollohan. How much money would be involved? Do you have 
an estimate?
    Ms. Earp. Quarter of a million dollars.
    Mr. Mollohan. In other words, some of the commissioners 
want to have the study and some commissioners do not?
    Ms. Earp. Yes. And for some of the commissioners timing is 
important.

                        HEADQUARTERS RELOCATION

    Mr. Mollohan. Okay, I feel like we just got into a 
political quagmire here and I do not know where to go exactly 
with this so we will follow up in different ways. You are 
planning on relocating your headquarters from L Street to M 
Street. Where are you on L Street?
    Ms. Earp. Right now we are at 1801 L, Northwest.
    Mr. Mollohan. 1801 L Street, just off Connecticut Avenue?
    Ms. Earp. Yes, a block up.
    Mr. Mollohan. How long have you been there?
    Ms. Earp. Almost twenty years.
    Mr. Mollohan. So you are one block north? M? H, I, J, K, L, 
M?
    Ms. Earp. We are moving to NOMA in Northeast.
    Mr. Mollohan. Well, everybody wants to get in on this. Are 
we excited about this move? So southeast?
    Ms. Earp. Northeast.
    Mr. Mollohan. Oh, northeast. Northeast, okay. Well, your 
security costs are supposed to go up by $1 million? Somebody 
has done a study here and came up with that estimate, is that 
correct?
    Ms. Earp. Well, basically the Department of Homeland 
Security tells us what our security costs will be.
    Mr. Mollohan. Oh, really. It is in their building or 
something?
    Ms. Earp. Well, they control how many cameras----
    Mr. Mollohan. Okay.
    Ms. Earp [continuing]. How many guards we have to have.
    Mr. Mollohan. Okay, how are you going to pay for that?
    Ms. Earp. Some of it is absorbed in the cost of the move 
because we have been planning for the move for a number or 
years, and GSA has built it into this total move package.
    Mr. Mollohan. Because you have not requested anything for 
the extra security.
    Ms. Earp. No.
    Mr. Mollohan. Well, that is an annualized item, is it not?
    Ms. Earp. Yes.

                     ENGLISH ONLY IN THE WORK PLACE

    Mr. Mollohan. Okay. I have to ask a question about English-
only workplace rules. As you are certainly aware, there has 
been considerable congressional interest in the EEOC's pursuit 
of discrimination charges relating to English-only workplace 
rules. I would like to give you an opportunity to explain 
EEOC's legal reasoning on these cases and to put them into 
perspective compared to EEOC's overall employment 
discrimination workload. It is my understanding that the EEOC 
supports an employer's right to promulgate an English-only 
rule, but only in certain circumstances. So can you explain to 
us those circumstances where English-only rules are necessary 
and those where they are discriminatory?
    Ms. Earp. Very briefly, the Equal Employment Opportunity 
Commission does not believe that employers should have proxies 
for race or national origin, or any other unlawful basis. And 
sometimes requiring English can be a proxy for discrimination 
based on national origin. If the job involves health, safety, 
those kind of things, we believe that an employer should be 
able to make a rational justification to require English within 
the context of the job. Not, however, when a person is on a 
lunch break or a bathroom break, or coming or going to work. It 
is a thirty-year policy of EEOC.
    Mr. Mollohan. You sounded like you really got into your----
    Ms. Earp. That is my comfort zone.
    Mr. Mollohan [continuing]. Into your comfort zone right 
there. Good for you. What portion of your charge receipts 
allege discrimination based on English-only policies?
    Ms. Earp. Very, very, very small.
    Mr. Mollohan. Very few?
    Ms. Earp. Very few.
    Mr. Mollohan. Are you familiar with the provision that the 
Senate tried to put into our bill last year regarding this 
matter?
    Ms. Earp. Yes.
    Mr. Mollohan. Without getting into it, did you oppose or 
support that initiative?
    Ms. Earp. I support my agency's thirty-year policy. I 
believe it is.
    Mr. Mollohan. Which that would have contradicted. That 
provision would have contradicted it. It would not have been 
consistent with the standard you just testified to, am I 
correct?
    Ms. Earp. Employers can require that English be spoken when 
there is a rational, business reason to do that.
    Mr. Mollohan. Okay. All right. Mr. Frelinghuysen? Okay. We 
will have some questions for the record. We very much 
appreciate your testimony here today. We appreciate your good 
work trying to work with declining scarce resources each and 
every year during the last eight or so years. We appreciate the 
good work of all of your staff, those who are here and those 
who are out in the field working hard to see that the mission 
of the EEOC is carried out properly and effectively. So thank 
you again for your testimony. We look forward to working with 
you and getting some information from you that you have 
committed to supplying to us in the next short time frame.
    Ms. Earp. Thank you, sir.
    Mr. Mollohan. Thank you very much, Ms. Earp. The hearing is 
adjourned.
    [Questions and answers submitted for the record follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Wednesday, April 2, 2008.

                       LEGAL SERVICES CORPORATION

                               WITNESSES

HELAINE M. BARNETT, PRESIDENT, LEGAL SERVICES CORPORATION
FRANK B. STRICKLAND, CHAIRMAN, LEGAL SERVICES CORPORATION

                   Opening Statement by Mr. Mollohan

    Mr. Mollohan. The hearing will come to order. Well, good 
afternoon. We welcome two witnesses to testify on the fiscal 
year 2009 budget request for the Legal Services Corporation, 
Ms. Helaine Barnett and Mr. Frank Strickland, respectively, the 
LSC's President and Board Chairman.
    Established in 1974, the Legal Services Corporation's 
mission is to promote equal access to justice in our nation and 
to provide high quality, civil legal assistance to low income 
people.
    The Legal Service Corporation carries out this mission by 
awarding grants to legal service providers in more than 900 
locations across the nation. The Legal Services Corporation 
budget request for the fiscal year 2009 is $471,400,000 an 
increase of $121 million over the current year funding level.
    In 2005 the LSC issued a Justice Gap report which was a 
nationwide study which found that half of the eligible people 
who seek legal help from LSC funded programs are turned away 
due to lack of resources. Clearly, there is much work to be 
done to improve America's access to justice.
    Ms. Barnett and Mr. Strickland, we appreciate your efforts 
to grant people access to justice. We welcome your testimony. 
And before you proceed, I would like to call on my Ranking 
Member, Mr. Frelinghuysen.

                 Opening Statement of Mr. Frelinghuysen

    Mr. Frelinghuysen. Thank you, Mr. Chairman. I join the 
Chairman in welcoming you both to testify about your 2009 
budget request. The Act that created the Legal Services 
Corporation in 1974 provided you with pass through budget 
authority and therefore you can provide the Appropriations 
Committee with an independent assessment of your funding 
without OMB approval.
    We know those amounts. I think we are aware that the 
President's budget requested a lower amount, $311 million which 
is $39.5 million below the fiscal year 2008 level. Also, you 
have had two recent GAO reports that contain many 
recommendations on governance, oversight, and grants 
management. I will have some questions about the follow up work 
you are doing in that regard. And like the Chairman, I welcome 
you. Thank you for the good job you are doing.
    Mr. Mollohan. Thank you. Both your written statements will 
be made a part of the record and Chairman Strickland would you 
like to proceed?

                           Opening Statement

    Mr. Strickland. Yes. Thank you, Mr. Chairman. Chairman 
Mollohan and Congressman Frelinghuysen and members of the 
Subcommittee, thank you for giving me the opportunity to 
testify today on the work of the Legal Services Corporation. 
And on behalf of our Board of Directors, I want to thank you 
for the continued support that you have shown for this program. 
It means a great deal to the lives of our clients and fulfills 
our obligation as citizens to support equal access to justice.
    We have a dedicated and committed team of directors, each 
of whom take their obligations very seriously. The Board fully 
supports our appropriations request for fiscal year 2009 and 
feels that it is based on a necessary assessment of where we 
need to be on the road to closing the justice gap in America.
    The Legal Services Corporation is the largest single source 
of funding for civil legal aid for low income individuals and 
families. We fund 137 programs with more than 900 offices 
serving every congressional district. More than 95 percent of 
LSC appropriations are distributed to these programs. The 
Corporation provides guidance, training and oversight to ensure 
that programs provide high quality legal services and comply 
with congressional restrictions, LSC rules and regulations.
    In that regard, I would like to address at the outset the 
issue of two GAO reports on LSC. As you know, GAO published 
reports in 2007 and early 2008 on our Corporation's governance 
and grants management. We appreciated both of these reviews and 
accepted all of the recommendations. With regard to the 
governance and accountability report, the Board has approved a 
code of ethics and conduct for directors, officers, and 
employees of the Corporation; established a separate audit 
committee of the Board; and approved a charter for that 
Committee, and approved the continued use of the Government 
Accounting Standards Board guidelines for LSC's financial 
reports.
    LSC management has completed the first phase of a 
continuity of operations plan for the Corporation, which has 
been disseminated to all LSC staff. In addition, we have begun 
an intensive review of the elements of a risk management 
program so that we can adopt a best practices program 
commensurate with the size and budget of LSC.
    With respect to the GAO report on LSC's grants management 
and oversight, the Board of Directors at its January 2008 
meeting appointed an ad hoc committee consisting of three board 
members, one of whom I designated as board liaison. We assigned 
them to work directly with LSC management and its Office of 
Compliance and Enforcement, the Office of Program Performance, 
and the Office of Inspector General to implement the 
recommendations of the GAO reports.
    The Board liaison held two day long meetings at which 
representatives of these offices identified each aspect of 
fiscal oversight, areas where improvement could be made, and 
areas where greater communication and organization would 
improve fiscal oversight and help achieve the LSC mission.
    Importantly, management and the OIG identified in detail 
the oversight roles and responsibilities of each relevant 
organization within LSC, and in so doing specifically addressed 
oversight of the independent public accountant process.
    The Ad Hoc Committee has briefed the Board and the Board is 
expected to act on the Ad Hoc Committee's recommendations 
regarding a delineation of roles and responsibilities during 
its meeting at the end of April. As you know, the report on 
grants management contained troubling references to alleged 
improper use of grant funds by nine LSC funded programs. Eight 
of the nine cases were referred to the then acting assistant 
inspector general on November 20, 2007 by President Barnett.
    The compliance review of the ninth program, Nevada Legal 
Services, had begun prior to the GAO report and was retained 
for a follow up by the Office of Compliance and Enforcement. 
That report is near completion and further action will result. 
In addition, in an advisory to all LSC funded programs dated 
March 20, 2008, President Barnett reminded executive directors 
of the need for appropriate documentation of expenditures of 
LSC funds, of the regulations regarding unallowable costs, and 
specifically stressed the prohibition of expenditures for 
alcohol and lobbying, the need for written policies governing 
salary advances, and a reminder of the regulation governing 
derivative income.
    The OIG has visited three grantees and is scheduled to 
visit the other five over the next two months. The OIG has 
reported to us that for the three sites already reviewed and 
based on the OIG's preliminary analysis, management at the 
grantees has taken corrective actions based on the GAO 
recommendations and has implemented or is implementing 
additional controls to prevent those issues from recurring.
    And speaking of the OIG, I am pleased to announce the 
appointment of Jeffrey E. Schanz as the Corporation's Inspector 
General effective March 3, 2008. Mr. Schanz is in the audience 
today. Mr. Schanz comes to LSC from the U.S. Department of 
Justice where he served for the past 17 years as Director of 
the Office of Policy and Planning in the Audit Division at the 
Office of the Inspector General at the Justice Department.
    Mr. Chairman, we are taking these matters very seriously 
and are giving our highest priority to implement all the 
recommendations with speed and diligence. All of this effort is 
in recognition of the fact that stewardship of taxpayer dollars 
is among our most important responsibilities.
    Our Board remains proud of this program and the critical 
role it plays in our nation's justice system. And we will 
continue to ensure that LSC provides the most effective and 
efficient representation possible of the civil legal needs of 
the eligible poor throughout this country.
    Thank you and I would be happy to answer questions at the 
appropriate time.
    [Written testimony by Frank B. Strickland Chairman, Legal 
Services Corporation]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Mollohan. Thank you, Mr. Strickland. President Barnett.

                           Opening Statement

    Ms. Barnett. Chairman Mollohan, Congressman Frelinghuysen, 
thank you very much for holding this hearing and giving me the 
opportunity to testify on the fiscal year 2009 budget request 
of the Legal Services Corporation. I also want to thank you for 
the bipartisan support you continue to provide LSC.
    While I know that you share our disappointment in how the 
budget process ended last year, our community greatly 
appreciates your efforts in attempting to help close the 
justice gap.
    At the outset, I wish to echo the sentiments of Chairman 
Strickland regarding the reports of the Government 
Accountability Office. I want to assure you that I am sincere 
when I say that we truly embrace those reviews, take them with 
the utmost seriousness, and welcome the opportunity they afford 
us to do our job even better.
    Oversight of the use of scarce resources is necessary and 
appropriate. And as Chairman Strickland said, we are responding 
aggressively to the concerns and recommendations made by GAO. 
Our job is important and it is vitally important that we carry 
it out with energy and the proper level of stewardship.
    And why is it important? As you know, my entire career has 
been devoted to providing legal aid to low income persons. I am 
honored to be the first legal aid attorney to hold the position 
of President of the Corporation in its 34 year history. I know 
firsthand what our mission means to the lives of our clients. 
In fact, civil legal assistance to the poor literally saves 
lives. When we assisted a young family in Wheeling from being 
evicted and falling into homelessness, when we saved a battered 
wife in Memphis from a violent and abusive marriage, when we 
helped a young mother in South Jersey maintain custody of her 
little girl, and when we saved a Baltimore grandmother from 
losing her home to foreclosure, our programs are literally 
saving the lives of our clients and giving them a chance to be 
productive members of society.
    But legal aid is more than that. In a very direct way it 
saves money by preventing the downward spiral of the poor into 
costly public support. Ensuring that our clients are adequately 
represented in the civil justice system greatly improves their 
chances of keeping a home rather than moving into a shelter; 
holding a job rather than going onto public assistance; 
receiving medical care rather than costly hospitalization; 
escaping an abusive relationship rather than suffering further 
injury and even death.
    In short, civil legal assistance saves both lives and 
money. Someone asked me the other day what was the hardest 
thing I ever had to do as a legal aid lawyer. Without a 
moment's hesitation I said having to tell someone we couldn't 
help them knowing they had nowhere else to turn was the hardest 
task I ever had to do.
    Our Justice Gap report has documented that for every 
eligible client that we are able to assist, one is turned away 
due to lack of resources. Recent State legal need studies and 
reports since the Justice Gap report not only affirmed the 
earlier findings, but showed that the needs may well have been 
understated in the report.
    The Justice Gap report concluded it will take a doubling of 
the resources from both federal and non-federal sources to fill 
the Justice Gap. While I am pleased to report a rise in non-
federal resources for civil legal aid in 2005 and 2006, in the 
past year the fiscal problems of many State governments and 
IOLTA programs have threatened this progress.
    The $22 million increase that this Subcommittee was able to 
give LSC in 2007 was our first federal increase in four years 
and was a good start. But we need to work with you and the 
Senate to continue that progress this year.
    With respect to the fiscal year 2009 budget, LSC requests 
an appropriation of $471 million, an increase of approximately 
$40 million over our fiscal year 2008 request. Again this year 
more than 95 percent of the request is for basic field grants 
to programs that provide essential civil legal assistance to 
low income Americans and for grants to programs to improve 
efficiency and effectiveness through the use of technology.
    Since we testified before this Subcommittee last year, the 
sub prime mortgage crisis across the country and the rise of 
foreclosures has overtaken many of our clients and flooded many 
of our programs with requests for assistance. Renters and 
senior citizens with fixed incomes are especially vulnerable to 
be displaced by foreclosure. Our programs across the country 
are seeing a dramatic increase in calls from people seeking 
assistance with housing and predatory lending matters. Without 
additional funding, these programs will be unable to meet this 
increasing demand for legal services.
    In addition, LSC funded programs continue to provide civil 
legal assistance as part of the recovery process to victims of 
natural disasters such as hurricane Katrina, fires in Southern 
California, floods in the Midwest, tornados recently in 
Tennessee and Arkansas. More than two and a half years after 
hurricane Katrina, LSC grantees continue to help people with 
the loss of their homes, jobs, and health care. I know from my 
own experience with 9/11 in New York City that the legal 
problems of victims of disasters continue for many years to 
come.
    In conclusion, Mr. Chairman, as you noted at this hearing 
last year, the appropriation for the Legal Services Corporation 
amounts to less than half of what was provided in 1981 in 
inflation adjusted dollars. Fourteen years ago LSC received 
$400 million from Congress. The LSC Board and I urge you to 
restore adequate funding for the provision of civil legal aid 
to the most vulnerable among us.
    In this effort the federal government must lead the way 
consistent with its role in fulfilling the promise of our 
constitution, the promise inscribed on the Supreme Court 
Building, ``Equal justice under law.'' I can assure you that 
your support will not only help fulfill the promise, it will 
literally save more lives.
    Thank you and I would be happy to answer your questions.
    [Written testimony of Helaine M. Barnett, President, Legal 
Services Corporation]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                FUNDING

    Mr. Mollohan. Thank you, Ms. Barnett. You raised the issue 
of your funding in the past years in comparable dollars what 
would your request be this year if you were to receive the 
appropriation you received in 1995, which in your chart here is 
$400 million? Do you know the answer to that?
    Ms. Barnett. Probably more than, certainly more than what 
we are asking for and probably closer to the seven hundreds.
    Mr. Mollohan. I would guess.
    Ms. Barnett. I am getting the----
    Mr. Mollohan. Well you can get a better number for the 
record.
    [The information follows:]

    Congress appropriated $400 million to LSC for fiscal year 1995. Had 
LSC's funding kept pace with inflation with its 1995 level, LSC would 
be receiving $555.6 million today. In addition, if LSC's funding had 
kept pace with inflation on our FY 1980 funding level of $300 million 
(high-water mark), our funding level today would be $770.7 million.

    Ms. Barnett. Certainly.
    Mr. Mollohan. But I am sure that is right. So your request 
is considerably lower than what your highest funding level was 
some----
    Ms. Barnett. Fourteen years ago.
    Mr. Mollohan. Fourteen, thirteen, fourteen years ago. Well 
Legal Service Corporation has certainly been looked at here. 
The IG last year, the GAO this year. And you have embraced the 
recommendations which seems don't know how you could be more 
responsive. And you are in the process of developing methods 
and procedures and requesting funding so that you can even 
expand your oversight capabilities, both financial activities 
and programmatic activities. Is that correct?
    Mr. Strickland. Correct.

                                  GAO

    Mr. Mollohan. Chairman Strickland, do you want to speak to 
that a little more than you did in your testimony? And in 
regard to the nature of the concerns that GAO has come up with 
and how you think that defines the Legal Services Corporation 
today.
    Mr. Strickland. Well I think the Board has been 
extraordinarily responsive to the report on governance of the 
Corporation. As I outlined, we moved very quickly on that at 
the January meeting here in Washington and we continue to move 
ahead on that.
    As I said, we have already adopted a comprehensive code of 
ethics and conduct. That is already in place. That is for the 
whole organization, not just for the Board. Another 
recommendation that the GAO had for us was to develop a 
continuity of operations plan. That is not in place, but it is 
well under way in terms of its development.
    We are also looking at a number of things that are in the 
category of best practices, best management practices, so that 
we can adopt a program for LSC that fits us as opposed to some 
much larger organization.
    And the most recent thing we did, which was something that 
the GAO, as I recall it, asked us to consider, and that is 
whether to have a separate audit committee. We did have that 
function under our Finance Committee and our Ad Hoc Committee 
which was appointed in January, brought to us a recommendation 
that we should have a separate audit committee. And the Board 
in a conference call meeting within the past couple of weeks 
accepted that recommendation and approved a charter for the 
audit committee, and delegated to me as is typical for an 
appointment of committees, that responsibility. So I have 
appointed the Audit Committee and the Board also approved a 
charter for the Audit Committee.
    So we have taken a number of steps.
    Mr. Mollohan. What would be the responsibilities of the 
Audit Committee?
    Mr. Strickland. The Audit Committee will work in 
conjunction with the Inspector General relying on the 
professional side of the equation and looking to the IG to 
bring recommendations for LSC's outside accounting firm, which 
performs an annual audit of LSC's books and records.
    So the IG and the Audit Committee of the Board will work 
together in that effort to select the auditor, oversee the 
audit function itself, receive and review the annual report 
from the accounting firm and then bring that to the Board.
    Mr. Mollohan. Ms. Barnett, are all of your programs audited 
across the nation?
    Ms. Barnett. Yes, Mr. Chairman. Every LSC grantee is 
required by the LSC Act to have a financial audit each year. 
And in 1996 Congress and the Appropriations Act actually 
designated the independent public accountants to be under the 
supervision of the Office of the Inspector General. And the 
audits have to be completed on an annual basis. They are given 
to the Office of the Inspector General who is to refer to 
management any findings that need followup.
    Mr. Mollohan. So typically a local program would hire a 
local accounting firm to conduct an audit of that particular 
program at that site?
    Ms. Barnett. That is correct.
    Mr. Mollohan. And do they have a uniform set of criteria 
besides what normally the accountants look at in order to judge 
the program by?
    Ms. Barnett. Well, the Office of the Inspector General has 
an audit guide and a compliance supplement that they are given. 
I think as a result of the GAO recommendations on grants 
management and oversight, we are working with the Office of the 
Inspector General and with the Board to clarify the roles and 
responsibilities of fiscal oversight. And to give guidance, 
further guidance, to both the auditors and to our grantees in 
their accounting manual with regard to the financial audits.
    Mr. Mollohan. So you are tightening up the financial 
requirements for your local programs?
    Ms. Barnett. We are certainly looking to give better 
guidance to the IPA's and to our programs. And as I said where 
we are working to clarify the roles and responsibilities and to 
improve our information sharing. So that I think as a result of 
the GAO report that is what will happen.

                                 HIRING

    Mr. Mollohan. Now you are requesting increased funding to 
hire additional personnel at the LSC offices. Could you tell us 
what that increased funding is for and what capabilities you 
need to be hiring?
    Ms. Barnett. I will be happy to. At the moment the 
Corporation has 88 persons in our Washington Headquarters 
office. Roughly half are devoted to our two offices that do 
oversight in terms of looking at program quality and compliance 
with regulations, rules, and the LSC Act.
    We have asked for an increase from $12.5 million to $17 
million. That would basically provide additional staff for 
those two offices to permit us to do more of the oversight, 
more visits in the field. The total request, I would point out, 
is only 3.8 percent of the total request for administration 
that we are requesting.
    So I think we are low by any standard. But we do feel we 
need more staff in order to be able to make more visits in the 
field. We do have 137 programs with 900 offices throughout the 
country, and the staff we are asking for, by the way, also 
includes management support. It is not everybody that can go to 
the field. But that is the basis for our request for management 
administration this year.
    Mr. Mollohan. Okay. Thank you. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Again, I welcome both of you. The first 
GAO report was issued in August, is that right?
    Mr. Strickland. Correct.
    Mr. Frelinghuysen. September of last year. And that first 
report indicated that a properly implemented governance and 
accountability structure might have prevented questionable 
expenditures in the incident where pay exceeded statutory caps.
    As a general question, I understand the notion from Mr. 
Strickland's testimony, ``We have accepted all the 
recommendations.'' That is accepting responsibility. And, you 
know, I am a supporter of the Legal Services Corporation. How 
many of the recommendations actually have been resolved?
    Mr. Strickland. Well----
    Mr. Frelinghuysen. I understand the exceptions noted, but 
how many have actually been resolved?
    Mr. Strickland. Well, for example, it was recommended that 
we establish a code of ethics and conduct. We have done that. 
It was recommended we have a continuity of operations plan. We 
are in the first phase of developing that plan. It is not quite 
as easy to develop that as it is a code of ethics and conduct.
    It was recommended that we make a decision on the use of 
the Government Accounting Standards Board guidelines for our 
financial statements. We have adopted that.
    There was a recommendation that we establish a separate 
audit committee. We have done that.
    Mr. Frelinghuysen. Lets just focus on that just for a----
    Mr. Strickland. On the Audit Committee?
    Mr. Frelinghuysen. You established a separate Audit 
Committee of the Board, which I think obviously is beneficial. 
Can you describe to the Committee what the Committee's charter 
is?
    Mr. Strickland. Well the charter is, I don't have it, but 
it is a fairly detailed charter. It runs on for several pages, 
but the essence of it is, and by the way, that----
    Mr. Frelinghuysen. More importantly, if you know if there 
is specific responsibilities what are they doing under the 
charter, the new vehicle, that they weren't doing before maybe 
in a general sense?
    Mr. Strickland. The Audit Committee as I mentioned has just 
been established in the past 30 days. And it has not had its 
first meeting. It will have its first meeting at the end of 
April at our Board meeting scheduled for that time.
    Mr. Frelinghuysen. So has the Committee's charter--is there 
a charter?
    Mr. Strickland. Yes, sir. There is a written charter, the 
charter was adopted.
    Mr. Frelinghuysen. The charter I assume embodies certain 
principles?
    Mr. Strickland. Yes. And I outlined----
    Mr. Frelinghuysen. And are they remarkably different than 
what you have been operating under in your prior life or?
    Mr. Strickland. I think they are considerably more 
detailed. What we had been operating under for a number of 
years were the typical corporate bylaws for LSC as a 
Corporation. The more current thing to do both in publicly 
traded corporations and non-profits is to have charters, that 
is a much more detailed outline of the responsibilities of 
Board Committees.
    So as I mentioned, we now have a much more detailed charter 
for our Audit Committee, which I think will enable that 
Committee to give much sharper focus to the oversight of LSC's 
financial statements and its own audit.
    The entire focus of the Board's Audit Committee is it 
doesn't really have anything to do with our grantees. It has to 
do with----
    Mr. Frelinghuysen. But the grantees themselves are audited.
    Mr. Strickland. Oh, yes. But they are not----
    Mr. Frelinghuysen. So under the purview of the Audit 
Committee surely would come the audits which would, I assume, 
be annually submitted by all of those programs under your area 
of responsibility?
    Mr. Strickland. Correct. But the responsibility for 
overseeing the independent audits of our grantee programs rests 
in the Office of Inspector General.
    Mr. Frelinghuysen. What does the new Committee do then?
    Mr. Strickland. The new Committee's function is the 
oversight of LSC's own books and records, its internal 
functions. Overseeing its own independent public accounting. 
The selection of that accounting firm working with the auditor 
on LSC's audit. And receiving that report and presenting it to 
the Board.
    Mr. Frelinghuysen. Is this new Committee different? Well 
how is it different from what you had before?
    Mr. Strickland. Well before it was combined with our 
Finance Committee, which is primarily on the budget side of the 
equation. And as an adjunct it had a general responsibility for 
the audit. But it was almost entirely delegated, in fact it was 
entirely delegated to the Office of Inspector General to select 
the auditor, to oversee the audit, and to bring the auditor to 
the Board.
    So the----
    Mr. Frelinghuysen. So now the Board members take----
    Mr. Strickland. Now the Board members are right in the 
thick of it.
    Mr. Frelinghuysen. In the thick of it.
    Mr. Strickland. Right in the thick of it. That is the big 
distinction.

                           NEW CODE OF ETHICS

    Mr. Frelinghuysen. Your testimony describes a new code of 
ethics, new orientations and evaluation for Board members and 
the adoption of charters for each Board Committee. How many 
Board members are there? How regularly do they meet? And what 
is the time commitment that each of them makes in order to 
serve?
    Mr. Strickland. The Board as a matter of law has 11 
members. It is a bipartisan Board, also by law. We currently 
have ten members. One of our client Board members died and we 
have not brought on a replacement or the President has not 
appointed a replacement to the Board. So we have ten members. 
And we are, again, required by law to meet no less than four 
times per year. And in my tenure on the Board, which is just 
this month ending or actually--or yes, five years, we have met 
I would say on the average of seven to nine times each year. 
Four times in person and the balance in extended conference 
call meetings.
    Mr. Frelinghuysen. I think that is hugely admirable. In 
your testimony you described the new code of ethics. Is every 
member been run through that process and do they familiarize 
themselves with should we say the new posts?
    Mr. Strickland. It as you can tell from the discussion here 
the GAO report was issued last September. And between then and 
now, which is roughly six months, we have adopted some 
charters. They are all new to the Board. And the Board, I would 
say it is a fair statement that it is just getting acquainted 
with the essence of each of these charters.
    Now all the charters are not done yet. We have now with the 
Audit Committee, four standing committees of the Board. So the 
Audit Committee has its charter. The other charters are works 
in progress and are not yet in place.

                   NEW REQUIREMENTS FOR BOARD MEMBERS

    Mr. Frelinghuysen. Well I am not sure I fully understand 
it, but will all the new requirements for Board members be in 
place by the end of the year?
    Mr. Strickland. Oh, absolutely.
    Mr. Frelinghuysen. They will be?
    Mr. Strickland. No question.
    Mr. Frelinghuysen. And, lastly, the GAO also made some 
recommendations to Congress to consider making changes in law 
to Legal Services Corporation governance and accountability 
requirements, you are familiar with some of those 
recommendations?
    Mr. Strickland. I don't know that I--are you inquiring 
about the governance or a change in structure?
    Mr. Frelinghuysen. Governance and accountability 
requirements.
    Mr. Strickland. Some that are different from those in the 
GAO report?
    Mr. Frelinghuysen. I am not sure that you need to ask me 
the question.
    Mr. Strickland. I am trying to----
    Mr. Frelinghuysen. I am trying to figure out whether----
    Mr. Strickland. I am trying to clarify.
    Mr. Frelinghuysen [continuing]. If you are familiar with 
what the GAO has recommended.
    Ms. Barnett. Congressman Frelinghuysen?
    Mr. Frelinghuysen. And do you agree that the changes they 
have recommended are necessary to ensure proper oversight?
    Mr. Strickland. As we have said, we have accepted all the 
recommendations and we are working diligently to implement our 
responses to those and many of those are already in place. And 
we fully embrace them and intend to comply with all of them.
    Ms. Barnett. Congressman Frelinghuysen, if I could offer to 
please, as part of the record, we would send you the charter 
that was newly adopted for the Audit Committee and the code of 
ethics and conduct. And, yes, I would say every Board member is 
completely familiar with that code. We are in the process of 
ensuring that all our employees are familiar with it. They are 
going to have to acknowledge receipt and agree to abide by it.
    So I think that surely I would have answered by the end of 
the April Board meeting, I think, the Board is going to have 
acted on that.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. I am on your side, but I think these are 
the sort of questions that certainly are within the purview of 
our Committee.
    Ms. Barnett. Absolutely.
    Mr. Frelinghuysen. If there are some doubts about what you 
are doing, and I have no doubt about the mission of the Legal 
Services Corporation, certainly from the New Jersey experience, 
it would be good to address them head on. This is a pretty good 
venue to give us some pretty good assurances. So I think you 
have done that, Madam President.
    Mr. Strickland. I will say Mr. Frelinghuysen that having 
worked with this Board for five years I am absolutely convinced 
that every member of the Board is dedicated to what they are 
doing. And they demonstrate that every time I have the occasion 
to work directly with them at Board meetings and otherwise. And 
there has never been any doubt of that.
    Mr. Frelinghuysen. I am sure it is true dedication, but the 
GAO has found some weaknesses and obviously even despite that 
dedication there have been some identifiable weaknesses and I 
think we have a right to sort of----
    Mr. Strickland. I agree with you completely.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you. Mr. Fattah.
    Mr. Fattah. I just really want to complement what you have 
done by responding to the concerns that have been raised. 
Obviously, this is a very important agency to Philadelphia that 
has a done a great deal of service for thousands of my 
constituents.
    So, Mr. Chairman, I yield for any other questions at this 
time.

                               OVERSIGHT

    Mr. Mollohan. Well, I am impressed after reviews by the IG 
last year and by the GAO last year and this year that LSC is 
first of all being responsive to the governance issues raised 
by both of these entities, leaning really forward and 
reorganizing in such a way as that you are going to have better 
oversight.
    And I look at these issues that have been raised as being 
solvable by reorganizations and better communication with your 
grantees as to what is expected from them in their annual 
audits. Whatever weaknesses occurred in the internal controls 
over the grants management and oversight, it seems that you 
have taken immediate action. That is all to your credit, and is 
not at all surprising.
    I am comforted by the fact that in all that oversight I 
don't see any bombshells here. So it sounds like you are, 
number one, being responsive and number two, being responsive.

                             FUNDING LEVEL

    Mr. Mollohan. Now, you are requesting $471.4 million and 
that is $121 million over the current year funding level. In my 
first round I tried to get some sense of what would be the 
comparable dollars today if you were being funded at the 1995 
level. And you are estimating you are going to supply for the 
record a better number it would be over $700 million. You 
aren't nearly approaching the real number that you had back 
then and therefore you are not able to provide the services at 
the same level you were previously. Thus, the gap that we talk 
about.
    And I would like to give you an opportunity to talk about 
the gap to give the Committee an appreciation for what you are 
trying to say about it and how it translates into the needs of 
the country with regard to providing legal services for those 
who can't provide them for themselves.
    Ms. Barnett. The Justice Gap Report which was the first 
nationwide study as to eligible people who come to LSC funded 
offices throughout the country indicated how many were helped 
and how many we were not able to help. And as a result of 
surveying all of our programs it was uniformly reported that 
for every one person that was eligible and did receive service, 
we were unable to serve one because of lack of program 
resources.
    So we were meeting less than 50 percent of the need. Since 
the Justice Gap Report came out, there have been at least ten 
State legal need studies and reports that have documented far 
greater needs and indicate that our report understated the 
actual need, ranging anywhere up as high as 80 to 85 percent 
not being met.
    In addition----
    Mr. Mollohan. Good point.
    Ms. Barnett. Yes.

                              UNMET NEEDS

    Mr. Mollohan. You measured unmet need by the percentage of 
people who came into your office that you had to turn away. How 
is this unmet need that you didn't identify, how is that being 
measured?
    Ms. Barnett. With the State studies?
    Mr. Mollohan. Yes.
    Ms. Barnett. Each State study did it in a different way. 
Some were engaged academics. Some had consultants. I think in 
our written testimony we indicate and give the cites to all the 
State recent need studies. I would be happy to elaborate 
further on the way in which they use them. They were published 
reports by different entities in the States that document the 
needs as being far greater than the 50 percent that we 
documented by the request we made of our programs during a two 
month period in 2005.

                        NUMBER OF CLIENTS SERVED

    Mr. Mollohan. Are you able to relate the appropriations 
that you have received in the past and the number of clients 
that you have served compared to how many clients you could 
serve if you were to receive your request?
    And maybe you can do it for the record if you can't do it 
here today.
    [The information follows:]

    LSC grantees have been closing nearly a million a cases a year 
collectively. In 2006, with an appropriations of $326.5 million ($4.5 
million less than previous year), LSC-funded programs closed a total of 
895,000 cases. In 2007, LSC received its first funding increase of $22 
million, for a total appropriation of $348.5 million. LSC-funded 
programs closed an additional 11,000 cases than the previous year. 
While that number is substantial, since it was the first funding 
increase in four years, infrastructure and salary improvements are also 
being addressed. We would expect any funding increase in the future to 
result in an increase at least commensurate with the 2007 increase.

    Ms. Barnett. I would be happy to elaborate for the record. 
I can share with you that in 2007 when we got a $22 million 
increase in our funding we were able to close 11,000 additional 
cases and they are eligible cases regardless of the source of 
funding.
    Now that is a substantial number, but it would have been 
even more but for the fact it was the first federal increase we 
have had in four years. And our programs have infrastructure 
needs, their operating costs have gone up. They have salary 
needs. As you know, legal aid lawyers are the lowest paid 
lawyers in the public sector.
    And so in spite of that I would indicate that we would be 
able to increase the number of cases commensurate with the 
increase we did with the 2007 increase. But closed cases are 
not the sole measure of the services that Legal Services 
programs perform. They do an extensive array of non-case work 
that is preventative. They do community legal education. They 
do legal brochures. They do pro se assistance. They do self 
help materials.
    And in fact last year we handled 500,000 or close to 
somewhere between 500,000 and a million more of these 
additional services which would bring that up to 16,000 people 
being helped by them.
    Mr. Mollohan. Well if you were here asking for an 
appropriation that would close the gap as you defined it, what 
amount would you be asking for a federal appropriation?
    Ms. Barnett. Our Justice Gap Report said we needed a 
doubling of both the federal and the non-federal sources to 
close the justice gap at that time. And I think our Board 
recognizing political realities decided that they would ask for 
a 20 percent increase of basic field grant over five years.
    Well, clearly, we are not going to close the gap in five 
years. But that was the principled approach in trying to ask 
for an appropriation that would eventually help close the 
justice gap.
    But the justice gap is in fact a moving target. And it has 
increased by the needs of the sub prime loan mortgage crisis. 
And it has increased by the needs of victims from natural 
disasters. So in one point of time when we said what was the 
justice gap, the justice gap keeps increasing as the economy 
and these different disasters of one kind or another increase 
the number of poor people who are in need of and are eligible 
for free legal services.
    And today there are 50 million people that would qualify 
for eligibility for civil legal assistance.

                          TURNING AWAY CLIENTS

    Mr. Mollohan. Okay. So it is your testimony that for one of 
the one out of two people that you have to turn away that walk 
in your office and ask for help, that the person you have to 
turn away or that 50 percent, they would otherwise be eligible 
except you just do not have the capacity to provide service to 
them?
    Ms. Barnett. That is correct.
    Mr. Mollohan. They are turned away because you don't have 
enough resources to provide service to them. Otherwise, they 
are eligible. They are not excluded by any of the restrictions 
and----
    Ms. Barnett. That is correct. They are turned away solely 
because our programs don't have the resources to be able to 
assist them.
    Mr. Mollohan. Well that must be difficult to turn these 
people away. Do you simply turn them away? Do you refer them to 
other resources? You put them on a waiting list? How do you 
deal with the people you turn away?
    Ms. Barnett. Well as I indicated in my oral testimony, I 
found that to be the hardest part of the job of being a legal 
aid lawyer, because when you turn them away many, many if not 
most times there is nowhere else to go.
    Mr. Mollohan. Really? You don't have any place to refer 
them to?
    Ms. Barnett. I don't.
    Mr. Mollohan. You are often just saying, ``Sorry, we can't 
help you.''
    Ms. Barnett. That is right.
    Mr. Mollohan. Wow.
    Ms. Barnett. That is why we are increasing the amount of 
work we do for self help material and community legal education 
to know your rights to try to empower people to help themselves 
when we are not able to help them ourselves.
    Mr. Mollohan. Are you developing strategies for these 
alternative ways to assist people?
    Ms. Barnett. Oh, we are doing that through our technology 
grants. We are doing that through the other services that we 
provide. We are trying to better capture those services from 
our programs in order that we can be able to have available to 
people we are not able to provide legal representation the 
means by which they can help themselves.
    Mr. Mollohan. Mr. Fattah.
    Mr. Fattah. On the Chairman's----
    Mr. Mollohan. You will just yield to----

                              RESTRICTIONS

    Mr. Fattah. On the Chairman's line of questioning, some of 
these people you are turning away as individuals could be 
assisted if you were able to proceed and focus on groups of 
individuals, class action and other types of more broad-based 
strategies and there are restrictions now, right, on what you 
can and can't do in that regard.
    Could you talk about how that impacts your work, you know, 
for instance on the foreclosure crisis that the nation is 
facing now. I would imagine that thousands and thousands of 
families who have been victimized to predatory lending or the 
like, you know, could conceivably be helped through aggressive 
legal work, but there are restrictions on how far you can go 
now in terms of working with groups or classes of individual 
Americans, right?
    Ms. Barnett. That is correct. The Corporation believes that 
it is our duty and obligation to see that the will of Congress 
is followed. And as long as the restrictions are a part of our 
appropriations we vigorously enforce them and support them 
through our regulations.
    In fact, there are two cases pending. I can't talk about 
the substance of the cases, but I can just report on the 
status, one in Oregon and one in New York where we are 
vigorously defending the regulations. The Oregon case was 
brought in 2005 and motions for summary judgement were argued 
February 8 and a court decision is awaited. In New York the 
case was filed in, I believe, 2001. It has gone all the way up 
to the Supreme Court who denied cert and it is now back in the 
Eastern district of New York waiting for the judge's decision 
applying the appropriate standard that was determined by the 
Second Circuit.
    So there is litigation on these matters. We are defending 
them and we await the court's decision. And of course we look 
to enforce the will of Congress in this area.
    Mr. Fattah. Let me yield to the Ranking Member. Are you 
going to go vote?
    Mr. Frelinghuysen. I have voted.
    Mr. Fattah. Oh, you have. The floor is yours.

                               GAO REPORT

    Mr. Frelinghuysen [presiding]. I thank the gentleman for 
yielding. I just wanted to get a little bit of clarification 
since Mr. Strickland made the centerpiece of his testimony, you 
know, a reaction to the GAO reports. I just want to understand 
here.
    The GAO actually made recommendations to Congress about 
possibly making changes in law about your governance. And I 
think we discussed in my office that there might be some 
potential down sides. So I would just like to know does the 
Legal Services Corporation think, that is necessary, or are 
things should we say on the road to fiscal stability and 
accountability such that maybe Congress doesn't need to open 
this issue?
    Ms. Barnett. If I could respond, Congressman Frelinghuysen. 
There was one recommendation by GAO to Congress that you have 
rightly referred to. And I think it is the Corporation's view 
at this point having been looked at extensively by the Office 
of Inspector General, having being looked at extensively by GAO 
with regard to our governance and accountability, having been 
looked at extensively by GAO as to our relationship with our 
grantees and our oversight, that we have been looked at from 
top to bottom, inside and out. And I think we have come out of 
it stronger and I do not believe that the Corporation feels 
there is any further need to do that.
    And I guess we would agree with the wisdom of Congress when 
they established the Corporation as an independent corporation 
and kept it somewhat free from political decisions in its 
operations.

                         NEW INSPECTOR GENERAL

    Mr. Frelinghuysen. You have a new Inspector General who was 
introduced. Are you reviewing these cases maybe through your 
President and Chairman?
    Just for the record, if you would just identify yourself 
for the transcriber.
    Mr. Schanz. Yes. Jeffrey E. Schanz. Last name S C H A N Z. 
I was selected as the Inspector General for Legal Services 
Corporation on March 3 of this year. I bring a lot of energy 
and experience to the position. And I plan on conducting both 
internal of the Corporation and external reviews, audits and 
investigations of the 137 grantees and corporate governance.
    Mr. Frelinghuysen. Well God speed to you. [Laughter.]

                   ALLEGED INAPPROPRIATE EXPENDITURES

    The alleged inappropriate expenditures, I assume there is 
going to be a report coming at some point in time?
    Mr. Schanz. Correct. We have already visited three of the 
eight sites. We have teams out at the other sites and including 
Chicago and Casper, Wyoming. And I am used to traveling so I 
believe my staff will be traveling.
    Mr. Frelinghuysen. Okay. You have three offices that deal 
in some ways with grants oversight unless there have been any 
more created, let me know. The Office of Program Performance, 
the Office of Compliance and Enforcement, and the Office of the 
IG, Inspector General.
    You both testified that the responsibilities of these 
offices are under review, but can you describe in general the 
differences in the roles of these three entities?
    Ms. Barnett. Well, I will start with explaining our Office 
of Program Performance, which really looks to ensure that the 
service delivery system that is being provided is of high 
quality and efficient and effective, meeting the legal needs of 
the service area. And their guiding principle is our revised 
performance criteria. And it is based on the criteria which 
reflects LSC's sense of current best practices to ensure high 
quality legal services, that they do office visits, they do 
their reports based on that. We do the competitive grants 
process based on the performance criteria.
    Our Office of Compliance and enforcement looks to ensure 
that our programs comply with LSC regulations, rules and the 
LSC Act. And they go out and also make program visits. They 
look at such things as the intake and case management system to 
see that the clients are financially eligible, to see that the 
clients are citizens or lawful aliens. To see that the cases 
are within program priorities. To see that there are retainer 
agreements.
    They look to see that the programs comply with our case 
service reporting system. They look to see that their PAI is 
done in conformity with both fiscal and programmatic needs. 
They look at limited fiscal areas at this point. They look at 
timekeeping. They look to see if there are fee generating 
cases. But they don't look more broadly. It is a very limited 
fiscal component.
    And then, of course, they look to see that the activities 
don't violate the regulations. So they look at the cases and 
pleadings to see there are no class actions, there are no 
attorneys fee cases, there are no solicitations. In addition, 
they give prior approvals as required for any expenditure over 
$10,000. And all the programs have to report to LSC on either 
an annual basis or a semi-annual basis regarding many of their 
activities.
    So those are basically the oversight functions of the 
Office of Program Performance and the Office of Compliance and 
Enforcement.
    Mr. Frelinghuysen. You don't anticipate any reorganization 
or consolidation of any of those areas?
    Ms. Barnett. I don't anticipate reorganization and 
consolidation. What I do anticipate and what we are clearly 
working on the sharing of information, better coordination not 
only between our two offices, but the Office of the Inspector 
General as well, and the clarification of the roles. So I don't 
anticipate an actual restructuring, but I see a much closer 
relationship. I see a much closer sharing of information and 
coordination so that we all know what the other one is doing to 
ensure the best oversight we can provide.
    Mr. Frelinghuysen. I think Mr. Schanz is showing his 
eagerness to make sure that all of those oversight 
responsibilities allow us to draw as much information from them 
as possible.
    Your testimony mentions, we touched on this earlier, that 
you are reviewing your oversight of the IPA process, the 
Independent Public Accountant process. Correct me if I am 
wrong, this is the process whereby each grantee has an annual 
independent audit. What improvements do you have in mind for 
this process and how proactive are you in reaching out to 
grantees and their IPAs to comply with the underlying new 
procedures?
    Ms. Barnett. Well, I think as I indicated, the IPAs are 
supervised by the Office of the Inspector General. And we are 
working with that Office together to try to come up with some 
guidance. For instance, guidance that when IPAs go to a program 
and they ask if the program does entertaining, they look to the 
expenses to see whether or not perhaps alcohol was mischarged 
to LSC funds.
    Mr. Frelinghuysen. Thank you for your response. I have to 
vote. [Laughter.]

                             FUNDING LEVEL

    Mr. Mollohan [presiding]. The Bush Administration has 
requested $311 million for fiscal year 2009 which is $40 
million below the current year's funding level. Aren't you glad 
you don't have to go through them?
    What would be the effect of this cut on the clients served 
by LSC grants?
    Ms. Barnett. Three hundred and eleven million dollar budget 
would be close to a $40 million cut or a 13 percent decrease, 
not counting the four percent of inflation. It would be 
devastating on our programs, offices would have to close, staff 
would have to be laid off. But the most significant would be 
fewer deserving low income persons who require legal assistance 
to keep a roof over their head or to get out of a battered 
relationship or to get necessary health care or to protect 
elderly who are subject to predatory lending would not be able 
to be assisted.
    Mr. Mollohan. You know information that I am supplied and I 
ask you to verify this is that if the Committee were to adopt 
the President's request, again which is $40 million below the 
current year's funding level, that Legal Aid of West Virginia 
would be cut by $315,000 below its current funding level of 
$2.8 million. And by contrast the Legal Service Corporation's 
2009 request of $471 million would provide an additional 
million dollars for West Virginia.
    Are you prepared to verify numbers?
    Ms. Barnett. I believe they would have less than $350,000--
--
    Mr. Mollohan. Uh huh.
    Ms. Barnett [continuing]. Under the President's budget.
    Mr. Mollohan. What did I say?
    Ms. Barnett. Three fifteen.
    Mr. Mollohan. Three fifteen. Thank you.
    Ms. Barnett. Right. Yes, we would be happy to verify that.
    [The information follows:]

    At the request of Chairman Mollohan, I want to confirm that that 
the President's funding request of $311 million for LSC could cut the 
funding level for the Legal Aid of West Virginia (LAWV) by more than 
$350,000. The program's current budget is $2.8 million. With LSC's FY 
2009 budget request of $471 million, LAWV would receive a total of $3.8 
million or $1 million increase, funds that are desperately needed to 
provide legal assistance.

                         MORTGAGE FORECLOSURES

    Mr. Mollohan. Okay. Great. Thank you. How has the wave of 
mortgage foreclosures across the country affected demand on LSC 
services? And you touched on this a bit, but if you could 
elaborate.
    Ms. Barnett. The sub prime mortgages are 
disproportionately, I think, impacting low income renters and 
elderly on fixed incomes. And the sub prime loans are recent 
phenomena, that they are tainted with fraud and other unlawful 
acts, and I think we believe this requires legal representation 
in order to preserve the homes.
    The programs, we don't have national statistics, but we are 
hearing from programs. Some programs are getting four or five 
calls a day. Some programs are doubling the amount of requests 
that they have had. There is no question that programs have set 
up special projects to try to deal with the increased demand.
    These loans have been targeted for low income and minority 
communities. And they prey on the elderly and the uninformed 
and those with limited English proficiency. And we are just 
getting case by case stories, actually that at least the 
provision of legal aid has helped them negotiate the terms of 
their loan, challenge their notice in court, challenge the 
underlying proceeding in court and preserve the homes for these 
people.
    But without additional resources I don't believe that our 
programs will be able to meet this increased demand.
    Mr. Mollohan. Uh huh. LSC's Loan Repayment Assistance 
Program, will you tell us what that is?
    Ms. Barnett. We are in the third year, we were appropriated 
one million dollars to operate a Loan Repayment Assistance 
Program. We began initially by reaching out to our programs 
that had particular difficulty in recruiting and retaining 
attorneys. And in our first year I think we had 71 attorneys 
both who we recruited and retained. We paid $5,000 for each of 
three years.
    Our preliminary assessment and evaluation of the first year 
clearly demonstrated that this Loan Repayment Assistance 
Program, even as small as it was, was making a meaningful 
difference to young lawyers who graduate with over $80,000 
worth of debt and have an average starting salary of $37,000 
but want to do public service and legal aid work were able to 
come to the programs and it was able to keep experienced staff 
that were already in the programs.
    So it not only helped the young attorneys for joining the 
programs, it enhanced the ability of the programs to be able to 
recruit and retain staff. This year we raised the amount to 
$5,600 and we have 58 participants. We are very pleased that 
the Higher Education Act of 2007 included a provision for loan 
repayment for legal aid lawyers, but we believe until it gets 
funded and implemented, it is more than a year away. We have 
asked for additional funding to increase the pool so then when 
we report back to Congress, finally we have a larger pool to be 
able to make the case that this has not only helped attorneys 
come to legal aid and stay at legal aid, it has helped the 
programs be able to recruit well qualified and experienced 
attorneys.
    Mr. Mollohan. Is the need for this program geographically 
uniform across the nation or are there areas that it is more 
effective in helping to recruit?
    Ms. Barnett. Perhaps in major metropolitan areas it is not 
as needed. We did not choose those as much as some of the rural 
areas where it is more difficult to get attorneys. But we have 
a broad spectrum of programs participating in the----
    Mr. Mollohan. So you are implementing this program 
selectively----
    Ms. Barnett. Yes. We----

                           RECRUITING LAWYERS

    Mr. Mollohan [continuing]. In areas where you are having 
more difficulty recruiting lawyers?
    Ms. Barnett. We asked our programs to submit to us the 
reasons why they were having difficulty in recruiting and 
retaining. And we made a judgment. And we looked at geographic 
balance and we looked for larger programs and small programs 
and rural programs and urban programs so that we would have a 
mix to be able to report back to Congress. And I think we do 
have a mix of programs, but it was based on their response to 
us of their difficulty in being able to recruit and retain 
attorneys.
    Mr. Mollohan. And you are suggesting that the program has 
been effective? Has it been in effect, has it been implemented 
long enough for you to make a determination about its real 
effectiveness?
    Ms. Barnett. Well we have evaluated its first year. We are 
in the process of completing the evaluation in the second year. 
I don't think any of the results are surprising to any of us. 
That it helps the attorneys make this decision. It helps the 
programs. And without this, even though people want to do this 
kind of work, they would not be able otherwise to come. Whether 
they will stay when the loan repayment is over and they say 
they don't know whether they will be able to, even though that 
is their what they want to do and they are satisfied with their 
job.
    So----
    Mr. Mollohan. You mean stay----
    Ms. Barnett. In legal aid.
    Mr. Mollohan [continuing]. Past the point that they are 
receiving this loan repayment supplement----
    Ms. Barnett. Right.
    Mr. Mollohan [continuing]. Which is three years.
    Ms. Barnett. Right.
    Mr. Mollohan. My information is that the average law school 
debt is over $80,000. Three years of $5,000 or $5,600, I mean 
during that three year period, I suppose, it is a way to pay 
it, but it is you know, on an $80,000 average debt it doesn't 
really make a dent on the overall debt, but I suppose it helps 
the lawyer repay it during the year that they are working for 
legal aid.
    Ms. Barnett. That is correct, Mr. Chairman. It is not a 
lot, but it certainly helps them while they are repaying it. 
And that is part of the reason we are asking for this 
additional one million dollars to continue it. We certainly 
would like to continue it until a federal program comes into 
effect. And we would like to have a larger pool so that when we 
come back next year with our evaluation you would find it 
meaningful.
    Mr. Mollohan. Be able to assess it at that time.
    Ms. Barnett. Yes.
    Mr. Mollohan. Mr. Fattah.
    Mr. Fattah. No, I am done.
    Mr. Mollohan. You are done. Mr. Frelinghuysen.

                              FORECLOSURES

    Mr. Frelinghuysen. Just back onto the foreclosure issue. I 
assume you gave us some anecdotes. You did give us some 
statistics. I assume you are going to keep a pretty close eye 
on this, pulling as much information as possible.
    Ms. Barnett. We certainly are. And I can even share with 
you that we added two new case categories to our case service 
report so that if we come back next year we would be able to 
have a better idea of the actual numbers for you.
    Mr. Frelinghuysen. This obviously requires the local legal 
services group to, you know, do pretty much of a balancing act, 
I assume?
    Ms. Barnett. It would require the local programs, of 
course, to identify this as a program priority.
    Mr. Frelinghuysen. Yes.
    Ms. Barnett. Because it is up, as you know, to the local 
programs to----
    Mr. Frelinghuysen. So more of one might mean less potential 
support for what Legal Services Corporation does traditionally?
    Ms. Barnett. And that would be left up to the programs.
    Mr. Frelinghuysen. I think we are becoming a little more 
expert on this issue of sub primes. It certainly is in nobody's 
interest to promote foreclosures, but needless to say there is 
somebody out there filling that gap and it really is outrageous 
that there are people taking advantage of people to expedite 
their losing. I mean it really is outrageous. There is a 
website mentioned in the New York Times the other day which I 
thought was even more appalling. It is called walkaway.com. I 
mean it was front page New York Times.
    Just a couple of other questions relative to compensation 
rates above statutory caps. Last year, as you are aware, we 
carried a provision that gave you the authority to pay 
employees in 2008 at a rate above the statutory caps. Can you 
describe why this is necessary and how many employees have been 
affected?
    Ms. Barnett. This has to do with the locality pay.
    Mr. Frelinghuysen. Yes.
    Ms. Barnett. All right. And we had been paying locality pay 
above the statutory cap. And we had asked Congress to continue 
to permit us to do that and I believe it affected only 17 
employees; 11 in management and administration and six in the 
Office of the Inspector General.
    Mr. Frelinghuysen. We carried that provision at your 
request.
    Ms. Barnett. Yes.
    Mr. Frelinghuysen. So I assume you are familiar with it. Of 
course, the President's budget proposes to eliminate it. So I 
guess my bottom line question is are you going to ask the 
Committee to carry the same waiver language for fiscal year 
2009?
    Ms. Barnett. Yes, we are, Congressman Frelinghuysen.
    Mr. Frelinghuysen. Okay. Thank you, Mr. Chairman.

                         PRIVATE SECTOR LAWYERS

    Mr. Mollohan. Okay. You require your programs to promote 
private sector lawyer participation providing legal services. 
Tell us how you do that. Give us an idea how many clients that 
allows you to serve.
    Ms. Barnett. I would be happy to. We require our programs 
to expend the equivalent of 12.5 percent of their basic field 
grant on private attorney involvement in their service 
delivery.
    This means that they are spending it to do training and 
recruiting of volunteers, the oversight of the cases, 
whatever----
    Mr. Mollohan. Training and recruiting of private sector 
lawyers?
    Ms. Barnett. Right. To do pro bono work.
    Mr. Mollohan. Do you pay private sector lawyers to do----
    Ms. Barnett. The vast majority----
    Mr. Mollohan [continuing]. But wouldn't be doing pro bono, 
but to represent.
    Ms. Barnett. The vast majority of the private attorneys 
that work with our programs do it pro bono for no cost. We do 
have some Judicare or reduced fee attorneys in certain areas of 
the country where it is difficult to find private attorneys to 
do pro bono work. However, we had over 97,000 cases closed by 
private attorneys in 2007 with over 31,000 attorneys helping 
our programs. We have made it a major initiative to increase 
the private attorney involvement with our programs.
    Mr. Mollohan. Pro bono?
    Ms. Barnett. Pro bono involvement.
    Mr. Mollohan. Under what circumstances would you hire a 
private attorney?
    Ms. Barnett. Well we don't hire these attorneys.
    Mr. Mollohan. No, I know the pro bono ones you don't, but I 
understood your testimony to be in some certain circumstances 
you might pay on a lower scale----
    Ms. Barnett. Yes.
    Mr. Mollohan [continuing]. A private attorney to undertake 
a case.
    Ms. Barnett. I can think of----
    Mr. Mollohan. You are looking for a specialty or are you 
looking----
    Ms. Barnett. No. I am thinking of Wisconsin Judicare in 
areas where there aren't many private attorneys. We would pay a 
very much reduced rate for us to be able to send cases to this 
panel that would handle the cases on a very reduced fee. But 
the vast majority of private attorneys that work with our 
programs and handle these 97,000 cases are pro bono. And 
actually our Board initiated a private attorney involvement 
plan called ``Help Close the Justice Gap. Unleash the Power of 
Pro Bono.''
    And they adopted a resolution encouraging programs to 
enhance their private attorney involvement. And we asked all 
our programs to adopt similar resolutions. And to date we have 
more than 80 programs that have already adopted it.
    In addition, I sent a program letter out in December of 
2007 encouraging our programs to look at creative, strategic, 
innovative ways to use private attorneys. And citing examples 
that many of our programs have used so that other programs 
could think to replicate them. And private attorneys do direct 
representation of clients. Private attorneys co-counsel and 
support cases with them. Private attorneys do transactional 
work, they do training in their areas of specialty. They have 
on occasion helped draft manuals for the use of our attorneys. 
So there is a wide range of services that private attorneys 
provide to LSC eligible clients.
    Mr. Mollohan. Okay. Thank you. Mr. Strickland, you are 
probably sitting there feeling neglected. [Laughter.]
    Mr. Strickland. Oh, that is all right. I don't mind it a 
bit. This is a tough, tough crowd here. [Laughter.]
    Mr. Mollohan. You were really busy at the beginning talking 
about all these GAO studies and reports. I want to give you an 
opportunity.

                           JUSTICE GAP STUDY

    Mr. Strickland. I wanted to make a couple of points, if I 
may, Mr. Chairman, to quantify when you were talking a moment 
ago about one out of two eligible clients being turned away. In 
the year of the Justice Gap study, those numbers were that our 
grantee programs combined with pro bono lawyers had represented 
a million eligible clients and it follows that they turned away 
a million.
    I remember reading the draft report before it was published 
and that number just jumped off the page. And as President 
Barnett said that probably has gotten worse. And particularly 
as we do these State legal need studies, I think we are going 
to find that it is worse than that.
    And I also wanted to emphasize that included in the legal 
work that was done for those clients was this private attorney 
involvement. So even with that, there was still this tremendous 
unmet legal need.
    Mr. Mollohan. And that can all be translated into the human 
consequence of that.
    Mr. Strickland. Absolutely.
    Mr. Mollohan. I am sure that translates into battered 
women, maybe people killed.
    In any reports you submit or communications with us, if you 
can translate the consequences in those terms, that is always a 
good thing to know.
    Mr. Strickland. And in terms of being able to refer those 
individuals elsewhere they really have come to the court of 
last resort, so to speak, when they have come to----
    Mr. Mollohan. And they are desperate.
    Mr. Strickland [continuing]. To legal aid. Absolutely.
    Mr. Mollohan. Obviously, they are desperate. They probably 
wouldn't know where to go if----
    Mr. Strickland. Where they think they should go, of course, 
is to legal aid. And unfortunately as we have observed today 
that half of them are being turned away. And we are speaking of 
income eligible clients, not undocumented immigrants or folks 
in that category, but eligible clients.
    Mr. Mollohan. Well that is a serious issue. Mr. 
Frelinghuysen.

                             NEW TECHNOLOGY

    Mr. Frelinghuysen. Just about everybody who comes before 
the Committee is talking about utilizing new technology. You 
have a technology initiative. Do you want to roll it out for 
us? I think you are doubling the amount of money and is it 
exciting or how would you characterize it? What are you doing 
to promote inner connectivity and give your people the tools 
you need to communicate with one another around the country. 
Tell us about it.
    Ms. Barnett. We, with Congressional appropriations, began 
our technology initiative grants program in 2000. And through 
2007 we have made grants totaling $27 million. And the results 
of that have been enhanced and more efficient and more 
services. Through that funding we have funded centralized 
intake systems, which gives clients easier access to our 
services.
    We have funded Statewide websites in every State that give 
a full range of information. We have funded the automated 
document assembly where people who are unable to get 
representation can fill out court forms, online that have been 
drafted with court input that are accepted in the courts in 
multiple languages. Maybe in 35 different languages we have 
done that.
    So we have, I think, enhanced pro se assistance, enhanced 
access to our programs. We have improved technology 
infrastructure in our programs. We have this year funded an 800 
number for low wage workers to be able to claim the earned 
income tax credit. And in 2007 alone we have returned over $10 
million to low wage earners because of that.
    We are looking at other ways that 800 numbers can be used 
by low income people throughout the country. We are looking at 
the possibility of online intake where 24/7 through the 
internet people could access our services that would be then 
integrated into their case management system. We don't even 
know what the use of cell phones may be in the next couple of 
years as a means of communicating.
    So I think our technology initiative and the funding we get 
from Congress for technology we have used to both expand our 
services, increase them, improve the efficiency of our programs 
and we look forward to continued funding to be able to report 
to you the new advances that----
    Mr. Frelinghuysen. Well we commend you for your efforts. As 
you know, I am housed in my New Jersey Office cheek by jaw with 
one of your legal aid, Morris County Legal Aid Society. And of 
course, you know, it is the same old, same old in terms of the 
people who do a remarkable job for, I mean earning nothing. You 
know, I don't think they get any pension benefits at all. I 
mean they do some incredible work. I always hope that some day 
maybe they might be slightly compensated by some technology 
that would enable them to do an even better job with the 
resources they get.
    So thank you, Mr. Chairman.
    Mr. Mollohan. Now there is a good opportunity to input a 
program with a member of Congress. [Laughter.]
    Right next door to him. Mr. Fattah.
    Mr. Fattah. I will yield, Mr. Chairman.
    Mr. Mollohan. Okay.
    Mr. Fattah. I think we have gotten to the point.

                             ADVERTISEMENT

    Mr. Mollohan. Just following up a little bit as a final 
question. I have seen advertisements, not for legal services 
because they are not provided by lawyers, but by corporations 
online for leases, deeds and wills. The organization may be run 
by lawyers, but they specifically disclaim giving legal advice.
    Are you familiar with such services? And if so, can you 
automate your services in that sort of way? You are unfamiliar 
with them?
    Ms. Barnett. I am not familiar with them. In some ways I 
wonder whether there is any unauthorized practice of law 
implications, but----
    Mr. Mollohan. Well I know that immediately occurred to me, 
but I am advised there is not and I have not looked into 
specifically, but there were corporations that provide, it is 
threatening isn't it?
    Mr. Strickland. It is threatening. [Laughter.]
    We do have on, correct me if I am wrong on this, but I 
believe we have on some of our websites that is websites 
maintained by our grantee programs, some standardized 
pleadings. For example, for a domestic relations case where an 
indigent client could capture those pleadings and fill in the 
blanks and at least file the case in the correct form so that 
it comes before the court in good order as opposed to something 
just their own attempt to do that.
    So I think we have in effect gone into that business to 
some extent, that is providing a standard form pleading, in a 
domestic case is one that I can think of right now.
    Ms. Barnett. I will just supplement that, if I might. One 
of the grants that I thought was terrific that we did with our 
TIG funding was in Idaho where we had the approval of the 
courts to adopt Statewide forms. And believe it or not somebody 
could fill the form out in Spanish and it would come out 
absolutely properly formatted in English.
    So we are using technology in that way.
    Mr. Mollohan. I will find out more about this and follow 
up.
    Ms. Barnett. We would be happy to answer. And if you have a 
question on it and specifically.
    Mr. Mollohan. Well if there are no more questions, Chairman 
Strickland, President Barnett, we very much appreciate all the 
good work you do on behalf of providing legal services to those 
who can't afford it. And we appreciate your testimony here 
today. And know that you are going to continue to aggressively 
follow up on all those oversight issues.
    Mr. Strickland. Thank you very much, Mr. Chairman.
    Ms. Barnett. Thank you.
    Mr. Mollohan. Thank you.
    [Questions and answers submitted for the record follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                        Tuesday, February 26, 2008.

                     INTERNATIONAL TRADE COMMISSION

                                WITNESS

DANIEL R. PEARSON, CHAIRMAN

                            Opening Remarks

    Mr. Mollohan. We will come to order.
    Welcome to members, staff, agency witnesses, as well as the 
public.
    This afternoon we welcome the Honorable Daniel Pearson, 
Chairman of the International Trade Commission, to testify on 
the challenges facing the Commission as it carries out its 
critical trade functions in fiscal year 2009 and the budget 
proposed to meet those challenges. The budget request of the 
Commission is $73.6 million.
    Before inviting you to make an opening statement, Mr. 
Chairman, I recognize my ranking member, Mr. Frelinghuysen, for 
any opening comments.
    Mr. Frelinghuysen. It is a pleasure to welcome Chairman 
Pearson.
    I echo the Chairman's comments. We look forward to hearing 
about some of the challenges you are facing that are reflected 
in your budget materials and in your statement.
    Thank you very much, Mr. Chairman.
    Mr. Mollohan. Your written statement will be made a part of 
the record, and we invite you to summarize it as you see fit.
    Mr. Pearson. I was hoping you would allow me to deviate 
from the prepared script.
    Let me begin by thanking the subcommittee, both for the 
opportunity to testify and for managing to grant our full 
fiscal year 2008 appropriation request of $68.4 million. And I 
will explain a little later why that has been so useful.
    I am pleased to have both Vice Chairman Aranoff and Steve 
McLaughlin, our Director of Administration, here. They will 
answer all of the hard questions.
    What is the same as last year for us? Our budget allocation 
is about the same, in terms of how we split the pool of funds. 
Salaries and benefits account for about 71 percent of our total 
expenditures. Rent accounts for 12 percent. It is a little bit 
up from last year, and I will explain that in a bit. Services 
are around 11 percent. Those are our security guards, some of 
our IT support, people with whom we contract for necessary 
services. That leaves us with 6 percent for other that is 
somewhat discretionary--travel and training and miscellaneous.
    Another thing that is the same as last year is we are still 
digging out of the situation we got ourselves into by asking 
for a reduction of $2.75 million in our fiscal year 2006 
appropriation, which then gave us a low baseline for the 
modified freeze in 2007. We have made good progress now with 
the 2008 appropriation, but we still have effects from that 
earlier situation.
    And the final thing that is the same is we still have no 
control over our workload. We deal with what comes in the door.
    So what has changed since last year? We managed a cash flow 
under the modified freeze by allowing our vacancy rate to rise. 
As of the end of this week, it will be at 16 percent. Normally 
we have had about a 5 percent vacancy rate, so we are at 
roughly three times the normal level. We have 64 vacancies 
currently, out of a total of 407 positions. The number of ITC 
civil service staff is now at its lowest level since sometime 
prior to 1980, and we didn't have time to go back and check the 
archives, but it is been several decades.
    Another thing that has changed, our workload has gone up. 
We have become entirely too popular. Last year we talked about 
the filing of new antidumping/countervailing duty cases going 
down. We were in a 3-year downtrend; knew it would likely turn 
at some point; couldn't predict when.
    Two things have happened since then. One is that the 
Department of Commerce made a decision to allow the filing of 
countervailing duty cases against nonmarket economies, 
including China, and that has encouraged several filings. And 
then, in addition, the economy has weakened, and as we see 
demand for some products start to soften, then there is no 
longer room in the marketplace comfortably for both domestic 
production and imported products. So we see an increased filing 
because of financial pressure on domestic producers.
    Now, the vacancy rates for the people who do those anti 
dumping/countervailing duty investigations had been allowed to 
rise. I mean, that was a logical thing for us to do to manage 
the cash flow. But we are in a situation now where we really do 
need to rebuild that staff.
    Another thing that is different than last year--well, then 
I told you our 337 intellectual property investigations, that 
those were going up, but we were hoping they were plateauing. 
Well, they have continued to go up. So they didn't stop. Last 
year when we spoke, we had about 40 active investigations; now 
we are at 50, so with a 25 percent increase.
    We have an office in the ITC, our Office of Unfair Import 
Investigations, which serves the public interest in these 
intellectual property cases. And they have a lot of contact 
with the Trade Bar. They discuss petitions that are coming up 
and that sort of thing. The head of the Office of Unfair Import 
Investigations advises that there is just no slowdown in new 
filings. The cases are out there, just over the horizon. We 
don't know exactly when they will be coming; they will be 
coming.
    We have already had 24 new filings this fiscal year. In 
order to deal with that, we spoke last year about trying to 
hire a fifth administrative law judge. Well, we had that effort 
under way, but then we had two of our then-sitting judges 
retire. So we went from four judges down to two. We have 
managed to hire two back or, you know, two replacements. And so 
we are still at four ALJs. We are in the process of trying to 
hire the fifth now. The application deadline closes here in a 
few days, and we will, I hope in March, be able to interview 
some candidates.
    What we have been able to do is to hire more staff for the 
ALJs, more clerks. We have also added resources to the Office 
of Unfair Import Investigations and to the general counsel's 
office. And when I say ``add resources,'' I mean adding 
basically patent attorneys.
    One other thing that doesn't really come under the purview 
of appropriations, but we are seeking legislative relief 
regarding the hiring of Section 337 judges because of problems 
we have with the existing alternatives.
    Another thing that has changed since last year, we have 
more requests for Section 332 investigations on trade issues. 
These are the economic analyses, the reports that we are asked 
to prepare, either by the Ways and Means and Finance Committees 
here on the Hill or by USTR.
    As examples, we are doing more support for USTR in the Doha 
round. We have a very interesting but complicated request from 
Chairman Rangel for a three-part study on China, trying to 
understand the policies that China has that influence 
international trade. The first of those studies is completed. 
The second one is under way, and the third one will end 
sometime late next year.
    But they are very resource-intensive. They take a lot of 
time. We have challenges obtaining data from the Chinese. Some 
travel is required. So these are very interesting and 
worthwhile, but they have required more resources than we 
anticipated.
    The staff who work on those tend to be the same staff who 
would be available otherwise to work on the antidumping/
countervailing duty cases. We have a fair amount of synergy 
between some of our offices that work on slightly related 
items, and so we are seeing a pinch both ways there.
    With all this focus on staff shortages, it probably won't 
surprise you to learn that I have developed a reputation as 
being fairly good at saying no. We haven't had any money. I can 
assure you, though, that my happiest day as Chairman came this 
past December when, after learning that we had been granted our 
full $68.4 million appropriation request, I sat down at the 
desk and signed a stack of Form 52s to allow some hiring, 
which--it was a wonderful thing.
    Let me say a good word about the senior managers in the 
Commission. They all knew the budget situation that we were in. 
And I wouldn't say there was no complaining or anything, but 
they pretty well tightened their belts and--and with the light 
at the end of the tunnel, they found a way to get things done. 
But when we could authorize some new hiring, it was great for 
me and for the full Commission.
    So we now are trying to fill 25 of the 64 open slots. If we 
can get those key positions filled, then we will be able to 
move on to do the others. It is our plan to try to get down to 
a 9 percent vacancy rate by the end of fiscal year 2008. And 
then the hope is that we could continue that rebuilding process 
and get it down to a 7 percent vacancy rate by the end of 2009.
    Another thing that has changed since last year is our rent. 
And I talked last year about the rent. It was our projection, 
based on what the GSA had told us, that we would be looking at 
a 15 percent increase. In August, less than a week before we 
were expected to sign a letter of agreement, they advised us 
that, ``Oops, well, sorry, it is 38 percent, $1.3 million.''
    Of course our appropriation request was in long before 
that, and we have had no alternative other than to absorb the 
$1.3 million, which we are doing basically by delaying some IT-
related projects and some FISMA-related items. There are 
certain things that we would prefer not to delay, but we are 
not taking it out of personnel. We are sticking with our 
personnel plan for fiscal year 2008. But in fiscal year 2009 we 
just, out of necessity, have to build in an extra $1.3 million 
that we hadn't thought we were going to ask for, as part of our 
ongoing funding requirement.
    So what is not included in our 2009 request? Well, we have 
not included a sixth administrative law judge. We have had some 
discussion as a Commission. We may need to take that step 
sometime in the future. We don't think we are quite there yet. 
We want to get five ALJs up and running and see how that goes, 
let that consolidate a little bit, and then make a call on 
whether to hire a sixth.
    The judges are telling us that they really need another 
courtroom. We have two courtrooms that are devoted to the 337 
cases, and that worked okay when we had a lower caseload. What 
we are having as a problem now is that we have the guidance in 
the statute to try to finish these cases in 12 to 18 months. 
And partly because the caseload is heavy in and of itself and 
partly because soon after the case is filed the judge will 
schedule a time when a hearing room is open to hold the 
hearing, and with hearing rooms being booked, they are having 
to schedule those out further--so many of our cases now are 
being scheduled for well over 20 months' completion times, and 
the intellectual property holders are not amused.
    Another thing that is not included in this request is some 
larger IT expenditures, IT infrastructure issues. We are not so 
far away from having to come forward, I think, with a more 
significant IT request, that would go beyond basic replacement.
    And then we continue to be behind in our continuity-of-
operations planning. We have done some planning work, but we 
have not been in a financial situation where we have been able 
to actually locate a site, an off-site site, to relocate to and 
to go through any type of actual drill for continuity of 
operations.
    Another thing that is not in the budget is preparation for 
what I might call the coming wave of retirements. Twenty 
percent of ITC staff currently are eligible for retirement. 
Within 5 years, another 19 percent will be eligible. And that, 
of course, is on top of the current 16 percent vacancy rate. So 
you can understand our interest in trying to bring in some 
younger staff to work with the older folks, try to get the 
benefit of that expertise before they leave us.
    So this last part has been by way of early warning. Don't 
be surprised if we talk to you about some of these again next 
year.
    Let me comment briefly on the risks that I see of an 
appropriations freeze in 2009. We don't know if it will happen, 
and I understand it is beyond the control of anyone here, but 
we have had to think about that as we, you know, get ready for 
what lies ahead.
    Even a partial freeze would derail our 2-year plan for 
rebuilding staff. If we have to pause in our recruitment 
efforts, it would mean that we would miss the January hiring 
cycle for economists. We are several Ph.D.s short now, and this 
year we have been in the market, trying to hire some. We have 
been turned down by three so far. We are doing our best. I have 
approved waivers to grant some extra preferences, and we hope 
to be able to hire someone, but it has been a little dicier 
than I would have liked. But if we miss them this year, then we 
need all the more to be able to hire some of those folks next 
year.
    A complete appropriations freeze would have the effect of 
reducing our personnel compensation by $3.6 million relative to 
what we are now planning for fiscal year 2009. And to fill that 
gap would require either an immediate reduction in force of 7 
percent of our staff or, over the course of the year, allowing 
the staffing to fall enough so that we would have an average 
vacancy rate of 16 percent. And if we follow the average 
approach, by the end of the year, as a practical matter, we 
would be somewhere around 56 people short, on top of the 
vacancy rate that we started with at the first of October, this 
coming. So we would be really in a world of hurt.
    And the other risk if there is a real constraint on 
appropriations next year is equipment upgrade, especially in 
the IT area.
    Conclusion--I am getting to the end here.
    I would like to express appreciation for the work of your 
staff, Mr. Chairman and Mr. Ranking Member. Tracey LaTurner, 
Adrienne Simonson, Sally Moorhead, Mike Ringler, Katie Haslet, 
they have really been exceptional to work with. And I say that 
because we are a small agency and, in the broad scheme of 
things, not terribly important, and yet your staff has treated 
us as if we are real people. And that is very gratifying.
    Mr. Frelinghuysen. Fantastic.
    Mr. Pearson. But, no, I have just had the impression, our 
concerns, even though they are modest in the broad scheme of 
things, are being taken seriously. And so that makes us feel 
wanted.
    My 2-year term, Mr. Chairman, will end this coming June, 
and I will be pleased to hand over those administrative 
responsibilities to one of my highly qualified Democratic 
colleagues. Don't know who at this point, but I have my hopes. 
I sincerely hope that the new Chairman will be able to continue 
the process of rebuilding the Commission's staff and its 
broader capabilities.
    And to that end, it would be very helpful if we are able to 
receive the full $73.6 million appropriation that we are 
requesting, which has the bipartisan and unanimous support of 
the Commission. I recognize that is a 7.6 percent increase. It 
is significant in percentage terms. And I would be pleased to 
discuss in more detail why we think it is necessary.
    Thank you very much.
    [Testimony of Daniel R. Pearson, Chairman, United States 
International Trade Commission]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Mollohan. Thank you, Chairman Pearson, and thank you, 
Vice Chairman Aranoff, for your good work on the Commission. It 
is certainly appreciated by everyone. And you deal with a lot 
of issues that I am concerned with, and really do appreciate 
your consideration as you consider those cases.
    Administrator McLaughlin, how long have you been in this 
job?
    Mr. McLaughlin. I have been in this job since 1995.
    Mr. Mollohan. You know, as you look ahead at some of the 
challenges you have--rent challenges, relocation challenges, 
staffing challenges--as the Chairman has described them, have 
we built into that some contingencies?
    And first of all, let me, on one hand, commend you for your 
fiscal responsibility and for your honesty in coming forward.
    But I am wondering if you anticipated some of the 
unintended results of, you know, no good deed goes unpunished. 
And looking forward, are you anticipating the unexpected here 
or the unintended?
    And I am referring to giving back money and maybe the rent 
situation, not any of which is necessarily anybody's fault. But 
as you are looking forward, to what extent do you think you are 
anticipating the unexpected?
    Mr. McLaughlin. I think it is fair to say that we try to 
balance what could happen good with what could happen bad. It 
is hard to fully anticipate the unanticipated, obviously.
    But when we look at risk items, one of the things we 
certainly didn't anticipate was the kind of change in our rent. 
I mean, you are always concerned, when dealing with other 
Government agencies or contractors, that costs won't come in 
exactly as you projected, but the history has been that some 
come in lower and some come in higher. Rarely do they come in 
that much higher. And then, since it is a Government agency, 
you have really no control over what you are going to do with 
it.
    Mr. Mollohan. I am sympathetic to that, because GSA has 
surprised a lot of Members of Congress, certainly this Member 
of Congress, with some really high rent increases over the last 
4, 5 or 6 years. But I am wondering, at this point, if that is 
to be unexpected.
    Mr. McLaughlin. Fool me once. The next time--we are 
assigning higher-level staff to overseeing that contract. So we 
are going to be monitoring that very closely, certainly.
    And we do have other risk factors. And, frankly, it just 
hasn't been prudent, given the kinds of requests that we are 
asking for, to also load in things on security and replacement 
of equipment when, obviously, we have to accomplish our mission 
first.
    So we have seen--I am not completely comfortable, in the 
last 3 years, we keep deferring these kind of secondary 
requirements to mission accomplishment, given the budget 
circumstances we are in, but we, frankly, have little choice.
    Mr. Mollohan. Well, with your request of $73.6 million, 
which is a 7.6 percent increase over 2008, do you think you are 
anticipating being able to adequately address deferred expenses 
in addition to the unexpected?
    Mr. McLaughlin. We have decided that we really need to move 
forward on the human capital and rebuilding the agency, and 
that is really where we are putting the bulk of our money.
    There is some risk there on systems failures and things of 
that nature, and some of the documentation on information 
security. But to a large extent, we have decided it is not that 
we are completely vulnerable in these areas, it is just that we 
can do a better job of meeting OMB requirements for 
documentation, not that we are vulnerable.
    So I am reasonably comfortable, given the budget 
environment, that we can get the job done if we get our 
request.
    Mr. Mollohan. In this first round, we are going to stick to 
5 minutes so everybody can have a chance to ask questions. And 
we just got a vote.
    How many votes do we have?
    We have three votes. Okay. Well, we are going to try to 
keep rolling with this hearing.
    And, Rodney, do you think you can agree with that?
    Mr. Frelinghuysen. Sure.
    Mr. Mollohan. We can keep rolling. So we will try to stay 5 
minutes--we will stay 5 minutes in the first round, and then 
the second round we will just see how many folks are here.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. When the Chairman of the Ways and Means 
Committee asks you to do something, you do it, I take it?
    Mr. Pearson. We certainly try to.
    Mr. Frelinghuysen. And, obviously, whatever three targets 
he suggested you investigate--and you said you have completed 
one study--obviously that benefits the House and Senate and, 
generally, I assume, gets out into the public.
    Mr. Pearson. Yes, they are intended for public 
distribution.
    Mr. Frelinghuysen. But are there any other congressional 
directives that are in that sort of a category that we are not 
aware of it, or a whole slew of them? Maybe we have put a few 
in our own bill. Just so I understand, so the people who would 
be responding to Chairman Rangel, which obviously everybody 
would want you to do expeditiously, are taken away from their 
traditional role. I see a head. I sort of wonder, how is this 
handled?
    Ms. Aranoff. We have statutory authority under Section 332 
of the Tariff Act which gives the Ways and Means and Finance 
Committees, as well as both houses of Congress as a whole and 
the President the authority to directly request these studies 
from us. So that is our responsibility. We have people whose 
primary job is to respond to those kinds of requests.
    Mr. Frelinghuysen. No, I am admiring of it, and we salute 
you for doing it. But you are obviously doing a lot of other 
things, as well. In the Chairman's statement, he says, and I 
quote--this is under the ``Increases in the Import Injury 
Caseload'' section. It says, ``The recent spate of new filings 
seems to be related, to some extent, to the U.S. Commerce 
Department's recent decision to apply countervailing duty law 
in China. Six new CVD investigations were filed against 
products in China,'' et cetera, et cetera, et cetera.
    So besides, obviously, congressional directives, you take 
upon yourself historic missions from the Commerce Department? 
Sort of explain to me how that works.
    Mr. Pearson. Right. What is going on here, the private 
sector, domestic industries have responded to a change in rules 
that Commerce has implemented. Commerce has made it, as some 
firms would see it, more attractive to bring countervailing 
duty/antidumping cases against China. And once Commerce made 
that decision, then we saw firms responding to that and 
bringing petitions forward.
    So it wasn't a direct request from Commerce to us, but 
Commerce kind of opening the door wider to the private sector.
    Mr. Frelinghuysen. Educate me. Quite honestly, I have 
reviewed a lot of figures here. And, I think we are hugely 
admiring of what you do. The protection of intellectual 
property is incredibly important. Is a very high percentage of 
this related to things from China?
    Mr. Pearson. Right.
    Mr. Frelinghuysen. If you were to describe to a layperson, 
what is the caseload? Could you talk about the complexity of 
some of these cases? You know, historically it has been done in 
an 18-month period of time. Now I assume if it goes to 20 
months, either because of lack of manpower--it must be somewhat 
related to the complexity of the cases as well.
    Mr. Pearson. Oh, yes.
    Mr. Frelinghuysen. So, to the layperson, how would you 
characterize why you are doing more? And, is it particularly 
related to certain countries?
    Mr. Pearson. Right. Let me split the investigations into 
two separate parts.
    We have our intellectual property investigations that we 
conduct under section 337. Those are basically like court cases 
where a company that believes its intellectual property--
usually it is patent--is being infringed by an import can bring 
a case to be heard by our administrative law judges that will 
allow us to issue an exclusion order to keep out the infringing 
product. Okay. Very useful to owners of intellectual property, 
especially in a global economy that is increasingly dependent 
on trade, where so much of what we consume is imported. Okay.
    Set that aside. The antidumping/countervailing duty cases 
are different. Those are brought usually by groups of 
companies, a domestic industry represented by--they will put 
together an ad hoc coalition or some organization, and they 
will decide to bring an antidumping/countervailing duty 
petition against imports from a country or group of countries.
    We find that China often is one of those countries. 
Somewhat more than half of our cases deal with steel products 
of various sorts, with which the Chairman is particularly 
familiar. We also deal with quite a few chemical cases, some 
consumer products, a few agriculture products.
    And in those investigations, we don't issue an exclusion 
order. We would instead be blessing the antidumping duties that 
Commerce has agreed on. Commerce has the job of determining how 
big the margin of underselling is, what is the level of unfair 
pricing. And that will be the dumping margin or, in the case of 
subsidies----
    Mr. Frelinghuysen. They have that responsibility. What is 
your responsibility on that?
    Mr. Pearson. To determine whether the domestic industry is 
injured.
    Mr. Frelinghuysen. So it is your investigations that make 
those determinations?
    Mr. Pearson. Right. Assuming Commerce finds the dumping, 
then we look at the industry to see whether they are being hurt 
by the unfair imports.
    Mr. Frelinghuysen. I am staying in the 5-minute rule. I 
yield back, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Frelinghuysen.
    Mr. Ruppersberger.
    Mr. Ruppersberger. First thing, I thank you for being here 
today.
    Just quickly, I think you referred to it, to an extent, 
about the Department of Commerce's decision to apply the 
countervailing duty law to China. Specifically as it relates to 
steel, have you seen a change in the cases that you are hearing 
as it relates to steel? Is it affecting your workload? Where 
are we as it relates to the issue of steel on the new Commerce 
decision to apply the countervailing duty law to China?
    Mr. Pearson. Right. I think that we have only one steel 
case that has been filed since then, and that has to do with 
stainless steel pipe from China. The other cases all have dealt 
with a variety of other products.
    Mr. Ruppersberger. That is amazing.
    Mr. Pearson. Right. I mean, in general, the steel industry 
has experienced quite strong demand, and they have been doing 
better financially in the last 3 years, for instance, than they 
had been in the previous several years.
    Mr. Ruppersberger. So the dumping has slowed down, to an 
extent, their concern about the----
    Mr. Pearson. Or even if there is some modest amount of 
dumping, it has not been hurting the domestic industry.
    Mr. Ruppersberger. You mentioned in your testimony about 
needing another courtroom. How many administrative law judges 
do you have?
    Mr. Pearson. Currently we have four. We hope soon to have 
the fifth.
    Mr. Ruppersberger. Okay. And so, how many cases are they 
able to hear a year? Do you know?
    Mr. Pearson. We think in terms of eight cases, eight active 
cases, being a full workload. And we have the four of them now, 
each dealing with a dozen.
    Mr. Ruppersberger. How long are the cases in the system 
from the time they start, on average? A year? Half a year?
    Mr. Pearson. Eighteen months is what we are taking now, 
except that it is going longer than that.
    Mr. Ruppersberger. Will an additional judge make a 
difference in that?
    Mr. Pearson. We certainly think so. We think we can get it 
back down more to the 15-month range.
    Mr. Ruppersberger. Do you need that additional courtroom 
also to make that happen?
    Mr. Pearson. At this point, we don't think so. And the 
reason is that we have our main hearing room, which some of you 
have seen. It is not ideally set up to be a courtroom for the 
ALJs, but it can work as a backup.
    So what we are encouraging the ALJs to do is to go and 
schedule three hearings at any given time. There is a 
reasonable chance that one or more of those cases will settle 
before getting to the trial. And in the case where they 
actually have to go forward with three cases, we will allow 
them the use of the commissioner's hearing room. And if we need 
to schedule it for a vote or something, we would just have to 
postpone the ALJ hearing for a day.
    Mr. Ruppersberger. Thank you.
    Mr. Mollohan. Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman. I will be very brief, 
because we are going to have to run to vote.
    I am interested particularly in the IP work that you do. I 
wanted to ask you a question on the patent cases. Darrell Issa 
and I introduced legislation to establish a pilot program in 
the district courts to develop experience among Federal 
district judges on patent cases, because of, among other 
things, the very high rate of reversal in the court of appeals 
on patent construction cases.
    The ITC has had a very low rate of reversal, and I am 
interested to know what you attribute that to. What are you 
doing right, that the district courts are doing wrong? How have 
you managed to have a much higher sustainability in the court 
of appeals than your fellows in the Federal court system?
    Mr. Pearson. Would you care to respond?
    Ms. Aranoff. The main reason that we have had such a high 
rate of success is our level of expertise. Our administrative 
law judges hear nothing but intellectual property cases, and 
about 95 percent of them are patent cases. Even though many of 
our ALJs don't come to us with patent expertise, they quickly 
develop it. And we do have full-time staff of patent attorneys 
who come in with that expertise and are hired for it. As 
compared to district court judges, who might only hear one or 
two patent cases every few years.
    Mr. Schiff. It sounds like a pretty persuasive argument for 
our pilot project.
    Mr. McLaughlin. I would just like to add, in addition to 
that, the decisions of the administrative law judges are 
reviewed by our commissioners, and they have good advisors on 
their staff as well, and the general counsel has patent 
attorneys. So if there are some things wrong, we can fix it 
before it gets out of the agency.
    Mr. Pearson. Representative Schiff, if I could just explain 
that, of the six commissioners, I am the only one who is not an 
attorney. So I found it prudent at times when legal questions 
get asked to turn to one of my more learned colleagues. So it 
is not that I have no opinion, it is just that I trust Shara's 
more than I trust mine.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you.
    You talked a little bit about your 2009 funding request and 
how important it was to get it. What would be the effect of a 
9-month CR on the Commission?
    Mr. Pearson. At the 2008 level?
    Mr. Mollohan. Yes, at the 2008 level.
    Mr. Pearson. It wouldn't be pretty. The problem we have is 
that, because we have no--we would anticipate that there would 
be a Federal pay raise. And that would somehow have to be 
absorbed. Three months into the CR, we would need to absorb the 
pay raise.
    Are we building in 4 percent for that?
    Mr. McLaughlin. Three and a half.
    Mr. Pearson. Three and a half, okay.
    We will have the $1.3 million higher rent than had been 
projected when we got our 2007 baseline funding, so that would 
have to be absorbed. The only alternative that we really have, 
since we have--you know, we continue to push out the IT 
projects that can be pushed out, but we would cut staff.
    I am not saying we would do this. We have no Commission 
consensus to do it. But as a practical matter, if we need to 
have a 7 percent staff reduction, the simplest way to 
accomplish that would be a reduction in force at the start of 
the fiscal year, because that would take the number down 
immediately and we would get the savings throughout the full 
year. Whereas if we don't act soon, then we will dig ourselves 
in the hole and have to have an even more severe reduction in 
personnel later in the year.
    Mr. Mollohan. Will you elaborate on that answer for the 
record, please?
    Mr. Pearson. Certainly.
    Mr. Mollohan. I will give you more time to think about it 
and actually give us an assessment of that.
    Mr. McLaughlin. Mr. Chairman, you had asked previously what 
risks was I concerned about. Going forward, I think we are 
navigating between risks fairly well. The one risk that would 
really scare me would be the risk of a 9-month CR. Because we 
are putting all our money in staff, and it is hard to take 
money back out of staff once they are here. That is the thing. 
When I became Director of Administration in 1995, we were 
running a RIF at that time. And I would not like to have to go 
back to those days.
    Mr. Mollohan. Okay. Well, if you would submit for the 
record an answer to that question, in addition to your answer 
here.
    I think I heard you say that you were hiring more clerks to 
support your ALJs. Is that because of your increased caseload? 
Is that because the clerks, you can hire the expertise without 
seniority considerations? Or is it both?
    Mr. Pearson. Well, both, I guess.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Pearson. It is challenging for us to hire 
administrative law judges. We have only two ways to do it. One 
is to recruit sitting administrative law judges, which all of 
our current judges were sitting at some other agency. Or we can 
go to the Office of Personnel Management and get the three most 
senior names off their registry. As a practical matter, we have 
always done both, but we have never found one of those three 
off of the OPM register as having a sufficiently technical 
background dealing with complex cases, and certainly we have 
never found anybody with patent law background to hire.
    So what we have tended to do is hire judges from the 
Federal Energy Regulatory Commission or other agencies that 
have a history of dealing with complicated litigation of the 
sort that we have. And our pool of applicants has been 
shrinking. I don't know what we are getting now in the current 
go-around, but in the last--when we hired the last judge, the 
pool was smaller than when we had hired the previous judge, and 
that pool was smaller than when we had hired the previous 
judge.
    So I don't know what is going on, but the trend is against 
us. Our ALJs really do work quite hard. In a sense, they might 
be at the pinnacle of ALJ practice in the Federal Government. 
Some 90 percent of all ALJs work for the Social Security 
Administration, and they do important work, and it is 
relatively shorter cases, and they can get through it quickly. 
A lot of our Initial Determinations that the judges put 
together when they decide the cases run hundreds of pages.
    Mr. Mollohan. Well, what I was wondering was, is that the 
reason you are hiring additional clerks, more clerks, for that 
reason?
    Mr. Pearson. Right. Apologies for not answering the 
question.
    Mr. Mollohan. No, no, no. You were answering the question.
    Mr. Pearson. Yes, what we are trying to do is augment the 
skills that we have there in the four ALJs by giving them 
everything they need. Everything they can farm out to somebody 
else we are trying to allow that to happen, so that they can 
focus on what only they can do.
    Mr. Mollohan. And you are having an increased caseload at 
the same time?
    Mr. Pearson. Oh, yes.
    Mr. Mollohan. So that is obviously helping with that. Is 
this solving your problem? Are you solving your problem through 
hiring these additional clerks?
    Mr. Pearson. At a minimum, it has had the effect of 
persuading the existing ALJs not to retire. I mean, I think we 
have demonstrated to them, as a Commission, that we are 
committed to trying to give them what they need.
    Mr. Mollohan. Helping them with their workload.
    Mr. Pearson. Right. We are trying to get another ALJ; while 
that can't be done, what else can we do for you? And we have 
been doing all those things that we can.
    Mr. Mollohan. And with all that, you feel you need one more 
ALJ?
    Mr. Pearson. Yes. Soon.
    Mr. Mollohan. And that would solve your problem?
    Mr. Pearson. That addresses the problem for now. At the 50-
active-cases level, I think we would be okay with five judges.
    Mr. Mollohan. I guess when I say solve your problem, does 
that dispose of your cases in a timely manner? Do you project 
that another ALJ and complement of clerks would resolve your 
cases in a timely manner?
    Mr. Pearson. Another ALJ with clerks, yes, that should get 
us, I think, back to at least an 18-month figure.
    Mr. Mollohan. Is that acceptable? I mean, are you asking 
here in your request for what you need in this area, I guess is 
my question? And this gives you an opportunity to speak to 
that, you know. Do you need more ALJs? What is your----
    Mr. Pearson. If our caseload continues to increase in the 
coming year the way it has in the past, someone from the 
Commission will sit in front of you next year and say we need a 
sixth ALJ. That is my personal view; that is not a Commission 
decision yet. But there is just no way around it. We have the 
tide flowing in and rising to higher and higher levels.
    Mr. Mollohan. Mr. McLaughlin, do you have a comment on 
that?
    Mr. McLaughlin. When we were here last year asking for the 
fifth ALJ that we still don't have, it was based on 40 active 
cases, and the model was about eight active cases per judge. We 
are now at 50. We are still asking for five, but that is 
because we don't know that it is going to stay at 50 over the 
long term and we are trying to be prudent. But if it is at 50 
next year, I think you could anticipate additional upward 
pressure on the number of judges and the resources for each 
judge.
    Mr. Mollohan. Okay.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Relative to the ALJs, if it is simply a 
matter of a waiver? Is the OMB involved in this, as well?
    Mr. Pearson. OPM more directly.
    Mr. Frelinghuysen. Okay. Is there something we can do in 
our bill, in terms of language, that could help resolve this 
issue?
    Mr. Pearson. What would be needed, we believe, is----
    Mr. Frelinghuysen. Is there a legislative remedy outside of 
somebody putting in a bill?
    Mr. Pearson. It is a change in authorizing language, and I 
have no permission to come before you and suggest that that is 
an appropriate role for the Appropriations Committee.
    But I would note that Senator Baucus has introduced a 
provision in a trade package back in August that would allow 
for the hiring of Section 337 judges specifically to address 
the concerns that we have been discussing.
    Mr. Frelinghuysen. The four judges you have now, are any or 
all eligible for retirement?
    Mr. Pearson. Three of the four are eligible for retirement. 
One of our judges is 77 years old, still enjoys his work a lot, 
but----
    Mr. Frelinghuysen. That is a huge amount of devotion. Just 
think if that person were to step down. From what you have told 
us, if you have a smaller pool of people from which to choose, 
you have a pretty difficult problem finding somebody to accept 
that or go through the process to be considered.
    Mr. Pearson. Right.
    Mr. Frelinghuysen. Are these presidential appointments?
    Mr. Pearson. No, we are able to hire them. The Commission 
does the hiring. And these ALJs are hired under the 
procedures--it is the Administrative Procedures Act, correct?
    Mr. Frelinghuysen. I want to get back to the whole issue of 
your complexity of your cases. Is it too much to say all your 
cases continue to be more complex, just the nature of the 
beast, whether they have to do with pharmaceuticals or 
technology?
    Mr. Pearson. That certainly is the trend in the patent case 
area. We have----
    Mr. Frelinghuysen. You have remarkable people who work with 
you, which you have pointed out. We are very lucky to have 
these people. But, in reality, we are moving into an area of 
greater complexity.
    Mr. Pearson. Without a doubt. And we have more claims per 
patent being contested. We have oftentimes petitions brought 
involving multiple patents, each with multiple claims.
    Mr. Frelinghuysen. You have gotten pretty high marks from 
everybody, in terms of your proceedings are identified with 
expeditious actions. So we are moving ahead to a situation 
where it will be potentially from 18 to more months? Is that 
where you are suggesting we are going?
    Mr. Pearson. Oh, we are there already, yes. And we are 
trying to push the tide back toward 15 months, is where we 
would like to go.
    Mr. Frelinghuysen. In your intellectual property 
proceedings, if they result in the finding of a violation and 
result in exclusion orders and cease and desist orders, who is 
responsible for enforcing them? Customs?
    Mr. Pearson. Customs enforces them directly. We provide 
guidance to Customs in terms of what specific tariff items are 
to be excluded. And their technical staff work with ours. And, 
on the whole, I think Customs does a good job of enforcing.
    Mr. Frelinghuysen. So they are effectively enforced?
    Mr. Pearson. Yes. There are instances----
    Mr. Frelinghuysen. Do you have any problems?
    Mr. Pearson. Oh, yes, sure. When----
    Mr. Frelinghuysen. Give us an example.
    Mr. Pearson. Well, what often happens is that an order will 
cover quite a specific product, and an importer will have a 
product----
    Mr. Frelinghuysen. Let's give an example. Is there a 
problem with this picking a product where there has been--or is 
this all, sort of, in the era of litigation?
    Ms. Aranoff. Just as an example, if there is a particular 
IT product, maybe a piece that goes into a computer that is 
covered by a certain patent, the engineers will design around 
it, and they will design a product that is going to do the same 
thing as this part that was found to be infringing. Someone has 
to make a determination of whether the design-around is 
actually far enough that it is outside the scope of the patent. 
And those sorts of things are frequently disputed.
    Mr. Frelinghuysen. Those would be within your purview?
    Ms. Aranoff. Sometimes. In the first instance, that would 
go to Customs. But there are times when people can actually 
come to us for an advisory opinion or an enforcement proceeding 
where it would go back to the ALJ for a formal adjudication.
    Mr. Frelinghuysen. How would you characterize Customs? Do 
they have people that are pretty well-qualified in some of 
these areas?
    Ms. Aranoff. You will have to ask them. They have an IP 
rights branch which handles these matters. Its staff is 
relatively small.
    Mr. Pearson. I think, if the questions get complex enough, 
they probably prefer that we look at it again and decide what--
--
    Mr. Frelinghuysen. Could you make any comments, in the 
Chairman's absence, on the probable effects in terms of the 
exiting free-trade agreements? You have completed all your work 
relative to the ones that are out there now; is that right?
    Mr. Pearson. Yes.
    Mr. Frelinghuysen. What areas do you expect your economic 
studies will focus on this year and next? USTR is pretty busy. 
Where do you see the next focus?
    Mr. Pearson. We are unlikely to do any more FTA reports for 
a little while. We hope sincerely at some point to be able to 
do a report on the Doha round, which, of course, isn't ready 
yet either.
    Some of the work that we have been doing for USTR in regard 
to the Doha negotiations includes analysis of the 
nonagricultural market access negotiations. We have done a 
project for them to look at the economic partnership agreements 
that the European Union has been signing with its former 
colonies to try to understand, in aggregate, the effect those 
are having.
    Mr. Frelinghuysen. So you are looking at the trade 
agreements, as well?
    Mr. Pearson. Oh, yes. If the USTR asks us to do it, it is 
relevant to how USTR is trying to position in various ways, you 
know, in negotiations with other countries. So, yes, we have a 
much larger economic staff than USTR. I think they have 10 or 
fewer economists, and we have in terms of positions, what, 
somewhere over 40.
    Mr. Frelinghuysen. So these are men and woman who are 
familiar with Central America, South America, and Africa?
    Mr. Pearson. Right. One of our divisions is a regional 
analysis division, one of our divisions in the economics group. 
We have three divisions. So we have some people who try to look 
at the world in terms of its regions, to understand what is 
going on in the various areas.
    Mr. Frelinghuysen. Does the USTR have her own equivalent, 
or are you her main backup in this area?
    Mr. Pearson. Because their staff is so small and I think 
they deal much more with the moment-to-moment issues of the 
negotiations, we serve what you might call a back office 
function or a backup function, where the more complex, bigger 
projects they hand off to us, and they give us anywhere from 2 
weeks to 1 year, and we try to give them an answer.
    Mr. Frelinghuysen. I think we are going to take a brief 
recess until the Chairman comes back, if that is all right.
    Mr. Pearson. That would be just fine. I recall well--the 
tag-team effort that the two of you put in last year was 
admirable.
    Mr. Frelinghuysen. I was rehashing a number of questions. 
    Mr. Mollohan. I am sure it was the same ones. Thank you, 
Rodney.
    Did Mr. Frelinghuysen talk about countervailing duties and 
antidumping? No? I can safely get into that without asking you 
to repeat?
    The fiscal year 2009 budget request states that import 
injury investigations are projected to increase by 10 percent 
because of increased filings of the antidumping and 
countervailing duty petitions. In your statement, you mention 
seven new CVD investigations filed against products from China 
in the past year and project they will remain at relatively 
high levels in fiscal years 2008 and 2009.
    Please explain how the U.S. Department of Commerce's recent 
decision to apply the CVD to non-market economies such as China 
effects the levels of filings of this type of petition.
    Mr. Pearson. Sure. Some U.S. industries have been 
concerned, because when they have brought just antidumping 
petitions against the Chinese, sometimes the margins have come 
back at relatively modest levels. Some of the Chinese firms 
have been effective at retaining counsel and working with the 
Department of Commerce, and they have argued successfully for 
relatively modest margins. Given the cost advantages that some 
Chinese firms have, they have still been able to export to this 
country without a huge restriction despite the antidumping 
order.
    So I think that by--the reasoning of the Department of 
Commerce, I think, was that if they were to look at the 
subsidies in China, which we understand there are quite a few, 
and then calculate a subsidy margin, that perhaps the 
antidumping-plus-CVD margin would be sufficient that it would 
be harder for firms from China to export products to the United 
States.
    So, in other words, once that door is open, then U.S. firms 
may be more likely to file cases.
    Mr. Mollohan. Are there any other reasons for the increased 
filings?
    Mr. Pearson. I think that it is not possible to ignore the 
economy. As we see the economy slow down, as we see demand 
weaken, there just isn't room left for firms to sell at 
profitable prices with a shrinking or a weakening demand base.
    So this is normal. I mean, our workload in antidumping/
countervailing duty cases tends to be counter-cyclical. The 
better the economy is, the fewer cases we have filed. When the 
economy heads south, our caseload goes up. So, without knowing 
any precise numbers, we would anticipate that we are going to 
see some filings through this time of weak economic growth.
    Mr. Mollohan. What other countries are involved besides 
China?
    Mr. Pearson. Well, we see quite a variety of petitions. We 
have one that we have just dealt with involving France only. We 
have quite a few involving India, Thailand.
    When we are reviewing existing orders, we often--we have 
been dealing with Ukraine and Eastern European countries, as 
well as, you know, some of the Western European countries, 
occasionally South American countries. Particularly Brazil is a 
major exporter; it shows up occasionally.
    If you would like, I can provide in post-hearing a more 
thorough review of countries that we have been involved in in 
the past year. That would be simple enough.
    [The information follows:]

    Question. What other countries are involved [in antidumping and 
countervailing duty investigations besides China?
    Answer. In FY2007 and year-to-date FY2008, antidumping and 
countervailing duty cases have been filed with respect to imports from 
the following countries: China--20 cases, Korea--4 cases, India--3 
cases, Germany--2 cases, United Arab Emirates--2 cases, Australia--1 
case, Brazil--1 case, France--1 case, Indonesia--1 case, Japan--1 case, 
Mexico--1 case, South Africa--1 case, Taiwan--1 case, Thailand--1 case, 
Turkey--1 case, and Vietnam--1 case.

    Mr. Mollohan. Do you have any steel cases pending?
    Mr. Pearson. Yes. We have a hearing for next, what, next 
month sometime on stainless steel pipe from China.
    [The information follows:]

    Question. Do you have any steel [antidumping or countervailing 
duty] cases pending?
    Answer. Active Steel Product Investigations:
    1. Steel nails/China & United Arab Emirates.
    2. Circular welded carbon-quality steel pipe/China.
    3. Light-walled rectangular pipe and tube/China, Korea, Mexico and 
Turkey.
    4. Steel wire garment hangers/China.
    5. Welded stainless steel pressure pipe/China.
    6. Steel threaded rod/China.
    Active Steel Product Reviews:
    1. Carbon and certain alloy steel wire rod/Brazil, Canada, 
Indonesia, Mexico, Moldova, Trinidad & Tobago & Ukraine.
    2. Steel concrete reinforcing bar/Turkey.

    Mr. Mollohan. Is that the only one you have, countervailing 
duty or antidumping case petition?
    Ms. Aranoff. That is the only new one. We are continuing to 
do sunset reviews on quite a number of steel-related orders.
    Mr. Mollohan. So all that represents an increased workload?
    Mr. Pearson. The new cases clearly do. See, in terms of the 
5-year sunset reviews that we do, we know what is out there, 
because any time an order goes into effect, we know that 5 
years later we are going to look at it again. So that is 
predictable; we can budget for that. The new cases are brought 
at the pleasure of the domestic industries.
    Mr. Mollohan. I know you have talked about this already in 
the hearing, but how are you with your current staffing levels? 
How are you meeting this demand? You have a higher demand here. 
You have a higher demand from the Congress, a request from the 
Ways and Means Committee.
    Mr. Pearson. We are meeting it with some difficulty, 
frankly. We are pushing people harder than we can over the long 
term. That is why I mentioned earlier it is important for them 
to see the light at the end of the tunnel, because people are--
--
    Mr. Mollohan. What is the light at the end of the tunnel?
    Ms. Aranoff. Getting the vacancy rate down.
    Mr. Pearson. The light they would see is if we have the 
2008 appropriation we asked for, if we get the 2009 
appropriation. Then I think there will be a general sense 
across the agency, ``Okay, we are back. We are rebuilding. We 
are going to be okay.''
    Mr. Mollohan. But you really should be okay with the 2008 
request you asked for, but you are saying the rent situation 
frustrated that; is that correct?
    Mr. Pearson. Yes, that is correct. Although what we have 
done is we have protected the personnel side of our plan and we 
have taken the hit on the IT side.
    Mr. Mollohan. If you protected the personnel side, then 
your 2008 request should have taken care of your personnel 
needs. But it hasn't taken care of your personnel needs.
    Mr. Pearson. Well, I see what you are saying, but, in 
fairness, it is very difficult for us, given the specialized 
requirements we have for many of our offices, to just go out 
and in one fiscal year hire all the----
    Mr. Mollohan. Do you have the money to do it?
    Mr. Pearson. We have the money this year to get our vacancy 
rate down from 16 percent to 9 percent by the end of September, 
which we hope to do, which is about as much as we think we can 
absorb this year. That is why to have continuity through fiscal 
2009 is so important to us, because, otherwise, we are going to 
have the job half-finished, with the risk that we have to turn 
around and start reducing employment again.
    Mr. Mollohan. You have to be approved by OMB; is that 
correct?
    Mr. Pearson. Our appropriation request has to be submitted 
to OMB, but they can't adjust it. It is one of the elements of 
our independence.
    Mr. Mollohan. And I remember that.
    Mr. Pearson. We are one of the most independent of all 
independent agencies. You know, six commissioners, no more than 
three from any one party. We serve 9-year terms, staggered with 
one term ending every 18 months. We all outlive any 
administration. And the chairmanship flips back and forth every 
2 years by presidential designation.
    Mr. Mollohan. You didn't adjust your request based on 
anything OMB had to say about it?
    Mr. Pearson. No, not at all. It passes directly through to 
you, and we are very much subject to whatever you should 
decide, which is why we appreciate this opportunity to visit.
    Mr. Mollohan. And we want to help you. So your $73.6 
million is what you all have sat down and said, ``That is what 
we need for 2009''?
    Mr. Pearson. Right. The commissioners met in late August, 
early September, I guess, and approved this figure. So we have, 
like I said, bipartisan and unanimous agreement with this 
request.
    Mr. Mollohan. Okay.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. That is pretty good and admirable.
    I just want to get to the rent increase and GSA. Did you 
protest, or what did you do? You didn't take the rent increase 
sitting down when they made initial projection of 15 and then 
came up with somewhere between 38 and 40 percent.
    Mr. Pearson. Right. We did not take it sitting down. But in 
the short term, they have the right to take out of our accounts 
however much money they want, on a monthly basis. So they go 
ahead and get their money, and we have to live with that.
    Mr. Frelinghuysen. You protested, but what did you actually 
find out? Do you think that there was any justification?
    Mr. Pearson. Well, they have their rationale. It is just 
they did not communicate it to us.
    Mr. Frelinghuysen. What do you think their rationale might 
be? What did they tell you?
    Mr. Pearson. Let me turn to Mr. McLaughlin.
    Mr. McLaughlin. Most of my summer was spent on this 
rationale.
    The short version of the story is what we were being quoted 
as our price was not the bottom-line price; it was GSA's costs. 
So notwithstanding our request for a budget figure, they were 
quoting us their cost. They are renting the property from 
Boston Property. They did not disclose to us that, oh, by the 
way, their cost doesn't include operating fee escalations for 
the last 10 years and real estate escalations for the last 10 
years and their 8 percent administrative fee, which totals $1.3 
million.
    Mr. Frelinghuysen. Oh.
    Mr. McLaughlin. That was my reaction.
    Mr. Frelinghuysen. Well, I am glad we have it entered into 
the record, because obviously this impacts other agencies and 
groups that come before us. I would think, obviously, those 
figures were set before maybe our economy was headed south.
    I just have a question on Thailand. When I was in Thailand 
in late August, I met with a variety of people at the embassy. 
The Thai case you are talking about here, didn't that involve 
pharmaceuticals? Any of you familiar with that issue? I know 
there are things going on there where people are not playing by 
the--rules.
    Mr. Pearson. I don't believe we have had a pharmaceuticals 
case in front of us.
    Mr. Frelinghuysen. The Thai issue, you don't remember what 
that was?
    Mr. Pearson. We had a steel case involving Thailand, a 
review of an old order, and then a little more than a year ago, 
we had a case involving crushed canned pineapple from Thailand 
and other countries.
    Mr. Frelinghuysen. Interesting, somehow I thought there was 
some sort of pharmaceutical case that was involved.
    Mr. Pearson. And that is not impossible. We could have 
easily had an intellectual property case, a 337-case, that 
might have involved one or more producers in Thailand. And I 
wouldn't know that unless I went and looked at it closely. We 
do as a practical matter deal with some biotech and 
pharmaceutical cases on the patent side.
    Mr. Frelinghuysen. Were you involved in any way in any of 
the Mattel stuff with toys?
    Mr. Pearson. No, we watched that from the side lines 
wondering what it would mean for the bilateral relationship, 
but there was no trade remedy case brought before us, and we 
have not been asked to look specifically at toys by the Rangel 
study that we are doing on China. The request for the study 
preceded the concerns with toys.
    Mr. Frelinghuysen. Even though maybe the Chinese are to be 
blamed, obviously, these were American companies that are 
contracting so there are obviously obligations they have.
    Mr. Pearson. Important lessons to learn about one's supply 
chain, I think, yes.
    Mr. Frelinghuysen. Absolutely.
    Thank you, Mr. Chairman.
    Mr. Mollohan. With regard to your exemption from OPM's ALJ 
pool requirement. Does your request or desire to be exempt from 
OPM's ALJ pool and priority, does that have to be coordinated 
through and approved by OMB?
    Mr. Pearson. No. I mean, if OPM had some administrative 
authority that it was willing to use to grant relief, then 
perhaps OMB would have to look at it. I don't know that. But 
OPM has made it clear to us that they don't think they have the 
administrative authority, and if they did have, they wouldn't 
be inclined to use it, because they are not eager to start what 
they would see as a slippery slope by making an exemption for 
one small agency, because then what would come next in terms of 
requests.
    Mr. Mollohan. In July of last year you released a report on 
certain economic effects of U.S. restrictions on agricultural 
sales to Cuba.
    Mr. Pearson. Yes.
    Mr. Mollohan. I have a series of questions on that, please. 
What factors raise the cost of U.S. Goods for Cubans and limit 
U.S. sales? What factors raise the cost of U.S. goods for 
Cubans----
    Mr. Pearson. Okay.
    Mr. Mollohan [continuing]. And limit the U.S. sales.
    Mr. Pearson. I will try to answer these, I have not looked 
at that study now in over half a year, but off the top of my 
head.
    [The information follows:]

    Question. What factors limit U.S. agricultural sales to Cubans?
    Answer. Several factors, both economic and non-economic, limit U.S. 
agricultural sales to Cuba. Beyond the additional costs of U.S. goods 
mentioned above, Cuba is unable to benefit from several USDA credit 
programs that provide low-interest credit for the purchase of U.S. 
agricultural products. Such credit is available to the Cuban Government 
from many U.S. competitors, such as France, China, and Vietnam. Even 
though the United States is able offer Cuba high quality agricultural 
products at prices lower than most competitors, non-economic factors 
are important to Alimport in making its purchasing decisions. For 
example, Cuba seeks to diversify its agricultural import suppliers, not 
only to avoid becoming too reliant on any single country, but also to 
develop favorable geo-political relationships (such as with China and 
Venezuela). U.S. travel restrictions also limit our agricultural sales 
to Cuba in a number of ways. For example, reducing the number of U.S. 
citizens able to travel to Cuba lowers demand for U.S. products in 
Cuba. Further, Cuban officials wishing to visit the United States in 
order to inspect U.S. processing and port facilities, a prerequisite in 
many cases for purchases, have difficulty obtaining visas from U.S. 
authorities. Similarly, U.S. exporters face time-consuming and 
complicated procedures in obtaining licenses for travel in order to 
conduct essential face-to-face business negotiations in Cuba.
    Question. What factors raise the cost of U.S. goods for Cubans?
    Answer. Sanctions prevent the Cuban Government entity, Alimport, 
(the sole purchaser of U.S. agricultural products) from conducting 
financial transactions with U.S. banks. This means that Cuba must make 
payments for U.S. agricultural sales through third-country (typically 
European) financial institutions. The additional costs associated with 
such third-party transactions, including currency conversions, raises 
the price of U.S. goods paid by Alimport. Also, compliance with 
stringent financing regulations often results in delays at U.S. ports, 
leading to additional shipping costs for Alimport. Sanctions also 
penalize shipping companies whose vessels enter Cuban ports. As a 
result, few companies service Cuba and a lack of competition among 
shippers leads to higher freight charges on goods coming from the 
United States.
    The majority of U.S. agricultural products imported by Alimport are 
distributed directly to the Cuban population through government-run 
ration stores. However, some products imported from the United States 
are resold by Alimport to private sector grocery outlets, hotels, and 
restaurants. As the sole buyer and seller, Alimport is able to charge 
higher prices to these private sector outlets than if these outlets 
purchased directly from U.S. suppliers. Overall, the ITC estimated that 
sanctions raise the cost of U.S. goods for Cubans by as much as 2.5 to 
10 percent, depending on the products.

    Mr. Mollohan. Okay, go ahead.
    Mr. Pearson. There is the travel restriction that makes it 
challenging for people who want to go to Cuba on sales calls to 
do so, so that is one factor. And there are the financing 
issues where U.S. financial institutions can't be involved in a 
trade with China--Cuba, excuse me. Those would be the two 
things that would come to me.
    Mr. Mollohan. What agricultural commodity sectors would 
likely benefit most from the lifting of financial restrictions 
on U.S. agriculture exports to Cuba? I will submit these for 
the record.
    The recent WTO rules draft apparently included changes with 
regard to the administration of sunset reviews, and the new 
provision would perhaps provide for mandatory sunset trade 
relief at 10 years. Is it true that the WTO rules draft 
provides for mandatory sunset trade relief at 10 years?
    Mr. Pearson. Yes, the chairman's draft that is currently 
under consideration does include a provision that would sunset 
all orders after 10 years.
    [The information follows:]

    Question. What agricultural commodity sectors would likely benefit 
most from lifting of financial restrictions on U.S. Agricultural 
exports to Cuba?
    Answer. The United States export a wide range of agricultural 
commodities to Cuba, including food and feed grains, soybeans, dry 
beans, dairy and meat products, fresh fruit and vegetables, and a 
variety of processed food and beverages. The ITC estimated that U.S. 
agricultural sales to Cuba could double absent the financial 
restrictions. Sales of all products would benefit from lifting 
financial restrictions, with fruit and vegetables, meats, bulk dairy 
products, and processed foods benefiting the most.

    Mr. Mollohan. Well, what effect will this have on U.S. 
citizens who have used the existing trade laws to obtain relief 
from unfair trade practices?
    Mr. Pearson. It would require them to come back and file a 
new case. Now, my understanding is that the chairman, without 
defining it, has indicated that he would be open to some 
expedited procedure in that situation. But at this stage of the 
negotiations, that is only a concept; it is nothing more than 
something we could speculate on.
    Mr. Mollohan. I understand that some members of the 
Commission recently traveled to Geneva to meet with officials 
to discuss these issues. Can you elaborate on those meetings? 
Did you travel?
    Mr. Pearson. Certainly, yes. Four of the commissioners 
went. It had been several years since we had been there, there 
had not been a lot happening in the Rules negotiations, okay? 
So we didn't want to spend unnecessary time there. And I should 
explain, too, that the Commission does not negotiate directly 
on Rules. Those negotiations are handled by Commerce and USTR. 
The reason that both Congress and USTR want us to be informed 
and kind of a part of the process is that, at some stage late 
in the game, we are going to get a phone call saying, okay, the 
language on material injury is this, can you live with it? And 
of necessity we need to be aware of what those changes are, 
what changes are being proposed.
    But there are suggestions to change the material injury 
standards that are of some concern, and those were the ones we 
were primarily focused on. Sunset, although it would have an 
effect on us, there was nothing there that we would--that we 
would take a position on, because it is kind of outside the 
scope of what we should focus on. We have been very scrupulous 
to leave to Commerce and USTR the things that are their----
    Mr. Mollohan. So you would not have commented on the sunset 
provisions?
    Mr. Pearson. If it goes into effect, it may or may not 
change our work load; it depends. If new petitions are filed, 
that may have the effect of increasing our work load. If new 
petitions are not filed, our work load would go down. We kind 
of know what is out there for work load if we are just doing a 
review every 5 years. It is a little easier for us to plan.
    Mr. Mollohan. Okay.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. I am all set, Mr. Chairman, thank you.
    Mr. Pearson. Mr. Chairman, could I add it has been pointed 
out to me, you had asked earlier about steel cases. We do have 
a case involving steel nails from China and--is it the United 
Arab Emirates? I think it is probably Dubai, and that is in 
front of us now. It is not one of our traditional steel cases, 
but it is a steel product.
    Mr. Mollohan. Okay, Mr. Fattah.
    Mr. Fattah. I will pass this round.
    Mr. Mollohan. We're done.
    Mr. Fattah. We're done? I have some questions that I will 
submit for the record.
    Mr. Pearson. That would be fine, thank you.
    Mr. Mollohan. Thank you, Mr. Fattah.
    Mr. Chairman, Madam Vice Chairman, Mr. McLaughlin, we 
appreciate your testimony here today, thank you again for your 
good work. There will be some questions submitted for the 
record. Mr. Fattah has indicated his interest in doing that, 
and we may as well. That was excellent testimony, and again, I 
appreciate very much your good work. And if you will please 
give my personal regards to Commissioner Lane, I'd appreciate 
that.
    Mr. Pearson. I would be pleased to do so. And again, we 
appreciate so much the attention that you give to our little 
agency. I mean, we do our best, and we may be one of the most 
bipartisan places in town. We try hard to maintain that working 
atmosphere and to have good relations with the Hill, so thank 
you.
    Mr. Mollohan. You are small enough that these accounts get 
scrutinized, which is important to do. But you know, we want to 
be responsive to your needs, so you need to come forward with 
what they are. Thank you for your testimony.
    Mr. Pearson. Thank you.
    Mr. Mollohan. And the hearing is adjourned.
    [Questions and answers submitted for the record follow:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Wednesday, April 9, 2008.

              OFFICE OF UNITED STATES TRADE REPRESENTATIVE

                                WITNESS

SUSAN C. SCHWAB, UNITED STATES TRADE REPRESENTATIVE

                            Opening Remarks

    Mr. Mollohan. Good morning and welcome to staff, Members, 
and the public. This morning, we welcome Ambassador Susan C. 
Schwab to testify on the United States Trade Representative's 
fiscal year 2009 budget request. This is her first appearance 
before this Committee.
    Welcome, Ambassador. We look forward to working with you.
    This year's budget proposes a slight increase of 4.9 
percent. However, the justification clearly conveys the 
inadequacy of this request. Current FTE levels cannot be 
sustained at this level and other risks to the budget have been 
identified but not included.
    Furthermore, the assertion is made that any remaining 
carry-over funding will be exhausted in fiscal year 2008, 
leaving no capacity for unbudgeted events.
    Yet, the annual performance goals and 2009 initiatives are 
far ranging. The workload will have to be managed by 
eliminating noncritical missions. Indeed, USTR has already 
begun deferring such missions in fiscal year 2008.
    USTR plans to slow hires or not backfill vacancies, 
increase the number of unreimbursable detailees, and reassign 
personnel based on mission priorities. As a result, critical 
institutional knowledge may be lost.
    This justification states, ``This request significantly 
slows important administrative and infrastructure upgrades that 
commenced in fiscal year 2006,'' which were an attempt to 
reverse a decade of inattention to support and logistical 
needs.
    You may recall that in fiscal year 2006, the President's 
proposed budget was just 38.8 million. Congress appropriated 
44.6 million.
    It has been two years since USTR has appeared before this 
Committee and we have a new Ambassador. Unfortunately, my 
concerns about the economic and social effect of free trade 
agreements on American communities has not abated in the 
intervening years.
    There appears to be some progress on the inclusion of 
environmental agreements and labor principles into trade 
negotiations, but the U.S. is still disadvantaged on balance.
    Moreover, the idea that nations should avoid using the 
environment and climate change as an excuse to impose trade 
restrictions is worrisome.
    And then there's China. In 2006, USTR's top-to-bottom 
review of trade with China concluded that the relationship 
lacked equity, balance, and durability.
    In October 2007, GAO testified before the House Judiciary 
Committee on Courts, the Internet, and Intellectual Property 
that U.S. intellectual property faces increasing risk of theft 
as U.S. firms integrate into the world economy.
    ``The severity of these risks has been intensified by weak 
enforcement in some countries, particularly China, whose 
enforcement challenges have persisted despite U.S. efforts.''
    In February 2008, the Department of Commerce reported that 
the trade deficit with China rose to 256 billion in 2007, the 
largest gap ever recorded with a single country. China has now 
surpassed Canada to become the U.S.'s largest source of 
imported goods and, yet, despite the decline in the dollar, 
U.S. exports to China fell 15 percent in January 2008 amid 
contentions of unfair manipulation of China's currency to keep 
its value low against the dollar.
    The Committee looks forward to your thoughts on these 
issues, Ambassador Schwab. And so I will invite you to go 
forward with your oral testimony. Your written testimony will 
be made a part of the record. And then when Mr. Frelinghuysen 
arrives, we will give him an opportunity to make an opening 
statement.
    Welcome.
    Ambassador Schwab. Super. Thank you, Mr. Chairman. Thank 
you very much.
    Mr. Chairman, members of the Committee, I appreciate this 
opportunity to discuss the fiscal year 2009 budget for the 
Office of U.S. Trade Representative.
    As you know, the USTR is the lead agency in the U.S. 
government responsible for the development, the negotiation, 
and the implementation of U.S. trade policy. We are a lean, 
efficient, effective organization that currently boasts around 
226 FTEs.
    And the principal focus of virtually everyone on the staff 
is opening markets abroad for the products and services of 
American workers, farmers, and entrepreneurs. We negotiate 
agreements that level the trade playing field and hold our 
partners to their commitments.
    Our trade policy and the agenda to deliver it has four main 
components. First, multilateral trade talks such as the WTO's 
Doha development round; second, regional and bilateral trade 
talks such as pending free trade agreements with Colombia, with 
Panama, and South Korea; third, monitoring and enforcement of 
U.S. rights under existing trade agreements; fourth, issue-
specific problem-solving and negotiations on topics such as 
intellectual property rights protection, softwood lumber, 
removal of nonscience-based sanitary and phyto-sanitary 
barriers to U.S. farm exports, and the use of trade to 
contribute to international, environmental, and climate 
objectives.
    Trade today is playing a larger role in our economy than 
ever before and while some sectors of the U.S. economy are 
under stress, more than 40 percent of U.S. economic growth last 
year was attributable to the growth in U.S. exports, goods and 
services.
    With U.S. exports to our free trade agreement partners 
rising significantly faster than our exports to the rest of the 
world, our trade agenda is more important than ever.
    I am here today to ask that you fully fund these very 
important activities for fiscal year 2009. With our funding 
levels relatively flat for the last two years, our office has 
been challenged to keep pace with our growing responsibilities.
    USTR has a very high-skilled labor and travel-intensive job 
to do. And of the 45.2 million we spent in fiscal year 2007, 33 
million or 73 percent went to payroll. Travel was the next 
highest expense at 12 percent.
    In fiscal year 2008, our payroll increases to 35 million, 
primarily due to a cost-of-living adjustment, making payroll 
this year almost 80 percent of our current appropriation.
    If the budget is cut below the President's budget proposal, 
the new USTR, the next USTR will have to reduce costs by 
cutting staff. This would seriously impair USTR's 
congressionally mandated mission of opening international 
markets to U.S. exports and enforcing trade agreements.
    Let me briefly mention some of our activities and 
accomplishments if I may.
    First, on the multilateral front, a successful WTO Doha 
round outcome is our top trade negotiating priority. This 
multilateral agreement in the WTO offers the potential to 
generate economic growth and development here and around the 
world and to help lift millions out of poverty.
    We have worked since 2001 to achieve a successful Doha 
outcome that will open markets, generate new trade flows, and 
boost both economic growth and confidence in the global 
economy, but it is important that the United States stay a 
strong and active leader at the WTO so as to ensure maximum 
benefits to U.S. interests.
    On FTAs, we are working very closely with Congress as we 
did last year to address the environmental and labor 
protections in four free trade agreements. The four FTAs that 
were pending before the Congress, Peru, Colombia, Panama, and 
South Korea.
    We included at Congress's suggestion and in concert with a 
bipartisan agreement stronger enforceable provisions that have 
set a new standard in both areas, environment and labor 
protections for FTAs.
    Monitoring and enforcing these and earlier labor and 
environmental provisions in our FTAs is important but also 
resource intensive. And with a substantial increase in the 
number of countries with which we now have FTAs jumping from 
three to seventeen during the course of this Administration, 
USTR's workload has grown dramatically. Despite this increase 
in workload, we have increased staff by only 13 percent since 
fiscal year 2001.
    On the enforcement front, since USTR testified last before 
this Committee, we have initiated five WTO cases challenging 
China's trade practices. This brings the total number of cases 
filed against China to six since March 2004 when we filed the 
first ever case against China at the WTO.
    As the result of filing one such case last year, China 
agreed to eliminate a dozen major export subsidies and 
important substitution incentives.
    We also continue to challenge in the WTO the European 
Union's undue delays in approving agricultural biotechnology 
products. We have initiated two arbitrations against Canada to 
enforce bilateral softwood lumber agreement.
    USTR has, as you know, an array of tools available to us to 
enforce our rights under trade agreements. And while litigation 
is never the preferred option, it is an option that we have and 
will continue to use when other efforts fail to resolve our 
trade problems.
    Just briefly before closing, a couple examples of subject-
specific negotiations or actions that we are engaged in.
    First on intellectual property rights, we have made 
progress with several of our trading partners this past year in 
improving IPR laws and enforcement. For example, the three 
pending FTAs, Colombia, Panama, and South Korea all contain 
world-class IPR protections.
    USTR uses our annual special 301 report that will come out 
later this month to guide our choice of policy priorities, our 
priority targets for addressing IP challenges.
    In addition, we recently announced the launch of the 
negotiations of the new anti-counterfeiting trade agreement 
with key trading partners designed to hit a higher standard for 
combating intellectual property rights violations, piracy, and 
counterfeiting.
    On trade and the environment, in addition to improving 
environmental standards through our free trade agreements, the 
United States together with the European Union recently 
submitted a groundbreaking proposal as part of the Doha round 
negotiations to reduce international barriers to trade and 
environmental goods and services, including important climate-
friendly technologies such as clean coal, wind energy, and 
solar cells.
    I would note that USTR depends greatly on our 
interdependent relationship with other agencies when we move 
forward with the Administration's trade agenda. In particular, 
we rely on the capacity building, development, and technical 
assistance provided by some of the development agencies to 
support in particular the labor and environmental provisions of 
the free trade agreements.
    And since I know that these decisions are vested with 
another Subcommittee, I hope that you would keep that in mind 
because these are tools that we really rely on.
    In conclusion, American taxpayers get an exceptional return 
on their investment in USTR and, therefore, I would 
respectfully ask that you fully fund our 2009 budget, fiscal 
year 2009 budget so that the work of the U.S. Trade 
Representative's Office can be smoothly transitioned to the 
next Administration.
    Thank you for your time and I would be happy to take any 
questions.
    [Written testimony by Ambassador Susan C. Schwab, United 
States Trade Representative]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Mollohan. Thank you.
    I recognize Mr. Frelinghuysen for an opening statement.

                            Opening Remarks

    Mr. Frelinghuysen. First of all, let me apologize, Mr. 
Chairman, for being late.
    And, Ambassador, it is my pleasure to join the Chairman in 
welcoming you for your first appearance before this 
Subcommittee.
    You are requesting an appropriation of $46.3 million which 
provides no increase for your fiscal year 2008 operating level 
which included carry-over funds.
    The fiscal year 2009 request provides no additional 
resources for pay, inflation, or other built-in cost increases, 
let alone any increases for the new initiatives that you have 
mentioned. This seems to me to be somewhat shortsighted given 
the very active trade agenda facing the nation.
    As you said in your testimony, the American taxpayer gets 
an exceptional return in their investment in the USTR. I had an 
opportunity over the weekend with you to see some of that 
investment and the extraordinary amount of work that you have 
been doing relative to that trade agreement and so many others.
    I also had an opportunity to take a close look at your 2008 
national trade report, the NET, which substantiates very much 
to me your successes and many challenges. That is quite a list 
of accomplishments and a lot of barriers yet to overcome.
    I believe that our security and prosperity are dependent 
upon active engagement in the global economy through free and 
fair trade. I am convinced and certainly even more so having 
been with you recently on a bipartisan trip that the Colombia 
free trade agreement will yield important economic benefits for 
the United States and Colombia and also will demonstrate 
support for a very strong ally.
    The odds of President Uribe succeeding were long, but he 
has succeeded and now we need to match his courage and the work 
of the men and women who support him.
    I am very pleased that you are here and I salute you for 
your work. Your budget needs a lot more money. As I know you 
said in your testimony and certainly in your published 
testimony, you are preparing for the next Administration and 
they have to face these challenges.
    You are not only looking after your needs between now and 
the end of the year, but giving the next President the tools 
they need to open the marketplace for American goods and 
services.
    Thank you, Mr. Chairman.

                              USTR BUDGET

    Mr. Mollohan. Thank you, Mr. Frelinghuysen.
    Ambassador Schwab, I just point out that it puts the 
Committee in a difficult position when we receive testimony as 
late as we received your testimony. I do not know whether you 
know it or not.
    We received your testimony 6:30 last evening, which 
actually was 15 hours in advance of USTR's hearing. That beats 
Census. Census was 19 hours in advance of the hearing. Of 
course, we gave about two postponements of their testimony in 
order to accommodate their trying to get their information 
together. But we have not even read and what we heard of your 
testimony is the first we heard of it. So it really does put 
the Committee in a difficult position.
    Thank you for appearing at the same time.
    In 2009, USTR budget includes an increase of $2.1 million. 
That is just under five percent of the fiscal year 2008 
appropriation. However, this is just equivalent to USTR's 
fiscal 2008 spending level, which allowed USTR to spend 2.2 
million in no-year carry-over funds in addition to the enacted 
level of 44.1 million.
    Indeed, your justification makes it quite clear that 46.3 
million, the President's request, is not enough, as Mr. 
Frelinghuysen is pointing out here, for fiscal year 2009, in 
part precisely because USTR will have exhausted all of its no-
year carry-over funds in fiscal year 2008.
    The justification states that, ``This will be a challenge 
to USTR management.''
    On page 23 of the justification, USTR lists its fiscal year 
2009 budget risk. Included on this list, but not in the budget, 
are first a WTO ministerial normally scheduled bi-annually 
which has not been assumed in this budget due to the current 
stage of the Doha negotiations.
    Two, capital security costs in China related to the State 
Department's Global Embassy Construction Program that have not 
yet been charged to USTR despite the fact that it has been in 
Beijing since 2007.
    Three, the need to strictly control personnel costs through 
deliberately pacing hiring requirements.
    And, lastly, a new lease for the Ambassador's residence in 
Geneva.
    Ambassador Schwab, this budget was developed some time ago 
and we heard from your office that the Doha round was heating 
up. Please update us on the Doha negotiations and explain how 
this affects the need for a WTO ministerial.
    Ambassador Schwab. Thank you, Mr. Chairman.
    As you note, the Doha round negotiation is heating up. It 
has done so periodically over the last several years. We are 
once again going to take a run at getting this elusive break-
through that would open markets to trade in agriculture and 
manufacturing goods and services. And we do hope to see a 
ministerial sometime in the next two months or so.
    Unlike the previous ministerial in December of 2005, which 
was in Hong Kong, this one would probably be in Geneva, which 
is slightly less costly for us because we have a small office 
in Geneva that can support us. So that is a good development.
    The key to the Doha round from our perspective is to make 
sure that this multilateral development round meets the promise 
that was stated for it when it was launched in 2001, namely to 
help generate economic growth, including in developing 
countries, and to help alleviate poverty.
    And the key, one of the key points that we have found is a 
challenge in this negotiation is ensuring that the emerging 
markets, the advanced developing countries, China, Brazil, 
India, others contribute to this market, opening at a level 
that is commensurate with their level of development.
    Obviously the developed countries would be expected to do 
the most and the least developing countries are the ones that 
we are targeting for the most help, but everybody needs to 
contribute for this to be a successful round.
    Mr. Mollohan. Your risk was calculated at a million dollars 
for this ministerial. How risky is the exclusion of the 
ministerial request?
    Ambassador Schwab. I would guess at this stage, first of 
all, the ministerial, assuming the ministerial takes place, and 
there will be a lot of developments in the next four to eight 
weeks to see whether we are ready for a ministerial, we cannot 
afford a failed ministerial again, assuming it takes place, my 
guess is that it will be less costly than the million dollars 
that it cost us to do the Hong Kong ministerial in December of 
2005, and that if there is a second ministerial to eventually 
close the Doha round, it would be in the next fiscal year.
    So we are talking about one in this fiscal year, one in the 
next fiscal year, but neither of them----
    Mr. Mollohan. What fiscal year?
    Ambassador Schwab. One in fiscal year 2008, one that would 
be closer to the end of this calendar year, therefore, fiscal 
year 2009. Neither would be as costly as the Hong Kong 
ministerial was.
    Mr. Mollohan. How costly was the Hong Kong ministerial?
    Ambassador Schwab. It was close to a million dollars. This 
was December of 2005.
    But I would be happy to provide----
    Mr. Mollohan. Do you really think it is going to cost less 
than a million dollars? And even if it does, it is not provided 
for, so how are you going to cover it?
    Ambassador Schwab. USTR has become pretty adept at setting 
priorities and making sure we have the resources available to 
fund those priorities. And there are other things that we could 
and probably should be doing that sometimes slip.
    Mr. Mollohan. Why do you not request it?
    Ambassador Schwab. You know, obviously USTR, I am fully 
supportive of the President's request. We can manage with the 
President's request.
    Mr. Mollohan. I know you have quoted the President's 
request. We understand that. Why do you not request it?
    Ambassador Schwab. For the ministerial?
    Mr. Mollohan. Yes.
    Ambassador Schwab. In part because we have been planning. 
We have assumed or thought there would be a ministerial for 
several years running and there has not been one. We thought 
there would be one in 2006. We did not have one. We thought 
there would be one in 2007. We did not have one.
    I cannot actually tell you there is going to be a 
ministerial in fiscal year 2008 or fiscal year 2009. We believe 
we are going to have a ministerial in fiscal year 2008 later on 
this spring, but that is not even set yet. And, therefore----
    Mr. Mollohan. Is the funding for that provided for?
    Ambassador Schwab. We would make certain that we had the 
funding for that. And as I said, because that ministerial would 
be in Geneva, and my guess is both would be in Geneva, if there 
is one to get the break through and one to close the deal, my 
guess is both would be in Geneva.
    And Geneva, while there has been some increase in cost 
associated with exchange rate changes in doing any of our 
travel, a Geneva ministerial will cost significantly less than 
a Hong Kong ministerial because we have the infrastructure of 
our office in Geneva.
    Mr. Mollohan. But just looking at probabilities, which is 
the way you are answering my question, just how risky is the 
exclusion? With what probability do you think you are going to 
have a ministerial in 2009?
    Ambassador Schwab. In 2009?
    Mr. Mollohan. That is what this budget request is.
    Ambassador Schwab. Right. I think there will be a 
ministerial. I suspect it will be on a smaller scale.
    Mr. Mollohan. Okay. But it is not requested in your budget 
request, right?
    Ambassador Schwab. We do not know that there will be a 
ministerial.
    Mr. Mollohan. I understand. But you have not requested it? 
You have not requested funding for it, have you?
    Ambassador Schwab. That is correct.
    Mr. Mollohan. Sorry. There is a number of risks as I went 
over. USTR has been in Beijing since 2007, but no capital 
security costs have yet been charged.
    Has the USTR been in contact with State Department about a 
possible range and do you have any idea how much these costs 
might be?
    Ambassador Schwab. We worked very closely with the State 
Department on this and to this point, we have not had to absorb 
a significant cost associated with this. I will continue to 
work with the State Department and the U.S. Embassy in Beijing 
to make sure that if they have to transfer those expenses to us 
that we are able to manage payment of those.
    Mr. Mollohan. Well, as I understand it, we used to fund 
State Department. They are supposed to charge you.
    Ambassador Schwab. They are supposed to charge us $50,000 a 
person basically. We pay that. We have someone in Brussels and 
we pay that in Brussels. And so up to this point, we have not 
received a bill from the State Department.
    We do an awful lot of work with and for the State 
Department. They are in many ways an extension of our mission. 
We are an extension of theirs. So far, they have cut us a 
break. We are talking about three individuals that we have in 
U.S. Embassy Beijing.
    Mr. Mollohan. Do you have any indication that you will or 
will not be charged in 2009 for the----
    Ambassador Schwab. We do not have any, up to this point, we 
do have any indication. If we were charged in 2009, that would 
be an expense of approximately $150,000----
    Mr. Mollohan. Okay.
    Ambassador Schwab [continuing]. For the three individuals.
    Mr. Mollohan. But you have no communication one way or the 
other from State Department to give you an inkling of whether 
you are going to be charged in 2009?
    Ambassador Schwab. No, not to date.
    Mr. Mollohan. Okay. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Satisfy my curiosity. I read in the 
newspaper the other day that the Chinese are aggressively 
pursuing like 30 free trade agreements and they concluded one, 
I think recently, with New Zealand. I know we monitor those, 
but obviously our focus here is on the budget as well as 
policy.
    How do you match how we resource your people versus their 
negotiating teams? It seems to me you basically have had a sort 
of a budget freeze here for three years.
    Knowing the Chinese, it seems like if we have three people 
in Beijing, that is a paltry amount considering the size of 
their marketplace. And as you make clear in your testimony, you 
are not only about promoting free trade and opportunities, you 
are also there to make sure that those treaties are enforced.
    I would like to know what the literal impacts would be? Are 
you suggesting you are having a hiring freeze or your budget as 
submitted to us represents a hiring freeze? And given that, you 
would not have any ability to do anything more in Beijing in 
terms of adding people that you might need.
    Ambassador Schwab. That is correct. We could not under this 
budget ramp up our activities in Beijing. We do not as a matter 
of course throw quite as many numbers of individuals at 
negotiations as the Chinese do. But, again, we work very 
closely with other agencies, the Congress Department, 
Agriculture Department, State, and so on.
    Mr. Frelinghuysen. ITA.
    Ambassador Schwab. ITA. All of these other agencies, we 
work very closely with them.
    No, we could not ramp up for a stronger presence in China. 
Our staff in China is almost exclusively an enforcement team. 
It is intellectual property rights. It is a team that supports 
our Joint Commission on Commerce and Trade activities, some of 
our strategic economic dialogue.
    And what we end up doing is we spend a great deal of time 
with the Chinese on problem solving. And it ranges from, you 
know, jaw boning at one end of our toolbox to filing cases and 
retaliating at the other end.
    And there we have much more engagement in terms of the 
Washington team of the General Counsel's Office, our China 
shop, our IP shop. So there is a lot of backup in Washington.
    Mr. Frelinghuysen. But with no more money for increases in 
your budget, there are going to be some pretty big impacts. 
Should we anticipate that you would have to implement a hiring 
freeze?
    Ambassador Schwab. It is not our expectation to implement a 
hiring freeze. I do----
    Mr. Frelinghuysen. We gave you some help last year.
    Ambassador Schwab. Right.
    Mr. Frelinghuysen. Up to 335, I believe.
    Ambassador Schwab. Last year, what sustained us, in fact, 
in the last couple years----
    Mr. Frelinghuysen. Two thirty-five, yes.
    Ambassador Schwab [continuing]. Is the no-year carry-over, 
which, unfortunately, we will have exhausted by the end of this 
fiscal year. I do not see us imposing. I would hope we would 
not need to impose a formal hiring freeze. But as you know, 
what you end up doing is you end up running vacancies longer 
than you might otherwise want to run vacancies. You deploy, you 
have to deploy resources to your highest priorities. Obviously 
enforcement and particularly enforcement vis-a-vis china is a 
very high priority.
    Your point about free trade agreements, I think, is a worry 
for us because while we are not actively negotiating many free 
trade agreements at this point, there are hundreds of FTAs 
being negotiated around the world by our trading partners. And 
there are countries including China that are negotiating free 
trade agreements and regional trade agreements that could very 
well lock us out and disadvantage our workers, our farmers, and 
entrepreneurs.
    One of the reasons we are so anxious to move ahead with the 
three pending FTAs before the Congress, Colombia, Panama, and 
South Korea, you mentioned the geopolitical implications. The 
trade implications are just as profound because right now in 
the case of Colombia, they get virtually unlimited access to 
the U.S. market under preference programs that have been around 
since 1991. And our guys are paying 35 percent tariffs on 
manufactured goods, 80 percent tariffs on farm goods, and this 
would level the playing field.
    I mean, so the Colombia agreement for every day that we are 
not passing it, it is our workers and our farmers and our 
entrepreneurs who are getting hurt, who are paying hundreds of 
thousands of dollars, indeed, you know, millions of dollars in 
tariffs.
    In the case of Panama, it is exactly the same. And in the 
case of the Korea FTA, that is as, you know, a large market 
with high trade barriers. We have low barriers in terms of what 
they ship to us. You both go to zero. You have got a lot of new 
market access.
    And those three together, you are talking about customers, 
over a hundred million new customers for U.S. exporters.
    Mr. Frelinghuysen. I am highly supportive of all of what 
you are doing. I just want to make sure that there is a 
mandatory pay raise in here.
    Ambassador Schwab. Yes, sir.
    Mr. Frelinghuysen. How are you going to meet that mandatory 
pay raise? Is there going to be some sort of reduction on the 
FTE side of things?
    Ambassador Schwab. Our current plan would be, and we did 
articulate the budget risks as the Chairman noted, our current 
plan would be that we can manage with the President's request, 
that we would not expect to be cutting personnel, that we would 
need obviously to focus on our priorities, and there may be 
things that would slip in the process.
    Mr. Frelinghuysen. Can you provide, perhaps for the record, 
your fiscal year 2009 built-in costs associated with a 2.9 
percent pay increase, pay raise in January 2009, and the cost 
of annualizing the three and a half percent pay raise in 2008?
    Ambassador Schwab. I would be happy to provide that.
    Mr. Frelinghuysen. Somehow as we looked over some of your 
budget documents, it seemed to be lacking a little bit of a 
clarity in that regard.
    Ambassador Schwab. I would be happy to provide that.
    [Clerks note.--The information was not submitted before the 
print deadline.]
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Mollohan. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.
    I also want to tell you how much I appreciate the work that 
you do. Of all of the different agencies of the Executive 
Branch, your work in particular is extraordinarily important to 
the U.S. job market. And I share my colleague, Mr. 
Frelinghuysen's enthusiasm for free trade, but distressed to 
see once again, Mr. Chairman, the Administration's priorities.
    As important as the Office of Trade Representative is, the 
White House continues to frankly short stick you and not give 
you enough money. And it is distressing to hear that you do not 
even have enough personnel to man the office in China 
sufficiently to be able to really engage them on a full range 
of issues that are important because the Chinese, our trade 
deficit with the Chinese is just awful.
    And I wanted to ask just a couple of quick things. Where 
are we negotiating free trade agreements and with who? You said 
we were not really working on many. What others are out there 
that you are working on?
    Ambassador Schwab. In terms of free trade agreement 
negotiations that are pending, there is an FTA with Malaysia 
that has been under negotiation where the negotiations have 
slowed of late, in part because the expiration of trade 
promotion authority and in part because their election and 
changing government as they sort themselves out.
    We have other negotiations on trade and investment 
framework agreements, bilateral investment treaties. Those are 
being negotiated or negotiations are being explored with a 
number of countries.
    We have recently entered a negotiation on the services, 
financial services and investment provisions associated with a 
group called the P4, which is a small Asian regional agreement 
that currently exists between Chile, Singapore, New Zealand, 
and Brunei. And we have got FTAs with two of the four. Because 
we are anxious not to be locked out of regional deals in the 
Asian market, joining the P4 at some point might be part of a 
way to integrate ourselves into Asia.
    So in terms of formal free trade agreements, there is very 
little under negotiation at the present time for a variety of 
reasons. However, we do have, as I said, TIFA negotiations, BIT 
negotiations going on and a lot of troubleshooting and 
individual market opening activities.

                             EXPORT ISSUES

    Mr. Culberson. And, finally, I just want to ask a very 
narrow question involving an employer in my district who 
manufactures forklifts who are upset that we export forklifts. 
Korea, China, others are hammering us with a big tariffs while 
we do not impose any.
    I want to ask specifically have you raised that? My office 
and others have contacted you. Have you raised that yet and 
will you, please, try to get that resolved?
    Ambassador Schwab. In the case of forklifts, in the case, 
we are aware that one of the principal benefits of the Colombia 
free trade agreement and the Korea free trade agreement will be 
the elimination of tariffs in both of those countries for U.S. 
forklift exports. And that will be of significant benefit to a 
variety of U.S. manufacturers of forklifts, earth-moving 
equipment, tractors, and so on.
    In the case of China, the Chinese tariff has been brought 
down through its accession to the WTO. I am not exactly sure 
where it is now, but I certainly will look into it.
    Our hope would be if we get a Doha round multilateral trade 
agreement, that will be a great venue, a great opportunity to 
reduce some of these tariffs.
    Mr. Culberson. Okay. But rather than just look into it, I 
am asking specifically will you raise it, please, with the 
Chinese? This is a really important issue and it is hammering 
our forklift manufacturers.
    Ambassador Schwab. I will do so, absolutely.
    Mr. Culberson. Thank you.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Mr. Schiff.

                      INTELLECTUAL PROPERTY ISSUES

    Mr. Schiff. Thank you, Mr. Chairman.
    Madam Ambassador, I want to ask you a number of questions 
about intellectual property issues which are very important to 
not only the country at large but certainly a great many of my 
constituents in Southern California.
    Along with several of my colleagues, I am co-sponsoring 
legislation called the PRO IP Act which you are probably 
familiar with. A number of proposals that I have made have been 
incorporated into the bill.
    I understand your office has raised some concerns with this 
legislation recently, and the inability to resolve some of 
those concerns has hindered the progress of the bill moving 
forward.
    One issue in particular, and I do not know if this is an 
issue that your office has expressed an opinion on, was based 
on recommendations from several GAO studies and a broad 
industry labor coalition. That would create a permanent high-
level White House IP enforcement coordinator to ensure that the 
U.S. government approach for attacking IP theft was thoughtful 
and effective and consistent.
    Has your office taken a position on that provision? Are 
there other aspects of the legislation that you want to share 
your thoughts on? I think there is a markup anticipated in a 
couple weeks. I would like to work with you and your office to 
try to resolve any remaining issues you have over the bill.
    Ambassador Schwab. Thank you, Congressman. And I commend 
you, as you know, I did last fall when you were there for the 
launch of the anti-counterfeiting trade agreement negotiations, 
for all of your dedication and commitment on issues of piracy 
and IPR protection.
    USTR, as you know, has a very active set of IP related 
activities, including the cases that we have filed against 
China, the anti-counterfeiting trade agreement, and the very 
strong IP protections we negotiated into our free trade 
agreements.
    On the legislation that you mentioned, I am not in a 
position to comment on the legislation at this time. The 
Administration is pulling together its official position and I 
would very much welcome the opportunity to work with you and 
work with the Committee on the legislation.
    We would obviously be concerned by any legislation or any 
legislation that would call into question the responsibility 
for developing, coordinating, negotiating U.S. IP protections.
    I think we work very well with our fellow agencies as we 
developed the special 301 report, as we negotiate on these 
FTAs, as we decide to file cases. And it is a system that 
works. We stepped up the pace.
    And as I said, we would very much like to work with the 
Committee on those pieces of legislation that may work better 
than others. And you have my commitment to do so.
    Mr. Schiff. Thank you. I appreciate it.
    The thought is not to inhibit the work that you are doing, 
but rather you have a very broad portfolio of issues to be 
responsive to. I think it is the consensus of many in the 
industry and the Congress that it would be desirable to have 
someone at a very high level whose primary focus each and every 
day they get up is dealing with the IP problem and who is at a 
high enough level within the White House to actually effectuate 
changes necessary to deal with the problem.
    Let me give you one illustration of what we are 
confronting. You mentioned China. By some estimates, there are 
more than 225 million internet users in China and a majority of 
those are downloading and streaming music illegally.
    Two recent newspaper articles discussed a China-based 
internet company called Baidu, which offers illicit music 
downloading. They are basically a search engine, I guess like 
Google or whatnot, but one that also lets users listen to and 
search for songs free of charge.
    Roughly nine percent of their traffic comes from the MP3 
search. This has helped make them China's biggest search 
engine, accounting for nearly half of all the queries on the 
site. This is a company evidently that trades on U.S. markets 
via U.S. or American depository receipts.
    Can you tell us what USTR is doing to confront this company 
since they are in our market and yet they are becoming one of 
the major sources of the illegal IP downloading and theft in 
China? Has your office worked with other Executive Branch 
agencies regarding the company's activities, particularly given 
that they trade in the U.S. markets?
    Ambassador Schwab. We are obviously well aware of the 
problems posed by Baidu and it showed up prominently last year 
in our annual special 301 report as one of the notorious 
markets that we highlighted.
    And as you know, we used the special 301 report to set 
priority targets for the U.S. government, not just USTR, but 
U.S. government activity related to intellectual property 
rights violations in our trading partners.
    This is an issue that we have raised with the Chinese, in 
some ways is similar to a problem web site that we are aware of 
in Russia that we have made some progress on, in fact, and so 
the answer is, yes, we are working on that, doing that in 
conjunction with other agencies. And along with a lot of other 
IP challenges in China, this is very high on our priority list.
    Mr. Schiff. One of my staff was recently in China, and I 
participate in a parliamentary exchange with China where we 
continually raise the IP issue. During my staff member's recent 
visit, he saw, not that it will surprise you, no diminution of 
the number of pirated goods in Chinese shops and markets.
    A store near the Forbidden City had a sign offering DVDs of 
``all of the 2008 Oscar winners'' and the Hung Chow market in 
Beijing and New Gardens area of Shanghai were filled with 
counterfeit goods, including a virtually identical kiosk 
selling fake iPods.
    I think as we have seen in reference to the Olympics, it is 
not a matter of China's capacity to deal with this problem. 
Where they have the will to do it, they do very well in dealing 
with expressions of any kind, let alone pirated music and film.
    We run an enormous trade deficit with China where we see 
that China has the capability and China cannot plausibly make 
the argument that they are powerless to deal with this problem.
    What more can we do? I know we filed the case with the WTO, 
which is good. Maybe you can share with us the status of that, 
but also what efforts we can do to make sure China understands 
we are serious about this and it is going to have trade 
repercussions.
    Ambassador Schwab. Congressman, you are absolutely right 
about the degree of seriousness of the China IP problem. In the 
last couple years, close to 80 percent of the pirated and 
counterfeit items that have been seized at the border in the 
United States came from China.
    So it is a topic that is always at the top of our priority 
list when we are in China. I was there late last month, I mean, 
just three weeks ago and it was something that I raised with 
the new Vice Premier who is responsible for the trade and 
international economic portfolio and with the new Trade 
Minister.
    And the answer is we have a variety of tools that we have 
and will continue to use through, for example, the JCCT. We 
have reached an agreement in the past where the Chinese agreed 
that all computers produced in China would have preloaded 
operating software. It seems like a small thing. It had a 
dramatic impact in terms of the sale of the legitimate 
operating software. We understand that from U.S. software 
producers. That is one example of sort of a success in a 
problem-solving approach.
    Where we have not been able to get traction, get success in 
enforcement, and in the case of copyright heavy trade 
distribution, we now have two cases pending in the WTO, one on 
enforcement, one on market access related to copyrighted 
products, which is, you know, music, video, books, reading 
matter.
    We do not like to go to litigation, but we will go to 
litigation. And the status of those cases is this fall, we 
would expect to have interim panel findings, early in the fall 
on the IP enforcement case, later on in the fall on the market 
access case. And we will continue to pursue those rigorously.
    Our objective, though, is to solve the problem, you know, 
and, therefore, whether it is through law enforcement, and I am 
sure you are aware last year the FBI and Chinese law 
enforcement authorities seized half a billion dollars in 
counterfeit software, there are various successes we can point 
to, but we know that it is not nearly enough. And, therefore, 
we continue to ramp up the pressure and ramp up the cooperation 
that we seek and often get from the Chinese authorities.
    We also believe that the Chinese authorities are capable of 
doing more in this area and we will continue to push.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Mollohan. Mr. Aderholt.
    Mr. Aderholt. Thank you.
    Thank you, Ms. Ambassador, for being here. It is good to 
see you again and thanks for coming to the Subcommittee for 
your testimony.
    Of course, the issue that you and I have talked mostly 
about is, of course, the CAFTA issue of 2005. I know that was 
before you came on board, but you came along right on the heels 
of CAFTA passing.
    And as you are well aware, I supported CAFTA in 2005 after 
a lot of discussion, especially concerning the sock tariffs and 
either the phase-out will be gradually over ten years or be 
maintained indefinitely through a rule of change of origin.
    And, of course, both of those sort of have been derailed 
over the past couple of years. Of course, the sock tariffs 
disappeared when each country joined CAFTA, as you know, and 
the rule of origin was never changed.
    Back several months, and it may even have been close to a 
year ago, I think you were kind enough to come here and meet 
with Senators Shelby and Sessions and myself and two or three 
other members from other states including North Carolina and 
Wisconsin. And we talked about this issue.
    And at that time, you were talking about working to 
implement the tariff phase-out. And at the time, you seemed 
optimistic about that occurring. And I just wanted to touch 
base with you and see if you are still optimistic and what your 
thoughts are on that, if you could just share a little bit 
about that.
    Ambassador Schwab. Thank you, Congressman Aderholt. I hope 
your soft sock producers have a sense of what an incredible 
advocate they have in you here in the Congress. You are right. 
This is sort of topic number one every time we get together and 
you have brought--I think I have learned more about socks than 
any USTR in the history of this organization.
    In the letter of July 2005 that my predecessor, Ambassador 
Portman, and Secretary Gutierrez sent to you, there were five 
provisions, as you know. And we believe that we have been able 
to deliver in whole or in part on at least four of them.
    We have been less successful in terms of modifying the 
phase-out, tariff phase-out. But in some ways, the negotiation 
is being overtaken by the safeguard action, as you know. And we 
would expect shortly to see the imposition of safeguard on 
Honduran socks.
    Also, you are aware that the special China textile 
safeguard that was renewed expires at the end of this year. 
That was also part of the commitment. And our chief textile 
negotiator, Scott Quesenberry, continues to pursue the other 
elements in that commitment.
    So we have succeeded, as I said, we have succeeded in, we 
believe, delivering in whole or in part on at least four of the 
five. And on the last item, the crackdown of transshipment from 
Asia is an ongoing challenge. But, again, we have made some 
progress there too.
    Mr. Aderholt. The concern with the transshipment issue is, 
do you have the funding available so Commerce is able to do 
that? I know that is probably more Commerce than your office in 
particular, but I am sure they give you reports and probably 
keep you posted on that, or do you feel confident that they 
are, you know, having the funding to do what they need to do 
with that?
    Ambassador Schwab. This is a good example where we work 
very closely with other agencies to accomplish objectives. 
Commerce being one. And in this case, obviously Customs and 
Border Patrol being the lead on this kind of addressing 
transshipment.
    But I will give an example of one of USTR's activities 
there. We have signed transshipment prevention MOUs with 
several countries in Asia designed specifically to make sure 
that those countries do not become vehicles for the 
transshipment of textile products.
    Indonesia. Scott is not here. Indonesia, the Philippines, 
others, these are countries where we have been concerned about 
transshipments in the past and have specifically addressed them 
in dialogue with these countries.
    Mr. Aderholt. Well, I know that has been the issue with my 
folks as well. Of course, even with the textiles. But one thing 
I would like to do is if you could get with the negotiator. You 
talked about the chief negotiator, Quesenberry. If we could get 
maybe an update from him at some point. If he could give us an 
update of how those negotiations are going and let us know.
    Ambassador Schwab. Absolutely.
    Mr. Aderholt. As you mentioned, he is working on that. So 
that would be very helpful so we could have an update to know 
how those negotiations are in process.
    Ambassador Schwab. Absolutely, Congressman. Happy to do 
that.
    [Clerks note.--The information was not submitted for the 
record before the print deadline.]
    Mr. Aderholt. Okay. Thank you.
    Mr. Mollohan. Mr. Ruppersberger.
    Mr. Ruppersberger. Ambassador Schwab, now where were you 
before your current position?
    Ambassador Schwab. I was at the University of Maryland.
    Mr. Ruppersberger. Oh, so you are a Terp.
    Ambassador Schwab. I am. I am Terp.
    Mr. Ruppersberger. Well, I am from Maryland, too, so I just 
had to get that in. Okay. That does not mean that I am going to 
be easy on you now.
    Ambassador Schwab. I understand, sir. Go Terps.
    Mr. Ruppersberger. All right. You said in your statement or 
opening statement, I was not here, I did not read it, I am not 
sure if you read it or not, about having trade agreements are 
really pointless unless you have enforcement.
    And what is the Administration's total budget request for 
your office and how much of that budget is related to 
enforcement, what percentage?
    Ambassador Schwab. The fiscal year 2009 request is 46.3 
million. And it would be very hard to differentiate between 
those who are involved in enforcement and those who are not 
involved in enforcement in the agency.
    Enforcement activities really are throughout the agency, 
Office of General Counsel being the most obvious, but also our 
Intellectual Property Rights Office. Our China office spends, I 
would say, the bulk of its FTE's on enforcement issues. 
Similarly, in some of our services shop on financial services, 
on other services issues.
    So even those folks who are out there negotiating trade 
agreements frequently are addressing, you know, trying to work 
through some of the trade barriers that we see as enforcement 
issues in the context of negotiations. You try to settle 
disputes sometimes.
    So I would not actually, we have never done assessment 
because it is really----
    Mr. Ruppersberger. Well, let us get to what I am really 
getting to is not the issue of enforcement is important. I 
mean, you have made that statement.
    Ambassador Schwab. Absolutely.
    Mr. Ruppersberger. It seems to me that the budget that you 
have here, there is not enough money in there for enforcement. 
Now, I know you have to protect the President's budget.
    But do you feel that you will need more money in order to 
effectively deal with the issue of enforcement, because that 
was a strong statement you made? Really trade agreements are 
pointless if you do not have enforcement.
    Ambassador Schwab. USTR and I would say the Administration 
and a lot of the folks we work with in the Administration and 
other agencies, we feel very, very strongly about enforcement. 
You have to have enforcement for these agreements to be 
credible. And we think we do a good job of enforcing them.
    One of the challenges that we have had is as you increase 
the number of trade agreements, whether it is multilateral 
trade agreements or going from three free trade agreements to 
seventeen free trade agreements, that obviously increases 
dramatically the kind of monitoring and enforcement that you 
need to do.
    And particularly in areas such as labor protections and 
environmental protections that we have built in to the most 
recent free trade agreements, we will make certain that we 
allocate within USTR, within our budget whatever we need to 
meet our enforcement, mandated enforcement obligations.
    As I noted in my oral testimony, we know that we can manage 
within the President's budget request. We also know that if 
that amount is cut at all, we are in trouble.
    Mr. Ruppersberger. Are you familiar with ITAR?
    Ambassador Schwab. Yes.
    Mr. Ruppersberger. And the State Department basically 
manages the approvals of the sensitive technology sales. I am 
on the Intelligence Committee. I deal a lot in the area and 
information that has come to us is that we have some serious 
issues with ITAR. I think the entire industry has a problem 
with ITAR.
    And really ITAR was really created to protect sensitive 
technology so that it did not go to other countries, probably 
China and others. But now it seems that, especially in the 
European countries, that ITAR is a hindrance not only to our 
manufacturers and our companies here in the United States, but 
it can be a hindrance to our national security because 
literally people are marketing products in Europe as ``ITAR 
free'', which means that they are trying to come up with our 
type of technology to sell it or for components in Europe. And 
I think it is something that has to be dealt with.
    Now, what jurisdiction would you have there? What is your 
opinion of ITAR? What do you think we need to do?
    Ambassador Schwab. USTR has no role in ITAR. I am familiar 
with it. It is one of those areas where like the Administration 
of the anti-dumping and counter-veiling duty laws or export 
promotion, you know, formal export promotion, ITAR, these are 
areas that we are not directly involved in.
    We do hear from governments that our export control 
policies, I mean, we hear from industry and we feed that into 
the State Department, Commerce Department, Defense Department 
process.
    We are on the CFIUS Group. I mean, so on that, we are part 
of CFIUS, that Committee, but on ITAR, I would be happy to pass 
along your thoughts on that to the agencies with jurisdiction.
    Mr. Ruppersberger. Because you have such a great background 
and great educational background and coming from a great 
school, do you have any suggestions on, from your point of view 
and what you know now in your job, on how we can really 
aggressively pursue this issue because it is getting to the 
point that it really could hurt our country? Any ideas?
    Ambassador Schwab. When I used to teach this in graduate 
school at the University of Maryland School of Public Policy 
where I was Dean, I used to talk about the balance that is 
necessary. I mean, clearly priority one has to be our national 
security interests. But having a healthy economy and vibrant 
technology growth and development and exports are key to our 
economy.
    One of the things I mentioned earlier in my testimony is 
that even with some bumpiness in our economy today, one of the 
bright spots is exports and we need to be opening markets for 
U.S. exports with 40 percent of U.S. economic growth last year 
attributable to our exports, our export growth.
    And so when it comes to export controls, you need to strike 
the balance. You do want to ensure that you are not letting 
technologies fall into the wrong hands that could come back and 
jeopardize our national security but at the same time, you do 
not want to be in a position of shooting yourself in the foot.
    So it is that balance, I think, that is important. And I 
know that the agencies that administer ITAR, State and others 
most directly involved are aware of the importance of that 
balance. It is also sometimes a balance that is hard to strike, 
as you know.
    Mr. Ruppersberger. Okay. I am going to throw you one 
softball and that is the last question. Do you have an opinion 
or why do you feel that the trade agreement with Colombia is so 
important?
    Ambassador Schwab. I believe the trade agreement--thank you 
for the question--with Colombia is incredibly important for a 
variety of reasons. First and foremost, going to the economic 
issue, the U.S. workers, U.S. farmers, service providers are as 
dependent, more dependent than ever before on exports.
    And what the Colombia FTA does is takes a one-way free 
trade situation where 92 percent of what Colombia ships to us 
comes in duty free and makes it a two-way trade relationship. 
It eliminates the unfairness that our workers, our farmers face 
with tariffs up to 35 percent in industrial goods, up to and 
above 80 percent in agricultural goods. And 80 percent of the 
tariffs on industrial and commercial goods in Colombia would be 
eliminated on the first day of entering into force of this 
agreement. So first and foremost, our economic commercial 
interests. U.S. jobs really are what we are talking about and 
the advancement of U.S. jobs.
    National security, you are on the Intelligence Committee 
and probably know more than I do about how critically important 
Colombia is as an ally in a region that is a troubled region at 
times and that Colombia represents a pro Democracy, pro 
markets, and pro U.S. country that has made incredible strides 
in terms of their own progression to more safety, more 
security.
    Mr. Ruppersberger. Especially under the leadership with 
Uribe.
    Ambassador Schwab. Particularly under the leadership of 
Uribe. And that really gets to the third point which is whether 
the issue is violence in Colombia or narco-trafficking. Since 
2002, there has been such a dramatic improvement in the level 
of violence, in the level of impunity.
    And we believe that the free trade agreement will enable 
those trend lines, those really positive trend lines to 
continue and that a delay or a voting down of this free trade 
agreement really risks the progress that has been made.
    Mr. Ruppersberger. Do you negotiate or do you communicate 
with labor?
    Ambassador Schwab. All the time.
    Mr. Ruppersberger. And what is labor's position and how 
would you answer to labor's position? What is their issue as 
far as this agreement?
    Ambassador Schwab. Well, first, as you know, organized 
labor in the United States as a general matter just opposes 
trade agreements and I think this has been a really hard 
agreement for them to oppose because it takes one-way free 
trade and turns it into two-way free trade, and so the job 
benefits are very clearly going to accrue to the United States 
and the stability benefits to Colombia.
    Organized labor, the labor leaders I have spoken with have 
expressed concern about violence toward trade unionists in 
Colombia and that has been a problem and has been a very severe 
problem in the past. As you know, the level of violence against 
journalists, against legislators, against jurists, there are 
certain groups in that country that have been targeted in the 
past.
    What I think organized labor or labor opponents to this 
agreement miss is, one, the incredible improvements in the 
level of violence, the safety and security that President Uribe 
has brought to that country with a 40 percent decline in the 
murder rate, an 80 percent decline, I might add, in the murder 
rate as it involves trade unionists, a dramatic decline, over 
80 percent decline in kidnapping, over 75 percent decline in 
terrorist attacks.
    And so from our perspective, if you look at how Uribe has 
done this, he has set up special protections for union members 
and others and he has demobilized 40,000 paramilitaries and 
other guerillas into the broader economy. And for that, the 
current trade preferences and the free trade agreement are 
absolutely critical to keep those individuals out of violent 
pursuits and moved into the legitimate economy.
    Mr. Ruppersberger. One more question.
    Mr. Mollohan. Sure.
    Mr. Ruppersberger. How would not only organized labor, but 
especially blue collar workers in the United States benefit 
from this free trade agreement.
    Ambassador Schwab. Very clear benefits to American workers, 
American workers and American farmers because the Colombia 
market has 44 million customers. Right now Colombian products 
are coming into the United States duty free and U.S. products 
are facing, U.S. exports are facing high barriers in Colombia.
    This agreement eliminates every single one of those 
barriers to U.S. exports to Colombia which means that the 
increase in U.S. exports to Colombia that we have already seen 
would go up dramatically. And we have seen this when we talk to 
Caterpillar or John Deere or laptop computer producers, Sony 
television producers making Sony televisions outside of 
Pittsburgh.
    These are all companies that have told us they would 
expect--Whirlpool is another one--they would expect to be able 
to increase their exports and, therefore, have a positive 
impact on their workforce from this agreement.
    Mr. Ruppersberger. Okay. Thank you.
    Mr. Mollohan. Madam Secretary, following up on Mr. 
Ruppersberger's line of questioning, in your testimony, you 
state that these agreements, free trade agreements have been an 
enormous gain for U.S. farmers, workers, entrepreneurs, and 
consumers. U.S. exports to the 14 countries with which we have 
free trade agreements that have entered into force have grown 
over 40 percent faster than U.S. exports to the rest of the 
world.
    Would you acknowledge that there have been winners and 
losers in this process and when we are talking about workers, 
there have been substantial losers in sectors, particularly the 
manufacturing sectors, and our economy?
    Ambassador Schwab. It is correct that there are individuals 
and individual companies and communities that have been 
negatively impacted by----
    Mr. Mollohan. What about whole industries?
    Ambassador Schwab. There have been industries negatively 
impacted by trade, but I think when we are looking at the churn 
in the economy, we need to take into account technological 
advancements, need to take into account productivity 
enhancements.
    And trade ends up, when you sort of go through the list of 
changes that affect jobs and the economy, trade and trade 
agreements ends up being a minute part of it, but it is a part 
of it and, therefore, programs like Trade Adjustment Assistance 
have become incredibly important for us to be able to----
    Mr. Mollohan. Programs like Trade Adjustment Assistance are 
inadequate. And I would suggest that if you would acknowledge 
the significant and severe impacts, industry eliminating 
impacts of trade agreements and then address the fundamental 
causes of that, you would advance your cause in getting and 
acquiring additional support for trade agreements.
    I represent an area that is highly dependent on basic 
manufacturing generally, but principally steel of late, and 
there have been a lot of industries that have gone by the 
wayside preceding steel. In the Mon Valley, steel industry is 
gone many, many years ago. In the High Valley, it is now 
atrophying to the point of nonviability in certain communities.
    So when you talk about the benefits on the one hand, I 
think you have to, on the other hand acknowledge the extremely 
negative impacts that trade agreements have caused on sectors 
of the economy and large geographic areas in the United States. 
I mean, it is there before us.
    And the concern expressed by those who have been defending 
the interests of these sectors need to be taken seriously and 
need to be incorporated in these trade agreements if you are 
going to broaden the support that you have for the agreements.
    So with that in mind, what types of products and which 
sectors benefit the most from these agreements?
    Ambassador Schwab. Actually, these agreements benefit 
sectors across the board when we look at manufacturing. U.S. 
manufacturing exports, for example, have increased over 128 
percent since the Uruguay round was negotiated in the 1990s.
    Mr. Mollohan. To what extent is that sector specific and 
what sectors have been benefitted?
    Ambassador Schwab. It is almost across the board.
    Mr. Mollohan. I want you to detail, if you will. Give me 
some examples of----
    Ambassador Schwab. Sure. Okay.
    Mr. Mollohan [continuing]. Sectors that have been 
benefited.
    Ambassador Schwab. Happy to do that. Happy to do that.
    Agri-business, earth-moving equipment, tractors, autos, 
auto parts, electronics, a lot of industrial goods.
    Mr. Mollohan. So the automobile industry, you would suggest 
has been benefited by trade agreements?
    Ambassador Schwab. The auto sector has, in fact, been 
benefited by trade agreements.
    Mr. Mollohan. What about the steel industry?
    Ambassador Schwab. Parts of the steel industry have 
benefited from trade agreements. Parts of the steel industry 
have had a harder time adjusting to it.
    Mr. Mollohan. On balance, how do you measure how that nets 
out?
    Ambassador Schwab. Well, if you look, you ask----
    Mr. Mollohan. Do you measure? Do you measure how that nets 
out and do you----
    Ambassador Schwab. Well, we have a group of economists and 
it is hard to measure the impact of trade because, for example, 
U.S. manufacturing output in this country is higher today than 
it has ever been before in our history. I mean, U.S. 
manufacturing output goes up. U.S. manufacturing employment has 
not gone up.
    And, therefore, the key question, and I think this really 
goes to your fundamental question, when we look at trade in the 
economy, we need to make certain that we have in place the 
environment within which American workers can remain 
competitive in an economy where there is constant churn and 
this has to do with education and it has to do with education 
and skills. It has to do with portability of pensions. It has 
to do with healthcare. It has to do with a variety of things.
    In terms of a specific way to help individuals, Trade 
Adjustment Assistance is a more narrowly drawn approach which 
has, as you know, health benefit components and wage insurance 
components.
    In terms of beneficiaries and the U.S. economy from these 
agreements, we are looking today at over a $100 billion surplus 
in trade and services, for example, and these include high 
skill. These are high-skill services. They are engineering 
services, architectural services, legal services, that kind of 
thing.
    In agriculture, one out of three is produced for export in 
this country. So, again, exports has a measurable impact on 
farm income. And in certain sectors, beef, poultry, pork, you 
are talking about in some cases half of everything that we 
produce is being produced for export.
    In the Colombia agreement, the tariff, the Colombian tariff 
on high-quality beef which is currently 80 percent goes to zero 
immediately upon entering into force. For an industry sector 
that is now facing higher input prices, that is very, very 
important.
    But on the manufacturing side, recognizing that obviously 
West Virginia has a large manufacturing base, industrial and 
consumer goods almost across the board benefit from this trade 
agreement.
    I would be happy to get you a list and we have, I believe, 
we have state-specific information sheets about benefits for 
each of the trade agreements and would be happy to provide that 
specific information to you.
    [Clerk's note.--The information was not submitted before 
the print deadline]
    Mr. Mollohan. And do you have sheets also that show the 
cost in terms of economic dislocation for those same areas?
    Ambassador Schwab. Honestly, in the case of the Colombia 
free trade agreement, because----
    Mr. Mollohan. For whatever you have the benefit list, do 
you have a detriment list?
    Ambassador Schwab. The answer is yes. In the case of the 
Colombia and Panama free trade agreements, because both 
countries have had unlimited access to the U.S. market, 
virtually unlimited since 1991 or so, we would not expect much 
of an increase in imports.
    In fact, the difference between the 92 percent of duty free 
treatment that they get now and what they are likely to get, 
there is a 50,000 metric ton increase in sugar imports, for 
example.
    Mr. Mollohan. Well, let me just say that the reality that 
the world is increasingly becoming a smaller economic community 
and that that is a good thing is acknowledged, I think, 
broadly.
    The fact that this has happened in a very precipitous way 
and that as we have negotiated these trade agreements, we have 
not taken into consideration the adverse consequences of 
throwing high standard of living populations, manufacturing 
populations specifically, against low standard of living 
manufacturing populations is a reality and has had devastating 
effects.
    Throw in those disparate standard of living populations 
today, doing it in a very short period of time without, in 
these trade agreements, negotiating the provisions that would 
at least in part level the playing field, stretching out the 
agreements over time, requiring these countries to begin the 
process of adopting environmental regulatory activity 
comparable to ours, workplace health and safety requirements 
comparable to ours and the rights of collective bargaining 
which we should embrace and promote around the world, our trade 
agreements have not incorporated these provisions that do 
create, along with the standard of living disparities, do 
create a very unlevel playing field.
    And I think if we are going to aspire to the Adam Smith 
principle that the natural advantages of different areas to 
different sectors of the economy ought to be allowed to work 
their selves out so that we have the cheapest goods and 
services provided to everyone and now around the world, then we 
have to address the artificial disparities that are created by 
government activity and regulatory enforcement. And that has 
not been done in trade agreements typically up to this point.
    So my question is, with regard to the Colombia free trade 
agreement, I am giving you an opportunity to speak to that, to 
what extent are you negotiating in the Colombia free trade 
agreement these level playing field labor standards: right to 
organize, environmental requirements, beginning the process of 
complying at least equally to our standards, and to workplace 
health and safety requirements which all cost our manufacturing 
a lot of money and, because they are not incorporated into the 
manufacturing practices of many of our competitors, do not cost 
them and, therefore, in and of themselves create the 
disparities which result in the dislocation of a lot of jobs 
from the United State to these foreign competitors?
    Ambassador Schwab. I appreciate what you are saying, Mr. 
Chairman. And I think some of the issues that you have raised 
including the question that Congressman Ruppersberger raised 
are, in fact, addressed in a very unique and very powerful way 
in----
    Mr. Mollohan. Which ones and what are they specifically?
    Ambassador Schwab. As you know, last May, we reached a 
bipartisan agreement, the Administration with the leadership 
here, to include in these free trade agreements enforceable 
labor and environmental provisions.
    So in the case of the labor provisions, what we are talking 
about is the 1998 declaration of fundamental worker principles 
and so our worker standards and there are five. One is the 
right to, let me make sure I get these right, right to 
organize, right to bargain collectively, the end of forced 
labor, the end of child labor, and nondiscrimination.
    So those are in there along with a requirement that both 
countries, along with a requirement that Colombia enforce its 
own labor standards which are strong labor standards.
    And what we have done for the first time with this level of 
specificity is made these as enforceable as the commercial 
elements of the trade agreement, so as enforceable as and 
subject to the same challenges, dispute resolution, and remedy 
as the intellectual property rights provisions.
    The environmental standards are similar in approach and I 
know those also have been cited as adding to cost of production 
in the United States.
    Mr. Mollohan. Let us take the environmental standards. What 
environmental standards have been incorporated into the 
agreement?
    Ambassador Schwab. There are two sets of environmental 
standards incorporated. One is again that Colombia's domestic 
environmental laws be fully enforced. As you know, many of 
these countries have labor or environmental standards that are 
as strong as ours. They just are not necessarily enforced.
    Mr. Mollohan. Are you suggesting that Colombia does have 
environmental standards as strong as ours and they have labor 
standards as strong as ours?
    Ambassador Schwab. My understanding, and I can get back to 
you with the specifics if you need a specific comparison, but 
my understanding is that Colombia does have on the books strong 
labor and environmental protections.
    The other environmental, again, the new environmental 
component in this free trade agreement, the Colombia free trade 
agreement is the addition of a number of multilateral 
environmental agreements and making those enforceable.
    For example, the Endangered Species Act where both the 
United States and Colombia are signatories of the Marine 
Protection Agreement. Those are examples of multilateral 
environmental agreements where Colombia is a signatory. The 
U.S. is a signatory.
    And we are agreeing through this FTA to mutually enforce 
our participation in those agreements because frequently these 
are multilateral agreements that sometimes have teeth and 
sometimes do not have teeth.
    Mr. Mollohan. Well, you may not know the answer to this, 
but my question was, does Colombia have a standard or standards 
in the area of labor and environmental principles that are 
comparable to those standards which manufacturers in the United 
States of America have to comply with?
    Ambassador Schwab. In large measure, my understanding is 
that they do. There are going to be differences, for example, 
in terms of minimum wage and so on. But if I may get back to 
you with a specific response.
    Mr. Mollohan. Certainly. If we had representatives of the 
environmental community and the labor community sitting at this 
table asking that same question, would they agree with that 
answer, do you think?
    Ambassador Schwab. I would hope so.
    Mr. Mollohan. Well, do you know? I mean, you work with this 
every day.
    Ambassador Schwab. I do not. I do not know the specifics 
and I will----
    Mr. Mollohan. Well, what are they saying to you? When 
environmentalists and labor, representatives of the labor 
community input this issue, what are they saying in this 
regard?
    Ambassador Schwab. Well----
    Mr. Mollohan. Surely they are and surely you are listening 
to them.
    Ambassador Schwab. Oh, yes. Absolutely. In fact, we have as 
part of our statutory mandate and responsibilities, we have an 
Environmental Committee that advises us. And we have a Labor 
Committee that advise us. And----
    Mr. Mollohan. My question is, are they agreeing with your 
assessment which you have just given us here?
    Ambassador Schwab. If you look at the reports that the 
Environmental Committee and the Labor Committee have provided 
on these trade agreements, because they have to provide 
recommendations on these trade agreements, in the case of the 
labor group, they have not been supportive of this or, quite 
frankly, any other trade agreement that our office has ever 
negotiated.
    Mr. Mollohan. Well----
    Ambassador Schwab. In the case of the environmental group, 
it is as uneven. It depends on which of the participants.
    Mr. Mollohan. Okay. So you have given us very positive 
thoughts about the quality of the environmental standards and 
the labor standards which are in effect in Colombia vis-a-vis 
the United States, but you also acknowledge that there is a lot 
of opposition from the respective communities, the labor and 
environmental communities about that.
    Ambassador Schwab. Those communities were involved in----
    Mr. Mollohan. They are not totally satisfied----
    Ambassador Schwab. Negotiation.
    Mr. Mollohan. They do not see it as positively as you see 
it.
    Ambassador Schwab. We believe that the provisions, the 
labor and environmental provisions in these agreements that we 
worked out with congressional leadership, the Ways and Means 
leadership and the House leadership, Senate Finance Committee 
leadership, go a long way to meet the objections.
    In fact, I would note that if you look at the positions 
that labor representatives have taken on trade agreements in 
general over the last several years, the last ten years, what 
they have advocated formally on the record be included in these 
free trade agreements, we did that and more in terms of the 
Colombia free trade agreement and others. And, quite frankly, 
the goal posts have moved.
    Mr. Mollohan. Well, and that was the point of my question 
before. You are giving us a very positive assessment of that. 
And my question was, would they be expressing the same opinion 
if they were sitting here based upon the input you are 
receiving from them on a daily basis as you process their 
input?
    Ambassador Schwab. I suspect not, but you would need to ask 
them.
    Mr. Mollohan. Well, it is fair. Of course we will. But it 
is fair for you to have your opinion. I was just asking to what 
extent you acknowledge that they would have a different 
opinion.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    And following up on the Chairman's comments and Mr. 
Ruppersberger, I think big labor is opposed to this agreement 
and I think, as you said in your earlier testimony, just about 
all the other free trade agreements.
    There is a public perception that the Administration and 
the USTR has not come to the table to address these sort of 
labor and environmental and workplace condition issues, but in 
reality, to add emphasis here, that has been done. Now there 
seems to be sort of another barrier, shall we characterize it 
as a political barrier, which is perhaps made even more 
difficult because you have everybody running for President and 
trying to appeal to their base.
    But you have substantially addressed as you have the trade 
issues a lot of these hot-button issues with the leadership. I 
think that is somewhat not so subtly referred to in the 
transmission letter that both Secretary Paulsen and Condoleezza 
Rice have sent to Speaker Pelosi on Monday.
    I want to focus on a paragraph in that transmittal and let 
me quote it. One of the benefits of travel, and it was 
bipartisan travel, is to go to Meta and to Cartagena where 
literally six years ago, it would be a place where few 
Colombians could live in safety without the potential of being 
killed, where kidnapings were rife, where the drug lords ran 
the place. It was no place for foreigners.
    In the transmittal letter and I quote, ``We take very 
seriously the importance of timely and effective solutions to 
concerns regarding labor violence and impunity. The government 
of Colombia has engaged actively to address these concerns. We 
have already seen concrete evidence of sustained results. Since 
2002, kidnapings are down 83 percent. Homicides are down 40 
percent,'' which you mentioned in an earlier response, ``and 
terrorist attacks are down 70 percent. Homicides of trade 
unionists declined by over 79 percent between 2002 and 2007. 
Meanwhile the number of trade unionists enrolled in the 
Ministry of Interior Injustices Protection Program has 
increased with more than 9,400 individuals, one-fifth of whom 
are trade unionists taking advantage of this protection.''
    My view is, and we discussed this among our congressional 
colleagues on the trip and on our way back, is a lot of what 
big labor is operating on is old news. There are horrific 
things that happen. I assume you would agree and I would like 
your comments.
    Ambassador Schwab. You are absolutely right, Congressman, 
that one of the challenges that we have in selling the Colombia 
free trade agreement is perceptions that are obsolete. And the 
tremendous progress that has been made in the decline of 
violence and impunity since 2002, very, very significant.
    And we believe that those remaining concerns, and Colombia 
continues to be a violent country and we do not imply 
otherwise, that those remaining concerns are best addressed, 
and these are concerns of American workers and concerns of 
Colombian workers, really are best addressed by enacting and 
implementing this free trade agreement, that delaying the free 
trade agreement or stopping the free trade agreement is not 
going to save a trade unionist in Colombia, is not going to 
create a U.S. job, is not going to save an endangered species.
    And so we believe very strongly that the free trade 
agreement actually contributes to solidifying, locking in the 
tremendous progress articulated in that letter, solidifying 
that and putting it on an even, stronger trend line going 
forward.
    Mr. Frelinghuysen. Well, we met with the Colombian Attorney 
General. We met with a variety of prosecutors, some members of 
the Judiciary, and prosecutions are up. And, of course, I asked 
the question, which hopefully was not viewed as an irritant, in 
a bipartisan way, since the days of former President Clinton, 
we have substantially invested in what is called Plan----
    Ambassador Schwab. Plan Colombia.
    Mr. Frelinghuysen [continuing]. Colombia. I mean, of all 
the countries in the hemisphere, Colombia has been the 
beneficiary, and you would agree, I assume, that we have seen 
substantial results. We have operatives there from the Drug 
Enforcement Agency, the FBI, and the ATF. The Department of 
Justice has basically been a leading agent, not forgetting we 
respect their sovereignty, in setting up and promoting the rule 
of law.
    There has been a sea change. While there are obviously 
incidents of violence and the history of paramilitary 
operations and guerillas doing what they did, people are ever 
mindful that there has been some major progress. I assume you 
would agree?
    Ambassador Schwab. Congressman Frelinghuysen, I agree 
absolutely. And I would note just as one example the peace and 
justice law that was passed in 2004 which has facilitated the 
demobilization.
    It also changed their approach to prosecuting from one 
inquisitorial system to an accusatory system which has helped 
them to move through the pipeline of outstanding cases.
    And, of course, as you have 30, 40,000 combatants 
demobilized, they are, as part of the demobilization, they are 
presenting evidence and disclosing information about things, 
bad things that happened which add to the number of cases that 
the prosecutors need to address.
    And this transformation to an accusatory system means that 
they are able to move cases through the Judiciary in three 
months instead of five or eight or nine years.
    And so that again has been just a dramatic transformation 
that, for example, in my conversation a couple weeks ago with 
the Mexican Attorney General and they are looking at, you know, 
the challenge of narco-trafficking in Mexico, they are looking 
at that peace and justice law as a potential model to help them 
move more cases more rapidly through their judicial systems.
    Mr. Frelinghuysen. Talk for a minute about trade agreements 
with other countries in this neighborhood here. You know, the 
focus is on Colombia and they have been singularly our greatest 
ally in support of, and it is a nasty neighborhood to say the 
least, Hugo Chavez and bullies like him.
    What have we done in terms of preferences and trade 
agreements with countries in the neighborhood that have been 
willing to negotiate with us, that would somewhat lead to 
Colombians being bereft. I mean, in other words, we would 
actually weaken the one ally that we have there.
    Paint a picture as to what is occurring in this hemisphere 
and how important Colombia is in the overall security picture.
    Ambassador Schwab. I think there are two elements here that 
bear looking at. One, I think was best articulated by Alan 
Garcia, President of Peru, when the President signed the free 
trade agreement implementing legislation late last fall. And he 
made the point if you look at this region, there are basically 
two groups of countries in this region.
    You have got the pro Democracy, pro markets, generally pro 
U.S. group, Chile, Peru, Mexico, Colombia, and then you have 
got the anti markets, anti Democracy, anti U.S. group, 
Venezuela, Cuba, Bolivia, and others, and that within the near 
term, countries are going to--Latin America is going to go one 
way or the other.
    I mean, there is one path. There is sort of the populist 
anti Democratic path and there is the path that is Democracy 
and freedom and economic freedom and turning away from 
isolationism whether it is political or economic. So you have 
got those paths and that is the geopolitics.
    The second area, and this was the one that Colombia 
articulated very clearly when we were down there this weekend, 
is they are saying, look, you have got a free trade agreement 
with Mexico, you have got a free trade agreement with Chile, 
you have got a free trade agreement with Peru, with the CAFTA 
countries, you would be putting Colombia at a disadvantage 
relative to other countries in the region if we were to deny or 
to delay the Colombia FTA.
    Mr. Frelinghuysen. It would be inexcusable, it may happen, 
that we would not act on this.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Well, there might not be an excuse, but there 
might be some reasons. With respect to the Colombia free trade 
agreement, what would be the benefit to Colombia to enter into 
this agreement if, as you have suggested here, and it has been 
suggested, if Colombia already enjoys duty free status on most 
of what it exports to the United States?
    Ambassador Schwab. Very good question and one that you can 
imagine I get asked frequently because it seems so obvious that 
this would benefit U.S. workers and U.S. farmers and service 
providers and why if Colombia has had 17 years worth of 
preferences would they want to open their market that way.
    One, their own economic philosophy and, as I noted, their 
ability to continue migrating people from paramilitaries into 
the legitimate economy, from narcotics into the legitimate 
economy. So that is one.
    What this brings for Colombia in addition to some 
additional exports like----
    Mr. Mollohan. How does that work? I am sorry. Explain that. 
How does migrating them from the illegal to the legal part of 
the economy, how does a free trade agreement affect that?
    Ambassador Schwab. It is the combination of the preferences 
up to this point and then locking it in and expanding it. So, 
for example, the stability that comes with knowing this access 
to the U.S. market is permanent will generate investment and it 
will generate investment from Colombian entrepreneurs. It will 
generate, as we have seen it with the Peru FTA, for example, 
they saw new investment from Brazilian businesses, from 
businesses in Spain, from businesses in Mexico. Their own 
entrepreneurs invested more there.
    And so what they see is investment in, for example, more 
flower farms, they ship a lot of flowers to us, significant 
amounts of our cut flowers, coffee. Again, if you are not sure 
and you look at the trade preferences we have had to extend, 
the Congress has voted to extend those trade preferences twice 
in the last 18 months.
    If you have that kind of uncertainty, you are not generally 
going to put in the kind of long-term investment that you need 
to build your employment base.
    And so President Uribe has been able to turn around that 
economy. That economy has experienced in the past negative 
growth. Since he has been in office, they have enjoyed an 
average of six percent growth. Unless you have that kind of 
growth, it is impossible to move people from, you know, growing 
coca into growing other products, you know, flowers as I said, 
coffee as I mentioned.
    It is also not likely that you will see the combatants, the 
demobilized combatants having the ability to move into new jobs 
being created.
    And in part honestly, Colombia sees this agreement as a way 
of helping them and we should see it as a way of helping 
ourselves compete with China and third countries because by 
giving each other preferential status, Colombia products, for 
example, will be better able to compete with Chinese products 
coming into this market. We will better be able to compete for 
Colombia consumers than our Chinese counterparts.
    So to give you a sense of the multiplier effect of this 
FTA.
    Mr. Mollohan. Well, obviously it is a cost benefit analysis 
and you have done that. And you have just suggested some 
reasons why Colombia would benefit from the agreement, an 
expansion of their economy.
    On the other side, surely you have done an assessment of 
what sectors of our economy would benefit and you have 
suggested some of that.
    Have you at the same time done an assessment of what 
sectors of our economy would be hurt and could you talk about 
that for us?
    Ambassador Schwab. Sure. And let me----
    Mr. Mollohan. I just need to round this out, and I 
understand there are going to be some sectors that are 
benefited. And you are advocating that overall to be positive. 
And I am just asking what sectors would not benefit, what 
sectors might be injured in the process.
    Ambassador Schwab. And, Mr. Chairman, I have been remiss in 
not having mentioned the International Trade Commission report 
that is required for every single one of these free trade 
agreements. So for every one of these free trade agreements, 
the ITC does a very detailed analytic study about the impact on 
the U.S. economy, so exactly what you are describing including 
sector-specific impact.
    Mr. Mollohan. Give us some examples of sectors.
    Ambassador Schwab. In the case of the Colombia FTA, we do 
not expect there to be any negative impact in terms of the 
import side simply because our market is already open to 
Colombian imports.
    Now, as I said, there is a little bit of an impact in 
textiles and apparel. That industry is supportive. There is a 
little bit of an impact in sugar.
    Mr. Mollohan. But what kind of an impact? I mean, when your 
testimony is on the record and you say there is a little bit of 
an impact, that could be a positive impact. That could be a 
negative impact.
    Ambassador Schwab. I see. Okay. I would----
    Mr. Mollohan. What is your testimony here?
    Ambassador Schwab. Let me suggest that what I need to do is 
to provide for this Committee and the record the ITC report. 
Let me do that.
    [Clerks note.--The entire report was submitted for the 
record and is retained in committee files]
    Mr. Mollohan. Okay.
    Ambassador Schwab. And since I do not have it in front of 
me, as I recall from that report, there could be some modest 
increase in imports of textiles and apparel products. We know 
that that industry is supportive of this agreement, but there 
could be some modest increase in imports. So it is not 
necessarily a negative, but describing that.
    Mr. Mollohan. When you say the industry----
    Ambassador Schwab. In the case of sugar----
    Mr. Mollohan. Excuse me. When you say the industry, the 
textile industry is supportive, is that the manufacturing part 
of the industry?
    Ambassador Schwab. Correct.
    Mr. Mollohan. Is that the owner? What about the labor part 
of that industry? Are they supportive as well?
    Ambassador Schwab. I do not know.
    Mr. Mollohan. Well, you should know. I mean, that to me 
is----
    Ambassador Schwab. I mean, presumably----
    Mr. Mollohan. Presumably what?
    Ambassador Schwab. I am assuming that the labor part of 
that industry's position is reflected in the Labor Advisory 
Committee report that we received on the Colombia FTA which is 
not favorable to the FTA.
    You know, quite frankly, when we negotiate these 
agreements, we are very, very conscious of the impact on U.S. 
workers. And in the case of the Colombia FTA, it is an 
overwhelmingly favorable impact on U.S. workers.
    Mr. Mollohan. I did not mean to spend so much time on that.
    In the steel sector, the USTR worked with the organization 
of Economic Cooperation and Development, the Steel Committee, 
the North American Steel Trade Committee, and WTO accession 
negotiations and with countries bilaterally to focus on steel 
capacity worldwide and subsidy and other marketing distortions.
    The JCCT steel dialogue was launched on March the 4th, 
2005. A follow-on meeting was scheduled for late 2006 with 
industry participants.
    Please describe the ongoing work affecting the steel 
sector. What accomplishments, if any, have been achieved?
    Ambassador Schwab. In terms of the steel sector, clearly 
there are challenges associated with global capacity and with 
increases in construction, a lot of that, and economic growth 
that we have seen worldwide, a lot of that has been absorbed.
    We have been concerned, as you know, with overproduction 
and overcapacity in China and this has been an area where the 
JCCT working group has been very actively engaged. It is also 
an area where I have been personally engaged.
    And in the first meeting of the strategic economic dialogue 
in December of 2006, I used the steel industry in China as a 
case study for the problems in China's economic industrial 
policy where they have made sort of an incomplete transition to 
market economics. And they got overcapacity in steel.
    They have addressed it, and this is in part due to our 
dialogue, in part due to the working group. They have 
eliminated a lot of their export rebates of value-added taxes. 
I mean, they are allowed to, under the WTO rebate value-added 
taxes at the point of export. They are no longer doing that on 
most, but not all steel products.
    So, for example, in my last visit to China, I sat down with 
my counterpart and identified a couple of products like pipe 
and tube where they are still rebating the tax and noted that 
that is creating some dislocation. Aluminum foil is another 
area.
    I do not know how much granularity you are looking for 
here. But their industrial policy, value-added rebates.
    The single biggest accomplishment that I can point to 
affecting steel vis-a-vis China is the WTO case that we filed 
beginning of 2007 against a dozen Chinese export subsidies and 
import substitution subsidies that presumably had an impact 
across a broad range of manufactured goods because they were 
generic. They were not sector specific, including the steel 
industry.
    And China settled that case last year, late last year by 
eliminating every one of those twelve subsidies. That was 
perhaps the best example that we have of, you know, the 
combination of problem solving on the one hand and resorting to 
litigation where necessary on the other.
    Mr. Mollohan. Mr. Honda.
    Mr. Honda. Mr. Chairman, I apologize for being a little 
late here.
    And as I walked in, I heard the comment about the effort of 
the Administration in Colombia working more hard on 
prosecutions and that over the past few years that there has 
been an increase in prosecutions. And there was a comment about 
having visited that area also in that discussion.
    So I assume that you have been to Colombia and discussed 
these things with the Attorney General there and with the 
President?
    Ambassador Schwab. Absolutely. In fact, just this weekend 
had a chance to meet with the Attorney General and the 
President.
    Mr. Honda. Now, how does a trade agreement affect the 
ability of the Attorney General to continue and increase his 
prosecutorial list? I understand they have a big shift and they 
went from inquisitory to prosecutorial process. I understand 
that.
    But my sense is that that becomes very expensive. And how 
does the trade agreement impact his ability to move forward and 
increase his list of folks that he wants to go after?
    Ambassador Schwab. It has a both direct and indirect 
impact. I think the most significant direct impact which really 
we cannot take credit for as part of the FTA because this is 
something that President Uribe launched when he came into 
office in 2002, but that has been increasing levels of funding 
for both the Prosecutor General and for the Judiciary to 
process these cases.
    And one of the challenges they faced, as you know, is with 
the demobilization of 30,000 paramilitaries, another 10,000 
guerillas. With that demobilization and part of their peace and 
justice law, those individuals have been providing more and 
more information.
    Mr. Honda. But how does it impact his ability to increase 
his list of people he wants to prosecute in the way that would 
bring some justice to those who have been killed? How is that 
connected to trade or is that part of Plan Colombia? Is Plan 
Colombia part of the trade agreement?
    Ambassador Schwab. Plan Colombia and the free trade 
agreement are separate.
    Mr. Honda. Okay.
    Ambassador Schwab. However, they are obviously 
complementary and funding----
    Mr. Honda. So how does trade impact the Attorney General's 
ability because there is a lot of talk about there is 
improvement, but improvement means what, going from ten to 
thirty, and is that pace acceptable? I am just trying to 
understand why we feel that the trade agreement will effect an 
increased list of prosecutions.
    Ambassador Schwab. Most of what is going on in Colombia 
related to prosecutions is separate and apart from the trade 
agreement. It is related to President Uribe's commitment to his 
citizens when he was reelected and the additional funding that 
he is providing both for prosecutors, for the protection 
program, and for the Justice system in general.
    To the extent that there is a direct relationship with the 
free trade agreement, it is by creating an environment within 
which, meaning the stability within which they can see more 
demobilization is appropriate, where they have the economic 
growth to sustain the funding that they would continue to 
provide for this.
    Plan Colombia is a very important part of this effort and, 
as you know, bipartisan initiative launched originally by 
President Clinton. And part of what we see happening here is 
for President Uribe and subsequent Colombian administrations to 
sustain this transformation and sustain, you know, the rapid 
decline in violence and the rapid uptick in prosecutions and 
convictions is to move into more self-sustaining capacity to 
fund these things. And the FTA would help do that.
    Mr. Honda. So it sounds like Plan Colombia should be the 
mechanism to increase funding for that, for the AG?
    Ambassador Schwab. If you are asking for direct impact, 
absolutely, yes sir.
    Mr. Honda. Well, he said he would like to have more because 
he spends more now on protecting judges, the attorneys----
    Ambassador Schwab. That is true.
    Mr. Honda [continuing]. And, you know, other folks that are 
involved in this difficult process. My other question would 
relate to the fact that 25 percent of Colombia's population are 
Afro-Colombians. How does this trade agreement help that 
community and, is it directive? I mean, is there a prescriptive 
way of having some of that wealth that is supposed to be 
realized go to certain communities that have heretofore before 
Uribe even helped create an economic development stimulus for 
them?
    Ambassador Schwab. We had a chance to talk about that issue 
with President Uribe and with one of the Afro-Colombian 
legislators and the mayor of Cartagena when we were in Colombia 
this past weekend. The Colombians have, as you know, a growing 
set of initiatives to address problems faced by Afro-
Colombians, including land returns and so on.
    And so the capacity of the Colombian government to continue 
helping bring along the Afro-Colombian population and right 
some of the previous wrongs is related to or is aided by the 
stability, the economic stability, political stability, and 
economic growth that we would see as part of the FTA, you know, 
one of the results of the FTA.
    Again, we are talking about an indirect impact, much as you 
articulated the Plan Colombia, direct impact and the work of 
our Justice Department in helping the government of Colombia on 
the issue of impunity, prosecutions, and convictions.
    Again, in the case of the initiatives that President Uribe 
has underway, particularly in the coastal areas to address 
challenge, coastal areas around Bogota to address challenges 
faced by Afro-Colombians, the FTA has an indirect benefit in 
terms of stability and job creation and economic growth, 
contribution to economic growth that at the end of the day 
enables the positive trends to continue and to be sustained.
    Mr. Honda. So last question, Mr. Chairman.
    So there is no direct initiative through the FTA that would 
impact economic development through trade on the population 
along that coast in terms of infrastructure or economic 
activity?
    Ambassador Schwab. Only to the extent that we are talking 
about increased investment likely to accrue along the coast and 
the generation of jobs. That would be the most direct impact 
from the FTA.
    Mr. Honda. Okay. Thank you.
    Mr. Mollohan. Thank you.
    Do we have any other questions from Committee members?
    [No response.]
    Mr. Mollohan. Madam Ambassador, there will be some 
questions submitted for the record and we appreciate your 
response to those. We very much appreciate your testimony here 
today. There will certainly be some questions, budgetary 
questions submitted for the record.
    Ambassador Schwab. Absolutely.
    Mr. Mollohan. And, again, thank you for your service and 
for your testimony. Thank you.
    Ambassador Schwab. Mr. Chairman, thank you very much, 
members of the Committee.
    [Questions and answers sumitted for the record follow.] 

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                         W I T N E S S E S

                              ----------                              
                                                                   Page
Barnett, H.M.....................................................   727
Beering, Dr. Steven..............................................   455
Bement, Dr. A.L., Jr.............................................   455
Earp, N.C........................................................   635
Griffin, M.D..................................................... 1, 43
Marburger, J.H., III.............................................   311
Pearson, D.R.....................................................   781
Schwab, S.C......................................................   829
Strickland, F.B..................................................   727


                              I N D E X

                              ----------                              --
--------
                                                                   Page

             National Aeronautics and Space Administration

Aderholt, Questions Submitted by Congressman.....................   314
Alpha Magnetic Spectrometer (AMS)................................90, 92
American Competitiveness Initiative (ACI)........................    44
Ares Thrust Oscillation..........................................    86
Budget Cuts, Overall.............................................    40
Budget Stability.................................................    83
Budget, Constrained..............................................    51
Budget, Research and Development.................................    24
Chinese Space Program............................................36, 88
Civil Space Exploration, U.S. Leadership.........................    11
Commercial Orbital Transportation Services (COTS)................    85
Constellation Confidence Level...................................    53
Core Visions.....................................................    51
Cost Overrun Impacts.............................................    71
Culberson, Questions Submitted by Congressman....................   303
Deep Space and Near Earth Networks...............................    66
Exploration on Architectural Review..............................    55
Exploration, Adequate Funding for................................    50
Failures, Program Manufacturing..................................    22
Foreign and Domestic Suppliers...................................    31
Foreign Contracts................................................    31
Frelinghuysen, Opening Remarks of Ranking Minority Member Rodney 
  P..............................................................     2
Frelinghuysen, Questions Submitted by Ranking Minority Member....   272
Funding, NASA Adequate...........................................13, 21
Funding, NASA Levels.............................................    72
GAO Accountability...............................................    46
Glory Mission....................................................    26
Griffin, Closing Remarks of Administrator Michael D..............    98
Griffin, Opening Remarks of Administrator Michael D..............     3
Griffin, Prepared Statement of Administrator Michael D...........     6
HSPD-12..........................................................    40
Hubble Space Telescope...........................................    83
Human Exploration Beyond Earth Orbit.............................    53
Hurricane Katrina................................................    20
Ice, Clouds, and Land Elevation Satellite (ICESAT)...............    24
Independent Auditors.............................................    39
Independent Cost Estimates.......................................    49
International Space Station...............................2, 21, 46, 63
International Space Station Participation Program................    36
Latham, Questions Submitted by Congressman.......................   311
Lunar Return Program.............................................    72
Lunar Science Research...........................................    67
Manifest, Authority to Change....................................    91
Manifest, Shuttle Mission........................................    81
Mars Program Funding.............................................    16
Mars Program.....................................................    58
Mollohan, Closing Remarks of Chairman Alan B.....................    98
Mollohan, Opening Remarks of Chairman Alan B.....................     1
Mollohan, Questions Submitted by Chairman Alan B.................    99
Moon, Returning to the...........................................    71
Moon, US Presence on the.........................................    50
NASA's Budget Request............................................    18
Near-Earth Object (NEO)..........................................34, 89
New Millennium Approach..........................................    70
Next Generation..................................................    64
Orion Heat Shield................................................    87
Outer Planet Flagship Process....................................    80
Outer Planets Mission............................................76, 78
Plutonium-238....................................................40, 43
Prometheus Mission...............................................    77
Rebaselined Projects.............................................    48
Research Training Opportunities at the University Level..........    30
Return to Flight, Shuttle Cost Compensation......................    19
Rogers, Questions Submitted by Congressman.......................   306
Ruppersberger, Questions Submitted by Congressman................   268
Russian and Chinese Relationship with NASA.......................    12
Schiff, Opening Remarks by Congressman...........................    14
Science Mission Budget...........................................    69
Science Mission Cost Growth......................................    68
Science Program Cost Increases...................................    28
Science Program Reserves.........................................    68
Sea Treaty Law...................................................    89
Space Interferometry Mission (SIM)...............................15, 56
Space Transportation Gap.........................................    52
Stratospheric Observatory for Infrared Astronomy (SOFIA).........    32
Supply Mission...................................................    84
Transition Cost..................................................13, 38
Visible-Infrared Imagery Radiometer Suite (VIIRS)................    27
Wind Tunnel Testing..............................................    87
Workforce Retirement, Civil Service..............................    29
Workforce, Contractor............................................    63
Workforce, Transition............................................    62

                     International Trade Commission

Frelinghuysen, Opening Remarks of Ranking Minority Member Rodney 
  P..............................................................   781
Frelinghuysen, Questions Submitted by Ranking Minority Member....   822
Latham, Questions Submitted by Congressman.......................   826
Mollohan, Opening Remarks of Chairman Alan B.....................   781
Mollohan, Questions Submitted by Chairman Alan B.................   816
Pearson, Prepared Statement of Administrator Daniel R............   786

                                  <all>
</pre></body></html>
